No.

In The Supreme Court of the United States
TIMOTHY K. MOORE, in his official capacity as Speaker of the North Carolina House
of Representatives; PHILIP E. BERGER, in his official capacity as President Pro
Tempore of the North Carolina Senate; BOBBY HEATH; MAXINE WHITLEY;
and ALAN SWAIN,
v.

Applicants,

DAMON CIRCOSTA, in his official capacity as Chair of the North Carolina State Board
of Elections; STELLA ANDERSON, in her official capacity as a member of the North
Carolina State Board of Elections; JEFFERSON CARMON III, in his official capacity as
a member of the North Carolina State Board of Elections; and KAREN BRINSON
BELL, in her official capacity as the Executive Director of the North Carolina State
Board of Elections,
Respondents,
&
NORTH CAROLINA ALLIANCE FOR RETIRED AMERICANS; BARKER FOWLER; BECKY
JOHNSON; JADE JUREK; ROSALYN KOCIEMBA; TOM KOCIEMBA; SANDRA MALONE; and
CAREN RABINOWITZ,
Intervenor-Respondents.
On Application for Injunction Pending Appeal from
the United States Court of Appeals for the Fourth Circuit
APPENDIX

October 22, 2020

(Counsel listed on reverse)

David H. Thompson
Nathan A. Huff
Counsel of Record
PHELPS DUNBAR LLP
Peter A. Patterson
4140 ParkLake Ave., Suite 100
Nicole J. Moss
Raleigh, NC 27612
John W. Tienken
Telephone: (919) 789-5300
Nicholas A. Varone
Fax: (919) 789-5301
COOPER & KIRK PLLC
1523 New Hampshire Ave., NW
Washington, DC 20036
Telephone: (202) 220-9636
Fax: (202) 220-9601
dthompson@cooperkirk.com
Counsel for Applicants

T A B L E O F C O N T E N TS
Page
A p p e n di x A: L ett e r f r o m K a r e n B ri n s o n B ell , E x e c. Di r., N. C. St at e
B d. of El e cti o n s, t o G o v. R o y C o o p e r et al.
( M a r. 2 6, 2 0 2 0), D o c. 1- 5 .......................................................... A p p. 1
A p p e n di x B: N u m b e r e d M e m o 2 0 2 0 -1 9 , N. C. St at e B d. of El e cti o n s
( A u g. 2 1, 2 0 2 0), D o c. 6 5- 2 ........................................................ A p p. 9
A p p e n di x C : E m ail f r o m Hil a r y H a r ri s Kl ei n, S. C o al. f o r S o c. J u st., t o
Al e c P et e r s, C hi ef D e p ut y Att’ y G e n. of N. C., et al.
(S e pt. 1 8, 2 0 2 0), D o c. 6 0 - 4 ...................................................... A p p. 1 8
A p p e n di x D: N u m b e r e d M e m o 2 0 2 0 -1 9 , N. C. St at e B d. of El e cti o n s
( S e pt. 2 2, 2 0 2 0), D o c. 3 6- 3 ...................................................... A p p. 3 0
A p p e n di x E: E x e c uti v e D ef s.’ B r. i n S u p p o rt of J oi nt M ot. f o r E nt r y of
C o n s e nt J u d g m e nt , N. C. All . f o r R eti r e d A m s. v. N . C. St at e B d. of
El e cti o n s , N o. 2 0-C V S -8 8 8 1 (N. C. W a k e C nt y. S u p e r. Ct. S e pt. 3 0,
2 0 2 0), D o c. 6 8 - 1 ...................................................................... A p p . 3 6
A p p e n di x F: N u m b e r e d M e m o 2 0 2 0 -2 7 , N. C. St at e B d. of El e cti o n s
( O ct. 1, 2 0 2 0), D o c. 4 0- 2 ......................................................... A p p. 8 6
A p p e n di x G: Sti p ul ati o n & C o n s e nt J u d g m e nt , N. C. All. f o r R eti r e d
A m s. v. N. C. St at e B d. of El e cti o n s , N o. 2 0-C V S -8 8 8 1
( N. C. W a k e C nt y. S u p e r. Ct. O ct. 2, 2 0 2 0), D o c. 6 4 - 5 .......... A p p. 8 9
A p p e n di x H: O r d e r, M o o r e v. Ci r c o st a , N o. 2 0-c v -9 1 1
(M. D. N. C. O ct. 3, 2 0 2 0) , D o c. 4 7 .......................................... A p p. 1 1 4
A p p e n di x I: N u m b e r e d M e m o 2 0 2 0 -2 8 , N. C. St at e B d. of El e cti o n s
( O ct. 4, 2 0 2 0), D o c. 6 0- 5 ....................................................... A p p. 1 3 5
A p p e n di x J: M e m. O p. & O r d e r, M o o r e v. Ci r c o st a , N o. 2 0-c v -9 1 1 ,
D o c. 7 4 ( M. D. N. C. O ct. 1 4, 2 0 2 0) ......................................... A p p. 1 3 9
A p p e n di x K: O pi ni o n, Wi s e v. Ci r c o st a , N o s. 2 0 -2 1 0 4, 2 0 -2 1 0 7
( 4t h Ci r. O ct. 2 0, 2 0 2 0), D o c. 2 0 ........................................... A p p. 2 3 1
i

A p p e n di x L: Pl s.’ & E x e c uti v e D ef s.’ J oi nt M ot. f o r E nt r y of a C o n s e nt
J u d g m e nt, N. C. All. f o r R eti r e d A m s. v. N. C. St at e B d. of
El e cti o n s , N o. 2 0-C V S -8 8 8 1 ( N. C. W a k e C nt y. S u p e r. Ct. S e pt. 2 2,
2 0 2 0) ...................................................................................... A p p. 2 8 1

ii

A P P E N DI X A

A p p. 1

E X HI BI T 4

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u mA epntp. 1-2 5

Fil e d 0 9/ 2 6/ 2 0

P a g e 1 of 7

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5, R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

T O:

F R O M:
R E:
D A T E:

G o v er n or R o y C o o p er; S p e a k er Ti m M o or e; Pr esi d e nt Pr o T e m p or e P hil B er g er;
J oi nt L e gisl ati v e El e cti o ns O v ersi g ht C o m mitt e e; J oi nt L e gisl ati v e O v ersi g ht C o mmitt e e o n G e n er al G o v er n m e nt; a n d H o us e S el e ct C o m mitt e e o n C O VI D - 1 9, C o nti n uit y of St at e O p er ati o ns W or ki n g Gr o u p
K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or
R e c o m m e n d ati o ns t o A d dr ess El e cti o n-R el at e d Iss u es Aff e ct e d b y C O VI D - 1 9
M ar c h 2 6, 2 0 2 0

T h e s pr e a d of t h e n o v el c or o n a vir us ( C O VI D - 1 9) i m p a cts t h e c o n du ct of el e cti o ns a n d d ail y o per ati o ns f or t h e St at e B o ar d of El e cti o ns ( St at e B o ar d) a n d c o u nt y b o ar ds of el e cti o ns. I n r es p o ns e,
o ur a g e n c y h as t a k e n a n u m b er of a cti o ns i n r e c e nt d a ys a n d w e e ks t o a d dr ess el e cti o n -r el at e d
i m p a cts of t h e p a n d e mi c a n d i nf or m t h e p u bli c a b o ut o ur eff orts. T h es e i n cl u d e:
•

A n e m er g e n c y E x e c uti v e Or d er iss u e d o n M ar c h 2 0, 2 0 2 0, t h at, a m o n g ot h er t hi n gs,
r es c h e d ul e d t h e R e p u bli c a n s e c o n d pri m ar y i n C o n gr essi o n al Distri ct 1 1 fr o m M a y
1 2, 2 0 2 0, t o J u n e 2 3, 2 0 2 0.

•

A n a m e n d e d A d mi nistr ati v e R ul e 0 8 N C A C 0 1 . 0 1 0 6 , b y b ot h e m er g e n c y a n d pr op os e d t e m p or ar y r ul e m a ki n g, t o cl arif y t h e E x e c uti v e Dir e ct or’s st at ut or y a ut h orit y
t o e x er cis e e m er g e n c y p o w ers t o c o n d u ct a n el e cti o n i n a distri ct w h er e t h e n or m al
s c h e d ul e f or t h e el e cti o n is disr u pt e d b y a n at ur al dis ast er, e xtr e m el y i n cl e m e nt
w e at h er, or ar m e d c o nfli ct. T h e a m e n d m e nt cl arifi es t h at a c at astr o p h e arisi n g fr o m
n at ur a l c a us es i n cl u d es a dis e as e e pi d e mi c or ot h er p u bli c h e alt h i n ci d e nt t h at m a k es
it i m p ossi bl e or e xtr e m el y h a z ar d o us f or el e cti o ns offi ci als or v ot ers t o r e a c h or ot her wis e a c c ess t h e v oti n g pl a c e or t h at cr e at es a si g nifi c a nt ris k of p h ysi c al h ar m t o
p ers o ns i n t h e v oti n g pl a c e, or t h at w o ul d ot h er wis e c o n vi n c e a r e as o n a bl e p ers o n t o
a v oi d tr a v eli n g t o or b ei n g i n a v oti n g pl a c e.

•

N u m b er e d M e m o 2 0 2 0 - 1 1, r el e as e d o n M ar c h 1 5, 2 0 2 0, pr o vi d es g ui d a n c e o n i mm e di at e a cti o ns t h at m a y b e t a k e n b y a ut h orit y of t h e E x e c uti v e Dir e ct or a n d ot h er
st e ps t h at m a y b e t a k e n b y c o u nt y b o ar ds of el e cti o ns.

•

Est a blis h m e nt of a w or ki n g gr o u p of St at e a n d c o u nt y el e cti o n offi ci als t o c o nsi d er
i m m e di at e st e ps t h at s h o ul d b e t a k e n f or t h e c o n d u ct of t h e f e d er al s e c o n d pri m ar y
a n d als o m or e l o n g -t er m st e ps i n cl u di n g l e gisl ati v e r e q u ests t o a d mi nist er el e cti o ns
i n ti m es of dis e as e e pi d e mi cs, n e c ess ar y m e as ur es if m ail b all oti n g w er e e x p a n d e d,
a n d eff orts t h at m ust b e t a k e n t o e ns ur e t h e h e alt h a n d w ell -b ei n g of v ot ers a n d w or kers d uri n g i n- p ers o n v oti n g.

•

A st at e m e nt r el e as e d b y t h e N C S B E o n M ar c h 1 2, 2 0 2 0.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u mA epntp. 1-3 5

Fil e d 0 9/ 2 6/ 2 0

P a g e 2 of 7

W hil e t h e St at e B o ar d will c o nti n u e t o a d mi nist er el e cti o ns i n t h e w a k e of C O VI D -1 9 wit hi n o ur
c urr e nt l e g al a ut h orit y, t h e St at e B o ar d r es p e ctf ull y r e c o m m e n ds t h e G e n er al Ass e m bl y c o nsi d er
m a ki n g t h e f oll o wi n g st at ut or y c h a n g es t o a d dr ess t h e i m p a cts of t h e c or o n a vir us p a n d e mi c o n o ur
el e cti o ns. W e b eli e v e t h at, i n or d er t o e ns ur e c o nti n uit y a n d a v oi d v ot er c o nf usi o n, t h e c h a n g es
s h o ul d b e m a d e p er m a n e nt, e x c e pt w h er e i n di c at e d ot h er wis e.
•

E x p a n d o pti o ns f o r a bs e nt e e r e q u ests. W e r e c o m m e n d all o wi n g a v ot er t o s u bmit a n a bs e nt e e b all ot r e q u est f or m b y f a x a n d e m ail. C urr e nt l a w r estri cts t h e
r et ur n of t h e a bs e nt e e r e q u est f or m t o t h e v ot er a n d t h e v ot er’s n e ar r el ati v e or
l e g al g u ar di a n, a n d r estri cts t h e m et h o ds b y w hi c h t h e r e q u ests c a n b e r et ur n e d t o
i n-p ers o n or b y m ail or d esi g n at e d d eli v er y s er vi c e . W e als o r e c o m m e n d a li mit e d e x c e pti o n t o G. S. § 1 6 3-2 3 0. 2( e)( 2) t o all o w c o u nt y b o ar ds of el e cti o ns t o
pr e -fill a v ot er’s i nf or m ati o n o n a n a bs e nt e e r e q u est f or m. T h e v ot er or n e ar r elati v e w o ul d still b e r e q uir e d t o si g n t h e f or m, b ut t his c h a n g e w o ul d all o w v ot ers
w h o ar e h o m e d u e t o C O VI D -1 9 t o r e q u est a n a bs e nt e e r e q u est f or m b y p h o n e
a n d h a v e a pr e -fill e d f or m s e nt t o t h e m r at h er t h a n h a vi n g t o tr a v el t o t h e c o u nt y
b o ar d offi c e t o r e c ei v e assist a n c e.

•

Est a blis h o nli n e p o rt al f o r a bs e nt e e r e q u ests. T h e St at e B o ar d e x p e ct s a l ar g e
i n cr e as e i n t h e n u m b er of v ot ers w h o c h o os e t o v ot e a bs e nt e e b y m ail t his y e ar,
a n d cr e ati n g a n o nli n e p ort al f or a bs e nt e e v oti n g w o ul d m a k e it e asi er f or v ot er s
t o r e q u est a n a bs e nt e e b all ot fr o m h o m e. T h e v ot er or n e ar r el ati v e w o ul d pr o vi d e
i d e ntif yi n g i nf or m ati o n (i n cl u di n g t h e v ot er’s d at e of birt h a n d t h e l ast f o ur di gits
of t h e v ot er’s S o ci al S e c urit y or dri v ers li c e ns e n u m b er), a n d an el e ctr o ni c si g n at ur e as d efi n e d i n G. S. § 6 6 -3 1 2 of t h e U nif or m El e ctr o ni c Tr a ns a cti o n A ct w o ul d
b e p er mitt e d . A n all o c ati o n of f u n ds t o p ur c h as e a pr o gr a m or a p pli c ati o n t o
s u p p ort t his f u n cti o n alit y m a y b e n e e d e d.

•

All o w a v ot e r t o i n cl u d e a c o p y of a H A V A d o c u m e nt wit h th ei r a bs e nt e e
r e q u est f o r m if t h e v ot e r is u n a bl e t o p r o vi d e t h ei r d ri v e rs li c e ns e n u m b e r o r
l ast f o u r di gits of t h ei r S o ci al S e c u rit y n u m b e r. W e r e c o m m e n d all o wi n g a
v ot er w h o di d n ot i n cl u d e t h eir dri v ers li c e ns e n u m b er or t h e l ast f o ur di gits of
t h eir S o ci al S e c urit y n u m b er t h e o pti o n t o i n cl u d e a c o p y of a c urr e nt utilit y bill,
b a n k st at e m e nt, g o v er n m e nt c h e c k, p a y c h e c k, or ot h er g o v er n m e nt d o c u m e nt
s h o wi n g t h e n a m e a n d a d dr ess of t h e v ot er. M a ki n g t his c h a n g e t o G. S. § 1 6 3 2 3 0. 2 w o ul d m a k e it e asi er f or t h os e w h o wis h t o v ot e a bs e nt e e b y -m ail t o d o s o.
T h e St at e B o ar d h as r e c ei v e d m ulti pl e r e p orts fr o m c o u nt y b o ar ds of el e cti o ns
a n d fr o m v ot ers t h at, wit h o ut t his o pti o n, s o m e v ot ers ar e n o l o n g er a bl e to r e q u est
a n a bs e nt e e b all ot. T his p arti c ul arl y aff e ct s s e ni or citi z e ns w h o m a y n ot h a v e a
dri v ers li c e ns e n u m b er a n d c a n n ot r e c all or d o n ot h a v e a c c ess t o t h eir S o ci al
S e c urit y n u m b er. All o wi n g t his o pti o n will m a k e it e asi er f or t h os e m ost at ris k
of c o ntr a cti n g C O VI D- 1 9 t o v ot e a bs e nt e e b y m ail.

•

Est a blis h a f u n d t o p a y f o r p ost a g e f o r r et u r n e d a bs e nt e e b all ots. El e cti o ns
offi ci als a cr oss t h e n ati o n ar e a nti ci p ati n g a s ur g e i n a bs e nt e e v oti n g i n li g ht of
2
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u mA epntp. 1-4 5

Fil e d 0 9/ 2 6/ 2 0

P a g e 3 of 7

r estri cti o ns o n m o v e m e nt i m p os e d d u e t o t h e s pr e a d of C O VI D-1 9. Pr e p ai d p osta g e w o ul d i n cr e as e t h e li k eli h o o d t h at a v ot er w o ul d r et ur n t h eir b all ot, w o ul d
eli mi n at e t h e n e e d f or a v ot er t o l e a v e t h eir h o m e t o p ur c h as e p ost a g e, a n d w o ul d
als o d e cr e as e a n y i n c e nti v e f or a v ot er t o t ur n t h eir b all ot o v er t o s o m e o n e els e.
Pr e p ai d p ost a g e f or t h e r et ur n of a bs e nt e e b all ots w o ul d als o f urt h er e n a bl e r esid e nts a n d p ati e nts of f a ciliti es s u c h as n ursi n g h o m es a n d gr o u p h o m es t o r et ur n
t h eir b all ots s af el y, e asil y, a n d wit h mi ni m al h u m a n c o nt a ct.
•

R e d u c e o r eli mi n at e t h e wit n ess r e q ui r e m e nt. I n li g ht of s o ci al dist a n ci n g r eq uir e m e nts t o pr e v e nt t h e s pr e a d of C O VI D -1 9, w e r e c o m m e n d r e d u ci n g t h e witn ess r e q uir e m e nt f or t h e c ertifi c ati o n o n a bs e nt e e c o nt ai n er -r et ur n e n v el o p es.
C urr e ntl y, a v ot er m ust h a v e t h eir a bs e nt e e e n v el o p e si g n e d b y t w o wit n ess es or
o n e n ot ar y. N ort h C ar oli n a r esi d e nts ar e c urr e ntl y b ei n g as k e d t o st a y at h o m e,
a n d wit h o ut a ti m eli n e f or w h e n t h e dis e as e will b e u n d er c o ntr ol, r e q uiri n g o nl y
o n e wit n ess w o ul d r e d u c e t h e li k eli h o o d t h at a v ot er w o ul d h a v e t o g o o ut i nt o
t h e c o m m u nit y or i n vit e s o m e o n e t o t h eir h o m e t o h a v e t h eir b all ot wit n ess e d.
Eli mi n ati n g t h e wit n ess r e q uir e m e nt alt o g et h er is a n ot h er o pti o n a n d w o ul d f urt h er r e d u c e t h e ris k.

•

M o dif y p r o c e d u r e f o r c o u nti n g of b all ots o n El e cti o n D a y. T o all o w c o u nt y
b o ar ds of el e cti o ns m or e ti m e t o pr o c ess t h e a nti ci p at e d s ur g e i n a bs e nt e e b all ots,
w e r e c o m m e n d a m e n di n g t h e l a w t o pr o vi d e t h at b all ots r e c ei v e d b y t h e S at ur d a y
pri or t o t h e el e cti o n m ust b e c o u nt e d o n El e cti o n D a y, a n d all ot h er a bs e nt e e b all ots t h at ar e ti m el y r e c ei v e d will b e c o u nt e d o n t h e d a y of t h e c a n v ass. C urr e ntl y,
G. S. § 1 6 3 -2 3 4( 2) r e q uir es c o u nt y b o ar ds t o m e et o n E l e cti o n D a y t o c o u nt all
a bs e nt e e b all ots r e c ei v e d b y 5: 0 0 p. m. o n t h e d a y b ef or e t h e el e cti o n. C h a n gi n g
t h e ti m efr a m e f or w h e n a bs e nt e e b all ots ar e c o u nt e d w o ul d h el p e as e t h e b ur d e n
of a n i n cr e as e d v ol u m e of a bs e nt e e b all ots, es p e ci all y i n l ar g er c o u nti es. T his
c h a n g e w o ul d n ot aff e ct t h e d e a dli n e f or t h e c o u nt y b o ar ds t o r e c ei v e a bs e nt e e
b all ots, n or w o ul d it aff e ct w hi c h b all ots ar e c o u nt e d; r at h er, it w o ul d a m eli or at e
t h e a nti ci p at e d i n cr e as e i n a bs e nt e e b all ots r e c ei v e d b y c o u nt y b o ar ds b et w e e n
t h e S at ur d a y b ef or e t h e el e cti o n a n d 5: 0 0 p. m. o n t h e d a y b ef or e t h e el e cti o n. As
p art of t h is c h a n g e, w e als o r e c o m m e n d e xt e n di n g c o u nt y c a n v ass t o 1 4 d a ys aft er
t h e el e cti o n, r at h er t h a n 1 0 d a ys aft er t h e el e cti o n as pr o vi d e d i n G. S. § 1 6 31 8 2. 5( b), t o all o w c o u nt y b o ar ds of el e cti o ns s uffi ci e nt ti m e t o c o u nt t h e l ar g e
n u m b er of b all ots t h at ar e a nti ci p at e d b ei n g r e c ei v e d; St at e B o ar d c a n v ass w o ul d
als o n e e d t o e xt e n d e d a c c or di n gl y.

•

T e m p o r a ril y m o dif y r est ri cti o ns o n assist a n c e i n c a r e f a ciliti es. C urr e ntl y,
G. S. § 1 6 3 -2 2 6. 3( a)( 4) m a k es it a Cl ass I f el o n y f or a n o w n er, dir e ct or, m a n a g er,
or e m pl o y e e of a h os pit al, cli ni c, n ursi n g h o m e, or a d ult c ar e h o m e t o assist a
v ot er i n t h at f a cilit y i n r e q u esti n g, v oti n g, or r et ur ni n g t h e v ot er’s a bs e nt e e b all ot.
T h er e ar e i m p ort a nt r e as o ns t o dis c o ur a g e f a cilit y e m pl o y e es fr o m assist i n g p ati e nts a n d r esi d e nts wit h t h eir a bs e nt e e r e q u ests a n d wit h v oti n g t h eir b all ots.
H o w e v er, m a n y l o c aliti es ar e c urr e ntl y r estri cti n g or b a n ni n g visit ors t o f a ciliti es,
a n d a n E x e c ut i v e Or d er iss u e d b y t h e G o v er n or pr e v e nts visit ors alt o g et h er t o
r e d u c e t h e s pr e a d of C O VI D- 1 9. Wit h t his i n mi n d, it m a y n ot b e p ossi bl e f or
3
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u mA epntp. 1-5 5

Fil e d 0 9/ 2 6/ 2 0

P a g e 4 of 7

m ulti p artis a n assist a n c e t e a ms ( M A Ts), or ot h ers w h o w o ul d tr a diti o n all y assist
f a cilit y r esi d e nts, t o pr o vi d e assist a n c e. I n di vi d u als m a y als o b e u n willi n g t o
s er v e o n M A Ts d u e t o t h e i n cr e as e d ris k of tr a ns missi o n of C O VI D -1 9 at a f a cilit y. M a n y v ot ers i n t h es e f a ciliti es d o r e q uir e h el p wit h r e q u esti n g, v oti n g, a n d/ or
r et ur ni n g t h eir b all ots, a n d wit h n o o pti o n a v ail a bl e f or assist a n c e t h e y m a y eff e cti v el y b e dis e nfr a n c his e d. W e s u g g est c o nsi d eri n g o pti o ns, s u c h as t e m p or aril y all o wi n g a f a cilit y e m pl o y e e t o assist, t o e ns ur e t h es e v ot ers ar e a bl e t o c o nti n u e t o e x er cis e t h eir ri g ht t o v ot e.
•

Cl a rif y a ut h o ri z at i o n f o r t el e p h o ni c m e eti n gs. It w o ul d b e h el pf ul t o cl arif y
t h at t el e p h o ni c m e eti n gs a n d m e eti n gs h el d b y ot h er r e m ot e m e a ns ar e s p e cific all y a ut h ori z e d b y t h e o p e n m e eti n gs l a w. St at e B o ar d c o u ns el c o nstr u e Arti cl e
3 3 C of C h a pt er 1 4 3 t o p er mit t el e p h o ni c a n d ot h er r e m ot el y h el d m e eti n gs. H o we v er, t h e U N C S c h o ol of G o v er n m e nt h as a diff er e nt i nt er pr et ati o n of t h e l a w
b as e d o n its st at e d f a mili arit y wit h t h e l a w’s h ist or y.

•

E x p a n d st u d e nt p oll w o r k e r p r o g r a m.
W e ar e r e c o m m e n di n g e x p a n di n g t h e
st u d e nt p oll w or k er pr o gr a m t o all o w st u d e nts t o fill t h e r ol e of j u d g e or c hi ef
j u d g e, t o all o w j u ni ors or s e ni ors t o s er v e as l o n g as t h e y ar e at l e ast 1 6 y e ars ol d,
a n d t o all o w s er vi c e as a p oll w or k er t o c o u nt as a n a p pr o v e d s c h o ol tri p. C hi ef
j u d g es a n d j u d g es w o ul d still b e a p p oi nt e d fr o m r e c o m m e n d ati o ns pr o vi d e d b y
t h e p oliti c al p arti es. C urr e ntl y, G. S. § 1 6 3-4 2. 1 r e q uir es st u d e nts b e at l e ast 1 7
y e ars ol d a n d o nl y all o ws t h e m t o s er v e i n t h e r ol e of pr e ci n ct assist a nt. It als o
r e q uir es t h e pri n ci p al of t h e st u d e nt’s s c h o ol t o r e c o m m e n d t h e st u d e nt; w e s u gg est t his s e cti o n i n cl u d e a n e x c e pti o n t o t h at r e q uir e m e nt if t h e s c h o ol is cl os e d.
T h es e c h a n g es w o ul d i n cr e as e t h e c o u nt y b o ar ds of el e cti o ns’ r e cr uit m e nt of st ud e nts, w h o t e n d t o b e l ess at ris k of C O VI D -1 9. T h e c h a n g es will b e es p e ci all y
n e c ess ar y if l ar g e n u m b ers of p oll w or k ers ar e u n a bl e t o s er v e. T h e a v er a g e a g e
of p oll w or k ers i n N ort h C ar oli n a is ar o u n d 7 0 a n d t h e r ol e r e q uir es si g nifi c a nt
i nt er a cti o n wit h t h e p u bli c, s o w e a nti ci p at e t h at p oll w or k ers i n at-ris k c at e g ori es
m a y b e a d vis e d n ot t o s er v e or m a y b e u n a bl e t o s er v e t his y e ar.

•

M a k e El e cti o n D a y a h oli d a y. D esi g n ati n g El e cti o n D a y as a St at e h oli d a y
w o ul d e x p a n d t h e p ot e nti al p o ol of p oll w or k ers t o st u d e nts, t e a c h ers, a n d y o u n g er
i n di vi d u als. It w o ul d als o e n c o ur a g e st at e a n d c o u nt y e m pl o y e es t o w or k t h e
p olls. T h es e gr o u ps t e n d t o b e i n a l o w er-ris k c at e g or y f or C O VI D-1 9 a n d t h er ef or e w o ul d b e an ass et gi v e n c urr e nt c o n c er ns. A n alt er n ati v e o pti o n w o ul d b e t o
pr o vi d e p ai d l e a v e f or st at e a n d c o u nt y e m pl o y e es w h o s er v e as p oll w or k ers a n d
pr o vi di n g c o urs e cr e dit f or st u d e nt p oll w or k ers.

•

I n c r e as e p a y f o r p oll w o r k e rs. Pr e ci n ct offi ci als s af e g u ar d t h e d e m o cr ati c pr oc ess a n d h el p e ns ur e c o nfi d e n c e i n t h e s yst e m. I n cr e asi n g p a y f or p oll w or k ers
will h el p c o u nt y b o ar ds of el e cti o ns r e cr uit a n d r et ai n a str o n g el e cti o ns w or kf or c e
t his y e ar a n d f or y e ars t o c o m e. C urr e nt pa y f or pr e ci n ct offi ci als is t h e st at e
mi ni m u m w a g e, $ 7. 2 5 p er h o ur. G. S. § 1 6 3 -4 6. O n El e cti o n D a y, p oll w or k ers
m ust s er v e f or t h e e ntir e d a y wit h o ut l e a vi n g t h e sit e — a s hift of m or e t h a n 1 4
h o urs. T h e mi ni m u m w a g e r e q uir e m e nt w as p ut i n pl a c e i n 1 9 8 1 (s e e S essi o n
4
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u mA epntp. 1-6 5

Fil e d 0 9/ 2 6/ 2 0

P a g e 5 of 7

L a w 1 9 8 1 -7 9 6). E ns uri n g t h at p oll w or k ers’ u n e m pl o y m e nt b e n efits ar e n ot aff e ct e d b y t h eir s er vi c e is a n ot h er w a y t o i n cr e as e r e cr uit m e nt eff orts.
•

Eli mi n at e r e q ui r e m e nt t h at a m aj o rit y of p oll w o r k e rs r esi d e i n p r e ci n ct.
Eli mi n ati n g t h e r e q uir e m e nt i n G. S. § 1 6 3 -4 1( c) t h at a m aj orit y of p oll w or k ers at
a p olli n g pl a c e m ust r esi d e i n t h e pr e ci n ct w o ul d pr o vi d e c o u nt y b o ar ds of el e cti o ns wit h gr e at er fl e xi bilit y t o st aff t h eir pr e ci n cts. It w o ul d i n cr e as e t h e li k elih o o d a c o u nt y b o ar d of el e cti o ns w o ul d b e a bl e t o k e e p a p olli n g pl a c e o p e n r at h er
t h a n h a vi n g t o c o m bi n e it wit h a n ot h er p olli n g pl a c e t o m e et t h e r esi d e n c y r eq uir e m e nt.

•

T e m p o r a ril y s us p e n d p u r c h as e a n d c o nt r a ct r e q ui r e m e nts f o r el e cti o ns -r el at e d s u p pli es a n d ot h e r it e ms. T o all o w t h e St at e B o ar d a n d c o u nt y b o ar ds t o
c o nti n u e o p er ati n g i n a ti m e w h e n m a n y b usi n ess a n d g o v er n m e nt e ntiti es h a v e
r e d u c e d c a p a cit y or h a v e cl os e d, t e m p or aril y lifti n g t h e p ur c h as e a n d c o ntr a ct
r e q uir e m e nts of Arti cl e 3 of C h a pt er 1 4 3 i n 2 0 2 0 w o ul d si g nifi c a ntl y s p e e d u p
t h e a bilit y t o pr o c ur e n e c ess ar y s u p pli es.

•

M at c h H A V A f u n ds. I n or d er t o r e c ei v e f e d er al el e cti o ns s e c urit y f u n ds t h at
w er e a ut h ori z e d i n l at e 2 0 1 9, t h e St at e m ust m a k e a 2 0 % m at c h. T his f u n di n g
will b e i n dis p e ns a bl e i n o ur a g e n c y’s c o nti n u e d eff ort t o s e c ur e N ort h C ar oli n a’s
el e cti o ns. T his is tr u e e v e n m or e s o as w e r e a ct a n d r es p o n d t o t h e p a n d e mi c,
si n c e ti m es of crisis a n d u n c ert ai nt y i n cr e as e t h e t hr e ats of c y b er att a c ks, p his hi n g
att e m pts, a n d s c a ms. F e d er al a ut h oriti es h a v e als o i n di c at e d t h es e f u n ds m a y b e
us e d f or C O VI D -1 9 r es p o ns e eff orts s u c h as cl e a ni n g s u p pli es a n d pr ot e cti v e
m as ks f or st aff a n d p oll w or k ers, r es o ur c es t o m e et a n u n a nti ci p at e d i n cr e as e d d em a n d f or m ail b all ots d u e t o s elf -is ol ati o n a n d q u ar a nti n e i n r es p o ns e t o C O VI D1 9, a n d t e m p or ar y st aff t o pr o c ess t h e i n cr e as e d a bs e nt e e b all ot d e m a n d. F u n ds
m a y als o b e us e d f or c osts i n c urr e d t o c o m m u ni c at e l a w c h a n g es, s u c h as c h a n g es
i n a bs e nt e e - b y-m ail b all ot r ul es , t h at c o ul d r es ult fr o m t h e p a n d e mi c. E x e m pti n g
H A V A -f u n d e d p ositi o ns at t h e St at e B o ar d fr o m a p ossi bl e hiri n g fr e e z e w o ul d
als o b e i m p ort a nt t o e ns uri n g t h e a g e n c y is a bl e t o c o nti n u e t o s e c ur e t h e st at e wi d e
v ot er r e gistr ati o n d at a b as e a n d m a n y ot h er d uti es t o pr ot e ct N ort h C ar oli n a’s el e cti o ns fr o m c y b er t hr eats.

•

O n e -St o p. C o nsi d er w h et h er c h a n g es t o o n e-st o p r e q uir e m e nts, s u c h as sit e a n d
h o ur r e q uir e m e nts, m a y b e n e e d e d i n li g ht of t h e u n c ert ai nt y r e g ar di n g c o nt ai nm e nt of t h e C O VI D -1 9 p a n d e mi c b y t h e e arl y v oti n g p eri o d i n O ct o b er 2 0 2 0.
C urr e ntl y, if a n y o n e- st o p sit e is o p e n all o n e st o p-sit es m ust b e o p e n a n d all sit es
ot h er t h a n t h e c o u nt y b o ar d offi c e m ust b e o p e n 8: 0 0 a. m. t o 7: 3 0 p. m. C o u nt y
b o ar ds of el e cti o ns n e e d fl e xi bilit y t o d et er mi n e h o urs b e c a us e t h e y ar e aff e ct e d
diff er e ntl y b y, a n d r es p o n d diff er e ntl y t o, t h e C O VI D- 1 9 p a n d e mi c.

W hil e t h e sit u ati o n wit h C O VI D -1 9 is c h a n gi n g o n a d ail y a n d s o m eti m es h o url y b asis, w e b eli e v e
t h e a b o v e r e c o m m e n d ati o ns will h el p t h e el e cti o ns t h at f or m t h e b asis of N ort h C ar oli n a’s d e m o cr a c y r e m ai n str o n g a n d r esili e nt i n t h es e u n c ert ai n ti m es.
5
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u mA epntp. 1-7 5

Fil e d 0 9/ 2 6/ 2 0

P a g e 6 of 7

W e ar e a p pr e ci ati v e of t h e a p p oi nt m e nt of t h e H o us e S el e ct C o m mitt e e o n C O VI D -1 9, C o nti n uit y
of St at e O p er ati o ns W or ki n g Gr o u p, a n d I st a n d r e a d y t o a ns w er y o ur q u esti o ns or pr o vi d e a n y
ot h er i nf or m ati o n t h at m a y b e us ef ul i n c o nsi d er ati o n of t h es e r e c o m m e n d ati o ns.
Si n c er el y,

K ar e n Bri ns o n B ell
E x e c uti v e Dir e ct or
St at e B o ar d of El e cti o ns

6
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u mA epntp. 1-8 5

Fil e d 0 9/ 2 6/ 2 0

P a g e 7 of 7

A P P E N DI X B

A p p. 9

E X HI B I T B

A p p. 1 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 5- 2

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 of 8

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5
R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

N u m bere d Me m o 2 0 2 0 - 1 9
T O:

C o u nt y B o ar ds of El e cti o ns

F R O M:

K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or

R E:

A bs e nt e e Pr o c ess es

D A T E:

A u g ust 2 1, 2 0 2 0

As y o u k n o w — a n d ar e pr e p ari n g f or — w e ar e e x p e cti n g a n u n pr e c e d e nt e d n u m b er of v ot ers w h o
will v ot e a bs e nt e e - b y-m ail d uri n g t h e 2 0 2 0 g e n er al el e cti o n . I n li g ht of t his, st at e wi d e u nif or mit y
a n d c o nsist e n c y i n r e vi e wi n g a n d pr o c essi n g t h es e b all ots will b e m or e ess e nti al t h a n e v er . C o u nt y
b o ar ds of el e cti o ns m ust e ns ur e t h at t h e v ot es of all eli gi bl e v ot ers ar e c o u nt e d usi n g t h e s a m e
st a n d ar ds, r e g ar dl ess of t h e c o u nt y i n w hi c h t h e v ot er r esi d es.
T his n u m b er e d m e m o dir e cts t h e pr o c e d ur e c o u nt y b o ar ds m ust us e t o a d dr ess d efi ci e n ci es i n a bs e nt e e b all ots. T h e p ur p os e of t his n u m b er e d m e m o is t o e ns ur e t h at a v ot er is pr o vi d e d e v er y
o p p ort u nit y t o c orr e ct c ert ai n d efi ci e n ci es , w hil e at t h e s a m e ti m e r e c o g ni zi n g t h at pr o c ess es m ust
b e m a n a g e a bl e f or c o u nt y b o ar ds of el e cti o ns t o ti m el y c o m pl et e r e q uir e d t as ks. 1

1. N o Si g n at ur e Verifi c ati o n
C o u nt y b o ar ds s h all a c c e pt t h e v ot er’s si g n at ur e o n t h e c o nt ai n er -r et ur n e n v el o p e if it a p p e ars t o
b e m a d e b y t h e v ot er, m e a ni n g t h e si g n at ur e o n t h e e n v el o p e a p p e ars t o b e t h e n a m e of t h e v ot er
a n d n ot s o m e ot h er p ers o n. A bs e nt cl e ar e vi d e n c e t o t h e c o ntr ar y, t h e c o u nt y b o ar d s h all pr es u m e
t h at t h e v ot er’s si g n at ur e is t h at of t h e v ot er, e v e n if t h e si g n at ur e is ill e gi bl e. A v ot er m a y si g n
t h eir si g n at ur e or m a k e t h eir m ar k.
T h e l a w d o es n ot r e q uir e t h at t h e v ot er’s si g n at ur e o n t h e e n v el o p e b e c o m p ar e d wit h t h e v ot er’s
si g n at ur e i n t h eir r e gistr ati o n r e c or d. V erifi c ati o n of t h e v ot er’s i d e ntit y is c o m pl et e d t hr o u g h t h e
wit n ess r e q uir e m e nt. S e e als o N u m b er e d M e m o 2 0 2 0 - 1 5, w hi c h e x pl ai ns t h at si g n at ur e c o m p aris o n is n ot p er missi bl e f or a bs e nt e e r e q u est f or ms.

1

T his n u m b er e d m e m o is iss u e d p urs u a nt t o t h e St at e B o ar d of El e cti o ns’ g e n er al s u p er vis or y
a ut h orit y o v er el e cti o ns as s et f ort h i n G. S. § 1 6 3- 2 2( a) a n d t h e a ut h orit y of t h e E x e c uti v e Dir e ct or i n G. S. § 1 6 3- 2 6.

A p p. 1 1
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1645-8-23 FilF leedd 100/9/037/0/2200 PPaaggee 22 ofof 88

2. T y p es of D efi ci e n ci es
Tr ai n e d c o u nt y b o ar d st aff s h all r e vi e w e a c h e x e c ut e d c o nt ai n er- r et ur n e n v el o p e t h e offi c e r ec ei v es t o d et er mi n e if th er e ar e a n y d efi ci e n ci es . R e vi e w of t h e c o nt ai n er-r et ur n e n v el o p e f or
d efi ci e n ci es o c c urs aft er i nt a k e. T h e i niti al r e vi e w is c o n d u ct e d b y st aff t o e x p e dit e pr o c essi n g of
t h e e n v el o p es.
D efi ci e n ci es f all i nt o t w o m ai n c at e g ori es: t h os e t h at c a n b e c ur e d wit h a n affi d a vit a n d t h os e t h at
c a n n ot b e c ur e d . If a d efi ci e n c y c a n n ot b e c ur e d, t h e b all ot m ust b e s p oil e d a n d a n e w b all ot iss u e d
if t h er e is ti m e t o m ail t h e v ot er a n e w b all ot t h at t h e v ot er w o ul d r e c ei v e b y El e cti o n D a y. Se e
S e cti o n 3 of t his m e m o, V ot er N otifi c ati o n.

2. 1. D efi ci e n ci es C ur a bl e wit h a n Affi d a vit ( Ci vili a n a n d U O C A V A)
T h e f oll o wi n g d efi ci e n ci es c a n b e c ur e d b y s e n di n g t h e v ot er a n affi d a vit:
•
•

V ot er di d n ot si g n t h e V ot er C ertifi c ati o n
V ot er si g n e d i n t h e wr o n g pl a c e

T h e c ur e affi d a vit pr o c ess a p pli es t o ci vili a n a n d U O C A V A v ot ers.

2. 2. D efi ci e n ci es t h at R e q uir e t h e B all ot t o B e S p oil e d ( Ci vili a n)
T h e f oll o wi n g d efi ci e n ci es c a n n ot b e c ur e d b y affi d a vit, b e c a us e t h e missi n g i nf or m ati o n c o m es
fr o m s o m e o n e ot h er t h a n t h e v ot er:
•
•
•
•
•

Wit n ess or assist a nt di d n ot pri nt n a m e 2
Wit n ess or assist a nt di d n ot pri nt a d dr ess 3
Wit n ess or assist a nt di d n ot si g n
Wit n ess or assist a nt si g n e d o n t h e wr o n g li n e
U p o n arri v al at t h e c o u nt y b o ar d offi c e, t h e e n v el o p e is u ns e al e d or a p p e ars t o h a v e b e e n
o p e n e d a n d r e- s e al e d

If a c o u nt y b o ar d r e c ei v es a c o nt ai n er-r et ur n e n v el o p e wit h o n e of t h es e d efi ci e n ci es, c o u nt y b o ar d
st aff s h all s p oil t h e b all ot a n d r eiss u e a b all ot al o n g wit h a n oti c e e x pl ai ni n g t h e c o u nt y b o ar d
offi c e ’s a cti o n, i n a c c or d a n c e wit h t his n u m b er e d me m o .

2

If t h e n a m e is r e a d a bl e a n d o n t h e c orr e ct li n e, e v e n if it is writt e n i n c ursi v e s cri pt, f or e x a mpl e, it d o es n ot i n v ali d at e t h e c o nt ai n er- r et ur n e n v el o p e.
3

F ail ur e t o list a wit n ess’s ZI P c o d e d o es n ot i n v ali d at e t h e c o nt ai n er-r et ur n e n v el o p e. G. S. §
1 6 3- 2 3 1( a)( 5).
2

A p p. 1 2
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1645-8-23 FilF leedd 100/9/037/0/2200 PPaaggee 33 ofof 88

2. 3. D efi ci e n ci es t h at r e q uir e b o ar d a cti o n
S o m e d efi ci e n ci es c a n n ot b e r es ol v e d b y st aff a n d r e q uir e a cti o n b y t h e c o u nt y b o ar d. T h es e i ncl u d e sit u ati o ns w h er e t h e d efi ci e n c y is first n oti c e d at a b o ar d m e eti n g or if it b e c o m es a p p ar e nt
d uri n g a b o ar d m e eti n g t h at n o b all ot or m or e t h a n o n e b all ot is i n t h e c o nt ai n er-r et ur n e n v el o p e
If t h e c o u nt y b o ar d dis a p pr o v es a c o nt ai n er -r et ur n e n v el o p e b y m aj orit y v ot e i n a b o ar d m e eti n g,
it s h all pr o c e e d a c c or di n g t o t h e n otifi c ati o n pr o c ess o utli n e d i n S e cti o n 3.

3. Vot er N otifi c ati o n
If a c o u nt y b o ar d offi c e r e c ei v es a c o nt ai n er-r et ur n e n v el o p e wit h a d efi ci e n c y , it s h all c o nt a ct t h e
v ot er i n writi n g wit hi n o n e b usi n ess d a y of i d e ntif yi n g t h e d efi ci e n c y t o i nf or m t h e v ot er t h er e is
a n iss u e wit h t h eir a bs e nt e e b all ot a n d e n cl osi n g a c ur e affi d a vit or n e w b all ot , as dir e ct e d b y
S e cti o n 2 . T h e w ritt e n n oti c e s h all als o i n cl u d e i nf or m ati o n o n h o w t o v ot e i n -p ers o n d uri n g t h e
e arl y v oti n g p eri o d a n d o n El e cti o n D a y. T h e writt e n n oti c e s h all b e s e nt t o t h e a d dr ess t o w hi c h
t h e v ot er r e q u est e d t h eir b all ot b e s e nt; h o w e v er, if t h e d efi ci e n c y c a n b e c ur e d a n d t h e v ot er h as
a n e m ail a d dr ess o n fil e, t h e c o u nt y b o ar d s h all s e n d t h e c ur e affi d a vit t o t h e v ot er b y e m ail . Th e
n oti c e s h all als o st at e t h at, if t h e v ot er pr ef ers, t h e y m a y a p p e ar at t h e c o u nt y c a n v ass t o c o nt est
t h e st at us of t h eir a bs ent e e b all ot.
T h e r e is n ot ti m e t o r eiss u e a b all ot if it w o ul d b e m ail e d t h e F ri d a y b ef o r e t h e el e cti o n,
O ct o b e r 3 0, 2 0 2 0, o r l at e r. W it hi n o n e b usi n ess d a y of t h e d et er mi n ati o n t h at t h e c o nt ai n er-r et ur n
e n v el o p e is d efi ci e nt , t h e c o u nt y b o ar d s h all:
1. N otif y t h e v ot er b y p h o n e or e m ail , if a v ail a bl e, t o pr o vi d e i nf or m ati o n a b o ut h o w t o v ot e
i n-p ers o n at e arl y v oti n g or o n El e cti o n D a y , if t h e d et er mi n ati o n is m a d e b et w e e n t h e
Fri d a y b ef or e t h e el e cti o n a n d El e cti o n D a y ( b et w e e n O ct o b er 3 0 a n d N o v e m b er 3, 2 0 2 0 ),
a n d i nf or m t h e v ot er a b o ut t h e a bilit y t o c o nt est t h e st at us of t h eir a bs e nt e e b all ot at c o u nt y
c a n v ass; a n d
2. N otif y t h e v ot er b y m ail. T his n otifi c ati o n s h all i nf or m t h e v ot er a b o ut t h e a bilit y t o c o nt est t h e st at us of t h eir a bs e nt e e b all ot at c o u nt y c a n v ass.

R e c ei pt of t h e C ur e Affi d a vit
T h e c ur e affi d a vit m ust b e r e c ei v e d b y t h e c o u nt y b o ar d of el e cti o ns b y n o l at er t h a n 5 p. m. o n
T h urs d a y, N o v e m b er 1 2, 2 0 2 0, t h e d a y b ef or e c o u nt y c a n v ass. T h e c ur e affi d a vit m a y b e s u b mitt e d t o t h e c o u nt y b o ar d offi c e b y f a x, e m ail, in p ers o n , or b y m ail or c o m m er ci al c arri er. If a v ot er
a p p e ars i n p ers o n at t h e c o u nt y b o ar d offi c e, t h e y m a y als o b e gi v e n a n d fill o ut a n e w c ur e affid a vit. T h e c ur e affi d a vit m a y o nl y b e r et ur n e d b y t h e v ot er, t h e v ot er’s n e ar r el ati v e or l e g al
g u ar di a n, or a m ulti p artis a n assist a n c e t e a m ( M A T).
A w et i n k si g n at ur e is n ot r e q uir e d, b ut t h e si g n at ur e us e d m ust b e u ni q u e t o t h e i n di vi d u al. A
t y p e d si g n at ur e is n ot a c c e pt a bl e, e v e n if it is c ursi v e or it ali cs s u c h as is c o m m o nl y s e e n wit h a
pr o gr a m s u c h as D o c u Si g n.
3

A p p. 1 3
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1645-8-23 FilF leedd 100/9/037/0/2200 PPaaggee 44 ofof 88

4. L at e A bs e nt e e B all ots
V ot ers w h os e b all ots ar e n ot c o u nt e d d u e t o b ei n g l at e s h all b e m ail e d a n oti c e st ati n g t h e r e as o n
f or t h e d efi ci e n c y a n d t h e y m a y a p p e ar at t h e c o u nt y c a n v ass t o c o nt est t h e st at us of t h eir a bs ent e e
b all ot.

4. 1. Ci vili a n B all ots
Ci vili a n a bs e nt e e b all ots m ust b e r e c ei v e d b y t h e c o u nt y b o ar d offi c e b y 5 p. m. o n El e cti o n D a y,
N o v e m b er 3, 2 0 2 0, or , if p ost m ar k e d b y El e cti o n D a y, b y 5: 0 0 p. m. t hr e e d a ys aft er t h e el e cti o n,
N o v e m b er 6, 2 0 2 0. 4 Ci vili a n a bs e nt e e b all ots r e c ei v e d aft er t his ti m e ar e i n v ali d.

4. 2. U O C A V A B all ots
B all ots fr o m U O C A V A v ot ers m ust b e r e c ei v e d b y t h e c o u nt y b o ar d offi c e b y 7: 3 0 p. m. o n El e cti o n D a y, N o v e m b er 3, 2 0 2 0, or s u b mitt e d f or m aili n g, el e ctr o ni c tr a ns missi o n, or f a x b y 1 2: 0 1
a. m. o n El e cti o n D a y , at t h e pl a c e w h er e t h e v ot er c o m pl et es t h e b all ot .5 If m ail e d, U O C A V A
b all ots m ust b e r e c ei v e d b y t h e cl os e of t h e b usi n ess o n t h e d a y b ef or e c o u nt y c a n v ass. C o u nt y
c a n v ass is s c h e d ul e d f or N o v e m b er 1 3 , 2 0 2 0, a n d t h er ef or e t h e d e a dli n e w o ul d b e N o v e m b er 1 2,
2 0 2 0. U O C A V A b all ots r e c ei v e d aft er t h e st at ut oril y r e q uir e d ti m e ar e i n v ali d.

5. H e ari n g at C a n v ass
If t h e v ot er a p p e ars i n p ers o n at t h e c o u nt y c a n v ass t o c o nt est t h e dis a p pr o v al of t h eir d efi ci e nt
b all ot , t h e c o u nt y b o ar d s h all pr o vi d e t h e v ot er wit h a n o p p ort u nit y t o b e h e ar d. T h e c o u nt y b o ar d
s h all d et er mi n e b y m aj orit y v ot e w h et h er t h e d e cisi o n t o dis a p pr o v e t h e a bs e nt e e c o nt ai n er-r et ur n
e n v el o p e s h o ul d b e r e c o nsi d er e d. T h e b ur d e n s h all b e o n t h e v ot er t o pr o v e b y a pr e p o n d er a n c e
of t h e e vi d e n c e t h at t h eir c o nt ai n er -r et ur n e n v el o p e w as pr o p erl y e x e c ut e d a n d ti m el y r e c ei v e d .
T h e v ot er c a n n ot “ c ur e ” a d efi ci e nt a bs e nt e e c o nt ai n er -r et ur n e n v el o p e at t h e h e ari n g.

6. R et ur n of t h e B all ot
6. 1. M et h o d of R et ur n
Ci vili a n a bs e nt e e b all ots m a y b e r et ur n e d:
•
•
•

I n p ers o n at t h e c o u nt y b o ar d offi c e;
I n p ers o n at a o n e -st o p e arl y v oti n g sit e i n t h e v ot er’s c o u nt y;
B y m ail or c o m m er ci al c arri er.

4

G. S. § 1 6 3- 2 3 1( b).

5

G. S. § § 1 6 3- 2 3 1( b); 1 6 3- 2 5 8. 1 0.
4

A p p. 1 4
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1645-8-23 FilF leedd 100/9/037/0/2200 PPaaggee 55 ofof 88

A n a bs e nt e e b all ot r et ur n e d t o a p olli n g pl a c e o n El e cti o n D a y s h all n ot b e c o u nt e d . Pr e ci n ct
offi ci als s h all b e tr ai n e d t o i nstr u ct a v ot er w h o bri n gs t h eir b all ot t o t h e p olli n g pl a c e t o i nst e a d
r et ur n it t o t h e c o u nt y b o ar d offi c e or m ail it t h e s a m e d a y e ns uri n g a p ost m ar k is affi x e d.

6. 2. W h o M a y R et ur n a B all ot
O nl y t h e v ot er, or t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n, is p er mitt e d t o p oss ess a n a bs e nt e e
b all ot. 6 A m ulti p artis a n assist a n c e t e a m ( M A T) or a t hir d p art y m a y n ot t a k e p oss essi o n of a n
a bs e nt e e b all ot. F or t his r e as o n, c o u nt y b o ar d s ar e r e q uir e d b y r ul e t o l o g a bs e nt e e b all ots t h at ar e
d eli v er e d i n p ers o n t o t h eir c o u nt y b o ar d offi c e. T h e l o g, w hi c h is c o m pl et e d b y t h e p ers o n dr o ppi n g off t h e b all ot, s h all i n cl u d e t h e n a m e of t h e v ot er, n a m e of p ers o n d eli v eri n g t h e b all ot, r el ati o ns hi p t o t h e v ot er, p h o n e n u m b er a n d c urr e nt a d dr ess of p ers o n d eli v eri n g t h e b all ot, d at e a n d
ti m e of d eli v er y of t h e b all ot, a n d si g n at ur e or m ar k of t h e p ers o n d eli v eri n g t h e b all ot c ertif yi n g
t h at t h e i nf or m ati o n is tr u e t h at t h at t h e y ar e t h e v ot er or t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n. 7
B e c a us e of t h e r e q ui r e m e nts a b o ut w h o c a n d e li v e r a b all ot, a n d b e c a us e of t h e l o g gi n g r eq ui r e m e nt, a n a bs e nt e e b all ot m a y n ot b e l eft i n a n u n m a n n e d d r o p b o x. T h e c o u nt y b o ar d
s h all e ns ur e t h at, if t h e y h a v e a dr o p b o x, sl ot, or si mil ar c o nt ai n er at t h eir offi c e, t h e c o nt ai n er h as
a si g n i n di c ati n g t h at a bs e nt e e b all ots m a y n ot b e d e p osit e d i n it.
F ail ur e t o c o m pl y wit h t h e l o g gi n g r e q uir e m e nt, or d eli v er y of a n a bs e nt e e b all ot b y a p ers o n ot h er
t h a n t h e v ot er, t h e v ot er’s n e ar r el ati v e, or t h e v ot er’s l e g al g u ar di a n, is n ot s uffi ci e nt e vi d e n c e i n
a n d of its elf t o est a blis h t h at t h e v ot er di d n ot l a wf ull y v ot e t h eir b all ot. 8 A c o u nt y b o ar d s h all n ot
dis a p pr o v e a n a bs e nt e e b all ot s ol el y b e c a us e it w as d eli v er e d b y s o m e o n e w h o w as n ot a ut h ori z e d
t o p oss ess t h e b all ot. T h e c o u nt y b o ar d m a y, h o w e v er, c o nsi d er t h e d eli v er y of a b all ot i n a c c or da n c e wit h t h e r ul e , 0 8 N C A C 1 8 . 0 1 0 2, i n c o nj u n cti o n wit h ot h er e vi d e n c e i n d et er mi ni n g w h et h er
t h e c o nt ai n er-r et ur n e n v el o p e h as b e e n pr o p erl y e x e c ut e d.

6

It is a cl ass I f el o n y f or a n y p ers o n ot h er t h a n t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n t o t a k e
p oss essi o n f or d eli v er y t o a v ot er or f or r et ur n t o a c o u nt y b o ar d of el e cti o ns t h e a bs e nt e e b all ot
of a n y v ot er. G. S. § 1 6 3- 2 2 3. 6( a)( 5).
7

0 8 N C A C 1 8 . 0 1 0 2.

8

I d. C o m p ar e G. S. § 1 6 3- 2 3 0. 2( 3), as a m e n d e d b y S e cti o n 1. 3.( a) of S essi o n L a w 2 0 1 9- 2 3 9,
w hi c h st at es t h at a n a bs e nt e e r e q u est f or m r et ur ne d t o t h e c o u nt y b o ar d b y s o m e o n e ot h er t h a n a n
u n a ut h ori z e d p ers o n is i n v ali d.
5

A p p. 1 5
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1645-8-23 FilF leedd 100/9/037/0/2200 PPaaggee 66 ofof 88

A bs e nt e e B o ar d M e eti n gs
P urs u a nt t o S essi o n L a w 2 0 2 0 -1 7, c o u nt y b o ar ds will b e gi n h ol di n g t h eir a bs e nt e e b o ar d m e eti n gs
t h e fift h T u es d a y bef or e t h e el e cti o n, r at h er t h a n t h e t hir d T u es d a y b ef or e t h e el e cti o n. B e c a us e
t h e m e eti n gs m ust b e n oti c e d at l e ast 3 0 d a ys pri or t o t h e el e cti o n, c o u nt y b o ar ds s h o ul d c o nsi d er
n oti ci n g a d diti o n al m e eti n gs i n or d er t o pl a n f or t h e i n cr e as e d v ol u m e of a bs e nt e e b all ots t h at ar e
e x p e ct e d f or t his el e cti o n. 9 T h e m e eti n gs m a y l at er b e c a n c ell e d if t h e c o u nt y b o ar d d o es n ot h a v e
a bs e nt e e c o nt ai n er -r et ur n e n v el o p es t o c o nsi d er at t h at m e eti n g. A d diti o n al g ui d a n c e will b e f ort hc o mi n g r e g ar di n g pr o c ess i n g t h e i n cr e as e d v ol u m e of a bs e nt e e b all ots at t h es e b o ar d m e etin gs.

9

G. S. § 1 6 3- 2 3 0. 1(f).
6

A p p. 1 6
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1645-8-23 FilF leedd 100/9/037/0/2200 PPaaggee 77 ofof 88

A bs e nt e e C u r e Affi d a vit
I nst r u cti o ns
Y o u ar e r e c ei vi n g t his affi d a vit b e c a us e y o u di d n ot si g n t h e a bs e nt e e b all ot c o nt ai n er- r et ur n e nv el o p e, or b e c a us e y o u si g n e d i n t h e wr o n g pl a c e. F or y o ur a bs e nt e e b all ot t o b e c o u nt e d, c o mpl et e a n d r et ur n t his affi d a vit as s o o n as p ossi bl e. It m ust b e r e c ei v e d b y y o u r c o u nt y b o a r d of
el e cti o ns b y n o l at e r t h a n 5 p. m. o n T h u rs d a y, N o v e m b e r 1 2, 2 0 2 0, t h e d a y b ef o r e t h e
c o u nt y c a n v ass. Y o u, y o ur n e ar r el ati v e or l e g al g u ar di a n, or a m ulti p artis a n assist a n c e t e a m
( M A T), c a n r et ur n t h e affi d a vit b y:
•
•
•
•

E m ail
Fa x
D eli v eri n g it i n p ers o n t o t h e c o u nt y b o ar d of el e cti o ns offi c e
M ail or c o m m er ci al c arri er

If t his affi d a vit is n ot r et u r n e d t o t h e c o u nt y b o a r d of el e cti o ns b y t h e d e a dli n e, y o u r a bs e nt e e b all ot will n ot c o u nt. Y o u m a y still v ot e i n p e rs o n d u ri n g t h e e a rl y v oti n g p e ri o d ( O ct ob e r 1 5 - O ct o b e r 3 1) o r o n El e cti o n D a y, N o v e m b e r 3, 2 0 2 0.
R E A D A N D C O M P L E T E T H E F O L L O WI N G:
I a m a n eli gi bl e v ot er i n t his el e cti o n a n d r e gist er e d t o v ot e i n [n a m e] C o u nt y, N ort h C ar oli n a. I
s ol e m nl y s w e ar or affir m t h at I r e q u est e d, v ot e d, a n d r et ur n e d a n a bs e nt e e b all ot f or t h e N o v e mb er 3, 2 0 2 0 g e n er al el e cti o n a n d t h at I h a v e n ot v ot e d a n d will n ot v ot e m or e t h a n o n e b all ot i n
t his el e cti o n. I u n d erst a n d t h at fr a u d ul e ntl y or f als el y c o m pl eti n g t his affi d a vit is a Cl ass I f el o n y
u n d er C h a pt er 1 6 3 of t h e N ort h C ar oli n a G e n er al St at ut es.
__________________
V ot er’s N a m e
__________________
V ot er’s Si g n at ur e
__________________
V ot er’s A d dr ess

7

A p p. 1 7
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1645-8-23 FilF leedd 100/9/037/0/2200 PPaaggee 88 ofof 88

A P P E N DI X C

A p p. 1 8

E X HI BI T 3

A p p. 1 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 0- 4

Fil e d 1 0/ 0 6/ 2 0

P a g e 1 of 1 1

E X HI BI T 1
E m ail C orr es p o n d e n c e ( A u g ust 6, 2 0 2 0)

E x hi bit t o M e m or a n d u m I S O M oti o n t o E nf or c e I nj u n cti o n

A p p. 2 0

CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 21 ofof 1110

F r o m:
T o:
C c:
S u bj e c t:
D a t e:

Hil ar y H arri s Kl ei n
P et er s, Al e c ; N ar a si m h a n, Sri pri y a ; j s h er m a n @f air el e cti o n s c e nt er. or g; g e or g e. v ar g h e s e @ wil m er h al e. c o m ;
j o s e p h. y u @ wil m er h al e. c o m; r e b e c c a.l e e @ wil m er h al e. c o m; Alli s o n Ri g g s
H at h c o c k, K at hr y n e ; M c H e nr y, N e al ; L o v e, K at el y n
R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
Fri d a y, S e pt e m b er 2 5, 2 0 2 0 5: 1 9: 0 0 P M

T h a n k y o u Al e c. W e c a n m a k e 3 – 3: 3 0 p m w or k. Pl e a s e s e e t h e b el o w c o nf er e n c e d et ail s.

J oi n Z o o m M e eti n g
htt p s: / / z o o m. u s /j / 9 6 6 0 2 4 6 8 2 51 ? p w d = b ytt b F p n d W d C a 3l G c U Z1 V H hI Z zl v U T 0 9
M e eti n g I D: 9 6 6 0 2 4 6 8 2 51
P a s s c o d e: 8 6 6 2 91
O n e t a p m o bil e
+1 9 2 9 2 0 5 6 0 9 9,, 9 6 6 0 2 4 6 8 2 51 #,,,,,, 0 #,, 8 6 6 2 91 # U S ( N e w Y or k)
+1 3 01 71 5 8 5 9 2,, 9 6 6 0 2 4 6 8 2 51 #,,,,,, 0 #,, 8 6 6 2 91 # U S ( G er m a nt o w n)
Di al b y y o ur l o c ati o n
+1 9 2 9 2 0 5 6 0 9 9 U S ( N e w Y or k)
+1 3 01 71 5 8 5 9 2 U S ( G er m a nt o w n)
+1 31 2 6 2 6 6 7 9 9 U S ( C hi c a g o)
+1 6 6 9 9 0 0 6 8 3 3 U S ( S a n J o s e)
+1 2 5 3 21 5 8 7 8 2 U S ( T a c o m a)
+1 3 4 6 2 4 8 7 7 9 9 U S ( H o u st o n)
M e eti n g I D: 9 6 6 0 2 4 6 8 2 51
P a s s c o d e: 8 6 6 2 91
Fi n d y o ur l o c al n u m b er: htt p s: / / z o o m. u s / u / a d s1 oI O 2 K d

Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: P et ers, Al e c < a p et ers @ n c d oj. g o v >
S e nt: Fri d a y, S e pt e m b er 2 5, 2 0 2 0 5: 1 1 P M
T o: Hil ar y H arris Kl ei n < hil ar y h kl ei n @s csj. or g >; N ar asi m h a n, Sri pri y a < S N ar asi m h a n @ n c d oj. g o v >;
js h er m a n @f air el e cti o ns c e nt er. or g; g e or g e. v ar g h es e @ wil m er h al e. c o m; j os e p h. y u @ wil m er h al e. c o m;
r e b e c c a.l e e @ wil m er h al e. c o m; Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >
C c: H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al < N M c H e nr y @ n c d oj. g o v >; L o v e,
K at el y n < K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
I’ m afr ai d w e’r e n ot a v ail a bl e at 1 0 M o n d a y m or ni n g. It l o o ks as t h o u g h t h e p ossi biliti es o n M o n d a y
f or us ar e fr o m 1 1 – 1, a n d fr o m 3 – o n. If t h os e ti m es d o n’t w or k, w e c a n l o o k at T u es d a y.
B T W, I w o ul d n ot e x p e ct B et h a n d N e al t o b e p art of t his c o n v ers ati o n. T h eir r ol e i n t his c as e h as
b e e n i n t h eir c a p a citi es as c o u ns el t o t h e D e p art m e nt of Tr a ns p ort ati o n, Di visi o n of M ot or V e hi cl es,

A p p. 2 1
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 32 ofof 1110

a n d t o t h e D e p art m e nt of H e alt h a n d H u m a n S er vi c es, n eit h er of w hi c h ar e i n v ol v e d i n c ur e
pr o c e d ur es.
— Al e c

Al e x a n d er M c C. P et er s
C hi ef D e p ut y Att or n e y G e n er al
9 1 9. 7 1 6. 6 4 0 0
a p et er s @ n c d oj. g o v
1 1 4 W. E d e nt o n St., R al ei g h, N C 2 7 6 0 3
n c d oj. g o v
Pl e a s e n ot e m e s s a g e s t o or fr o m t hi s a d dr e s s m a y b e p u bli c r e c or d s.

Fr o m: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >
S e nt: Fri d a y, S e pt e m b er 2 5, 2 0 2 0 4: 5 2 P M
T o: P et ers, Al e c <a p et ers @ n c d oj. g o v >; N ar asi m h a n, Sri pri y a < S N ar asi m h a n @ n c d oj. g o v >;
js h er m a n @f air el e cti o ns c e nt er. or g; g e or g e. v ar g h es e @ wil m er h al e. c o m ; j os e p h. y u @ wil m er h al e. c o m;
r e b e c c a.l e e @ wil m er h al e. c o m; Allis o n Ri g gs <Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >
C c: H at h c o c k, K at hr y n e <K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al < N M c H e nr y @ n c d oj. g o v >; L o v e,
K at el y n < K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
T h a n k y o u Al e c. H o w a b o ut 1 0 a m o n M o n d a y ? I will s e n d o ut a c al e n d ar i n vit e wit h c o nf er e n c e
d et ail s if t h at w or k s f or e v er y o n e.
Ki n d r e g ar d s,
Hil ar y
Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: P et ers, Al e c <a p et ers @ n c d oj. g o v >
S e nt: Fri d a y, S e pt e m b er 2 5, 2 0 2 0 4: 3 2 P M
T o: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >; N ar asi m h a n, Sri pri y a < S N ar asi m h a n @ n c d oj. g o v >;
js h er m a n @f air el e cti o ns c e nt er. or g; g e or g e. v ar g h es e @ wil m er h al e. c o m ; j os e p h. y u @ wil m er h al e. c o m;
r e b e c c a.l e e @ wil m er h al e. c o m; Allis o n Ri g gs <Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >
C c: H at h c o c k, K at hr y n e <K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al < N M c H e nr y @ n c d oj. g o v >; L o v e,
K at el y n < K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
Hil ar y, I a p ol o giz e if t h er e h as b e e n c o nf usi o n. I h a d n ot b e e n b a c k i n t o u c h b e c a us e I k n e w Pri y a
w as i n c o n v ers ati o n wit h y o u, w hi c h w e i nt e n d e d as r es p o nsi v e t o y o ur e m ails. I’ m s orr y if t h at

A p p. 2 2
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 43 ofof 1110

w as n’t cl e ar.

As Pri y a s a ys b el o w, w e ar e h a p p y t o c o nti n u e t o c o nf er c o o p er ati v el y.

B est r e g ar ds,
Al e c

Al e x a n d er M c C. P et er s
C hi ef D e p ut y Att or n e y G e n er al
9 1 9. 7 1 6. 6 4 0 0
a p et er s @ n c d oj. g o v
1 1 4 W. E d e nt o n St., R al ei g h, N C 2 7 6 0 3
n c d oj. g o v
Pl e a s e n ot e m e s s a g e s t o or fr o m t hi s a d dr e s s m a y b e p u bli c r e c or d s.

Fr o m: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >
S e nt: Fri d a y, S e pt e m b er 2 5, 2 0 2 0 3: 3 0 P M
T o: N ar asi m h a n, Sri pri y a <S N ar asi m h a n @ n c d oj. g o v >; js h er m a n @f air el e cti o ns c e nt er. or g;
g e or g e. v ar g h es e @ wil m er h al e. c o m ; j os e p h. y u @ wil m er h al e. c o m; r e b e c c a.l e e @ wil m er h al e. c o m;
Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >
C c: P et ers, Al e c <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al
< N M c H e nr y @ n c d oj. g o v >; L o v e, K at el y n < K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
Hi Pri y a,
M y e m ail w a s dir e ct e d t o t h o s e att or n e y s a p p e ari n g i n t hi s m att er, w h o h a v e y et t o r e s p o n d t o a n y of
m y b el o w i n q uiri e s or t o i n di c at e t h at y o u w o ul d b e a cti n g i n t hi s liti g ati o n i n t h eir st e a d. A n d w hil e I
a p pr e ci at e o ur c all s h a v e c o v er e d s o m e of t h e s e i s s u e s, I al s o u n d er st o o d t h e y w er e o ut si d e t h e
liti g ati o n c o nt e xt p er y o ur r e pr e s e nt ati o n t o t h at eff e ct.
I n a n y e v e nt, I w o ul d l o o k f or w ar d t o c o nf erri n g o n t h e s e i s s u e s at y o ur e arli e st c o n v e ni e n c e, a n d c a n
b e a v ail a bl e 4: 3 0 – 5 p m t o d a y, at v ari o u s ti m e s o v er t h e w e e k e n d, or M o n d a y 1 0 a m -11 a m or 2 p m –
3 p m.
Ki n d r e g ar d s,
Hil ar y
Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: N ar asi m h a n, Sri pri y a <S N ar asi m h a n @ n c d oj. g o v >
S e nt: Fri d a y, S e pt e m b er 2 5, 2 0 2 0 2: 5 2 P M
T o: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >; js h er m a n @f air el e cti o ns c e nt er. or g;
g e or g e. v ar g h es e @ wil m er h al e. c o m ; j os e p h. y u @ wil m er h al e. c o m; r e b e c c a.l e e @ wil m er h al e. c o m;
Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >
C c: P et ers, Al e c <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al
< N M c H e nr y @ n c d oj. g o v >; L o v e, K at el y n < K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: F W: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y

A p p. 2 3
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 54 ofof 1110

Hil a r y,
T h a n k y o u f o r y o u r e m ail. I’ m s u r p ri s e d at y o u r a s s e rti o n t h at t h e r e h a s b e e n a l a c k of e n g a g e m e nt o n
t h e s e i s s u e s a s y o u a n d I h a v e h a d s e v e r al c o n v e r s ati o n s i n t h e p a st c o u pl e of w e e k s — all a d d r e s si n g i s s u e s
y o u’ v e r ai s e d h e r e. I n f a ct, w e l a st s p o k e o n W e d n e s d a y a b o ut t h e s e s a m e t o pi c s. D O J a n d t h e St at e
B o a r d a r e h a p p y t o c o nti n u e t o c o nf e r c o o p e r ati v el y, a s w e h a v e b e e n d oi n g f o r t h e l a st s e v e r al w e e k s.
T h a n k s,
P ri y a

S ri p ri y a N a r a si m h a n
D e p ut y G e n e r al C o u n s el
N o rt h C a r oli n a D e p a rt m e nt of J u sti c e
1 1 4 W. E d e nt o n St., R al ei g h, N C 2 7 6 0 3
T el: ( 9 1 9) 7 1 6- 6 4 2 1 * E m ail: s n a r a si m h a n @ n c d oj. g o v

Fr o m: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >
S e nt: Fri d a y, S e pt e m b er 2 5, 2 0 2 0 2: 2 6 P M
T o: P et ers, Al e c <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al
< N M c H e nr y @ n c d oj. g o v >
C c: 'J o n S h er m a n' <js h er m a n @f air el e cti o ns c e nt er. or g>; ' V ar g h es e, G e or g e'
< G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.' < J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a
< R e b e c c a. L e e @ wil m er h al e. c o m >; Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >; L o v e, K at el y n
< K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
D e ar Al e c, N e al, a n d K at hr y n e,
I a m writi n g t o e x pr e s s o ur c o n c er n wit h t h e S B E’ s l a c k of c o m pli a n c e wit h t h e PI Or d er. T o d at e, w e
ar e n ot a w ar e of a n y c o m m u ni c ati o n fr o m d ef e n d a nt s t o t h e c o u nt y b o ar d s of el e cti o n s r e g ar di n g
t h e PI Or d er i n pl a c e, i n cl u di n g s p e cifi c all y t h at c o u nti e s m a y n ot “ di s all o w[] or r ej e ct[] . . . a b s e nt e e
b all ot s wit h o ut d u e pr o c e s s a s t o t h o s e b all ot s wit h a m at eri al err or t h at i s s u bj e ct t o r e m e di ati o n.”
( PI Or d er, p. 1 8 7). If o ur u n d er st a n di n g i s n ot c orr e ct, w e a s k t h at y o u cl arif y w h er e a n d h o w t hi s
c o m m u ni c ati o n h a s b e e n m a d e t o t h e c o u nti e s a n d h o w t h e S B E i nt e n d s t o m o nit or c o m pli a n c e wit h
t hi s dir e cti o n. Wit h o ut t hi s dir e cti o n, w e p er c ei v e a s u b st a nti al ri s k t h at c o u nt y b o ar d s of el e cti o n s
will r ej e ct b all ot s i n t h e m e eti n g s t h at ar e t o st art S e pt e m b er 2 9, 2 0 2 0 wit h o ut h a vi n g aff or d e d d u e
pr o c e s s t o v ot er s i n vi ol ati o n of t h e PI Or d er.
A d diti o n all y, t h e r e vi s e d m e m o i s s u e d S e pt e m b er 2 2, 2 0 2 0 ( N u m b er e d M e m o 2 0 2 0 -1 9) n o w o mit s a n y
m e nti o n of v ot er s h a vi n g a n y o p p ort u nit y t o b e h e ar d d uri n g c a n v a s s r e g ar di n g m at eri al err or s o n
t h eir b all ot s a s a n o pti o n. T hi s i s f urt h er c o n c er ni n g, i n a d diti o n t o ot h er i s s u e s w e h a v e r ai s e d t o y o ur
att e nti o n i n pri or c orr e s p o n d e n c e.

A p p. 2 4
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 65 ofof 1110

W e r e m ai n c o nf u s e d at y o ur l a c k of e n g a g e m e nt wit h u s o n t h e s e i s s u e s, a n d b eli e v e t h at c o nf erri n g
i n g o o d f ait h w o ul d all o w u s t o r e s ol v e t h e s e i s s u e s wit h o ut t h e n e e d f or f urt h er c o urt i n v ol v e m e nt.
W e c a n b e a v ail a bl e l at er t o d a y, o v er t hi s w e e k e n d, or M o n d a y 1 0 a m -11 a m or 2 p m – 3 p m t o di s c u s s.
Ki n d r e g ar d s,
Hil ar y
Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: Hil ar y H arris Kl ei n
S e nt: Fri d a y, S e pt e m b er 1 8, 2 0 2 0 4: 4 5 P M
T o: ' P et ers, Al e c' <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y,
N e al < N M c H e nr y @ n c d oj. g o v >
C c: 'J o n S h er m a n' <js h er m a n @f air el e cti o ns c e nt er. or g>; ' V ar g h es e, G e or g e'
< G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.' < J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a
< R e b e c c a. L e e @ wil m er h al e. c o m >; Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >; L o v e, K at el y n
< K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
D e ar Al e c, K at hr y n e, a n d N e al,
I’ m f oll o wi n g u p o n m y c orr e s p o n d e n c e b el o w a n d t o e x pr e s s o ur gr o wi n g c o n c er n s a b o ut t h e st at u s
of t h e d u e pr o c e s s r eli ef t h at h a s b e e n or d er e d. W e u n d er st a n d t h at, l a st Fri d a y ( S e pt e m b er 11),
c o u nti e s w er e dir e ct e d t o h alt s e n di n g v ot er n otifi c ati o n of d efi ci e n ci e s p e n di n g f urt h er g ui d a n c e b ut
t h at n o s u c h f urt h er g ui d a n c e h a s b e e n i s s u e d, a n d t h u s it a p p e ar s t h e c o u nt y pr o c e s si n g of a b s e nt e e
b all ot s m a y b e c urr e ntl y st all e d. W e al s o r e c o g ni z e s o m e ur g e n c y gi v e n t h at c o u nt y b o ar d s of
el e cti o n ar e t o st art m e eti n g o n S e pt e m b er 2 9 ( o n e a n d a h alf w e e k s fr o m n o w) t o f or m all y a c c e pt /
r ej e ct a b s e nt e e b all ot s. W e w o ul d li k e t o a v oi d a n y u n n e c e s s ar y m oti o n s pr a cti c e a n d t h er ef or e s e e k
a g ai n t o m e et a n d c o nf er wit h y o u r e g ar di n g t h e r eli ef or d er e d b y t h e C o urt o n A u g u st 4. W e c a n b e
a v ail a bl e M o n d a y 1 0 a m – 2 p m or 2 p m – 4 p m.
Ki n d r e g ar d s,
Hil ar y
Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: Hil ar y H arris Kl ei n
S e nt: W e d n es d a y, S e pt e m b er 2, 2 0 2 0 1 0: 2 9 A M
T o: ' P et ers, Al e c' <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y,
N e al < N M c H e nr y @ n c d oj. g o v >
C c: 'J o n S h er m a n' <js h er m a n @f air el e cti o ns c e nt er. or g>; ' V ar g h es e, G e or g e'
< G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.' < J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a
< R e b e c c a. L e e @ wil m er h al e. c o m >; Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >; L o v e, K at el y n
< K at el y n. L o v e @ n cs b e. g o v >

A p p. 2 5
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 76 ofof 1110

S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
D e ar Al e c, K at hr y n e, a n d N e al,
I’ m f oll o wi n g u p o n m y l ett er fr o m a w e e k a g o t o s e e if y o u ar e a v ail a bl e t o di s c u s s. W e w o ul d b e
a v ail a bl e t o m orr o w 1 2 – 1: 3 0 p m.
Ki n d r e g ar d s,
Hil ar y
Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: Hil ar y H arris Kl ei n
S e nt: W e d n es d a y, A u g ust 2 6, 2 0 2 0 1 0: 3 7 A M
T o: ' P et ers, Al e c' <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y,
N e al < N M c H e nr y @ n c d oj. g o v >
C c: 'J o n S h er m a n' <js h er m a n @f air el e cti o ns c e nt er. or g>; ' V ar g h es e, G e or g e'
< G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.' < J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a
< R e b e c c a. L e e @ wil m er h al e. c o m >; Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >; L o v e, K at el y n
< K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
D e ar Al e c, K at hr y n, a n d N e al,
Pl e a s e s e e t h e att a c h e d f oll o w - u p l ett er r e g ar di n g a n d t h e c ur e r e m e d y or d er e d b y t h e C o urt o n
A u g u st 4, 2 0 2 0 a n d N u m b er e d M e m o 2 0 2 0 -1 9.
Ki n d r e g ar d s,
Hil ar y
Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: Hil ar y H arris Kl ei n
S e nt: W e d n es d a y, A u g ust 1 2, 2 0 2 0 1 2: 5 1 P M
T o: ' P et ers, Al e c' <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y,
N e al < N M c H e nr y @ n c d oj. g o v >
C c: 'J o n S h er m a n' <js h er m a n @f air el e cti o ns c e nt er. or g>; ' V ar g h es e, G e or g e'
< G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.' < J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a
< R e b e c c a. L e e @ wil m er h al e. c o m >; Allis o n Ri g gs < Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >; L o v e, K at el y n
< K at el y n. L o v e @ n cs b e. g o v >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
D e ar Al e c, K at hr y n e, a n d N e al,

A p p. 2 6
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 87 ofof 1110

Pl e a s e s e e t h e att a c h e d l ett er r e g ar di n g t h e c ur e r e m e d y or d er e d b y t h e C o urt o n A u g u st 4, 2 0 2 0.
Ki n d r e g ar d s,
Hil ar y
Hil ar y H arri s Kl ei n
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 9 | hil ar y h kl ei n @s csj. or g

Fr o m: Allis o n Ri g gs <Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >
S e nt: Fri d a y, A u g ust 7, 2 0 2 0 1 0: 0 2 A M
T o: ' P et ers, Al e c' <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y,
N e al < N M c H e nr y @ n c d oj. g o v >; L o v e, K at el y n < K at el y n. L o v e @ n cs b e. g o v >
C c: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >; 'J o n S h er m a n' < js h er m a n @f air el e cti o ns c e nt er. or g>;
' V ar g h es e, G e or g e' <G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.'
< J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a < R e b e c c a. L e e @ wil m er h al e. c o m >
S u bj e ct: R E: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
T h a n ks, Al e c, w e’ll l o o k f or w ar d t o h e ari n g fr o m y o u. A n d of c o urs e, t h a n ks f or u n d erst a n di n g t h at
gi v e n t h e c o urt’s or d er o n t o pi c, t h e n e e d t o c o nf er wit h pr e v aili n g p arti es o n t h e s uffi ci e n c y of t h e
r e m e d y b ef or e iss ui n g a n y g ui d a n c e.
T h a n ks,
Allis o n Ri g gs
I nt eri m E x e c uti v e Dir e ct or
C hi ef C o u ns el f or V oti n g Ri g hts
S o ut h er n C o aliti o n f or S o ci al J usti c e
1 4 1 5 W est Hi g h w a y 5 4, St e. 1 0 1
D ur h a m, N C 2 7 7 0 7
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 7
9 1 9- 3 2 3- 3 9 4 2 (f a x)
allis o n @s o ut h er n c o aliti o n. or g
C O N FI D E N TI A L & P RI VI L E G E D
T his c o m m u ni c ati o n is i nt e n d e d s ol el y f or t h e a d dr ess e e. A n y u n a ut h oriz e d r e vi e w, us e, dis cl os ur e
or distri b uti o n is pr o hi bit e d. If y o u b eli e v e t his m ess a g e h as b e e n s e nt t o y o u i n err or, pl e as e n otif y
t h e s e n d er b y r e pl yi n g t o t his tr a ns missi o n a n d d el et e t h e m ess a g e wit h o ut dis cl osi n g it. T h a n k y o u.
Fr o m: P et ers, Al e c <a p et ers @ n c d oj. g o v >
S e nt: Fri d a y, A u g ust 7, 2 0 2 0 9: 1 3 A M
T o: Allis o n Ri g gs <Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >; H at h c o c k, K at hr y n e
< K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al < N M c H e nr y @ n c d oj. g o v >; L o v e, K at el y n
< K at el y n. L o v e @ n cs b e. g o v >

A p p. 2 7
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 98 ofof 1110

C c: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >; 'J o n S h er m a n' < js h er m a n @f air el e cti o ns c e nt er. or g>;
' V ar g h es e, G e or g e' <G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.'
< J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a < R e b e c c a. L e e @ wil m er h al e. c o m >
S u bj e ct: [ E xt er n al] R E: D e m N C v. N C S B O E - c ur e r e m e d y
H e y Allis o n, a n d t h a n ks f or y o ur u n d erst a n d a bl e i nt er est i n t h e g ui d a n c e t h at t h e St at e B o ar d will b e
pr e p ari n g. W e will b e h a p p y t o r e a c h o ut w h e n w e ar e r e a d y t o dis c uss t his wit h t h e ot h er p arti es.
B est r e g ar ds,
Al e c

Al e x a n d er M c C. P et er s
C hi ef D e p ut y Att or n e y G e n er al
9 1 9. 7 1 6. 6 4 0 0
a p et er s @ n c d oj. g o v
1 1 4 W. E d e nt o n St., R al ei g h, N C 2 7 6 0 3
n c d oj. g o v
Pl e a s e n ot e m e s s a g e s t o or fr o m t hi s a d dr e s s m a y b e p u bli c r e c or d s.

Fr o m: Allis o n Ri g gs <Allis o n Ri g gs @s o ut h er n c o aliti o n. or g >
S e nt: T h urs d a y, A u g ust 0 6, 2 0 2 0 3: 2 2 P M
T o: P et ers, Al e c <a p et ers @ n c d oj. g o v >; H at h c o c k, K at hr y n e < K H at h c o c k @ n c d oj. g o v >; M c H e nr y, N e al
< N M c H e nr y @ n c d oj. g o v >; L o v e, K at el y n < K at el y n. L o v e @ n cs b e. g o v >
C c: Hil ar y H arris Kl ei n <hil ar y h kl ei n @s csj. or g >; 'J o n S h er m a n' < js h er m a n @f air el e cti o ns c e nt er. or g>;
' V ar g h es e, G e or g e' <G e or g e. V ar g h es e @ wil m er h al e. c o m >; ' Y u, J os e p h J.'
< J os e p h. Y u @ wil m er h al e. c o m>; L e e, R e b e c c a < R e b e c c a. L e e @ wil m er h al e. c o m >
S u bj e ct: D e m N C v. N C S B O E - c ur e r e m e d y
I m p ort a n c e: Hi g h
Al e c et al.,
H o p e y o u’r e d oi n g w ell. W e’ d li k e t o s c h e d ul e a ti m e t o t al k t o y o u all a b o ut t h e st e ps y o ur cli e nt
will t a k e t o c o m pl y wit h J u d g e Ost e e n’s i nj u n cti o n fr o m T u es d a y a b o ut n oti c e a n d c ur e f or a bs e nt e e
v ot ers t his y e ar. W e’ d li k e t o e ns ur e t h at w e’r e o n t h e s a m e p a g e wit h r es p e ct t o w h at f ull
c o m pli a n c e l o o ks li k e s o t h at w e d o n’t h a v e t o e n g a g e i n a n y m oti o ns pr a cti c e o n t his fr o nt.
W e’r e a v ail a bl e t o m orr o w at 3: 3 0 P M or M o n d a y b et w e e n n o o n a n d 3 P M.
a n y of t h os e ti m es w or k a n d w e’ll cir c ul at e a di al-i n.

Pl e as e l et m e k n o w if

T h a n ks,
Allis o n Ri g gs
I nt eri m E x e c uti v e Dir e ct or

A p p. 2 8
C a s e 1: 2 0- c v- 0 0 94 15 17- W O- J L W

D o c u m e nt 61 04 8-4 1 FilFile de d1 0/
0 9/0 6/
3 0/2 02 0 P aP ga eg e1 09 of 1 10

C hi ef C o u ns el f or V oti n g Ri g hts
S o ut h er n C o aliti o n f or S o ci al J usti c e
1 4 1 5 W est Hi g h w a y 5 4, St e. 1 0 1
D ur h a m, N C 2 7 7 0 7
9 1 9- 3 2 3- 3 3 8 0 e xt. 1 1 7
9 1 9- 3 2 3- 3 9 4 2 (f a x)
allis o n @s o ut h er n c o aliti o n. or g
C O N FI D E N TI A L & P RI VI L E G E D
T his c o m m u ni c ati o n is i nt e n d e d s ol el y f or t h e a d dr ess e e. A n y u n a ut h oriz e d r e vi e w, us e, dis cl os ur e
or distri b uti o n is pr o hi bit e d. If y o u b eli e v e t his m ess a g e h as b e e n s e nt t o y o u i n err or, pl e as e n otif y
t h e s e n d er b y r e pl yi n g t o t his tr a ns missi o n a n d d el et e t h e m ess a g e wit h o ut dis cl osi n g it. T h a n k y o u.

A p p. 2 9
CCaassee 1:1:220-0-ccv-v-000049517-1- WW O-O-JJLL WW DDooccuu mmeentnt 1640-8-41 FilFileedd 100/9/036/0/2200 PPaaggee 1110 ofof 1110

A P P E N DI X D

A p p. 3 0

E X HI BI T 3
N ort h C ar oli n a St at e B o ar d of El e cti o ns N u m b er e d
M e m o 2 0 2 0 -1 9 ( R e vis e d V ersi o n, Iss u e d S e pt e m b er
2 2 , 2 0 2 0)

E x hi bit t o M e m or a n d u m i n s u p p ort of M oti o n t o I nt er v e n e
C a s e 5: 2 0- c v- 0 0 5 0 7- D D o c u mA ep ntp. 3 36 13 Fil e d 1 0/ 0 1/ 2 0

P a g e 1 of 5

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5
R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

N u m b e r e d M e m o 2 0 2 0 -1 9
T O:

C o u nt y B o ar ds of El e cti o ns

F R O M:

K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or

R E:

A bs e nt e e C o nt ai n er- R et ur n E n v el o p e D efi ci e n ci es

D A T E:

A u g ust 2 1, 2 0 2 0 (r e vis e d o n S e pt e m b er 2 2, 2 0 2 0)

C o u nt y b o ar ds of el e cti o ns h a v e alr e a d y e x p eri e n c e d a n u n pr e c e d e nt e d n u m b er of v ot ers s e e ki n g
t o v ot e a bs e nt e e- b y-m ail i n t h e 2 0 2 0 G e n er al El e cti o n, m a ki n g st at e wi d e u nif or mit y a n d c o nsist e n c y i n r e vi e wi n g a n d pr o c essi n g t h es e b all ots m or e ess e nti al t h a n e v er. C o u nt y b o ar ds of
el e cti o ns m ust e ns ur e t h at t h e v ot es of all eli gi bl e v ot ers ar e c o u nt e d usi n g t h e s a m e st a n d ar ds,
r e g ar dl ess of t h e c o u nt y i n w hi c h t h e v ot er r esi d es.
T his n u m b er e d m e m o dir e cts t h e pr o c e d ur e c o u nt y b o ar ds m ust us e t o a d dr ess d efi ci e n ci es i n a bs e nt e e b all ots. T h e p ur p os e of t his n u m b er e d m e m o is t o e ns ur e t h at a v ot er is pr o vi d e d e v er y
o p p ort u nit y t o c orr e ct c ert ai n d efi ci e n ci es, w hil e at t h e s a m e ti m e r e c o g ni zi n g t h at pr o c ess es m ust
b e m a n a g e a bl e f or c o u nt y b o ar ds of el e cti o ns t o ti m el y c o m pl et e r e q uir e d t as ks. 1

1. N o Si g n at ur e Verifi c ati o n
T h e v ot er’s si g n at ur e o n t h e e n v el o p e s h all n ot b e c o m p ar e d wit h t h e v ot er’s si g n at ur e o n fil e b ec a us e t his is n ot r e q uir e d b y N ort h C ar oli n a l a w. C o u nt y b o ar ds s h all a c c e pt t h e v ot er’s si g n at ur e o n t h e c o nt ai n er-r et ur n e n v el o p e if it a p p e ars t o b e m a d e b y t h e v ot er, m e a ni n g t h e si g n at ur e
o n t h e e n v el o p e a p p e ars t o b e t h e n a m e of t h e v ot er a n d n ot s o m e ot h er p ers o n. A bs e nt cl e ar e vid e n c e t o t h e c o ntr ar y, t h e c o u nt y b o ar d s h all pr es u m e t h at t h e v ot er’s si g n at ur e is t h at of t h e
v ot er, e v e n if t h e si g n at ur e is ill e gi bl e. A v ot er m a y si g n t h eir si g n at ur e or m a k e t h eir m ar k.

1

T his n u m b er e d m e m o is iss u e d p urs u a nt t o t h e St at e B o ar d of El e cti o ns’ g e n er al s u p er vis or y
a ut h orit y o v er el e cti o ns as s et f ort h i n G. S. § 1 6 3- 2 2( a) a n d t h e a ut h orit y of t h e E x e c uti v e Dir e ct or i n G. S. § 1 6 3- 2 6. As p art of its s u p er vis or y a ut h orit y, t h e St at e B o ar d is e m p o w er e d t o “ c o mp el o bs er v a n c e ” b y c o u nt y b o ar ds of el e cti o n l a ws a n d pr o c e d ur es. I d., § 1 6 3- 2 2( c).

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u mA ep ntp. 3 36-23

Fil e d 1 0/ 0 1/ 2 0

P a g e 2 of 5

T h e l a w d o es n ot r e q uir e t h at t h e v ot er’s si g n at ur e o n t h e e n v el o p e b e c o m p ar e d wit h t h e v ot er’s
si g n at ur e i n t h eir r e gistr ati o n r e c or d. S e e als o N u m b er e d M e m o 2 0 2 0- 1 5 , w hi c h e x pl ai ns t h at
si g n at ur e c o m p aris o n is n ot p er missi bl e f or a bs e nt e e r e q u est f or ms.

2. T y p es of D efi ci e n ci es
Tr ai n e d c o u nt y b o ar d st aff s h all r e vi e w e a c h e x e c ut e d c o nt ai n er-r et ur n e n v el o p e t h e offi c e r ec ei v es t o d et er mi n e if t h er e ar e a n y d efi ci e n ci es. C o u nt y b o ar d st aff s h all, t o t h e e xt e nt p ossi bl e,
r e g ul arl y r e vi e w c o nt ai n er-r et ur n e n v el o p es o n e a c h b usi n ess d a y, t o e ns ur e t h at v ot ers h a v e e v er y
o p p ort u nit y t o c orr e ct d efi ci e n ci es. R e vi e w of t h e c o nt ai n er-r et ur n e n v el o p e f or d efi ci e n ci es o cc urs aft er i nt a k e. T h e i niti al r e vi e w is c o n d u ct e d b y st aff t o e x p e dit e pr o c essi n g of t h e e n v el o p es.
D efi ci e n ci es f all i nt o t w o m ai n c at e g ori es: t h os e t h at c a n b e c ur e d wit h a c ertifi c ati o n a n d t h os e
t h at c a n n ot b e c ur e d. If a d efi ci e n c y c a n n ot b e c ur e d, t h e b all ot m ust b e s p oil e d a n d a n e w b all ot
m ust b e iss u e d, as l o n g as t h e b all ot is iss u e d b ef or e El e cti o n D a y. S e e S e cti o n 3 of t his m e m o,
V ot er N otifi c ati o n.

2. 1. D efi ci e n ci es C ur a bl e wit h a C ertifi c ati o n ( Ci vili a n a n d U O C A V A)
T h e f oll o wi n g d efi ci e n ci es c a n b e c ur e d b y s e n di n g t h e v ot er a c ertifi c ati o n:
•
•
•
•
•
•

V ot er di d n ot si g n t h e V ot er C ertifi c ati o n
V ot er si g n e d i n t h e wr o n g pl a c e
Wit n ess or assist a nt di d n ot pri nt n a m e 2
Wit n ess or assist a nt di d n ot pri nt a d dr ess 3
Wit n ess or assist a nt di d n ot si g n
Wit n ess or assist a nt si g n e d o n t h e wr o n g li n e

2

If t h e n a m e is r e a d a bl e a n d o n t h e c orr e ct li n e, e v e n if it is writt e n i n c ursi v e s cri pt, f or e x a mpl e, it d o es n ot i n v ali d at e t h e c o nt ai n er-r et ur n e n v el o p e.
3

F ail ur e t o list a wit n ess’s ZI P c o d e d o es n ot r e q uir e a c ur e. G. S. § 1 6 3- 2 3 1( a)( 5). A wit n ess or
assist a nt’s a d dr ess d o es n ot h a v e t o b e a r esi d e nti al a d dr ess; it m a y b e a p ost offi c e b o x or ot h er
m aili n g a d dr ess. A d diti o n all y, if t h e a d dr ess is missi n g a cit y or st at e, b ut t h e c o u nt y b o ar d of
el e cti o ns c a n d et er mi n e t h e c orr e ct a d dr ess, t h e f ail ur e t o list t h at i nf or m ati o n als o d o es n ot i nv ali d at e t h e c o nt ai n er-r et ur n e n v el o p e. F or e x a m pl e, if a wit n ess lists “ R al ei g h 2 7 6 0 3 ” y o u c a n
d et er mi n e t h e st at e is N C, or if a wit n ess lists “ 3 3 3 N ort h M ai n Str e et, 2 7 7 0 1 ” y o u c a n d et er mi n e
t h at t h e cit y/st at e is D ur h a m, N C. If b ot h t h e cit y a n d ZI P c o d e ar e missi n g, st aff will n e e d t o
d et er mi n e w h et h er t h e c orr e ct a d dr ess c a n b e i d e ntifi e d. If t h e c orr e ct a d dr ess c a n n ot b e i d e ntifi e d, t h e e n v el o p e s h all b e c o nsi d er e d d efi ci e nt a n d t h e c o u nt y b o ar d s h all s e n d t h e v ot er t h e c ur e
c ertifi c ati o n i n a c c or d a n c e wit h S e cti o n 3.
2
C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u mA ep ntp. 3 36-33

Fil e d 1 0/ 0 1/ 2 0

P a g e 3 of 5

T h is c ur e c ertifi c ati o n pr o c ess a p pli es t o b ot h ci vili a n a n d U O C A V A v ot ers.

2. 2. D efi ci e n ci es t h at R e q uir e t h e B all ot t o B e S p oil e d ( Ci vili a n)
T h e f oll o wi n g d efi ci e n ci es c a n n ot b e c ur e d b y c ertifi c ati o n:
•
•

U p o n arri v al at t h e c o u nt y b o ar d offi c e, t h e e n v el o p e is u ns e al e d
T h e e n v el o p e i n di c at es t h e v ot er is r e q u esti n g a r e pl a c e m e nt b all ot

If a c o u nt y b o ar d r e c ei v es a c o nt ai n er-r et ur n e n v el o p e wit h o n e of t h es e d efi ci e n ci es, c o u nt y b o ar d
st aff s h all s p oil t h e b all ot a n d r eiss u e a b all ot al o n g wit h a n oti c e e x pl ai ni n g t h e c o u nt y b o ar d
offi c e’s a cti o n, i n a c c or d a n c e wit h S e cti o n 3.

2. 3. D efi ci e n ci es t h at r e q uir e b o ar d a cti o n
S o m e d efi ci e n ci es c a n n ot b e r es ol v e d b y st aff a n d r e q uir e a cti o n b y t h e c o u nt y b o ar d. T h es e i ncl u d e sit u ati o ns w h er e t h e d efi ci e n c y is first n oti c e d at a b o ar d m e eti n g or if it b e c o m es a p p ar e nt
d uri n g a b o ar d m e eti n g t h at n o b all ot or m or e t h a n o n e b all ot is i n t h e c o nt ai n er-r et ur n e n v el o p e.
If t h e c o u nt y b o ar d dis a p pr o v es a c o nt ai n er-r et ur n e n v el o p e b y m aj orit y v ot e i n a b o ar d m e eti n g
d u e t o a d efi ci e n c y, it s h all pr o c e e d a c c or di n g t o t h e n otifi c ati o n pr o c ess o utli n e d i n S e cti o n 3.

3. Vot er N otifi c ati o n
3. 1. Iss u a n c e of a C ur e C ertifi c ati o n or N e w B all ot
If t h er e ar e a n y d efi ci e n ci es wit h t h e a bs e nt e e e n v el o p e, t h e c o u nt y b o ar d of el e cti o ns s h all c o nt a ct
t h e v ot er i n writi n g wit hi n o n e b usi n ess d a y of i d e ntif yi n g t h e d efi ci e n c y t o i nf or m t h e v ot er t h er e
is a n iss u e wit h t h eir a bs e nt e e b all ot a n d e n cl osi n g a c ur e c ertifi c ati o n or n e w b all ot, as dir e ct e d
b y S e cti o n 2. T h e writt e n n oti c e s h all als o i n cl u d e i nf or m ati o n o n h o w t o v ot e i n- p ers o n d uri n g
t h e e arl y v oti n g p eri o d a n d o n El e cti o n D a y.
T h e writt e n n oti c e s h all b e s e nt t o t h e a d dr ess t o w hi c h t h e v ot er r e q u est e d t h eir b all ot b e s e nt.
If t h e d efi ci e n c y c a n b e c ur e d a n d t h e v ot er h as a n e m ail a d dr ess o n fil e, t h e c o u nt y b o ar d s h all
als o s e n d t h e c ur e c ertifi c ati o n t o t h e v ot er b y e m ail . If t h e c o u nt y b o ar d s e n ds a c ur e c ertifi c ati o n
b y e m ail a n d b y m ail, t h e c o u nt y b o ar d s h o ul d e n c o ur a g e t h e v ot er t o o nl y r et ur n o n e of t h e c ertifi c ati o ns. If t h e v ot er di d n ot pr o vi d e a n e m ail a d dr ess b ut di d pr o vi d e a p h o n e n u m b er, t h e c o u nt y
b o ar d s h all c o nt a ct t h e v ot er b y p h o n e t o i nf or m t h e v ot er t h at t h e c o u nt y b o ar d h as m ail e d t h e
v ot er a c ur e c ertifi c ati o n.
If t h e d efi ci e n c y c a n n ot b e c ur e d, a n d t h e v ot er h as a n e m ail a d dr ess o n fil e, t h e c o u nt y b o ar d s h all
n otif y t h e v ot er b y e m ail t h at a n e w b all ot h as b e e n iss u e d t o t h e v ot er. If t h e v ot er di d n ot pr o vi d e
a n e m ail a d dr ess b ut di d pr o vi d e a p h o n e n u m b er, t h e c o u nt y b o ar d s h all c o nt a ct t h e v ot er b y p h o n e
t o i nf or m t h e v ot er t h at t h e c o u nt y b o ar d h as iss u e d a n e w b all ot b y m ail.

3
C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u mA ep ntp. 3 36-43

Fil e d 1 0/ 0 1/ 2 0

P a g e 4 of 5

If, pri or t o S e pt e m b er 2 2, 2 0 2 0, a c o u nt y b o ar d r eiss u e d a b all ot t o a v ot er, a n d t h e u p d at e d m e m o
n o w all o ws t h e d efi ci e n c y t o b e c ur e d b y c ertifi c ati o n, t h e c o u nt y b o ar d s h all c o nt a ct t h e v ot er i n
writi n g a n d b y p h o n e or e m ail, if a v ail a bl e, t o e x pl ai n t h at t h e pr o c e d ur e h as c h a n g e d a n d t h at t h e
v ot er n o w h as t h e o pti o n t o s u b mit a c ur e c ertifi c ati o n i nst e a d of a n e w b all ot. A c o u nt y b o ar d is
n ot r e q uir e d t o s e n d a c ur e c ertifi c ati o n t o a v ot er w h o alr e a d y r et ur n e d t h eir s e c o n d b all ot if t h e
s e c o n d b all ot is n ot d efi ci e nt.
A c o u nt y b o ar d s h all n ot r eiss u e a b all ot o n or aft er El e cti o n D a y . If t h er e is a c ur a bl e d efi ci e n c y,
t h e c o u nt y b o ar d s h all c o nt a ct v ot ers u p u ntil t h e d a y b ef or e c o u nt y c a n v ass.

3. 2. R e c ei pt of a C ur e C ertifi c ati o n
T h e c ur e c ertifi c ati o n m ust b e r e c ei v e d b y t h e c o u nt y b o ar d of el e cti o ns b y n o l at er t h a n 5 p. m. o n
T h urs d a y, N o v e m b er 1 2, 2 0 2 0, t h e d a y b ef or e c o u nt y c a n v ass. T h e c ur e c ertifi c ati o n m a y b e
s u b mitt e d t o t h e c o u nt y b o ar d offi c e b y f a x, e m ail, i n p ers o n, or b y m ail or c o m m er ci al c arri er. If
a v ot er a p p e ars i n p ers o n at t h e c o u nt y b o ar d offi c e, t h e y m a y als o b e gi v e n, a n d c a n c o m pl et e, a
n e w c ur e c ertifi c ati o n.
T h e c ur e c ertifi c ati o n m a y o nl y b e r et ur n e d b y t h e v ot er, t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n,
or a m ulti p artis a n assist a n c e t e a m ( M A T). A c ur e c ertifi c ati o n r et ur n e d b y a n y ot h er p ers o n is
i n v ali d. It is n ot p er missi bl e f or a c ur e c ertifi c ati o n t o b e s u b mitt e d t hr o u g h a p ort al or f or m cr e at e d
or m ai nt ai n e d b y a t hir d p art y. A c ur e c ertifi c ati o n m a y n ot b e s u b mitt e d si m ult a n e o usl y wit h t h e
b all ot. A n y p ers o n w h o is p er mitt e d t o assist a v ot er wit h t h eir b all ot m a y assist a v ot er i n filli n g
o ut t h e c ur e c ertifi c a ti o n.

3. 3 C o u nt y B o ar d R e vi e w of a C ur e C ertifi c ati o n
At e a c h a bs e nt e e b o ar d m e eti n g, t h e c o u nt y b o ar d of el e cti o ns m a y c o nsi d er d efi ci e nt b all ot r et ur n
e n v el o p es f or w hi c h t h e c ur e c ertifi c ati o n h as b e e n r et ur n e d. T h e c o u nt y b o ar d s h all c o nsi d er t og et h er t h e e x e c ut e d a bs e nt e e b all ot e n v el o p e a n d t h e c ur e c ertifi c ati o n. If t h e c ur e c ertifi c ati o n
c o nt ai ns t h e v ot er’s n a m e a n d si g n at ur e, t h e c o u nt y b o ar d of el e cti o ns s h all a p pr o v e t h e a bs e nt e e
b all ot. A w et i n k si g n at ur e is n ot r e q uir e d, b ut t h e si g n at ur e us e d m ust b e u ni q u e t o t h e i n di vi d u al.
A t y p e d si g n at ur e is n ot a c c e pt a bl e, e v e n if it is c ursi v e or it ali cs s u c h as is c o m m o nl y s e e n wit h a
pr o gr a m s u c h as D o c u Si g n.

4. L at e A bs e nt e e B all ots
V ot ers w h os e b all ots ar e n ot c o u nt e d d u e t o b ei n g l at e s h all b e m ail e d a n oti c e st ati n g t h e r e as o n
f or t h e d efi ci e n c y. A l at e ci vili a n b all ot is o n e t h at r e c ei v e d aft er t h e a bs e nt e e- b all ot r e c ei pt d e a dli n e, d efi n e d i n N u m b er e d M e m o 2 0 2 0- 2 2 as ( 1) 5 p. m. o n El e cti o n D a y or ( 2) if p ost m ar k e d o n
or b ef or e El e cti o n D a y, 5 p. m. o n T h urs d a y, N o v e m b er 1 2, 2 0 2 0. L at e a bs e nt e e b all ots ar e n ot
c ur a bl e.
If a b all ot is r e c ei v e d aft er c o u nt y c a n v ass t h e c o u nt y b o ar d is n ot r e q uir e d t o n otif y t h e v ot er.
4
C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u mA ep ntp. 3 36-53

Fil e d 1 0/ 0 1/ 2 0

P a g e 5 of 5

A P P E N DI X E

A p p. 3 6

E X HI BI T A

A p p. 3 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 of 4 9

S T A T E O F N O R T H C A R O LI N A

I N T H E G E N E R A L C O U R T O F J U S TI C E
S U P E RI O R C O U R T DI VI SI O N
20 C V S 8881

W A KE C O U NT Y
N
R
F
J
K
C
v.

O R T H C A R O LI N A A L LI A N C E F O R
E TI R E D A M E RI C A N S; B A R K E R
O W L E R; B E C K Y J O H N S O N; J A D E
U R E K; R O S A L Y N K O CI E M B A; T O M
O CI E M B A; S A N D R A M A L O N E; a n d
A R E N R A BI N O WI T Z ,
Pl ai ntiff s,

T H E N O R T H C A R O LI N A S T A T E
B O A R D O F E L E C TI O N S, a n d D A M O N
CI R C O S T A, i n his offi ci al c a p a cit y as C h air
of t h e N ort h C ar oli n a St at e B o ar d of
El e cti o ns,
D ef e n d a nts,
P HI LI P E. B E R G E R i n his offi ci al c a p a cit y
as Pr esi d e nt Pr o T e m p or e of t h e N ort h
C ar oli n a S e n at e, a n d TI M O T H Y K.
M O O R E i n his offi ci al c a p a cit y as S p e a k er
of t h e N ort h C ar oli n a H o us e of
R e pr es e nt ati v es,
Pr o p os e d I nt er v e n orD ef e n d a nts.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

E X E C U TI V E D E F E N D A N T S’
B RI E F I N S U P P O R T O F T H E
J OI N T M O TI O N F O R E N T R Y
OF A C O NS E N T J U D G M E N T

A p p. 3 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 of 4 9

T A B L E OF C O N T E N TS
I N T R O D U C TI O N ...........................................................................................................................1
S T A T E M E N T O F F A C T S ..............................................................................................................4
A.

C O VI D -1 9 a n d t h e St at e’s R es p o ns e t o t h e Gl o b al P a n d e mi c ................................4

B.

U nit e d St at es P ost al S er vi c e D el a ys ........................................................................8

C.

T h e M. D. N. C. A cti o n: D e m o cr a c y N .C . v. N ort h C ar oli n a St at e B o ar d of
El e cti o ns ...................................................................................................................9

D.

T h e St at e C o urt A cti o n: N ort h C ar oli n a Alli a n c e f or R etir e d A m eri c a ns v.
T h e N ort h C ar oli n a St at e B o ar d of El e cti o ns ........................................................1 1

E.

C oll at er al F e d er al C o urt C h all e n g e: M o or e v. Cir c ost a a n d Wis e v. N ort h
C ar oli n a St at e B o ar d of El e cti o ns .........................................................................1 3

A R G U M E N T .................................................................................................................................1 4
I.

L e g a l St a n d ar d .......................................................................................................1 4

II.

T h e Pr o p os e d C o ns e nt J u d g m e nt Is i n t h e P u bli c I nt er est .....................................1 4

III.

T h e Pr o p os e d C o ns e nt J u d g m e nt Is F air, A d e q u at e, a n d R e as o n a bl e ...................1 6
A.

B.

Pl ai ntiffs R ais e Str o n g a n d Gr a v e C o nstit uti o n al C o n c er ns ......................1 6
1.

C h all e n g e t o t h e A bs e nt e e B all ot R e c ei pt D e a dli n e ......................1 7

2.

C h all e n g e t o t h e E arl y V oti n g Ti m e P eri o d ...................................2 1

3.

C h all e n g e t o t h e Wit n ess R e q uir e m e nt ..........................................2 2

T h e Pr o p os e d C o ns e nt J u d g m e nt M a k es M o d est A dj ust m e nts T h at
Ar e N arr o wl y T ail or e d t o A d dr ess t h e O n g oi n g Gl o b al P a n d e mi c ...........2 6

I V.

T h e Pr o p os e d C o ns e nt J u d g m e nt Is t h e Pr o d u ct of H o n est, Ar ms -L e n gt h
N e g oti ati o n .............................................................................................................3 0

V.

T h e Pr o p os e d C o ns e nt J u d g m e nt D o es N ot R u n Af o ul of t h e U nit e d St at es
C o nstit uti o n ............................................................................................................3 4
A.

St at e L a w E m p o w ers t h e St at e B o ar d T o A gr e e t o t h e T er ms i n t h e
Pr o p os e d C o ns e nt J u d g m e nt. .....................................................................3 4
i

A p p. 3 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 of 4 9

B.

T h e Pr o visi o ns i n t h e Pr o p os e d C o ns e nt J u d g m e nt Ar e C o nsist e nt
Wit h t h e El e cti o ns Cl a us e ..........................................................................3 8

C.

T h e Pr o visi o ns i n t h e Pr o p os e d C o ns e nt J u d g m e nt Ar e C o nsist e nt
Wit h t h e E q u al Pr ot e cti o n Cl a us e ..............................................................4 1

C O N C L U SI O N ..............................................................................................................................4 2

ii

A p p. 4 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 of 4 9

I N T R O D U C TI O N
In t h e mi dst of t his y e ar’s e xtr a or di n ar y i n cr eas e i n a bs e nt e e m ail -i n v oti n g, t h e pr o p os e d
c o ns e nt j u d g m e nt b ef or e t his C o urt is t h e o nl y pr a cti c al w a y t o a c c o m plis h t h e f oll o wi n g f or t his
y e ar’s g e n er al el e cti o n :


T o e ns ur e t h at all eli gi bl e N ort h C ar oli n a v ot ers w h o c h o os e t o v ot e – h u n dr e ds of
t h o us a n ds of w h o m will b e v oti n g, or v oti n g a bs e nt e e, f or t h e first ti m e i n t h eir
li v es – will h a v e t h eir v ot e c o u nt e d;



T o e ns ur e t h at t h e r e q uir e m e nts of N ort h C ar oli n a’s el e cti o ns l a ws – i n cl u di n g t h e
o n e -wit n ess r e q uir e m e nt f or a bs e nt e e b all ots, t h e c o nfir m ati o n of a bs e nt e e b all ot
dr o p -off a ut h ori z ati o n, a n d t h e r e q uir e m e nt t h at all a bs e nt e e b all ots b e
p ost m ar k e d b y El e cti o n D a y – will c o nti n u e t o b e pr es er v e d a n d a p pli e d;



T o e ns ur e t h at t h e f ar m or e e x p a nsi v e c h a n g es t h at pl ai ntiffs h a v e s o u g ht –
i n cl u di n g f urt h er e xt e n di n g e arl y v oti n g, m aili n g u ns oli cit e d b all ots t o all v ot ers,
pr o vi di n g p ost a g e o n b all ot r et ur n e n v el o p es, a n d n ot r e q uiri n g b all ots t o b e
p ost m ar k e d b y El e cti o n D a y – ar e n ot p ut i n pl a c e, si n c e t h e y w o ul d s e v er el y
c o m pli c at e a d mi nistr ati o n of t his y e ar’s el e cti o ns; a n d

T o e ns ur e t h at “ pr otr a ct e d liti g ati o n ” 1 t hr o u g h o ut t his el e cti o n s e as o n d o es n ot j e o p ar di z e
t h e s af e, effi ci e nt, a n d c o nstit uti o n al a d mi nistr ati o n of t h es e el e cti o ns.
T his y e ar’s el e cti o ns ar e t a ki n g pl a c e i n t h e f a c e of u n pr e c e d e nt e d c h all e n g es. Si n c e
M ar c h, t h e C O VI D -1 9 gl o b al p a n d e mi c h as c a us e d u nt ol d disr u pti o n t o t h e A m eri c a n w a y of

1

S e e N. C. G e n. St at. § 1 6 3 -2 2. 2 ( “ T h e St at e B o ar d of El e cti o ns s h all als o b e a ut h ori z e d,
u p o n r e c o m m e n d ati o n of t h e Att or n e y G e n er al, t o e nt er i nt o a gr e e m e nt wit h t h e c o urts i n li e u of
pr otr a ct e d liti g ati o n u ntil s u c h ti m e as t h e G e n er al Ass e m bl y c o n v e n es. ”)

A p p. 4 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 5 of 4 9

lif e. T h e vir us is hi g hl y c o nt a gi o us a n d s pr e a ds t hr o u g h cl os e c o nt a ct wit h ot h ers. T h er e is no
c ur e. T h er e is n o v a c ci n e.
T his vir us is u ni q u e. It aff e cts c ert ai n c o m m u niti es a n d a cti viti es m or e a c ut el y, a n d it
p arti c ul arl y aff e cts N ort h C ar oli ni a ns b e c a us e of t h e w a y w e v ot e. N ort h C ar oli ni a ns h a v e t hr e e
w a ys t o v ot e: o n El e cti o n D a y, e arl y a n d i n -p ers o n, a n d b y a bs e nt e e b all ot ( b ut wit h a wit n ess).
All of t h es e m e c h a nis ms r e q uir e cl os e c o nt a ct wit h ot h ers a n d m a y i n cr e as e t h e ris k of
c o ntr a cti o n of t h e C O VI D -1 9 vir us.
T h e c o nfl u e n c e of e v e nts h as r es ult e d i n a sl e w of l a ws uits b ei n g fil e d a cr oss t h e c o u ntr y
o n b e h alf of v ot ers a n d v ot er a d v o c a c y gr o u ps, bri n gi n g t o li g ht gr a v e c o nstit uti o n al c o n c er ns
att e n d a nt wit h v oti n g i n t h e p a n d e mi c u n d er st at ut es c urr e ntl y i n pl a c e.

Ma n y ha ve s uccee de d —

p arti c ul arl y b y r e q uiri n g a n e xt e nsi o n of t h e d e a dli n e f or r e c ei pt of a bs e nt e e b all ots b y at l e ast a
w e e k a n d b y e nj oi ni n g a n y wit n ess r e q uir e m e nt.
I n N ort h C ar oli n a, o n A u g ust 4, 2 0 2 0, a gr o u p of v ot ers a n d v ot er a d v o c a c y gr o u ps
s e c ur e d a f e d er al c o urt i nj u n cti o n t h at pr o hi bits t h e r ej e cti o n of a bs e nt e e b all ots wit h o ut a c ur e
pr o c e d ur e t o c orr e ct d efi ci e n ci es li k e wit n ess or si g n at ur e i nf or m ati o n. T o c o m pl y wit h t h e St at e
D ef e n d a nts’ u n d erst a n di n g wit h t his i nj u n cti o n, o n S e pt e m b er 2 2, t h e St at e B o ar d iss u e d t h e c ur e
pr o c e d ur es ( N u m b er e d M e m o 2 0 2 0 -1 9) i nstr u cti n g c o u nt y b o ar ds o n t h e c ur e pr o c ess i n pl a c e.
A bs e nt t his c ur e pr o c e d ur e, a bs e nt e e b all ots c a n n ot b e r ej e ct e d — a n d m ust b e c o u nt e d — e v e n if
t h e wit n ess or si g n at ur e i nf or m ati o n is d efi ci e nt u n d er t h e st at e st at ut es.
F a ci n g t h e pr os p e ct of pr otr a ct e d liti g ati o n o n m ulti pl e fr o nts, t h e St at e B o ar d h as
b e c o m e i n cr e asi n gl y c o n c er n e d a b o ut t h e l a c k of c ert ai nt y a b o ut t h e el e cti o ns r ul es i n pl a c e f or
t h e N o v e m b er 2 0 2 0 g e n er al el e cti o n.

M or e t h a n ei g ht l a ws uits h a v e b e e n fil e d, c h all e n gi n g

v ari o us as p e cts of el e cti o ns l a w as a p pli e d d uri n g t h e C O VI D -1 9 p a n d e mi c, i n cl u di n g n u m er o us

2

A p p. 4 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 6 of 4 9

cl ai ms u n d er t h e N ort h C ar oli n a C o nstit uti o n.

Wit h v oti n g u n d er w a y a n d i n li g ht of t h e

i n cr e asi n g e vi d e n c e of dis cri mi n at or y i m p a ct t h at t h e a bs e nt e e b all ot pr o c e d ur e h as o n
c o m m u niti es of c ol or, t h e St at e B o ar d t o o k m e as ur es t o r e a c h a n a gr e e m e nt wit h Pl ai ntiffs t h at
w o ul d r es ol v e all of t h eir o utst a n di n g cl ai ms f or t h e N o v e m b er 2 0 2 0 g e n er al el e cti o n a n d gi v e
t h e v ot ers a n d l o c al a n d st at e el e cti o ns offi ci als fi n alit y a n d dir e cti o n.
T h e pr o p os e d c o ns e nt j u d g m e nt w o ul d r es ult i n dis miss al a n d r ej e cti o n of m a n y of
Pl ai ntiffs’ r e q u ests, b ut w o ul d i m pl e m e nt t hr e e li mit e d c h a n g es: ( 1) t h e d e a dli n e f or a bs e nt e e
b all ots t o b e a c c e pt e d b y c o u nt y b o ar ds of el e cti o ns, s o l o n g as t h e y b e ar i n di ci a of b ei n g m ar k e d
a n d m ail e d o n or b ef or e El e cti o n D a y, w o ul d b e e xt e n d e d b y si x d a ys, fr o m 5 p. m. o n N o v e m b er
6 u ntil 5 p. m. o n N o v e m b er 1 2, t o m at c h t h e d e a dli n e t h at alr e a d y e xists f or milit ar y a n d
o v ers e as v ot ers, ( 2) t h e l o g gi n g pr o c ess t h at o c c urs w h e n a bs e nt e e b all ots ar e r et ur n e d i n p ers o n
t o v oti n g sit es w o ul d o c c ur at d esi g n at e d st ati o ns s u p er vis e d b y el e cti o ns st aff, wit h t h e
i nf or m ati o n r el ati n g t o t h e p ers o n r et ur ni n g t h e b all ot t a k e n v er b all y b y t h e el e cti o ns offi ci al a n d
l o g g e d b y t h at offi ci al, r at h er t h a n b y t h e p ers o n r et ur ni n g t h e b all ot; a n d ( 3) t h e c ur e pr o c e d ur e
iss u e d as a r es ult of t h e i nj u n cti o n e nt er e d i n f e d er al c o urt will all o w v ot ers t o att est t o t h e
v ali dit y of t h eir o w n b all ots aft er b ei n g c o nt a ct e d b y b o ar d offi ci a ls d u e t o a d efi ci e n c y i n
m e eti n g t h e wit n ess r e q uir e m e nt.
T h e pr o p os e d c o ns e nt j u d g m e nt h o n ors t h e p ur p os es b e hi n d N ort h C ar oli n a’s el e cti o n
pr o c e d ur es. It h el ps e ns ur e t h at all l e g al b all ots ar e c o u nt e d. It e ns ur es t h at t h er e is a l o g of t h e
p ers o n w h o r et ur ns a bs e nt e e b all ots s o t h at, i n t h e e v e nt of c o n c er ns a b o ut fr a u d or b all ot
“ h ar v esti n g, ” t h es e c o n c er ns c a n b e i n v esti g at e d. It e ns ur es t h at t h e v ot er t o w h o m t h e a bs e nt e e
b all ot is iss u e d is t h e p ers o n w h o a ct u all y v ot e d t h e b all ot t h at t h e c o u n t y b o ar d of el e cti o ns
r e c ei v es.

3

A p p. 4 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 7 of 4 9

T h e pr o p os e d c o ns e nt j u d g m e nt is f air, r e as o n a bl e, a n d a d e q u at e. A n d, m ost i m p ort a ntl y,
it is i n t h e b est i nt er est of v ot ers. V ot ers ar e alr e a d y s u b mitti n g b all ots, c o u nt y b o ar ds ar e
alr e a d y a p pr o vi n g a n d r ej e cti n g b all ots , a n d e arl y v oti n g b e gi ns i n a p pr o xi m at el y t w o w e e ks.
V ot ers n e e d t o k n o w t h e r ul es of t h e r o a d, a n d t h os e r ul es n e e d t o e ns ur e t h at all v ot ers w h o ar e
eli gi bl e m a y v ot e s af el y a n d s e c ur el y.
D es pit e t h e u n a ni m o us, bi p artis a n v ot e of t h e St at e B o ar d t o a p p r o v e t h e pri n ci pl es
c o nt ai n e d i n t h e c o ns e nt j u d g m e nt, t h e L e gisl ati v e D ef e n d a nts o bj e ct. It a p p e ars t h e y wis h t o
c o nti n u e pr otr a ct e d liti g ati o n i n b ot h st at e a n d f e d er al c o urt w ell i nt o t h e v oti n g p eri o d,
i n cr e asi n g c o nf usi o n a n d u n c ert ai nt y. B ut t h e L e gisl ati v e D ef e n d a nts’ ar g u m e nts s h o ul d n ot
distr a ct t his C o urt fr o m t h e c e ntr al q u esti o n b ef or e it, w hi c h is t h e f air n ess, r e as o n a bl e n ess, a n d
all iss u es n e c ess ar y t o c o nfir m t h e v ali dit y of t h e pr o p os e d c o ns e nt j u d g m e nt.
As of t o d a y, S e pt e m b er 3 0, t h e a b s e nt e e v oti n g p eri o d h as b e e n o p e n f or 2 6 d a ys.

M or e

t h a n 1, 1 1 6, 6 9 6 a bs e nt e e b all ots h a v e b e e n r e q u est e d, 2 8 5, 1 8 7 h a v e b e e n s u b mitt e d, a n d 2 8 0, 3 5 3
h a v e b e e n a c c e pt e d. E arl y v oti n g st arts o n O ct o b er 1 5. C ert ai nt y a n d fi n alit y ar e ess e nti al.
T h e St at e D ef e n d a nts ur g e t his C o urt t o a p pr o v e t h e c o ns e nt j u d g m e nt, as it is a f air,
a d e q u at e, a n d r e as o n a bl e r es ol uti o n of t h e cl ai ms a d v a n c e d b y Pl ai ntiffs.
S T A T E M E N T OF F A C TS
A.

C O VI D -1 9 a n d t h e St at e’s R es p o ns e t o t h e Gl o b al P a n d e mi c

T h e eff e cts of t h e n o v el c or o n a vir us str ai n k n o w n as C O VI D -1 9, b ot h o n p u bli c h e alt h
a n d o n a wi d e v ari et y of a cti viti es ar e, b y n o w, w ell -k n o w n. T h e C O VI D -1 9 p a n d e mi c h as b e e n
wi d el y r e c o g ni z e d as t h e gr e at est gl o b al h e alt h crisis i n at l e ast a c e nt ur y. I n o ur St at e al o n e, at
l e ast 2 0 7, 3 8 0 p e o pl e h a v e h a d l a b or at or y-c o nfir m e d c as es of C O VI D -1 9 a n d at l e ast 3, 4 4 1 h a v e
di e d fr o m t h e vir us. S e e htt ps:// c o vi d 1 9. n c d h hs. g o v/ , a c c ess e d S e pt. 2 7, 2 0 2 0. T h e C O VI D -1 9

4

A p p. 4 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 8 of 4 9

p a n d e mi c is t h e gr e at est t hr e at t o gl o b al h e a lt h i n t h e l ast c e nt ur y. S e e
htt ps:// w w w. n c bi. nl m. ni h. g o v/ p m c/ arti cl es/ P M C 7 1 7 5 8 6 0/ , a c c ess e d S e pt. 2 7, 2 0 2 0. It h as
aff e ct e d t h e w a y w e w or k, t h e w a y w e i nt er a ct wit h e a c h ot h er, a n d it h as aff e ct e d t h e w a y w e
v ot e.
R e c o g ni zi n g t his, o n M ar c h 1 5, 2 0 2 0 , St at e B o ar d E x e c uti v e Dir e ct or B ell iss u e d
N u m b er e d M e m o 2 0 2 0 -1 1 t o N ort h C ar oli n a’s 1 0 0 c o u nt y b o ar ds of el e cti o ns t o u p d at e t h e m o n
t h e St at e B o ar d’s r es p o ns es t o t h e C O VI D-1 9 o ut br e a k, pr o vi d e r e c o m m e n d ati o ns t h at t h e
c o u nt y b o ar ds c o n d u ct m e eti n gs el e ctr o ni c all y, a n d a dj ust c ert ai n d e a dli n es f oll o wi n g t h e M ar c h
3 pri m ar y. S e e
htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/s b o e/ n u m b er m e m o/ 2 0 2 0/ N u m b er e d % 2 0 M e m o % 2 0 2 0 2 0 -1 1 _ C or o n a vir us % 2 0 R es p o ns e. p df , a c c ess e d S e pt. 2 7, 2 0 2 0.
O n M ar c h 2 6, 2 0 2 0, t h e E x e c uti v e Dir ect or iss u e d a l ett er of r e c o m m e n d ati o n t o t h e
N ort h C ar oli n a G e n er al Ass e m bl y a n d t h e G o v er n or t o a d dr es s t h e iss u es r ais e d b y C O VI D -1 9.
S e e htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/s b o e/ S B E % 2 0 L e gisl ati v e % 2 0 R e c o m m e n d ati o ns _ C O VI D -1 9. p df , a c c ess e d S e pt. 2 7, 20 2 0. T h e r e c o m m e n d ati o ns i n cl u d e d all o wi n g
a bs e nt e e r e q u ests t o b e s u b mitt e d b y f a x or e m ail, est a blis h m e nt of a n o nli n e p ort al f or a bs e nt e e
r e q u ests, p er mitti n g p ost a g e t o b e pr e-p ai d f or a bs e nt e e b all ots, a n d r e d u ci n g or eli mi n ati n g t h e
wit n ess r e q uir e m e nt f or el e cti o ns c o n d u ct e d i n 2 0 2 0. I d. T h e E x e c uti v e Dir e ct or als o
r e c o m m e n d e d t e m p or aril y m o dif yi n g t h e pr o hi biti o n o n e m pl o y e es of h os pit als, n ursi n g h o m es,
a n d ot h er c o n gr e g at e li vi n g f a ciliti es t o all o w t h es e i n di vi d u als t o assist v ot ers a n d s er v e as
wit n ess es i n li g ht of c urr e nt visit or r estri cti o ns. I d. A d diti o n all y, t h e E x e c uti v e Dir e ct or
r e c o m m e n d e d t h at c o u nt y b o ar ds of el e cti o ns b e all o w e d fl e xi bilit y t o d et er mi n e t h eir sit es a n d
h o urs f or e arl y v oti n g t o all o w a t ail or e d r es p o ns e t o C O VI D -1 9 p a n d e mi c i n e a c h c o u nt y. I d.

5

A p p. 4 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 9 of 4 9

O n M ar c h 2 0, 2 0 2 0 , p urs u a nt t o h er st at ut or y e m er g e n c y a ut h orit y, t h e E x e c uti v e
Dir e ct or iss u e d a n or d er r es c h e d uli n g t h e R e p u bli c a n s e c o n d pri m ar y i n C o n gr essi o n al Distri ct
1 1 fr o m M a y 1 2 t o J u n e 2 3. S e e
htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/ St at e _ B o ar d _ M e eti n g _ D o cs/ Or d ers/ E x e c uti v e % 2 0 Dir e ct or % 2 0 Or d ers/ Or d er _ 2 0 2 0 -0 3 -2 0 % 2 0. p df , a c c ess e d S e pt. 2 7, 2 0 2 0. T his
or d er als o m o difi e d s o m e r e p orti n g d e a dli n es a n d s us p e n d e d c ert ai n l o g gi n g r e q uir e m e nts t o
all o w c o u nt y b o ar d offi c es t o w or k w hil e b ei n g p h ysi c all y cl os e d. I d. Fi n all y, t h e or d er all o w e d
tr a nsf er of c ert ai n v ot ers t o n o n-a dj a c e nt pr e ci n cts if t h e tr a nsf er w as r el at e d t o t h e C O VI D -1 9
p a n d e mi c. I d.
O n J u n e 1, 2 0 2 0 , t h e E x e c uti v e Dir e ct or iss u e d N um b er e d M e m o 2 0 2 0 -1 2, i n w hi c h s h e
pr o vi d e d g ui d a n c e f or c o u nti es a d mi nist eri n g t h e J u n e 2 3 pri m ar y. S e e
htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/s b o e/ n u m b er m e m o/ 2 0 2 0/ N u m b er e d % 2 0 M e m o % 2 0 2 0 2 0 -1 2 _I n -P ers o n % 2 0 C O VI D % 2 0 R es p o ns e % 2 0J u n e % 2 0 2 3 % 2 0 El e cti o n. p df ,
a c c ess e d S e pt. 2 7, 2 0 2 0. I n p arti c ul ar, t h e E x e c uti v e Dir e ct or est a blis h e d p oli ci es t o pr o vi d e a
s af e e x p eri e n c e f or v ot ers a n d el e cti o ns offi ci als d uri n g t h e C O VI D -1 9 p a n d e mi c, i n cl u di n g
r e q uiri n g p oll w or k ers a n d ot h er st aff t o w e ar p ers o n al pr ot e cti v e e q ui p m e n t, i n cl u di n g m as ks,
f a c e pr ot e cti o n, a n d gl o v es a n d, w h e n a p pr o pri at e, t o s elf-s cr e e n f or s y m pt o ms b ef or e r e p orti n g
t o w or k. I d. V ot ers w er e pr o vi d e d wit h m as ks if t h e y n e e d e d o n e, h a n d s a niti z er, a n d si n gl e -us e
b all ot -m ar ki n g d e vi c es.

I d. T h e E x e c uti v e Dir e ct or als o or d er e d r o uti n e cl e a ni n gs a n d s o ci al -

dist a n ci n g m e as ur es, c o nsist e nt wit h C D C g ui d eli n es. I d.
O n J u n e 1 0 , t h e N ort h C ar oli n a G e n er al Ass e m bl y e n a ct e d H o us e Bill 1 1 6 9, w hi c h t h e
G o v er n or si g n e d i nt o l a w as N ort h C ar oli n a S essi o n L a w 2 0 2 0 -1 7 t h e f oll o wi n g d a y. T his l a w
m a d e a n u m b er of c h a n g es i n r es p o ns e t o t h e C O VI D -1 9 p a n d e mi c. F or e x a m pl e, it r e d u c e d t h e

6

A p p. 4 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 0 of 4 9

r e q uir e m e nt of h a vi n g t w o wit n ess es f or a bs e nt e e b all ots t o o n e wit n ess. 2 0 2 0 N. C. S ess. L a ws
1 7, § 1.( a). I n a d diti o n, it g a v e c o u nt y b o ar ds of el e cti o ns gr e at er fl e xi bilit y t o all o w n o n r esi d e nt pr e ci n ct offi ci als t o s er v e, w hi c h will h el p e ns ur e t h at e a c h p olli n g pl a c es r e m ai ns o p e n
e v e n if s o m e c urr e nt pr e ci n ct offi ci als ar e u n a bl e or d e cli n e t o s er v e. 2 0 2 0 N. C. S ess. L a ws 1 7,
§ 1.( b). S essi o n L a w 2 0 2 0 -1 7 als o m a d e pr o visi o ns f or m ulti p artis a n assist a n c e t e a ms t o assist
a n y v ot er i n t h e st at e, i n cl u di n g t h os e i n n ursi n g h o m es, t o fill o ut t h eir b all ots a n d r e q u ests.
2 0 2 0 N. C. S ess. L a ws 1 7, § § 1.( c), 2.( b). A d diti o n all y, S es si o n L a w 2 0 2 0 -1 7 als o pr o vi d e d f or
a bs e nt e e b all ot r e q u est f or ms t o b e m a d e o nli n e t hr o u g h a n el e ctr o ni c p ort al t h at will b e m a d e
a v ail a bl e o n S e pt e m b er 1. 2 0 2 0 N. C. S ess. L a ws 1 7, § 7.( a). Fi n all y, S essi o n L a w 2 0 2 0 -1 7
pr o vi d e d m at c hi n g f u n ds f or t h e f e d er al C A R E S A ct ( P. L. 1 1 6 -1 3 6), all o wi n g c o u nt y b o ar ds t o
t a k e a d v a nt a g e of f e d er al f u n di n g t o assist t h e m i n pr e p ari n g f or t h e el e cti o ns i n li g ht of t h e
C O VI D -1 9 p a n d e mi c.
Si m ult a n e o usl y, o n J u n e 1 9, 2 0 2 0 , t h e St at e B o ar d a n n o u n c e d t h at it w as e n g a gi n g in a n
a g gr essi v e c a m p ai g n t o r e cr uit p e o pl e t o s er v e as el e cti o n offi ci als at e arl y v oti n g sit es a n d o n
El e cti o n D a y. S e e htt ps:// w w w. n cs b e. g o v/ n e ws/ pr ess -r el e as es/ 2 0 2 0/ 0 6/ 1 9/ el e cti o n-offi ci als s e ar c hi n g-d e m o cr a c y -h er o es -l a u n c h-n e w -p ort al , a c c ess e d S e pt. 27, 2 0 2 0 . T his eff ort is p art of a
br o a d er pl a n t o r e cr uit a d diti o n al p oll w or k ers t o s er v e i n 2 0 2 0.
A n d fi n all y, o n J ul y 1 7, 2 0 2 0 , t h e E x e c uti v e Dir e ct or iss u e d a n e m er g e n c y or d er,
r e q uiri n g c o u nt y b o ar ds of el e cti o ns t o h a v e a mi ni m u m of 1 0 h o urs of v oti n g e a c h of t h e first
t w o w e e k e n ds of e arl y v oti n g, t o h a v e at l e ast o n e p olli n g sit e o p e n d uri n g t h e e arl y-v oti n g
p eri o d f or e v er y 2 0, 0 0 0 r e gist er e d v ot ers, a n d t o r e q uir e fr e q u e nt s a niti z ati o n a n d us e of P P E i n
a c c or d a n c e wit h C D C g ui d eli n es. S e e
htt ps ://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/s b o e/ n u m b er m e m o/ 2 0 2 0/ N u m b er e d %-

7

A p p. 4 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 1 of 4 9

2 0 M e m o % 2 0 2 0 2 0 -1 4 _ E m er g e n c y % 2 0 Or d er % 2 0 of % 2 0J ul y % 2 0 1 7 % 2 C % 2 0 2 0 2 0. p df , a c c ess e d
S e pt, 2 7, 2 0 2 0. T his or d er w as i nt e n d e d t o e ns ur e t h at t h er e w er e s uffi ci e nt sit es a n d s uffi ci e nt
q u alit y h o urs f or v ot ers t o b e a bl e t o e x er cis e t h eir ri g ht t o v ot e s af el y i n r es p o ns e t o t h e
p a n d e mi c a n d dis ast er d e cl ar ati o n iss u e d b y t h e Pr esi d e nt of t h e U nit e d St at es .
B.

U nit e d St at es P ost al S e r vi c e D el a ys

O n J ul y 3 0, 2 0 2 0, T h o m as J. M ars h all, G e n er al C o u ns el a n d E x e c uti v e Vi c e Pr esi d e nt of
t h e U nit e d St at es P ost al S er vi c e s e nt a l ett er t o N ort h C ar oli n a’s S e cr et ar y of St at e, w ar ni n g h er
t h at N ort h C ar oli n a el e cti o ns l a w r el ati n g t o a bs e nt e e b all ot d e a dli n es w as “i n c o n gr u o us wit h t h e
P ost al S er vi c e’s d eli v er y st a n d ar ds. ” P e n ns yl v a ni a v. D e J o y , N o. 2: 2 0-c v -0 4 0 9 6 ( E. D. P. A.),
D kt. 1 -1 at 5 3 -5 5. U S P S als o st at e d t h at “t h er e is a si g nifi c a nt ris k ” t h at “ b all ots m a y b e
r e q u est e d i n a m a n n er t h at is c o nsist e nt wit h y o ur el e cti o n r ul es a n d r et ur n e d pr o m ptl y, a n d y et
n ot b e r et ur n e d o n ti m e or b e c o u nt e d. ” I d. I n p arti c ul ar, U S P S r e c o m m e n d e d t h at el e cti o ns
offi ci als tr a ns mitti n g c o m m u ni c ati o n t o v ot ers “ all o w 1 w e e k f or d eli v er y t o v ot ers ” a n d t h at
ci vili a n v ot ers “s h o ul d g e n er all y m ail t h eir c o m pl et e d b all ots at l e ast o n e w e e k b ef or e t h e st at e’s
d u e d at e. I n st at es t h at all o w m ail -i n b all ots t o b e c o u nt e d if t h e y ar e b ot h p ost m ar k e d b y
El e cti o n D a y a n d r e c ei v e d b y el e cti o n offi ci als b y a s p e cifi c d at e t h at is l ess t h a n a w e e k aft er
El e cti o n D a y, v ot ers s h o ul d m ail t h eir b all ots at l e ast o n e w e e k b ef or e t h e y m ust b e r e c ei v e d b y
el e cti o n offi ci als. ” I d. A c c or di n gl y, i n N ort h C ar oli n a, v ot ers c a n p ost m ar k t h eir b all ot b y
El e cti o n D a y, b ut b e c a us e of U S P S d el a ys a n d t hr o u g h n o f a ult of t h eir o w n, n ot h a v e t h eir
b all ots c o u n t e d b e c a us e t h e b all ots arri v e d at t h e c o u nt y b o ar d of el e cti o ns offi c e aft er t h e
st at ut or y d e a dli n e.

8

A p p. 4 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 2 of 4 9

C .

T h e M. D. N. C. A cti o n: D e m o cr a c y N C v. N ort h C ar oli n a St at e B o ar d of
El e cti o ns

O n M a y 2 2, 2 0 2 0 , t h e gr o u ps D e m o cr a c y N ort h C ar oli n a a n d t h e L e a g u e of W o m e n
V ot ers of N ort h C ar oli n a, t o g et h er wit h a n u m b er of i n di vi d u al v ot ers, fil e d a n a cti o n i n t h e
U nit e d St at es Distri ct C o urt f or t h e Mi d dl e Distri ct of N ort h C ar oli n a. S e e D e m o cr a c y N ort h
C ar oli n a v. N C St at e B o ar d of El e cti o ns , 2 0 2 0 U. S. Dist. L E XI S 1 3 8 4 9 2 ( A u g. 4, 2 0 2 0). I n t h at
a cti o n , t h e pl ai ntiffs c h all e n g e d v ari o us pr o visi o ns of N ort h C ar oli n a el e cti o n l a w, all e gi n g t h at
i n t h e c o nt e xt of t h e C O VI D-1 9 p a n d e mi c, t h os e el e cti o n l a w pr o visi o n s i nfri n g e o n t h eir ri g hts
u n d er t h e U nit e d St at e s C o nstit uti o n a n d f e d er al st at ut es. A m o n g t h e pr o visi o ns of N ort h
C ar oli n a l a w c h all e n g e d i n D e m o cr a c y N C ar e t h e wit n ess r e q uir e m e nt f or m ail -i n a bs e nt e e
b all ots a n d t h e r estri cti o ns o n h o w a bs e nt e e b all o ts c a n b e r et ur n e d t o c o u nt y b o ar ds of el e cti o ns.
T h e D e m o cr a c y N C pl ai ntiffs als o s o u g ht i m p ositi o n of pr o c e d ur es f or c uri n g d efi ci e n ci es i n
r et ur n e d a bs e nt e e b all ots. T h e pl ai ntiffs fil e d t h eir First A m e n d e d C o m pl ai nt a n d t h eir M oti o n
f or Pr eli mi n ar y Inj u n cti o n o n J u n e 5, 2 0 2 0 . O n J u n e 1 8, t h e y fil e d t h eir S e c o n d A m e n d e d
C o m pl ai nt t o r efl e ct t h e c h a n g es i n el e cti o n l a w f or t h e 2 0 2 0 g e n er al el e cti o n e n a ct e d b y 2 0 2 0
N. C. S ess. L a ws 1 7 . O n J u n e 1 5, 2 0 2 0, t h e f e d er al c o urt gr a nt e d p er missi v e i nt er v e nti o n t o
M o or e a n d B er g er, t h e L e gisl ati v e D ef e n d a nts i n t his a cti o n. T h e St at e B o ar d D ef e n d a nts
vi g or o usl y d ef e n d e d a g ai nst t h es e cl ai ms.
O n A u g ust 4, 2 0 2 0, f oll o wi n g a t w o -d a y e vi d e nti ar y h e ari n g a n d a t hir d d a y of or al
ar g u m e nt, t h e c o urt e nt er e d its r uli n g o n t h e pl ai ntiffs’ pr eli mi n ar y i nj u n cti o n m oti o n.
D e m o cr a c y N C , 2 0 2 0 U. S. Dist. L E XI S 1 3 8 4 9 2 ( A u g. 4, 2 0 2 0). I n its 1 8 8– p a g e o pi ni o n a n d
or d er, t h e c o urt d e ni e d t h e r e q u est f or pr eli mi n ar y i nj u n cti o n e x c e pt as t o t w o m att ers. First, t h e
c o urt e nj oi n e d t h e d ef e n d a nts fr o m e nf or ci n g t h os e pr o visi o ns of l a w t h at pr o hi bit e m pl o y e es of
n ursi n g c ar e f a ciliti es fr o m assisti n g v ot ers wit h t h eir a bs e nt e e b all ot as t o o n e of t h e i n di vi d u al

9

A p p. 4 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 3 of 4 9

pl ai ntiffs w h o is bli n d a n d w h o is i n a n ursi n g f a cilit y w h er e n o o n e b ut r esi d e nts a n d e m pl o y e es
ar e all o w e d. I d. at * 1 8 2– 8 3.
S e c o n d, t h e c o urt e nj oi n e d d ef e n d a nts “ fr o m t h e dis all o w a n c e or r ej e cti o n, or p er mitti n g
t h e dis all o w a n c e or r ej e cti o n, of a bs e nt e e b all ots wit h o ut d u e pr o c ess as t o t h os e b all ots wit h a
m at eri al err or t h at is s u bj e ct t o r e m e di ati o n, ” a n d dir e ct e d t h e a d o pti o n of pr o c e d ur es “w hi c h
pr o vi d e [] a v ot er wit h n oti c e a n d a n o p p ort u nit y t o b e h e ar d b ef or e a n a bs e nt e e b all ot wit h a
m at eri al err or s u bj e ct t o r e m e di ati o n is dis all o w e d or r ej e ct e d . ” I d. at * 1 8 2. T h es e c h a n g es w er e
n e c ess ar y, t h e c o urt r ul es, b e c a us e N ort h C ar oli n a’s wit n ess r e q uir e m e nt as st at ut oril y a ut h ori z e d
w as li k el y u n c o nstit uti o n al. T h us, t h e f e d er al c o urt e nj oi n e d t h e St at e D ef e n d a nts fr o m “t h e
dis all o w a n c e or r ej e cti o n . . . of a bs e nt e e b all ots wit h o ut d u e pr o c ess as t o t h os e b all ots wit h a
m at eri al err or t h at is s u bj e ct t o r e m e di ati o n. ”

D e m o cr a c y N. C. v. N. C. St at e B d. of El e cti o ns ,

N o. 1: 2 0 -c v -0 0 4 5 7 ( M. D. N. C. A u g. 4, 2 0 2 0) ( Ost e e n, J.), D E 1 2 4 at 1 8 7. F urt h er, t h e c o urt
c o n cl u d e d t h at “ w h e n t h e b all ot is r ej e ct e d f or a r e as o n t h at is c ur a bl e, s u c h as i n c o m pl et e
wit n ess i nf or m ati o n, or a si g n at ur e mis m at c h, a n d t h e v ot er is n ot gi v e n n oti c e or a n o p p ort u nit y
t o b e h e ar d on t his d efi ci e n c y, t h e c o urt fi n ds t his ‘f a ci all y eff e ct[s] a d e pri v ati o n of t h e ri g ht t o
v ot e.’ ” I d. at 1 5 6 ( q u oti n g S elf A d v o c a c y S ols. N. D. v. J a e g er , N o. 3: 2 0-c v -7 1, 2 0 2 0 W L
2 9 5 1 0 1 2, at * 9 ( D. N. D. J u n e 3, 2 0 2 0)). T his “ c o m p ell e d ” t h e c o urt t o fi n d t h at t h e a bs e nt e e b all ot st at ut es w er e “ c o nstit uti o n all y i n a d e q u at e ” a bs e nt a st at e wi d e c uri n g pr o c e d ur e. I d. at
1 5 7.
T h o u g h t h e c o urt d e ni e d m u c h of t h e i nj u n cti v e r eli ef s o u g ht b y t h e pl ai ntiffs, it n ot e d
t h at “Pl ai ntiffs h a v e r ais e d g e n ui n e iss u es of co n c er n wit h r es p e ct t o t h e N o v e m b er G e n er al
El e cti o n. S h o ul d L e gisl ati v e a n d E x e c uti v e D ef e n d a nts b eli e v e t h es e iss u es m a y n o w b e
dis c o u nt e d or disr e g ar d e d f or p ur p os es of t h e i m p e n di n g el e cti o n, t h e y w o ul d b e s or el y

10

A p p. 5 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 4 of 4 9

mist a k e n. ” I d. at * 4. T his o pi ni o n a nd or d er w as n ot a p p e al e d b y a n y p art y, i n cl u di n g t h e
L e gisl ati v e D ef e n d a nts.
T o att e m pt t o c o m pl y wit h t his i nj u n cti o n a n d p urs u a nt t o its st at ut or y a ut h orit y u n d er
s e cti o n 1 6 3-2 2. 2, t h e St at e B o ar d r el e as e d g ui d a n c e t h at all o w e d v ot ers t o c ur e v ot er si g n a t ur e
d ef e cts b ut r e q uir e d a v ot er t o r e -v ot e h er b all ot f or wit n ess si g n at ur e d ef e cts. S o o n t h er e aft er,
t h e St at e B o ar d b e c a m e c o n c er n e d t h at t h e c ur e m e c h a nis m di d n ot pr o vi d e s uffi ci e nt n oti c e or
o p p ort u nit y t o b e h e ar d o n wit n ess si g n at ur e d ef e cts a n d t h at it dis p ar at el y aff e ct e d t h e ri g hts of
c ert ai n gr o u ps of v ot ers.
As a r es ult, a n d t o e ns ur e f ull c o m pli a n c e wit h t h e i nj u n cti o n e nt er e d b y J u d g e Ost e e n,
t h e St at e B o ar d dir e ct e d c o u nt y b o ar ds of el e cti o ns n ot t o dis a p pr o v e a n y b all ots u ntil a n e w c ur e
pr o c e d ur e t h at w o ul d c o m pl y wit h t h e St at e D ef e n d a nts’ u n d erst a n di n g t h e i nj u n cti o n c o ul d b e
i m pl e m e nt e d. O n S e pt e m b er 2 2, 2 0 2 0, t h e St at e B o ar d i nstit ut e d t h e c ur e pr o c e d ur e att a c h e d t o
t h e pr o p os e d c o ns e nt j u d g m e nt. T h e St at e B o ar d s u bs e q u e ntl y n otifi ed t h e f e d er al c o urt of its
c ur e m e c h a nis m pr o c ess.
D .

T h e St at e C o u rt A cti o n: N ort h C ar oli n a Alli a n c e f or R etir e d A m eri c a ns v.
T h e N ort h C ar oli n a St at e B o ar d of El e cti o ns

O n A u g ust 1 0, 2 0 2 0, t h e N ort h C ar oli n a Alli a n c e f or R etir e d A m eri c a ns, t o g et h er wit h a
n u m b er of i n di vi d u al v ot ers, fil e d t his a cti o n i n W a k e C o u nt y S u p eri or C o urt. O n A u g ust 1 8,
2 0 2 0, t h e pl ai ntiffs fil e d t h eir A m e n d e d C o m pl ai nt. Pl ai ntiffs c h all e n g e: ( 1) li mit ati o ns o n t h e
n u m b er or h o urs a n d d a ys t h at c o u nti es c a n off er o n e -st o p i n-p ers o n a bs e nt e e v oti n g; ( 2) t h e
wit n ess r e q uir e m e nt f or m ail -i n a bs e nt e e b all ots; ( 3) t h e l a c k of pr e-p ai d p ost a g e f or m ail -i n
a bs e nt e e b all ot r et ur n e n v el o p es; ( 4) r ej e ctio n of m ail -i n a bs e nt e e b all ots t h at ar e p ost m ar k e d b y
El e cti o n D a y b ut d eli v er e d t o c o u nt y b o ar ds m or e t h a n t hr e e d a ys aft er t h e el e cti o n, gi v e n
c o n c er ns o v er d eli v er y d el a ys a n d o p er ati o n al diffi c ulti es wit h t h e U nit e d St at es P ost al S er vi c e;

11

A p p. 5 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 5 of 4 9

( 5) r ej e cti o n of a bs e nt e e m ail -i n b all ots d u e w h e n t h e v ot ers si g n at ur e d o es n ot m at c h t h e
si g n at ur e o n fil e wit h a b o ar d of el e cti o ns; a n d ( 6) r estri cti o ns o n assist a n c e wit h r e q u esti n g a
r et ur ni n g m ail-i n a bs e nt e e b all ots. Als o o n A u g ust 1 8, 2 0 2 0, t h e pl ai ntiffs file d t h eir M oti o n f or
Pr eli mi n ar y I nj u n cti o n.
O n A u g ust 1 2, 2 0 2 0, t h e L e gisl ati v e D ef e n d a nts fil e d a n oti c e of i nt er v e nti o n as of ri g ht
i n t h e N C Alli a n c e a cti o n; t h at i nt er v e nti o n as of ri g ht w as eff e ct e d b y t h e fili n g of t h e n oti c e,
a n d t h e y ar e n o w p arti e s t o t h at a cti o n as i nt er v e n or -d ef e n d a nts o n b e h alf of t h e G e n er al
Ass e m bl y. S e e N. C. G e n. St at. § § 1 -7 2. 2 a n d 1 A -1, R ul e 2 4( c).
D uri n g t h e e ns ui n g fi v e w e e ks a n d i n li g ht of t h e n u m b er of u nr es ol v e d iss u es p e n di n g as
v oti n g b e g a n, t h e St at e D ef e n d a nts e n g a g e d i n ar ms -l e n gt h n e g oti ati o ns wit h Pl ai ntiffs t o r es ol v e
s o m e or all of t h es e cl ai ms.
O n S e pt e m b er 2 2, 2 0 2 0, t h e N C Alli a n c e pl ai ntiffs a n d t h e E x e c uti v e ( St at e B o ar d)
d ef e n d a nts fil e d a J oi nt M oti o n f or E ntr y of a C o ns e nt J u d g m e nt wit h t h e s u p eri or c o urt. B y t h at
j oi nt m oti o n, t h e N C Alli a n c e pl ai ntiffs a n d t h e St at e D ef e n d a nts c o ns e nt t o e ntr y of a n or d er b y
t h e S u p eri or C o urt of W a k e C o u nt y. U n d er t h e pr o p os e d c o ns e nt or d er, pl ai ntiffs a gr e e d t o dr o p
m a n y of t h eir d e m a n ds, i n cl u di n g e x p a n d e d e arl y v oti n g, eli mi n ati o n of t h e wit n ess r e q uir e m e nt
f or m ail-i n a bs e nt e e b all ots, a n d pr e-p ai d p ost a g e f or m ail -i n a bs e nt e e b all ot r et ur n e n v el o p es.
T h e St at e D ef e n d a nts a gr e e d: ( 1) t o e xt e n d t h e d e a dli n e f or r e c ei pt of m ail -i n a bs e nt e e b all ots
m ail e d o n or b ef o r e El e cti o n D a y t o ni n e ( 9) d a ys aft er El e cti o n D a y t o m at c h t h e U O C A V A
d e a dli n e, i n k e e pi n g wit h t h e g ui d a n c e r e c ei v e d o n J ul y 3 0, 2 0 2 0 fr o m t h e P ost al S er vi c e; ( 2)
i m pl e m e nt t h e c ur e pr o c ess s et f ort h i n N u m b er e d M e m o 2 0 2 0-1 9, as r e vis e d; a n d ( 3) est a bli s h
s e p ar at e m ail-i n a bs e nt e e b all ot “ dr o p off st ati o ns ” st aff e d b y c o u nt y b o ar d offi ci als at e a c h e arl y
v oti n g sit e a n d at e a c h c o u nt y b o ar d of el e cti o ns t o r e d u c e t h e c o n g esti o n a n d cr o w di n g at e arl y

12

A p p. 5 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 6 of 4 9

v oti n g sit es a n d c o u nt y b o ar d offi c es. Pl ai ntiffs a gr e e d t o a c c e pt t h es e m e as ur es, w hi c h f ell f ar
s h ort of t h eir d e m a n ds, “ as a f ull a n d fi n al r es ol uti o n of Pl ai ntiffs’ cl ai ms a g ai nst E x e c uti v e
D ef e n d a nts r el at e d t o t h e c o n d u ct of t h e 2 0 2 0 el e cti o ns . ” T his C o urt s et a h e ari n g o n t h e j oi nt
m oti o n f or Fri d a y, O ct o b er 2, 2 0 2 0.
E.

C oll at e r al F e d e r al C o u rt C h all e n g e s: M o or e v. Cir c ost a a n d Wis e v. N ort h
C ar oli n a St at e B o ar d of El e cti o ns

O n t h e e v e ni n g of S e pt e m b er 2 6, 2 0 2 0, t h e L e gisl ati v e D ef e n d a nts fil e d a c oll at er al
c h all e n g e t o t his a cti o n i n t h e U nit e d St at es Distri ct C o urt f or t h e E ast er n Distri ct of N ort h
C ar oli n a. M o or e v. Cir c ost a , N o. 5: 2 0-c v -5 0 7 ( E. D. N. C.) ( D e v er, J.). I n it, t h e y c h all e n g e t h e
t hr e e u n d erl yi n g m e m or a n d a t h at f or m t h e b asis of t h e c o ns e nt j u d g m e nt at iss u e i n t his c as e.
R at h er t h a n liti g at e t h e f air n ess, r e as o n a bl e n ess, a n d a d e q u a c y of t h e pr o p os e d c o ns e nt j u d g m e nt
i n t his C o urt t his w e e k, t h e L e gisl ati v e D efe n d a nts i nst e a d r us h e d t o f e d er al c o urt o n t h e t h e or y
t h at t h e iss u a n c e of t h e m e m or a n d a vi ol at es t h e El e cti o ns Cl a us e a n d E q u al Pr ot e cti o n Cl a us e of
t h e U nit e d St at es C o nstit uti o n. T h e St at e D ef e n d a nts fil e d a m oti o n t o tr a nsf er t h e c as e t o t h e
Mi d dl e Di stri ct of N ort h C ar oli n a t o J u d g e Ost e e n, as o n e of t h e m e m or a n d a iss u e d w as i n
c o m pli a n c e of t h e i nj u n cti o n e nt er e d i n D e m o cr a c y N C . O n S e pt e m b er 3 0, t h e distri ct c o urt
d e ni e d t h e St at e D ef e n d a nts’ m oti o n t o tr a nsf er a n d s et a bri efi n g s c h e d ul e f or t h e L e gisl ati v e
D ef e n d a nts’ m oti o n f or a t e m p or ar y r estr ai ni n g or d er. T h e St at e D ef e n d a nts’ o p p ositi o n is d u e
t o m orr o w, O ct o b er 1, at 9: 0 0 a. m. T h e L e gisl ati v e D ef e n d a nts’ r es p o ns e is d u e o n O ct o b er 2, at
9: 0 0 a. m. D kt. 2 6.
At a p pr o xi m at el y t h e s a m e ti m e t h a t t h e L e gisl ati v e D ef e n d a nts fil e d t h eir a cti o n i n
f e d er al c o urt, t h e P oliti c al C o m mitt e e I nt er v e n ors, f or w h o m t his C o urt all o w e d p er missi v e
i nt er v e nti o n j ust a d a y e arli er, als o fil e d a n a cti o n i n t h e E ast er n Distri ct of N ort h C ar oli n a. Wis e
v. N ort h C a r oli n a St at e B o ar d of El e cti o ns , N o. 5: 2 0-c v -5 0 5 -D ( E. D. N. C.). I n t his a cti o n, t h e y

13

A p p. 5 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 7 of 4 9

r ais e t h e s a m e El e cti o ns Cl a us e a n d E q u al Pr ot e cti o n cl ai ms r ais e d b y t h e L e gisl ati v e D ef e n d a nts
i n M o or e .
A R G U ME NT
I.

L e g al St a n d a r d
N ort h C ar oli n a c o urts h a v e a “str o n g pr e f er e n c e f or s ettl e m e nt o v er liti g ati o n. ”

E hr e n h a us v. B a k er , 2 1 6 N. C. A p p. 5 9, 7 2, 7 1 7 S. E. 2 d 9, 1 9 ( 2 0 1 1). “ C o urts ar e g e n er all y
i n diff er e nt t o t h e n at ur e of t h e p arti es’ a gr e e m e nt; w h y or h o w t h e c as e is s ettl e d is of littl e
c o n c er n. ” I d.
Alt h o u g h N ort h C ar oli n a c o urts h a v e n ot arti c ul at e d a st a n d ar d f or a p pr o v al of a c o ns e nt
j u d g m e nt, c o urts i n t his St at e h a v e l o o k e d t o t h e f e d er al st a n d ar d t o pr o vi d e g ui d a n c e i n si mil ar
c o nt e xts. S e e, e. g. , E hr e n h a us , 2 1 6 N. C. A p p. at 7 1-7 2, 7 1 7 S. E. 2 d a t 1 8-1 9 ( a d o pti n g f e d er al
st a n d ar d f or a p pr o v al of cl ass -a cti o n s ettl e m e nts). B ef or e a p pr o vi n g e ntr y of a c o ns e nt
j u d g m e nt, a f e d er al c o urt h as t h e d ut y t o “s atisf y its elf t h at t h e a gr e e m e nt is ‘f air, a d e q u at e a n d
r e as o n a bl e,’ a n d is ‘ n ot ill e g al, a pr o d uct of c oll usi o n, or a g ai nst t h e p u bli c i nt er est.’ ” U nit e d
St at es v. N ort h C ar oli n a , 1 8 0 F. 3 d 5 7 4, 5 8 1 ( 4t h Cir. 1 9 9 9) ( q u oti n g U nit e d St at es v. C ol or a d o ,
9 3 7 F. 2 d 5 0 5, 5 0 9 ( 1 0t h Cir. 1 9 9 1)).
II.

T h e P r o p os e d C o ns e nt J u d g m e nt Is i n t h e P u bli c I nt e r est.
E ntr y of t h e pr o p os e d c o ns e nt j u d g m e nt s er v es t h e p u bli c i nt er est. Liti g ati o n o v er t h e

n at ur e a n d e xt e nt of a v ot er’s ri g ht t o a c c ess t h e b all ot r ais es gr a v e c o nstit uti o n al c o n c er ns i n t h e
n or m al i nst a n c e. B ut, as t h e n ati o n is i n t h e mi dst of a o n c e -i n-a -lifeti m e p a n d e mi c r es ulti n g
fr o m a dis e as e t h at is hi g hl y tr a ns missi bl e a n d t h at, i n m a n y i nst a n c es, c arri es s e v er e a n d e v e n
d e a dl y c o ns e q u e n c es, t h e c o nstit uti o n al iss u es r ais e d i n t his c as e ar e e v e n m or e s eri o us. T h e
p u bli c n e e ds ass ur a n c es t h at e v er y eli g i bl e v ot er h as t h e o p p ort u nit y t o v ot e s af el y, w hil e als o

14

A p p. 5 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 8 of 4 9

b ei n g e ns ur e d of t h e i nt e grit y of el e cti o ns a d mi nistr ati o n — f e ar a n d c o nf usi o n ar e b est a v oi d e d.
S e e L e a g u e of W o m e n V ot ers of V a. v. V a. St at e B d. of El e cti o ns , 2 0 2 0 W L 2 1 5 8 2 4 9, at * 5
( W. D. V a. M a y 5, 2 0 2 0) ( “[ W] h e n a s ettl e m e nt h as b e e n n e g oti at e d b y a s p e ci all y e q ui p p e d
a g e n c y, t h e pr es u m pti o n i n f a v or of s ettl e m e nt is p arti c ul arl y str o n g. ”).
T h e pr o p os e d c o ns e nt j u d g m e nt m e ets t his t est. It pr o vi d es cl arit y a b o ut t h e r ul es of t h e
r o a d g oi n g f or w ar d f or el e cti o ns t h at ar e alr e a d y u n d er w a y. S e e U nit e d St at es v. Ar m o ur & C o. ,
4 0 2 U. S. 6 7 3, 6 8 1 ( 1 9 7 1) ( o bs er vi n g t h at b y e nt eri n g i nt o c o ns e nt j u d g m e nts, “ p arti es w ai v e
t h eir ri g ht t o liti g at e t h e iss u es i n v ol v e d i n t h e c as e a n d t h us s a v e t h e ms el v es t h e ti m e, e x p e ns e,
a n d i n e vit a bl e ris k of liti g ati o n. ”). I n a d diti o n, r es ol vi n g t his m att er wit h o ut pr otr a ct e d liti g ati o n
a n d b y d efi niti v el y i nt er pr et i n g el e cti o n l a ws as t h e y a p pl y i n t his p a n d e mi c a v oi ds t h e c o nti n u e d
a n d u n n e c ess ar y us e of p u bli c r es o ur c es t o liti g at e t his c as e. S e e Br a g g , 8 3 F. S u p p. 2 d at 7 1 7
(“ B ot h t h e p arti es a n d t h e g e n er al p u bli c b e n efit fr o m t h e s a vi n g of ti m e a n d m o n e y t h at r es ults
fr o m t h e v ol u nt ar y s ettl e m e nt of liti g ati o n. ”). A n d w h er e t h e g o v er n m e nt i s t h e p art y pr o p osi n g
a s ettl e m e nt, “t h e p oli c y of e n c o ur a gi n g s ettl e m e nts is p arti c ul arl y str o n g w h er e t h e s ettl e m e nt is
pr o p os e d b y a g o v er n m e nt a g e n c y a cti n g i n t h e p u bli c i nt er est. ” A c ost a v. A g a v e El m w o o d I n c. ,
N o. 1: 1 7 -c v -6 0 5, 2 0 1 8 W L 5 5 1 9 5 4 0, at * 2 ( W. D. N. Y. O ct. 2 9, 2 0 1 8)
T h e pr o p os e d c o ns e nt j u d g m e nt als o a c k n o wl e d g es t h e u n us u al a n d s eri o us h e alt h
cir c u mst a n c es of a d mi nist eri n g a pr esi d e nti al el e cti o n d uri n g a gl o b al p a n d e mi c. It d o es s o b y
i nt er pr eti n g N ort h C ar oli n a l a w t o e ns ur e t h at v ot ers c o nti n u e t o h a v e vi a bl e o pti o ns f or v oti n g
t h at d o n ot r e q uir e r e p e at e d a n d u n n e c ess ar y e x p os ur e t o C O VI D-1 9. S e e Sti p ul ati o n a n d
C o ns e nt J u d g m e nt at 1 4 -1 6 ( bri n gi n g N ort h C ar oli n a’s a bs e nt e e b all ot r e c ei pt -d e a dli n e i nt o
c o n gr uit y wit h U S P S ti m e t a bl es a n d e xisti n g d e a dli n es f or mi lit ar y a n d o v ers e as v ot ers,
r e d u ci n g t h e c o n g esti o n at i n-p ers o n v oti n g l o c ati o ns b y r e q uiri n g or al l o g gi n g of a bs e nt e e

15

A p p. 5 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 1 9 of 4 9

b all ots r et ur n e d i n p ers o n, a n d f or m ali zi n g a pr o c ess t h at c o nti n u es t o r e q uir e wit n ess si g n at ur e
b ut all o ws f or v ot ers t o c ur e missi n g wit n ess i nf or m ati o n t h e ms el v es, wit h o ut h a vi n g t o
wit hst a n d r e p e at e d e x p os ur e t o t h e vir us). S e e als o L e a g u e of W o m e n V ot ers of Vir gi ni a , 2 0 2 0
W L 2 1 5 8 2 4 9, at * 1 0 ( c o n cl u di n g, o v er o bj e cti o n, t h at c o ns e nt j u d g m e nt i n v ol vi n g w ai v er of
wit n ess r e q uir e m e nt f o r Vir gi ni a’s J u n e pri m ar y el e cti o n w as i n t h e p u bli c i nt er est i n li g ht of t h e
ris ks p os e d b y C O VI D-1 9).
Fi n all y , t h e c o ns e nt j u d g m e nt s er v es t h e p u bli c’s i nt er est t hr o u g h its n arr o w r es ol uti o n of
t his c as e, wit h o ut l e a di n g t o t h e i n v ali d ati o n of t h e c h all en g e d pr o visi o ns of st at e l a w. S e e
L e a g u e of W o m e n V ot ers of Vir gi ni a , 2 0 2 0 W L 2 1 5 8 2 4 9, at * 5 ( c o n cl u di n g t h at t h e p u bli c
i nt er est is “ b ett er s er v e d w h e n p arti es c o m e t o a s ettl e m e nt a gr e e m e nt o v er a n el e ct or al pr o c ess
t h at is li k el y b ei n g a p pli e d u n c o nstit uti o n all y. ”). “ T his is p arti c ul arl y tr u e i n t h e c o nt e xt of t his
a gr e e m e nt, w hi c h t a k es pl a c e d uri n g t h e w orst p a n d e mi c t his st at e, c o u ntr y, a n d pl a n et h as s e e n
i n o v er a c e nt ur y. T h e p u bli c h e alt h i m pli c ati o ns h a v e b e e n v ast a n d u n pr e c e d e nt e d i n t h e
m o d er n er a, wit h n o o n e l eft u nt o u c h e d b y t h e ris k of tr a ns missi o n. ” I d.
T h e c o ns e nt j u d g m e nt r es ol v es all of Pl ai ntiffs cl ai ms t hr o u g h n arr o w r eli ef, a n d wit h o ut
r e q uiri n g a c o n cl usi o n t h at a n y pr o visi o n of N ort h C ar oli n a el e cti o n l a w is u n c o nstit uti o n al. It
als o pr ot e cts p u bli c h e alt h d uri n g a n u n pr e c e d e nt e d n ati o n al e m er g e n c y, a n d a v oi ds pr otr a ct e d
el e cti o n liti g ati o n t h at t hr e at e ns t o i nt erf er e wit h t h e or d erl y a d mi nistr ati o n of t h e el e cti o n.
III.

T h e P r o p os e d C o ns e nt J u d g m e nt Is F ai r, A d e q u at e, a n d R e as o n a bl e.
A.

Pl ai ntiffs R ais e St r o n g a n d G r a v e C o nstit uti o n al C o n c e r ns.

T o ass ess t h e c o ns e nt j u d g m e nt’s f air n ess, a d e q u a c y, a n d r e as o n a bl e n ess, f e d er al c o urts
c o nsi d er “t h e str e n gt h of t h e pl ai ntiff’s c as e. ” U nit e d St at es v. N ort h C ar oli n a , 1 8 0 F. 3 d 5 7 4,
5 8 1 ( 4t h Cir. 1 9 9 9). T o d o s o, h o w e v er, c o urts n e e d n ot c o n d u ct “ a tri al or a r e h e ars al of t h e

16

A p p. 5 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 0 of 4 9

tri al. ” I d. I nst e a d, t h e criti c al i n q uir y is t o “j u d g e t h e f air n ess of a pr o p os e d c o m pr o mis e b y
w ei g hi n g t h e pl ai ntiff’s li k eli h o o d of s u c c ess o n t h e m erits a g ai nst t h e a m o u nt a n d f or m of t h e
r eli ef off er e d i n t h e s ettl e m e nt. ” C ars o n v. A m. Br a n ds, I n c. , 4 5 0 U. S. 7 9, 8 8 n. 1 4 ( 1 9 8 1); s e e
als o Fli n n v. F M C C or p. , 5 2 9 F. 2 d 1 1 6 9, 1 1 7 2-7 3 ( 4t h Cir. 1 9 7 5) ( h ol di n g t h at a c o urt m ust
m er el y “r e a c h a n i nt ell i g e nt a n d o bj e cti v e o pi ni o n of t h e pr o b a biliti es of ulti m at e s u c c ess s h o ul d
t h e cl ai m b e liti g at e d, ” a n d d et er mi n e if t h os e pr o b a biliti es j ustif y t h e c o m pr o mis e t h e p arti es
h a v e r e a c h e d ).
Pl ai ntiffs h a v e r ais e d c o nstit uti o n al cl ai ms c h all e n gi n g, a n d h a v e s o u g ht t o e nj oi n t h e
e nf or c e m e nt of, s e v er al pr o visi o ns of N ort h C ar oli n a’s el e cti o n l a w, i n cl u di n g li mit ati o ns o n t h e
ti m e p eri o d f or e arl y v oti n g, a bs e nt e e b all ot r e c ei pt d e a dli n es, wit n ess r e q uir e m e nts f or a bs e nt e e
b all ots, t h e l a c k of pr e p ai d p ost a g e f or a bs e nt e e b all ots, t h e pr o hi biti o n o n assisti n g v ot ers wit h
r e q u esti n g or s u b mitti n g a n a p pli c ati o n f or a n a bs e nt e e b all ot, a n d t h e pr o hi biti o n o n assisti n g
v ot ers wit h t h e d eli v er y of t h eir c o m pl et e d a bs e nt e e b all ots. Pl ai ntiffs all e g e d t h at t h es e
pr o v isi o ns, i n li g ht of t h e o n g oi n g C O VI D-1 9 p a n d e mi c, vi ol at e t h e E q u al Pr ot e cti o n, Fr e e d o m
of S p e e c h, Fr e e d o m of Ass e m bl y, a n d Fr e e El e cti o ns Cl a us es of t h e N ort h C ar oli n a C o nstit uti o n.
B e c a us e t h e c o ns e nt j u d g m e nt o nl y c o nt e m pl at es a n a gr e e m e nt as t o t hr e e of t h e cl ai ms,
t his C o urt n e e d o nl y ass ess t h e str e n gt h of t h os e cl ai ms.
1.

C h all e n g e t o t h e A bs e nt e e B all ot R e c ei pt D e a dli n e

Pl ai ntiffs c h all e n g e t h e c o nstit uti o n alit y of t h e a bs e nt e e r e c ei pt d e a dli n e, w hi c h r e q uir es
t h at b all ots p ost m ar k e d o n or b ef or e El e cti o n D a y b e r e c ei v e d wit hi n t hr e e d a ys of El e cti o n D a y
t o b e c o u nt e d. N. C. G e n . S t at. § 1 6 3 -2 2 1( b)( 2).
T h e a p pli c ati o n of t h e a bs e nt e e b all ot r e c ei pt d e a dli n e pr es e nts u ni q u e c h all e n g es d uri n g
t h e C O VI D-1 9 p a n d e mi c b e c a us e of t h e s o ci al -dist a n ci n g g ui d eli n es t h at ar e r e q uir e d t o
s af el y a n d s e c ur el y v ot e. As a r es ult of t h e ris ks att e n d a nt wit h p ers o n -t o-p er s o n c o nt a ct i n t h e
17

A p p. 5 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 1 of 4 9

mi dst of t his gl o b al p a n d e mi c, St at e D ef e n d a nts e x p e ct t h at a p pr o xi m at el y 4 0 % of v ot ers will
o pt t o v ot e a bs e nt e e b y m ail — a n d a s u bst a nti al pr o p orti o n of t h os e v ot ers will c h o os e t o m ail i n
t h eir b all ots. E mil y F e at h erst o n, El e cti o ns of fi ci als w or k t o pr e p ar e f or v oti n g d uri n g a
p a n d e mi c, i n t h e s h a d o w of a n el e cti o n fr a u d s c a n d al , W E C T N e ws ( A pr. 2 3, 2 0 2 0),
htt ps:// w w w. w e ct. c o m/ 2 0 2 0/ 0 4/ 2 3/ el e cti o ns -offi ci als -w or k -pr e p ar e -v oti n g -d uri n g -p a n d e mi c s h a d o w-a n -el e cti o n -fr a u d-s c a n d al/. F or t h os e m ail e d-i n a bs e nt e e v ot es t o b e c o u nt e d, t h e y n e e d
t o arri v e t o c o u nt y b o ar ds of el e cti o n b y t h e st at ut or y d e a dli n e. N. C. G e n . S t at. § 1 6 3 -2 2 1( b)( 2)..
T h e U nit e d St at es P ost al S er vi c e, h o w e v er, h as e m b ar k e d o n s u bst a nti al o p er ati o n al
c h a n g es t h at ar e i m p a cti n g its d eli v er y c a p a biliti es. T his will aff e ct a s u bst a nti al n u m b er of
v ot ers i n N ort h C ar oli n a w h o ar e d e p e n d e nt o n U S P S t o r e q u est, r e c ei v e, a nd s u b mit t h eir
a bs e nt e e b all ots. T h e a g e n c y its elf s e nt a l ett er t o t h e St at e at t h e e n d of J ul y, w ar ni n g t h e St at e
t h at its “ d e a dli n es f or r e q u esti n g a n d c asti n g m ail -i n b all ots ar e i n c o n gr u o us wit h t h e P ost al
S er vi c e’s d eli v er y st a n d ar ds, ” t h at t h e St at e s h o ul d pl a n o n r e q uiri n g at l e ast o n e w e e k b et w e e n
t h e d e a dli n e t o m ar k a n d p ost m ar k b all ots a n d t h e d ea dli n e b y w hi c h b all ots m ust b e r e c ei v e d b y
c o u nti es. L ett er t o N ort h C ar oli n a S e cr et ar y of St at e fr o m U S P S G e n er al C o u ns el, J ul y 3 0,
2 0 2 0. Wit h o ut t his a c c o m m o d ati o n, U S P S w ar n e d t h at t h er e w as “ a si g nifi c a nt ris k t h at . . .
b all ots m a y b e r e q u est e d i n a m a n n er t h at is c o nsist e nt wit h [ N ort h C ar oli n a’s] el e cti o n r ul es a n d
r et ur n e d pr o m ptl y, a n d y et n ot b e r et ur n e d i n ti m e t o b e c o u nt e d. ” I d.
T h es e d el a ys, w hi c h w er e alr e a d y w ell d o c u m e nt e d d uri n g t h e pri m ari es i n ot h er st at es
o v er t h e l at e s pri n g a n d e arl y s u m m er, 2 h a v e o nl y w ors e n e d si n c e t h os e pri m ari es .

2

S e e T o m S c h e c k, G e off Hi n g & D e e J. H all, P ost al D el a ys, Err ors I n S wi n g St at es L o o m
O v er El e cti o n , N P R ( A u g. 1 6, 2 0 2 0), htt ps:// w w w. n pr. or g/ 2 0 2 0/ 0 8/ 1 6/ 9 0 2 6 0 4 3 0 3/ p ost al-d el a ys err ors -i n-s wi n g-st at es-l o o m-o v er -el e cti o n ( n oti n g t h at 7 0 0 v ot ers i n Mil w a u k e e a n d W a u w at os a,
WI n e v er r e c ei v e d r e q u est e d b all ots, a n d t h at 8 1, 0 0 0 b all ots w er e d eli v er e d t o t h e st at e aft er t h e
pri m ar y, of w hi c h 7 9, 0 5 4 w er e a c c e pt e d o nl y b e c a us e of a c o urt r uli n g).
18

A p p. 5 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 2 of 4 9

U S P S’s o p er ati o n al c h a n g es h a v e r e c e ntl y r es ult e d i n f e d er al c o urt i nt er v e nti o n i n t h e
f or m of a n i nj u n cti o n e nt er e d b y t h e E ast er n Distri ct of P e n ns yl v a ni a i n P e n ns yl v a ni a v. D e J o y ,
N o. 2: 2 0 -c v -4 0 9 6 , D E 6 2 ( o pi ni o n) a n d 6 3 ( or d er) ( E. D. P a. S e pt. 2 8, 2 0 2 0). T h e C o urt
c o n cl u d e d t h at t h e U S P S’s o p er ati o n al c h a n g es h a v e h ar m e d its us ers, i n cl u di n g t h e st at e of
N ort h C ar oli n a, i n “ v ari o us a n d m e a ni n gf ul w a ys, ” a n d t h at “irr e p ar a bl e h ar m will r es ult u nl e ss
[t h e U S P S’s] a bilit y t o o p er at e is ass ur e d. ” I d., D E 6 2, at 2; s e e als o J o n es v. U nit e d St at es
P ost al S er vi c e , N o. 1: 2 0-c v -6 5 1 6, D E 4 9 ( S. D. N. Y. S e pt. 2 1, 2 0 2 0) ( e nj oi ni n g U S P S fr o m
m a ki n g c ert ai n o p er ati o n al c h a n g es a n d i nstit uti n g stri ct r e p orti n g r e q uir e m e nts t o t h e C o urt).
As p art of its or d er, t h e E ast er n Distri ct of P e n ns yl v a ni a m a d e s e v er al fi n di n gs of f a ct
d et aili n g “t h e a g e n c y’s s u d d e n a n d ri gi d pi v ot ” t h at h a v e r es ult e d i n “ d e cli n es i n s er vi c e t h at . . .
h a v e n ot b e e n f ull y r e m e di e d a n d p os e a t hr e at t o t h e o p er ati o n of t h e N o v e m b er 2 0 2 0 el e cti o ns. ”
P e n ns yl v a ni a , N o. 2: 2 0-c v -4 0 9 6, D E 6 2, at 7. F or i nst a n c e, c arri ers “ ar e pr o hi bit e d fr o m m a ki n g
l at e tri ps a n d e xtr a tri ps e v e n if w aiti n g j ust a f e w mi n ut es w o ul d e ns ur e ti m el y d eli v er y t o e ntir e
c o m m u niti es, ” a n d ar e “i nstr u ct e d t o l e a v e b e hi n d m ail t h at is r e a d y f or d eli v er y. ” I d. at 1 4.
“ T h e P ost al S er vi c e h as als o s et n e w w or k h o ur r e d u cti o n t ar g ets a n d s o u g ht t o a g gr essi v el y
r e d u c e t h e us e of o v erti m e o n a n ati o n wi d e b asis. ” I d. T h e C o urt c o n cl u d e d: “ W h at is n ot
r e as o n a bl y i n dis p ut e is t h at t h e d el a ys t h at h a v e o c c urr e d as a r es ult of t h e i niti ati v es d es cri b e d
a b o v e cl e arl y p os e a t hr e at t o t h e d eli v er y of El e cti o n M ail t o a n d fr o m t h e v ot ers. ” I d. at 2 0.
I n li g ht of t h e c o nfl u e n c e of C O VI D-1 9 a n d U S P S o p er ati o n al pr o bl e ms, t h e t hr e e -d a y
r e c ei pt d e a dli n e pl a c es N ort h C ar oli n a’s v ot ers i n a n u nt e n a bl e p ositi o n . V ot ers w h o c o ul d h a v e
a bi d e d b y t h e d e a dli n e t o p ost m ar k t h eir m ar k e d b all ots a n d h a v e t h e m c o u nt e d b ut f or t h es e
m ail d el a ys will b e f or c e d t o: ( 1) v ot e i n p ers o n, a n d ris k t h e p ossi bilit y of s eri o us ill n ess or
d e at h fr o m C O VI D -1 9 , or of tr a ns mitti n g t h e dis e as e t o ot h ers; ( 2) v ot e b y m ail m or e t h a n a

19

A p p. 5 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 3 of 4 9

w e e k b ef or e El e cti o n D a y, a n d l os e t h e b e n efit of l at e -br e a ki n g i nf or m ati o n a b o ut c a n di d at es f or
p u bli c offi c e; or ( 3) v ot e b y m ail o n or s h ortl y b ef or e el e cti o n d a y a n d ris k b ei n g dis e nfr a n c his e d
b y m ail d eli v er y ti m es o v er w hi c h t h e v ot er h as n o c o ntr ol. T h es e b ur d e ns ar e n ot distri b ut e d
e q u all y — f or e x a m pl e, ol d er, p o or er, a n d mi n orit y v ot ers f a c e a hi g h er ris k of s eri o us ill n ess or
d e at h fr o m C O VI D -1 9, a n d t h us b e ar a h e a vi er b ur d e n if f or c e d b y p ost al d el a ys a n d t h e r e c ei pt
d e a dli n e t o v ot e i n -p ers o n d uri n g t h e p a n d e mi c. S e e C D C, Ol d er A d ults ( S e pt. 1 1, 2 0 2 0),
htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9 -n c o v/ n e e d -e xtr a -pr e c a uti o ns/ ol d er -a d ults. ht ml ( “As y o u
g et ol d er, y o ur ris k f or s e v er e ill n ess fr o m C O VI D -1 9 i n cr e as es. ”); C D C, H e alt h E q uit y
C o nsi d er ati o ns a n d R a ci al a n d Et h ni c Mi n orit y Gr o u ps (J ul y 2 4, 2 0 2 0),
htt ps:/ / w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9-n c o v/ c o m m u nit y/ h e alt h -e q uit y/r a c e -et h ni cit y. ht ml
( “T h er e is i n cr e asi n g e vi d e n c e t h at s o m e r a ci al a n d et h ni c mi n orit y gr o u ps ar e b ei n g
dis pr o p orti o n at el y aff e ct e d b y C O VI D -1 9. ”).
A t t h e s a m e ti m e t h at t h e St at e e nf or c es a t hre e -d a y r e c ei pt d e a dli n e f or or di n ar y a bs e nt e e
b all ots, it c o u nts milit ar y a n d o v ers e as b all ots s o l o n g as t h e y ar e r e c ei v e d n o l at er t h a n ni n e d a ys
of El e cti o n D a y. G. S. § 1 6 3 -2 5 8. 1 2( b). T his d e a dli n e is cl os el y t ail or e d t o t h e n e e ds of c o u nt y
el e cti o n of fi ci als, w h o c o n d u ct t h eir c o u nt y c a n v ass es o n t h e t e nt h d a y aft er t h e el e cti o n. S e e
N. C. G e n . S t at. § 1 6 3 -1 8 2. 5.
T h e c o m bi n ati o n of d el a ys t h at ar e o utsi d e t h e v ot er’s c o ntr ol, e v e n if t h e v ot er a bi d es b y
all of t h e St at e’s el e cti o n l a ws, wit h t h e dis p ar at e tr e at m e nt b et w e e n milit ar y a n d o v ers e as b all ots
a n d ci vili a n b all ots cr e at es a s eri o us c o n c er n t h at m a y r es ult i n u n c o nstit uti o n all y b ur d e ni n g t h e
ri g ht t o v ot e. S e e, e. g. , Fl a. D e m o cr ati c P art y v. D etz n er , N o. 4: 1 6-c v -6 0 7, 2 0 1 6 W L 6 0 9 0 9 4 3,
at * 6 ( N. D . Fl a. O ct. 1 6, 2 0 1 6) ( “If dis e nfr a n c hisi n g t h o us a n ds of eli gi bl e v ot ers d o es n ot a m o u nt
t o a s e v er e b ur d e n o n t h e ri g ht t o v ot e, t h e n t his C o urt is at a l oss as t o w h at d o es.”).

20

A p p. 6 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 4 of 4 9

2.

C h all e n g e t o t h e E a rl y V oti n g Ti m e P e ri o d

Pl ai ntiffs c h all e n g e t h e c o nstit uti o n alit y of t h e li mit ati o ns o n t h e n u m b er of d a ys a n d
h o urs d uri n g w hi c h c o u nti es ar e p er mitt e d t o c o n d u ct e arl y v oti n g. N. C. G e n . S t at. § 1 6 3 2 2 7. 2( b) p er mits o n e -st o p e arl y v oti n g “[ n] ot e arli er t h a n t h e t hir d T h urs d a y b ef or e a n el e cti o n . .
. a n d n ot l at er t h a n 3: 0 0 P M o n t h e l ast S at ur d a y b ef or e t h at el e cti o n. ” T h e St at e D ef e n d a nts
h a v e a d diti o n all y iss u e d a N u m b er e d M e m o dir e cti n g, i nt er ali a, t h at: ( 1) all c o u nt y b o ar ds s h all
o p e n o n e e arl y v oti n g sit e f or a mi ni m u m of t e n h o urs t ot al f or e a c h of t h e first a n d s e c o n d
w e e k e n ds of t h e 1 7 -d a y e arl y v oti n g p eri o d; ( 2) e a c h c o u nt y b o ar d s h all o p e n at l e ast o n e e arl y
v oti n g sit e p er 2 0, 0 0 0 r e gist er e d v ot ers i n t h e c o u nt y, alt h o u g h c o u nti es m a y a p pl y f or w ai v ers;
( 3) c o u nt y b o ar ds wit h o nl y o n e e arl y v oti n g sit e m ust arr a n g e f or a b a c k-u p sit e a n d b a c k -u p
st aff; a n d ( 4) b o ar ds m a y o p e n e arl y v oti n g sit es e arli er t h a n 8: 0 0 A M or st a y o p e n l at er t h a n
7 : 3 0 P M, s o l o n g as all sit es ar e o p e n at t h e s a m e ti m e. N u m b er e d M e m o 2 0 2 0-1 4. Pl ai ntiffs
all e g e t h at t h es e c h a n g es ar e i n a d e q u at e a n d, i n s o m e i nst a n c es, h a v e l e d t o a r e d u cti o n i n t h e
a v ail a bilit y of e arl y v oti n g.
I n-p ers o n e arl y v oti n g is a cr u ci al c o m p o n e nt of c o n d u cti n g a s af e a n d or d erl y el e cti o n
d uri n g a p a n d e mi c. W hil e St at e D ef e n d a nts e x p e ct a m assi v e s ur g e i n v oti n g -b y -m ail, m a n y
v ot ers r e m ai n c o m mitt e d t o i n -p ers o n v oti n g. H o w e v er, i n -p ers o n v oti n g still n e c ess aril y
i n v ol v es ris ks i n t h e mi dst of a p a n d e mi c: it i n v ol v es li n es a n d cr o w ds, m a n y i n d o ors.
T his c o n c er n is e x a c er b at e d b y t h e f a ct t h at v ot ers m a y r et ur n a bs e nt e e b all ots i n -p ers o n
at e arl y v oti n g sit es. V ot ers w h o r et ur n t h es e b all ots will b e i n t h e s a m e li n es as e arl y v ot ers a n d
will i n cr e as e t h e cr o w ds a n d d el a y — p arti c ul arl y as t h e St at e e x p e cts t o s e e a t e n -f ol d i n cr e as e i n
t h e n u m b er of a bs e nt e e v ot es t his y e ar. A d di n g t o t h e iss u e is t h e c o n c er n t h at, wit h U S P S
e x p eri e n ci n g d el a ys, v ot ers w h o ot h er wis e w o ul d h a v e r et ur n e d t h eir b all ots b y m ail will i nst e a d
c h o os e t o r et ur n t h eir b all ots i n p ers o n.
21

A p p. 6 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 5 of 4 9

W h e n r et ur ni n g a n a bs e nt e e b all ot i n p ers o n, t h e p ers o n r et ur ni n g t h e b all ot is r e q uir e d b y
a d mi nistr ati v e r ul e t o l o g t h eir n a m e a n d ot h er i d e nt if yi n g i nf or m ati o n, i n cl u di n g t h eir r el ati o n t o
t h e v ot er, i n writi n g. T his pr o c ess r e q uir es t h e e x c h a n g e of t h e l o g a n d writi n g ut e nsils b et w e e n
a n el e cti o ns offi ci al a n d t h e p ers o n r et ur ni n g t h eir b all ot. T o si m plif y t h e pr o c ess, a n d t o
mi ni mi z e t h e c h a n c e of s pr e a di n g t h e vir us, t h e c o ns e nt j u d g m e nt all o ws f or or al c o nfir m ati o n at
a d esi g n at e d st ati o n at e a c h e arl y v oti n g sit e a n d c o u nt y b o ar d offi c e. T h e p ers o n r et ur ni n g t h e
b all ot will still h a v e t o c o nfir m h er i d e ntit y t o a n el e cti o ns offi ci al, b ut i nst e a d of l o g gi n g t his
i nf or m ati o n h ers elf, t h e el e cti o ns offi ci al will l o g t his i nf or m ati o n. I n a d diti o n, t h e l o g gi n g will
b e c o m pl et e d at a d esi g n at e d st ati o n, i n a li n e s e p ar at e fr o m t h e li n e f or e arl y v ot ers. N o b all ots
will b e p er mitt e d t o b e dr o p p e d off wit h o ut a n el e cti o ns offi ci al l o g gi n g it.
T his c h a n g e t o a n a d mi nistr ati v e r ul e — n ot a st at ut or y r e q uir e m e nt — will d e cr e as e t h e
c o n g esti o n at e arl y v oti n g sit es a n d e ns ur e t h at m at eri als ar e n ot p ass e d b a c k a n d f ort h b et w e e n
t h e el e cti o ns offi ci al a nd t h e v ot er u n n e c ess aril y.
3.

C h all e n g e t o t h e Wit n ess R e q ui r e m e nt

Fi n all y, Pl ai ntiffs cl ai m t h at t h e wit n ess r e q uir e m e nt i m p os es a b ur d e n o n t h e ri g ht t o
v ot e b y r e q uiri n g v ot ers t o ris k e x p os ur e t o C O VI D -1 9 i n or d er t o s e c ur e a wit n ess t o v ot e vi a
a bs e nt e e b all ot. S e e C o m pl ai nt ¶ 5 8 -7 0. T his b ur d e n f alls u n e q u all y o n v ot ers w h o li v e i n
si n gl e-m e m b er or si n gl e -a d ult h o us e h ol ds a n d ol d er v ot ers. I d., ¶ 6 4, 6 5. A n d, li k e t h e r e c ei pt
d e a dli n e, t h e wit n ess r e q uir e m e nt is n ot a p pli e d t o milit ar y a n d o v ers e as v ot ers. I d., ¶ 6 9.
Wit n ess r e q uir e m e nts f or a bs e nt e e b all ots h a v e b e e n s h o w n t o b e , br o a dl y s p e a ki n g,
disf a v or e d b y t h e c o urts — p arti c ul arl y d uri n g t h e C O VI D -1 9 p a n d e mi c . In li g ht of t h e C O VI D 1 9 p a n d e mi c, a n i n cr e asi n g n u m b er of c o urts h a v e e nj oi n e d wit n ess r e q uir e m e nts i n pri m ar y a n d
g e n er al el e cti o ns i n 2 0 2 0. S e e, e. g. , C o m m o n C a us e R.I. v. G or b e a , N o. 2 0-1 7 5 3, 2 0 2 0 W L
4 5 7 9 3 6 7, at * 2 ( 1st Cir. A u g. 7, 2 0 2 0) ( c o n cl u di n g t h at “[t] a ki n g a n u n us u al a n d i n f a ct
22

A p p. 6 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 6 of 4 9

u n n e c ess ar y c h a n c e wit h y o ur lif e is a h e a v y b ur d e n t o b e ar si m pl y t o v ot e ” a n d t h us d e n yi n g
m oti o n t o st a y c o ns e nt j u d g m e nt s us p e n di n g “ n ot ar y or t w o -wit n ess r e q uir e m e nt ” f or m ail
b all ots), st a y d e ni e d s u b n o m. R e p u bli c a n N at’l C o m m. v. C o m m o n C a us e , N o. 2 0 A 2 8, 2 0 2 0 W L
4 6 8 0 1 5 1 ( U. S. A u g. 1 3, 2 0 2 0); T h o m as v. A n di n o , N o. 3: 2 0-c v -0 1 5 5 2, 2 0 2 0 W L 2 6 1 7 3 2 9, at
* 2 1 ( D. S. C. M a y 2 5, 2 0 2 0) (fi n di n g “str o n g li k eli h o o d t h at t h e b ur d e ns pl a c e d u p o n [ pl ai ntiffs]
b y ” si n gl e -wit n ess si g n at ur e r e q uir e m e nt “ o ut w ei g h t h e i m pr e cis e, a n d ( as a d mitt e d b y
[ d ef e n d a nts]) i n eff e cti v e, st at e i nt er ests of c o m b ati n g v ot er fr a u d a n d pr ot e cti n g v oti n g
i nt e grit y ”); L e a g u e of W o m e n V ot ers of Vir gi ni a , 2 0 2 0 W L 2 1 5 8 2 4 9, at * 8 ( “I n o ur c urr e nt er a of
s o ci al dist a n ci n g— w h er e n ot j ust Vir gi ni a ns, b ut all A m eri c a ns, h a v e b e e n i nstr u ct e d t o m ai nt ai n
a mi ni m u m of si x f e et fr o m t h os e o utsi d e t h eir h o us e h ol d — t h e b ur d e n [ of t h e wit n ess
r e q uir e m e nt] is s u bst a nti al f or a s u bst a nti al a n d dis cr et e cl ass of Vir gi ni a’s el e ct or at e. D uri n g
t his p a n d e mi c, t h e wit n ess r e q uir e m e nt h as b e c o m e ‘ bot h t o o r estri cti v e a n d n ot r estri cti v e
e n o u g h t o eff e cti v el y pr e v e nt v ot er fr a u d.’ ”); Sti p ul ati o n a n d P arti al C o ns e nt J u d g m e nt, L a R os e
v. Si m o n , N o. 6 2-C V -2 0 -3 1 4 9 ( 2 d J u d. Dist. Mi n n. J u n e 1 7, 2 0 2 0) ( a p pr o vi n g c o ns e nt j u d g m e nt
t o n ot e nf or c e Wit n ess R e q uir e m e nt a n d R e c ei pt D e a dli n e f or pri m ar y el e cti o n); Sti p ul ati o n a n d
P arti al C o ns e nt J u d g m e nt, L a R os e v. Si m o n , N o. 6 2-C V -2 0 -3 1 4 9 ( 2 d J u d. Dist. Mi n n. J ul y 1 7,
2 0 2 0) ( a p pr o vi n g si mil ar c o ns e nt j u d g m e nt f or N o v e m b er g e n er al el e cti o n).
E v e n i n N ort h C ar oli n a, a f e d er al c o urt h el d t h at t h e wit n ess r e q uir e m e nt c o ul d n ot b e
i m pl e m e nt e d as st at ut oril y a ut h ori z e d wit h o ut a m e c h a nis m f or v ot ers t o h a v e a d e q u at e n oti c e of
a n d c ur e m at eri als d ef e cts t h at mi g ht k e e p t h eir v ot es fr o m b ei n g c o u nt e d. O n A u g ust 4, 2 0 2 0, a
f e d er al c o urt i n t h e Mi d dl e Distri ct of N ort h C ar oli n a e nj oi n e d t h e St at e D ef e n d a nts fr o m “t h e
dis all o w a n c e or r ej e cti o n . . . of a bs e nt e e b all ots wit h o ut d u e pr o c ess as t o t h os e b all ots wit h a
m at eri al err or t h at is s u bj e ct t o r e m e di ati o n. ”

D e m o cr a c y N. C . v. N. C. St at e B d. of El e cti o ns,

23

A p p. 6 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 7 of 4 9

N o. 1: 2 0 -c v -0 0 4 5 7 ( M. D. N. C. A u g. 4, 2 0 2 0) ( Ost e e n, J.), D E 1 2 4 at 1 8 7. T h e i nj u n cti o n
r efl e ct e d t h e f e d er al c o urt’s c o n cl usi o n t h at “ w h e n t h e b all ot is r ej e ct e d f or a r e as o n t h at is
c ur a bl e, s u c h as i n c o m pl et e wit n ess i nf or m ati o n, or a si g n at ur e mis m at c h, a n d t h e v ot er is n ot
gi v e n n oti c e or a n o p p ort u nit y t o b e h e ar d o n t his d efi ci e n c y, t h e c o urt fi n ds t his ‘f a ci all y
eff e ct[s] a d e pri v ati o n of t h e ri g ht t o v ot e.’ ” I d. at 1 5 6 ( q u oti n g S elf A d v o c a c y S ols. N. D. v.
J a e g er , No. 3: 2 0 -c v -7 1, 2 0 2 0 W L 2 9 5 1 0 1 2, at * 9 ( D. N. D. J u n e 3, 2 0 2 0)). T his “ c o m p ell e d ” t h e
c o urt t o fi n d t h at t h e a bs e nt e e -b all ot st at ut es w er e “ c o nstit uti o n all y i n a d e q u at e ” a bs e nt a
st at e wi d e c uri n g pr o c e d ur e. I d. at 1 5 7.
T o att e m pt t o c o m pl y wit h t his i nj u n c ti o n a n d p urs u a nt t o its st at ut or y a ut h orit y u n d er
s e cti o n 1 6 3-2 2. 2, t h e St at e B o ar d r el e as e d g ui d a n c e t h at all o w e d v ot ers t o c ur e v ot er si g n at ur e
d ef e cts b ut r e q uir e d a v ot er t o r e -v ot e h er b all ot f or wit n ess si g n at ur e d ef e cts. S o o n t h er e aft er,
t h e St at e B o ar d b e c a m e c o n c er n e d t h at t h e c ur e m e c h a nis m di d n ot pr o vi d e s uffi ci e nt n oti c e or
o p p ort u nit y t o b e h e ar d o n wit n ess si g n at ur e d ef e cts a n d t h at it dis p ar at el y aff e ct e d t h e ri g hts of
c ert ai n gr o u ps of v ot ers.
F or e x a m pl e t h e St at e B o ar d’s o w n st atisti c s a n d r e p orti n g m e c h a nis ms i n a d diti o n t o
p u bli cl y a v ail a bl e e vi d e n c e i n di c at e d t h at t h e pr o c ess of r ej e cti n g b all ots f or a bs e nt e e b all ot
e n v el o p e d ef e cts, i n cl u di n g wit n ess si g n at ur e d ef e cts, h as a dis p ar at e i m p a ct o n mi n orit y v ot ers,
i n N ort h C ar oli n a a nd els e w h er e. I n N ort h C ar oli n a, f or e x a m pl e, “[ a]s of S e pt e m b er 1 7, Bl a c k
v ot ers’ b all ots ar e b ei n g r ej e ct e d at m or e t h a n f o ur ti m es t h e r at e of w hit e v ot ers. ” K al ei g h
R o g ers, N ort h C ar oli n a Is Alr e a d y R ej e cti n g Bl a c k V ot ers’ M ail -I n B all ots M or e Oft e n T ha n
W hit e V ot ers ’, Fi v e T hirt y Ei g ht ( S e pt. 1 7, 2 0 2 0), htt ps://fi v et hirt y ei g ht. c o m/f e at ur es/ n ort h c ar oli n a -is-alr e a d y -r ej e cti n g-bl a c k -v ot ers -m ail -i n-b all ots -m or e -oft e n -t h a n-w hit e -v ot ers/ . S e e
als o N ort h C ar oli n a E arl y V oti n g St atisti cs, htt ps:// el e ct pr oj e ct. git h u b.i o/ E arl y -V ot e -

24

A p p. 6 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 8 of 4 9

2 0 2 0 G/ N C. ht ml ( d et aili n g t h at, as of S e pt e m b er 2 8, 2 0 2 0, Bl a c k v ot ers h a d a r ej e cti o n r at e of
4. 3 % w hil e w hit e v ot ers h a d a r ej e cti o n r at e of 1. 1 %). His p a ni c a n d N ati v e A m eri c a n v ot ers’
b all ots ar e b ei n g r ej e ct e d at n e arl y t hr e e ti m es t h e r at e of w hit e v ot ers’ b all ots, a n d Asi a n v ot ers’
b all ots ar e b ei n g r ej e ct e d at m or e t h a n t wi c e t h e r at e of w hit e v ot ers. I d. T o p ut it a n ot h er w a y:
as of S e pt e m b er 2 8, i n N ort h C ar oli n a al o n e, w hit e v ot ers h a d s u b mitt e d 1 8 2, 3 1 2 b all ots, a n d
2, 0 0 5 of t h os e b all ots h a d b e e n r ej e ct e d, w hil e Bl a c k, His p a ni c, Asi a n, a n d N ati v e A m eri c a n
v ot ers c o m bi n e d h a d s u b mitt e d 8 3, 1 0 2 b all ots, a n d 2, 0 7 5 h a d b e e n r ej e ct e d. I d.
T h e s a m e p att er n h as b e e n r e c o g ni z e d t hr o u g h o ut t h e c o u ntr y. S e e J a n e C. Ti m m, A w hit e
p ers o n a n d a Bl a c k p ers o n v ot e b y m ail i n t h e s a m e st at e. W h os e b all ot is m or e li k el y t o b e
r ej e ct e d ?, N B C N e ws ( A u g. 9, 2 0 2 0), htt ps:// w w w. n b c n e ws. c o m/ p oliti cs/ 2 0 2 0-el e cti o n/ w hit e p ers o n -bl a c k -p ers o n -v ot e -m ail -s a m e-st at e-w h os e -b all ot -n 1 2 3 4 1 2 6 ( citi n g st u d i es d e m o nstr ati n g
t h at His p a ni c a n d Bl a c k v ot ers w er e m or e t h a n t wi c e as li k el y t o h a v e t h eir b all ot r ej e ct e d as
w hit e v ot ers i n el e cti o ns h el d i n Fl ori d a a n d G e or gi a i n 2 0 1 8). As a r es ult, t h e pr o c e d ur es us e d
f or r ej e cti n g a bs e nt e e b all ots a n d t h e c ur e pr o c ess es i n pl a c e, or l a c k t h er e of, h a v e c o m e u n d er
i n cr e asi n g j u di ci al s cr uti n y. S e e, e. g. , Ri c h ar ds o n v. T e x. S e c. of St at e , 2 0 2 0 W L 5 3 6 7 2 1 6, at * 4 6
( W. D. T e x. S e pt. 8, 2 0 2 0) ( or d eri n g T e x as S e cr et ar y of St at e t o n otif y l o c al el e cti o n offi ci als t h at
“t h e r ej e cti o n of a v ot ers’ b all ot o n t h e b asis of a p er c ei v e d si g n at ur e mis m at c h is
u n c o nstit uti o n al ” i n t h e a bs e n c e of n oti c e a n d a n o p p ort u nit y t o c ur e), a p p e al fil e d N o. 2 0 -5 0 7 7 4
( 5t h Cir. 2 0 2 0); Fr e d eri c k v. L a ws o n , 2 0 2 0 W L 4 8 8 2 6 9 6, at * 1 2 -1 5 ( S. D. I n d. A u g. 2 0, 2 0 2 0)
( c o n cl u di n g t h at I n di a n a’s si g n at ur e v erifi c ati o n r e q uir e m e nt vi ol at e d t h e D u e Pr o c ess a n d E q u al
Pr ot e cti o n Cl a us es of t h e F o urt e e nt h A m e n d m e nt a n d e nj oi ni n g t h e st at e “fr o m r ej e cti n g a n y
m ail -i n a bs e nt e e b all ot o n t h e b asis of a si g n at ur e mis m at c h a bs e nt a d e q u at e n oti c e a n d c ur e
pr o c e d ur es t o t h e aff e ct e d v ot er ”); D e m o cr ati c E x e c. C o m m. of Fl a. v. D etz n er , 3 4 7 F. S u p p. 3 d

25

A p p. 6 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 2 9 of 4 9

1 0 1 7, 1 0 3 0 ( N. D. Fl a. 2 0 1 8) (r ef erri n g t o si g n at ur e m at c hi n g as a “ q u esti o n a bl e pr a cti c e ”), st a y
d e ni e d s u b n o m. D e m o cr at i c E x e c. C o m m. of Fl a. v. L e e, 9 1 5 F. 3 d 1 3 1 2 ( 1 1t h Cir. 2 0 1 9)
( c o n cl u di n g t h at Fl ori d a’s si g n at ur e-m at c h a n d c ur e s c h e m e i m p os e d a “s eri o us b ur d e n o n
v ot ers ”); M arti n v. K e m p , 3 4 1 F. S u p p. 3 d 1 3 2 6, 1 3 4 1 ( N. D. G a. 2 0 1 8) ( e nj oi ni n g r ej e cti o n of
b all ots f or p er c ei v e d si g n at ur e mis m at c h).
As a r es ult, a n d t o c o m pl y wit h t h e St at e D ef e n d a nts’ u n d erst a n di n g of t h e i nj u n cti o n
e nt er e d b y J u d g e Ost e e n, t h e St at e B o ar d dir e ct e d c o u nt y b o ar ds of el e cti o ns n ot t o dis a p pr o v e
a n y b all ots u ntil a n e w c ur e pr o c e d ur e t h at w o ul d c o m pl y wit h t h e i nj u n cti o n c o ul d b e
i m pl e m e nt e d. O n S e pt e m b er 2 2, 2 0 2 0, t h e St at e B o ar d i nstit ut e d t h e c ur e pr o c e d ur e att a c h e d t o
t h e pr o p os e d c o ns e nt j u d g m e nt. At t h e s a m e ti m e, t h e St at e B o ar d n otifi e d t h e f e d er al c o urt of
its c ur e m e c h a nis m pr o c ess.
*

*

*

As d e m o nstr at e d a b o v e, Pl ai ntiffs’ cl ai ms r ais e s eri o us c o nstit uti o n al c o n c er ns t h at ar e
miti g at e d b y t h e t er ms of t h e pr o p os e d c o ns e nt j u d g m e nt. I n e x c h a n g e, t h e St at e D ef e n d a nts
w er e a bl e t o s e c ur e dis miss al of s e v er al cl ai ms t h at w o ul d h a v e, at t h e v er y l e ast, r e q uir e d
pr otr a ct e d liti g ati o n, e v e n if u ns u c c essf ul. A n d t h e r el ati v el y m o d est r eli ef r efl e ct e d i n t h e
c o ns e nt j u d g m e nt r efl e cts t h e f a ct t h at i d e nti c al cl ai ms h a v e b e e n s u c c essf ul i n ot h er f or u ms.
U n d er t h e cir c u mst a n c es, a n d gi v e n w h er e N ort h C ar oli n a is i n t h e el e cti o n, t h e c o ns e nt
j u d g m e nt is f air, r e as o n a bl e, a n d a d e q u at e.
B.

T h e P r o p os e d C o ns e nt J u d g m e nt M a k es M o d est A dj ust m e nts T h at A r e
N a r r o wl y T ail o r e d t o A d d r ess t h e O n g oi n g Gl o b al P a n d e mi c.

B ot h Pl ai ntiffs a n d St at e D ef e n d a nts a gr e e t h at Pl ai ntiffs’ cl ai ms r ais e s eri o us
c o nstit uti o n al c o n c er ns o v er t h e g u ar a nt e es a g ai nst u n d ul y b ur d e ni n g t h e ri g ht t o v ot e. T h e
pr o p os e d c o ns e nt j u d g m e nt w o ul d r e m e d y t h es e c o n c er ns i n a n arr o w w a y: b y i m pl e m e nti n g

26

A p p. 6 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 0 of 4 9

li mit e d a d diti o n al r e m e di es f or a n y c o nstit uti o n al vi ol ati o ns t h at m a y r es ult fr o m t h e
e nf or c e m e nt of e xisti n g st at e l a w i n t h e mi dst of a n o n g oi n g gl o b al p a n d e mi c, a n d wit h o ut
stri ki n g d o w n a n y N ort h C ar oli n a st at ut es. I n li g ht of t h e str e n gt h of Pl ai ntiffs’ cl ai ms, t h es e
t er ms ar e f air, a d e q u at e, a n d r e as o n a bl e.
Pl ai ntiffs’ l a ws uit as ks t his C o urt t o:


e nj oi n t h e e nf or c e m e nt of t h e a bs e nt e e b all ot r e c ei pt d e a dli n e b y w ai vi n g t h e
p ost m ar k r e q uir e m e nt as it a p pli es t o a n y b all ot t h at is n ot affir m ati v el y
p ost m ar k e d aft er N o v e m b er 3, s o l o n g as t h e y ar e r e c ei v e d b y c o u nt y b o ar ds of
el e cti o ns u p t o ni n e d a ys aft er El e cti o n D a y;



e nj oi n t h e e nf or c e m e nt of t h e wit n ess r e q uir e m e nt f or a bs e nt e e b all ots e ntir el y, as
a p pli e d t o v ot ers r esi di n g i n si n gl e -p ers o n or si n gl e -a d ult h o us e h ol ds;



e nj oi n t h e e nf or c e m e nt of all l a ws t h at pr o hi bit assist a n c e wit h t h e r e q u est a n d
s u b missi o n of a bs e nt e e b all ots;



e nj oi n a n y si g n at ur e -v erifi c ati o n pr o c e d ur es u nl ess t h e St at e B o ar d pr o vi d es
st a n d ar ds f or si g n at ur e -m at c hi n g v erifi c ati o n pr o c e d ur es;



r e q uir e t h at t h e St at e D ef e n d a nts p a y f or p ost a g e f or a bs e nt e e v ot ers; a n d



r e q uir e t h at t h e St at e D ef e n d a nts e xt e n d e arl y v oti n g b y r e q uiri n g 2 1 a d diti o n al
d a ys f or t h e N o v e m b er g e n er al el e cti o ns. C o m pl ai nt, Pr a y er f or R eli ef.

T h e pr o p os e d c o ns e nt j u d g m e nt w o ul d n ot pr o vi d e t his f ull c o m pl e m e nt of r eli ef. I nst e a d
of e nj oi ni n g t h es e st at ut es, t h e pr o p os e d c o ns e nt j u d g m e nt w o ul d l e a v e t h e m i n pl a c e a n d gi v e
t h e m eff e ct, w hil e r es ol vi n g m a n y of Pl ai ntiffs’ c o nstit uti o n al c o n c er ns. T his n arr o w m et h o d of
r es ol vi n g t h es e cl ai ms w ei g hs i n f a v or of e nt eri n g t h e c o ns e nt j u d g m e nt.

27

A p p. 6 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 1 of 4 9

T h e pr o p os e d c o ns e nt j u d g m e nt d o es n ot pr o vi d e a n y r e m e d y f or Pl ai ntiffs’ cl ai ms
c h all e n gi n g t h e pr o hi biti o n o n assist a n c e wit h a bs e nt e e b all ot r e q u ests a n d s u b missi o ns, t h e
i nstit uti o n of si g n at ur e-v erifi c ati o n pr o c e d ur es, or t h e pr o visi o n of pr e p ai d p ost a g e f or b all ot
m ail. A n d e v e n wit h r es p e ct t o t h os e cl ai ms f or w hi c h t h e pr o p os e d c o ns e nt j u d g m e nt pr o vi d es a
li mit e d r e m e d y, t h e r e m e d y d o es n ot e n c o m p ass t h e f ull s c o p e of Pl ai ntiffs’ r e q u est.
Pl ai ntiffs’ c h all e n g e t o t h e a bs e nt e e b all ot r e c ei pt pr o c e d ur es s e e ks t o r e q uir e a n y b all ot
t h at is r e c ei v e d b y m ail t o c o u nt y b o ar ds of el e cti o ns t h at d o es n ot b e ar a p ost m ar k t o b e c o u nt e d
u nl ess a pr e p o n d er a n c e of t h e e vi d e n c e d e m o nstr at es t h at it w as m ail e d aft er El e cti o n D a y.
C o m pl ai nt, Pr a y er f or R eli ef at h. I n a d diti o n, Pl ai ntiffs r e q u est a n e xt e nsi o n of t h e r e c ei pt
d e a dli n e f or b all ots m ail e d i n b y ni n e d a ys — t o mirr or t h e d e a dli n e aff or d e d t o u nif or m e d-s er vi c e
a n d o v ers e as a bs e nt e e v ot ers. I d. T h e pr o p os e d c o ns e nt j u d g m e nt l e a v es i n pl a c e t h e
r e q uir e m e nt t h at all b all ots m ust b e m ar k e d a n d p ost m ar k e d ( or b e ar offi ci al i n di ci a t h at t h e
b all ot w as i n t h e h a n ds of a p ost al s er vi c e) b y El e cti o n D a y. D e cr e e at 1 4. T h e pr o p os e d d e cr e e
o nl y m o difi e s t h e r e c ei pt d e a dli n e t o mirr or t h e d e a dli n e aff or d e d t o ot h er v ot ers i n N ort h
C ar oli n a, as a r es p o ns e t o d el a ys c a us e d b y t h e U S P S — d el a ys w hi c h ar e o ut of t h e c o ntr ol of
st at e offi ci als or v ot ers. I d.; s e e als o s u pr a at p p. 1 8 -2 0. Pl ai ntiffs a p p e ar t o c o nti n u e t o b eli e v e
t h at r e q uiri n g a p ost m ar k or i n di ci a of p ost m ar ki n g o n or b ef or e N o v e m b er 3 pr es e nts a n
u n c o nstit uti o n al b arri er t o v ot e. B ut t h e pr o visi o n i n t h e c o ns e nt j u d g m e nt e ns uri n g t h at all v ot es
c arr y affir m ati v e e vi d e n c e of h a vi n g b e e n m ar k e d o n or b ef or e El e cti o n D a y pr es er v es t h e
p ur p os e of t h e st at ut or y pr es cri pti o ns o n t h e m a n n er i n w hi c h N ort h C ar oli ni a ns m ust v ot e, w hil e
pr o vi di n g Pl ai ntiffs a r e m e d y, al b eit o n e t h at is m or e n arr o w t h a n t h eir d esir e d o ut c o m e.
Pl ai ntiffs’ c h all e n g e t o t h e p eri o d of e arl y v oti n g s e e ks t o r e q uir e t h e St at e B o ar d t o
e xt e n d t h e e arl y v oti n g p eri o d fr o m 1 7 d a ys b y a d di n g a n a d diti o n al 2 1 d a ys. C o m pl ai nt, Pr a y er

28

A p p. 6 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 2 of 4 9

f or R eli ef at c. T h e pr o p os e d c o ns e nt j u d g m e nt l e a v es i n pl a c e t h e e arl y v oti n g p eri o d pr o vi d e d
b y t h e G e n er al St at ut es. D e cr e e at 1 5-1 6. T h e pr o p os e d d e cr e e o nl y m o difi es t h e pr o c e d ur e b y
w hi c h a bs e nt e e b all ots ar e l o g g e d w h e n t h e y ar e r et ur n e d i n p ers o n t o c o u nt y b o ar d offi c es a n d
e arl y v oti n g sit es. I d. I nst e a d of r e q uiri n g t h e p ers o n r et ur ni n g t h e b all ot t o l o g t h e b all ot
h ers elf, mi ni mi zi n g e x p os ur e t o t h e C O VI D -1 9 vir us b y eli mi n ati n g t h e n e e d t o p ass t h e l o g a n d
p e n b a c k a n d f ort h b et w e e n t h e p ers o n a n d t h e el e cti o ns offi ci al, t h e pr o p os e d c o ns e nt j u d g m e nt
all o ws t h e p ers o n r et ur ni n g t h e b all ot t o v er b all y c o nfir m t h at s h e is l e g all y p er mitt e d t o d o s o.
I d. T his v er b al c o nfir m ati o n pr o c e d ur e will s p e e d u p t h e r et ur n pr o c ess, all o wi n g f or li n es at
e arl y v oti n g sit es t o m o v e m or e q ui c kl y. S e e s u pr a p p. 2 1 -2 2. Pl ai ntiffs a p p e ar t o c o nti n u e t o
b eli e v e t h at r e q uiri n g 2 1 m or e d a ys of e arl y v oti n g is n e c ess ar y t o eli mi n at e b arri ers t o v ot e i n
t h e mi d dl e of t h e C O VI D p a n d e mi c. B ut t h e pr o visi o n i n t h e c o ns e nt j u d g m e nt e ns uri n g t h at t h e
a bs e nt e e b all ot r et ur n pr o c e d ur e is m or e str e a mli n e d a n d r e d u c es t h e p ot e nti al f or t h e C O VI D -1 9
vir us t o s pr e a d at e arl y -v oti n g sit es pr es er v es t h e p ur p os e of t h e st at ut or y pr es cri pti o ns o n t h e
m a n n er i n w hi c h b all ots ar e r et ur n e d, w hil e pr o vi di n g Pl ai ntiffs a r e m e d y, t h o u g h n arr o w er t h a n
t h eir d esir e d o ut c o m e.
Fi n al l y, Pl ai ntiffs’ c h all e n g e t o t h e wit n ess-si g n at ur e r e q uir e m e nt s e e ks t o e nj oi n t h e
r e q uir e m e nt e ntir el y f or v ot ers li vi n g i n si n gl e-p ers o n or si n gl e -a d ult h o us e h ol ds. C o m pl ai nt,
Pr a y er f or R eli ef at d. T h e pr o p os e d c o ns e nt j u d g m e nt l e a v es t h e wit n ess r e q uir e m e nt i n pl a c e i n
its e ntir et y. Sti p ul ati o n a n d Pr o p os e d C o ns e nt J u d g m e nt at 1 5. T h e pr o p os e d d e cr e e o nl y
i n c or p or at es a c ur e pr o c ess t h at t h e St at e D ef e n d a nts h a d alr e a d y i nstit ut e d t o c o m pl y wit h a n
i nj u n cti o n e nt er e d i n D e m o cr a c y N ort h C ar oli n a v. N ort h C ar oli n a St at e B o ar d of El e cti o ns , N o.
2 0 -c v -4 5 7 ( M. D. N. C.) ( Ost e e n, J.). T h e i nj u n cti o n pr o hi bits t h e St at e B o ar d fr o m p er mitti n g t h e
“ dis all o w a n c e or r ej e cti o n of a bs e nt e e b all ots wit h o ut d u e pr o c ess as t o t h os e b all ots wit h a

29

A p p. 6 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 3 of 4 9

m at eri al err or t h at is s u bj e ct t o r e m e di ati o n. ” Or d er o n I nj. R eli ef ( D kt. 1 2 4) at 1 8 7. T o c o m pl y,
t h e St at e B o ar d l eft i n pl a c e t h e wit n ess r e q uir e m e nt. B ut, it i nstit ut e d a c ur e pr o c e d ur e t h at
li mit e d r e p e at e d e x p os ur e t o t h e C O VI D-1 9 vir us w h er e a bs e nt e e b all ots c o nt ai n e d a m at eri al
err or of l a c ki n g a v ot er si g n at ur e, wit n ess or assist a nt si g n at ur e, wit n ess or assist a nt n a m e, or
wit n ess or assist a nt a d dr ess. Sti p ul ati o n a n d Pr o p os e d C o ns e nt J u d g m e nt at 1 5. T h e c ur e
pr o c ess as t o t h e wit n ess r e q uir e m e nt r e q uir es t h at, w h er e a v ot er m a k es a mist a k e o n t h e b all ot
c o nt ai n er e n v el o p e, t h e v ot er is c o nt a ct e d b y t h e c o u nt y b o ar d of el e cti o ns a n d is iss u e d a n
affi d a vit b y w hi c h t h e v ot er affir ms t h at s h e is t h e o n e w h o v ot e d h er b all ot. I d. I n t his w a y, t h e
c o u nt y b o ar d of el e cti o ns s er v es as t h e wit n ess, w hil e pr o vi di n g s e c urit y t h at t h e v ot er v ot e d h er
b all ot a n d r e d u ci n g t h e ris k of t h e s pr e a d of C O VI D -1 9. Pl ai ntiffs a p p e ar t o c o nti n u e t o b eli e v e
t h at e nj oi ni n g t h e us e of t h e wit n ess r e q uir e m e nt e ntir el y is r e q uir e d t o pr ot e ct t h e ri g ht t o v ot e
f or t h os e li vi n g i n si n gl e-p ers o n or si n gl e -a d ult h o us e h ol ds. B ut t h e pr o visi o n i n t h e c o ns e nt
j u d g m e nt e ns uri n g t h at t h er e is c o nfir m ati o n t h at t h e v ot er is t h e o n e w h o v ot e d h er b all ot
pr es er v es t h e p ur p os e b e hi n d t h e st at ut or y r e q uir e m e nt f or a wit n ess w hil e pr o vi di n g Pl ai ntiffs a
r e m e d y, e v e n t h o u g h t h e r e m e d y is n arr o w er t h a n d esir e d.
I V.

T h e P r o p os e d C o ns e nt J u d g m e nt Is t h e P r o d u ct of H o n est, A r ms -L e n gt h
N e g oti ati o n.
T h e pr o p os e d c o ns e nt j u d g m e nt is t h e s u bj e ct of s u bst a nti al n e g o ti ati o n a n d c o m pr o mis e

b et w e e n t h e St at e D ef e n d a nts a n d Pl ai ntiffs. T h e n at ur e a n d e xt e nt of t h es e n e g oti ati o ns pr o vi d e
t h e C o urt wit h ass ur a n c e t h at t h e pr o p os e d c o ns e nt j u d g m e nt is f air, a d e q u at e, a n d r e as o n a bl e.
As a g e n er al m att er, c o urts will cr e di t t h e p arti es’ r e pr es e nt ati o ns as t o t h eir g o o d f ait h i n
n e g oti ati o ns. S e e C o m m o n C a us e R.I. v. G or b e a , N o. 1: 2 0-c v -0 0 3 1 8 -M S M, 2 0 2 0 W L 4 3 6 5 6 0 8,
at * 4 ( D. R.I. J ul y 3 0, 2 0 2 0) ( “[ N] o e vi d e n c e of c oll usi o n a m o n g t h e p arti es h as b e e n pr es e nt e d t o

30

A p p. 7 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 4 of 4 9

t his C o urt; i n f a ct, t h e p arti es h a v e r e pr es e nt e d t h at t h e y e n g a g e d i n g o o d-f ait h n e g oti ati o ns i n
t h e cr afti n g of t h e C o ns e nt j u d g m e nt ’s t er ms. ”).
I n a d diti o n, co urts g e n er all y fi n d t h at c o ns e nt j u d g m e nts t h at r e pr es e nt a n a ct u al
c o m pr o mis e b et w e e n t h e p arti es’ p ositi o n s ar e pr o d u cts of g o o d -f ait h n e g oti ati o ns. F or e x a m pl e,
i n G or b e a , t h e Distri ct of R h o d e Isl a n d r e c e ntl y r ej e ct e d all e g ati o ns of c oll usi o n i n cr afti n g a n
el e cti o n -r el at e d c o ns e nt j u d g m e nt b e c a us e “[i]t [ w a]s cl e ar t h at t h e C o ns e nt j u d g m e nt w as a
c o m pr o mis e . . . . [ T] h e f a ct t h at pl ai ntiffs di d n ot g et e v er yt hi n g t h at t h e y s o u g ht . . . s u g g est[s]
t h at t h e pr o p os e d i nt er v e n ors’ ar g u m e nt t h at t his a gr e e m e nt w as . . . c oll usi v e is w h oll y wit h o ut
m erit or e vi d e n c e. ” N o. 1: 2 0 -c v -0 0 3 1 8 -M S M, 2 0 2 0 W L 4 3 6 5 6 0 8, at * 4 ( D. R.I. J ul y 3 0, 2 0 2 0),
aff’ d 9 7 0 F. 3 d 1 1, 1 7 ( 1st Cir. 2 0 2 0) ( “ All i n all, w e s e e n o c oll usi o n . . . . ”). T his is p arti c ul arl y
tr u e w h er e t h e s u bst a nti v e r e as o n a bl e n ess of t h e c o m pr o mis e is e vi d e nt. I n C ar c a ñ o v. C o o p er ,
f or i nst a n c e, t h e Mi d dl e Distri ct of N ort h C ar oli n a r ej e ct e d ar g u m e nts of c oll usi o n w h er e t h e
c o ns e nt j u d g m e n t “ dis miss e[ d] t h e E x e c uti v e Br a n c h D ef e n d a nts fr o m t h e c as e h a vi n g c e d e d
n ot hi n g m or e t h a n a n i nt er pr et ati o n of H B 1 4 2 § 2 f ait hf ul t o its pl ai n t er ms. ” N o. 1: 1 6 -c v -2 3 6,
2 0 1 9 W L 3 3 0 2 2 0 8, at * 6 ( M. D. N. C. J ul y 2 3, 2 0 1 9). T his is tr u e e v e n if “t h e E x e c uti v e Br a n c h
D ef e n d a nts . . . s h o w[ e d] littl e i nt er est i n liti g ati n g t his c as e. ” I d.
T h e c o ns e nt j u d g m e nt s atisfi es t h es e st a n d ar ds . It is a c o m pr o mis e b et w e e n t h e p ositi o ns
of Pl ai ntiffs a n d St at e D ef e n d a nts, n eit h er of w h o m a c hi e v e d c o m pl et e vi ct or y. S e e s u p r a p p.
2 6 -3 0. R at h er, t h e c o ns e nt j u d g m e nt r e alisti c all y r efl e cts t h e p arti es’ p er c ei v e d liti g ati o n ris ks.
Pl ai ntiffs “ di d n ot g et e v er yt hi n g t h e y s o u g ht, ” G or b e a , 2 0 2 0 W L 4 3 6 5 6 0 8, at * 4, a n d t h e St at e
D ef e n d a nts w er e a bl e t o s e c ur e t h e dis miss al of all cl ai ms, wit h Pl ai ntiffs b e ari n g t h eir o w n f e es.
S e e C ar c a ñ o , 2 0 1 9 W L 3 3 0 2 2 0 8, at * 6 (s e c uri n g dis miss al of all cl ai ms a g ai nst E x e c uti v e
D ef e n d a nts w as pr o of c o ns e nt j u d g m e nt w as n ot c oll usi v e); L e a g u e of W o m e n V ot ers of

31

A p p. 7 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 5 of 4 9

Vir gi ni a , 2 0 2 0 W L 2 1 5 8 2 4 9, at * 6 ( plai ntiffs’ a gr e e m e nt n ot t o s e e k att or n e ys’ f e es w as pr o of
t h at c o ns e nt j u d g m e nt w as n ot o n e -si d e d).

M or e o v er, t h e c o ns e nt j u d g m e nt s er v es t h e St at e’s

i nt er est i n a v oi di n g pr otr a ct e d liti g ati o n t h at ris ks disr u pti n g t h e a d mi nistr ati o n of a n or d erl y,
s e c ur e el e cti o n i n w hi c h all eli gi bl e v ot ers ar e a bl e t o p arti ci p at e. S e e L e a g u e of W o m e n V ot ers
of Vir gi ni a , 2 0 2 0 W L 2 1 5 8 2 4 9, at * 1 3.
Pr o c e d ur all y, t h e c o ns e nt j u d g m e nt , li k e t his liti g ati o n m or e br o a dl y, c o nt ai ns t h e
h all m ar ks of g o o d -f ait h n e g oti ati o n. Pl ai n tiffs fil e d t h eir a m e n d e d c o m pl ai nt a n d m oti o n f or
pr eli mi n ar y i nj u n cti o n o n A u g ust 1 8 , 2 0 2 0. Pl ai ntiffs a n d St at e D ef e n d a nts m o v e d f or e ntr y of
t h e c o ns e nt j u d g m e nt a p pr o xi m at el y fi v e w e e ks l at er, o n S e pt e m b er 2 2. T h e f a ct t h at t h e j oi nt
m oti o n w as fil e d m a n y w e e ks aft er t h e c o m pl ai nt a n d m oti o n f or pr eli mi n ar y i nj u n cti o n w er e
fil e d b e ars t h e i n di ci a of g o o d-f ait h n e g oti ati o ns— a ti m e p eri o d t h at f ar e x c e e ds t hat h el d t o b e
n o n -c oll usi v e i n G or b e a , i n w hi c h t h e First Cir c uit f o u n d “ n o c oll usi o n ” i n a s ettl e m e nt a gr e e d t o
“j ust d a ys ” aft er pl ai ntiffs’ s uit w as fil e d, s e e 9 7 0 F. 3 d at 1 7, a n d i n L e a g u e of W o m e n V ot ers of
Vir gi ni a , i n w hi c h t h e W est er n Distri ct of Vir gi ni a f o u n d n o c oll usi o n i n a c o ns e nt j u d g m e nt
e nt er e d j ust si x d a ys aft er pl ai ntiffs fil e d s uit, s e e 2 0 2 0 W L 2 1 5 8 2 4 9, at * 3 -4 (s etti n g f ort h
pr o c e d ur al hist or y), * 1 3 ( c o n cl u di n g a gr e e m e nt w as n ot c oll usi v e d es pit e q ui c k r es ol uti o n).
L e gisl ati v e D ef e n d a nts still pr ess a n o bj e cti o n t h at t h e c o ns e nt j u d g m e nt is t h e pr o d u ct of
c oll usi o n. B ut t his o b j e cti o n is b as e d o n n ot hi n g m or e t h a n r a n k s p e c ul ati o n. C o urts h a v e
g e n er all y r ej e ct e d si mil ar b as el ess a c c us ati o ns of c oll usi o n t h at o nl y att e m pt t o s c uttl e a f air a n d
j ust r es ol uti o n. “A bs e nt e vi d e n c e t o t h e c o ntr ar y, t h e c o urt m a y pr es u m e t h at s ettl e m e nt
n e g oti ati o ns w er e c o n d u ct e d i n g o o d f ait h a n d t h e r es ulti n g a gr e e m e nt w as r e a c h e d wit h o ut
c oll usi o n. ” L e a g u e of W o m e n V ot ers of V a. v. V a. St. B d. of El e cti o ns , 2 0 2 0 W L 2 1 5 8 2 4 9 ( W. D.
V a. M a y 5, 2 0 2 0) ( q u oti n g M c C url e y v. Fl o w ers F o o ds, J n c. , N o. 5: 1 6-c v -0 0 1 9 4, 2 0 1 8 W L

32

A p p. 7 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 6 of 4 9

6 6 5 0 1 3 8, at * 2 ( D. S. C. S e pt. 1 0, 2 0 1 8)). S e e als o F u n k h o us er v. Cit y of P orts m o ut h , N o. 2: 1 3c v -5 2 0, 2 0 1 5 W L 1 2 7 6 5 6 3 9, at * 3 ( E. D. V a. M a y 1 4, 2 0 1 5) ( “I n t h e a bs e n c e of a n y e vi d e n c e t o
t h e c o ntr ar y, it is pr es u m e d t h at n o fr a u d or c oll usio n o c c urr e d. ”); H e m p hill v. S a n Di e g o Ass’ n
of R e alt ors, I n c. , 2 2 5 F. R. D. 6 1 6, 6 2 1 ( S. D. C al. 2 0 0 5) ( “ As a g e n er al pri n ci pl e, t h e c o urts
r es p e ct t h e i nt e grit y of c o u ns el a n d pr es u m e t h e a bs e n c e of fr a u d or c oll usi o n i n n e g oti ati n g t h e
s ettl e m e nt, u nl ess e vi d e n c e t o t h e c o ntr ar y is off er e d. ”) (i nt er n al q u ot ati o n m ar k s o mitt e d).
C o ns e q u e ntl y, “t h e b ur d e n is o n t h e c h all e n gi n g p art y t o s h o w t h at t h e s ettl e m e nt is
i nf e ct e d wit h c oll usi o n. ” Gr a y v. D er d eri a n , N o. C A 0 4-3 1 2 L, 2 0 0 9 W L 2 9 9 7 0 6 6, at * 4 ( D. R.I.
A u g. 1 4, 2 0 0 9), a d o pt e d b y 2 0 0 9 W L 1 0 7 2 7 5 8 9 ( D. R.I. S e p. 1 5, 2 0 0 9) .3 It is n o s m all t as k t o
m e et t his b ur d e n, a n d d oi n g s o r e q uir es “ m or e t h a n s p e c ul ati o n ” t h at c oll usi o n o c c urr e d. L e a g u e
of W o m e n V ot ers of Vir gi ni a , 2 0 2 0 W L 2 1 5 8 2 4 9, at * 1 3.
B ut L e gisl ati v e D ef e n d a nts h a v e pr o vi d e d n ot hi n g m or e t h a n s p e c ul ati o n t o s u p p ort t h eir
a c c us ati o ns of c oll usi o n. T h e o nl y “ e vi d e n c e ” t h e y cit e t o s u p p ort t h eir b as el ess cl ai ms is t h at
Pl ai ntiffs a n d St at e D ef e n d a nts a n n o u n c e d a pr o p os e d c o ns e nt j u d g m e nt, t h at it h a d b e e n r e a c h e d
“i n s e cr et wit h o ut k n o wl e d g e of or c o ns ult ati o n wit h t h e L e gisl ati v e D ef e n d a nts. ” L D Cr ossM oti o n f or C o nti n u a n c e at 3. B ut n eit h er of t h es e a c c us ati o ns is c a us e t o c o n cl u d e t h at t h e
pr o p os e d c o ns e nt j u d g m e nt w as a pr o d u ct of c oll usi o n.
T h e a ct of r e a c hi n g a s ettl e m e nt its elf c a n n ot s er v e as pr o of of c oll usi o n. S e e I n r e
W ar n er C o m m c’ ns S e cs. Liti g. , 6 1 8 F. S u p p. 7 3 5, 7 5 1 ( S. D. N. Y. 1 9 8 5) ( “ S ettl e m e nt . . . is
h ar dl y pri m a f a ci e e vi d e n c e of c oll usi o n. ”). N or c a n t h e a bs e n c e of vitri ol b et w e e n liti g a nts or

3

T his st a n d ar d is r e c o g ni z e d a cr oss f e d er al a n d st at e j uris di cti o ns. E. g. , U nit e d St at es v.
D y n a mi cs R es e ar c h C or p. , 4 4 1 F. S u p p. 2 d 2 5 9, 2 6 8-6 9 ( D. M ass. 2 0 0 6); D a c ot a h M kt g. &
R es e ar c h, L L C v. V ers atilit y, I n c. , 2 1 F. S u p p. 2 d 5 7 0, 5 7 8 ( E. D. V a. 1 9 9 8); C o p p er Mt n., I n c. v.
P o m a of A m., I n c. , 8 9 0 P. 2 d 1 0 0, 1 0 8 ( C ol o. 1 9 9 5).
33

A p p. 7 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 7 of 4 9

c o u ns el. I d. A d diti o n all y, “ gi v e n t h e o b vi o us i n t er est i n o bt ai ni n g a r es ol uti o n . . . b ef or e ” t h e
r a pi dl y a p pr o a c hi n g el e cti o n, “t h e s wift ti mi n g of a n a gr e e m e nt . . . is n ot alt o g et h er
r e m ar k a bl e. ” L e a g u e of W o m e n V ot ers of Vir gi ni a , 2 0 2 0 W L 2 1 5 8 2 4 9, at * 1 3.
M or e o v er, L e gisl ati v e D ef e n d a nts’ pr ot est at i o ns t h at t h e y w er e n ot c o ns ult e d b ef or e
r e a c hi n g a r es ol uti o n ri n g h oll o w. T h e c o ns e nt j u d g m e nt is a r es ol uti o n a m o n g t w o of t h e t hr e e
p arti es — Pl ai ntiffs a n d t h e o nl y d ef e n d a nts t h at h a v e a r ol e i n e x er cisi n g e x e c uti v e a ut h orit y i n
t his c as e, t h e St at e Def e n d a nts. N o p art of t h e c o ns e nt j u d g m e nt aff e cts a l e gisl ati v e ri g ht or
i m p os es a n o bli g ati o n o n L e gisl ati v e D ef e n d a nts. A c c or di n gl y, t h er e w as n o r e as o n t o c o ns ult or
i nf or m t h e m. T h e y r e m ai n fr e e t o d ef e n d t h eir p ositi o ns o n b e h alf of t h e G e n er al Ass e m bl y i n
t his c as e.
V.

T h e P r o p os e d C o ns e nt J u d g m e nt D o es N ot R u n Af o ul of t h e U nit e d St at es
C o nstit uti o n

As dis c uss e d a b o v e, as of t his p ast S at ur d a y, t h e L e gisl ati v e D ef e n d a nts a n d P oliti c al
C o m mitt e e I nt er v e n ors ar e si m ult a n e o usl y p urs ui n g c oll at er al a tt a c ks a g ai nst t h e pr o p os e d
c o ns e nt j u d g m e nt i n f e d er al c o urt. T h eir cl ai ms i n t h at f or u m l a c k m erit, a n d n e e d n ot gi v e t his
C o urt a n y p a us e a b o ut a p pr o vi n g t h e p arti es’ a gr e e m e nt.
A.

St at e L a w E m p o w e rs t h e St at e B o a r d T o A g r e e t o t h e T e r ms i n t h e P r o p os e d
C o ns e nt J u d g m e nt.

T h e t er ms of t h e pr o p os e d c o ns e nt j u d g m e nt ar e e ntir el y c o nsist e nt wit h t h e a ut h orit y t h at
t h e St at e B o ar d e nj o ys u n d er st at e l a w. I n d e e d, t h e St at e B o ar d’s a cti o ns ar e s p e cifi c all y
a ut h ori z e d u n d er t w o s e p ar at e st at ut es: s e cti o ns 1 6 3 -2 2. 2 a n d 1 6 3 -2 7. 1.
T h e St at e B o ar d e nj o ys disti n cti v e a ut h orit y u n d er st at e l a w — a ut h orit y t h at h as b e e n
r e c o g ni z e d b y o ur St at e’s S u pr e m e C o urt: “[ C] o nsist e nt wit h m u c h m o d er n l e gisl ati o n, t h e
G e n er al Ass e m bl y h as d el e g at e d t o t h e m e m b ers of t h e [ St at e B o ar d] t h e a ut h orit y t o m a k e

34

A p p. 7 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 8 of 4 9

n u m er o us dis cr eti o n ar y d e cisi o ns. ” C o o p er v. B er g er , 3 7 0 N. C. 3 9 2, 4 1 5 n. 1 1, 8 0 9 S. E. 2 d 9 8,
1 1 3 n. 1 1 ( 2 0 1 8).
O n e of t h es e dis cr eti o n ar y d e cisi o ns t h at is a c c or d e d t o t h e St at e B o ar d is t h e a ut h orit y t o
e nt er i nt o c o ns e nt j u d g m e nts t o a v oi d pr otr a ct e d liti g ati o n c h all e n gi n g t h e c o nstit uti o n alit y of
N ort h C ar oli n a el e cti o n l a ws. N ort h C ar oli n a G e n er al St at ut es § 1 6 3 -2 2. 2 e x pli citl y pr o vi d es:
“I n t h e e v e nt a n y p orti o n of C h a pt er 1 6 3 of t h e G e n er al St at ut es or a n y St at e el e cti o n l a w . . . is
h el d u n c o nstit uti o n al or i n v ali d b y a St at e or f e d er al c o urt . . . t h e St at e B o ar d of El e cti o ns s h all
h a v e t h e a ut h orit y t o m a k e r e as o n a bl e i nt eri m r ul es a n d r e g ul ati o ns wit h r es p e ct t o t h e p e n di n g
pri m ar y or el e cti o n as it d e e ms a d vis a bl e . . . . T h e St at e B o ar d of El e cti o ns s h all als o b e
a ut h oriz e d , u p o n r e c o m m e n d ati o n of t h e Att or n e y G e n er al, t o e nt er i nt o a gr e e m e nt wit h t h e
c o urts i n li e u of pr otr a ct e d liti g ati o n u ntil s u c h ti m e as t h e G e n er al Ass e m bl y c o n v e n es. ” T his
st at ut or y pr o visi o n cl e arl y est a blis h es t h at t h e G e n er al Ass e m bl y h as gi v e n t h e St at e B o ar d
a ut h orit y t o pr o p os e t o t h e C o urt t h e c o ns e nt j u d g m e nt i n t h e J oi nt M oti o n.
T h at a ut h orit y a p pli es h er e. Pl ai ntiffs’ l a ws uit c h all e n g es t h e c o nstit uti o n alit y of a
n u m b er of st at e el e cti o ns l a ws a n d as ks t h is C o urt t o e nj oi n t h eir e nf or c e m e nt f or t h e N o v e m b er
2 0 2 0 el e cti o ns. T o a v oi d pr otr a ct e d liti g ati o n a n d e ns ur e c ert ai nt y a n d f air n ess f or v ot ers, t h e
St at e B o ar d t o o k r e as o n a bl e a cti o n t o e nt er i nt o a n a gr e e m e nt t h at m a k es m o d est a dj ust m e nts t o
v oti n g pr o c e d ur es i n N ort h C ar oli n a f or t h e 2 0 2 0 g e n er al el e cti o n. T h es e m o difi c ati o ns pr es er v e
t h e c o nstit uti o n alit y of t h e st at ut es t h at Pl ai ntiffs h a v e c h all e n g e d, w hil e als o pr ot e cti n g v ot ers’
c o nstit uti o n al ri g hts. C ar ef ull y c ali br at e d m o difi c ati o ns of t h at ki n d ar e pr e cis el y t h e s ort of
p oli c y j u d g m e nts t h at N. C. G e n. St at. § 1 6 3 -2 2. 2 a ut h ori z es t h e B o ar d t o m a k e i n r es p o ns e t o
liti g ati o n.

35

A p p. 7 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 3 9 of 4 9

T o t h e e xt e nt t h at t h e L e gisl ati v e D ef e n d a nts o bj e ct t o t h e i m pl e m e nt ati o n of t h e c ur e
m e c h a nis m, w hi c h is p art of t h e pr o p os e d c o ns e nt j u d g m e nt, t h eir c o m pl ai nts ar e m eritl ess f or at
l e ast t w o r e as o ns. First, as j ust e x pl ai n e d, t h e St at e B o ar d is a ut h ori z e d t o i m pl e m e nt t h e c ur e
m e c h a nis m as p art of its a ut h orit y t o e nt er i nt o c o ns e nt j u d g m e nts u n d er N. C. G e n. St at. § 1 6 3 2 2. 2. S e c o n d, t h e St at e B o ar d h as s e p ar at e a ut h orit y u n d er N. C. G e n. St at. § 1 6 3 -2 2. 2 t o
i m pl e m e nt t h e c ur e m e c h a nis m as a n i nt eri m r e g ul ati o n n e c essit at e d b y a c o urt’s fi n di n g of a
c o nstit uti o n al vi ol ati o n.
O n A u g ust 4, 2 0 2 0, a f e d er al distri ct c o urt h el d t h at N ort h C ar oli n a’s el e cti o n l a ws
r el at e d t o a bs e nt e e b all ots f ail e d t o aff or d pr o c e d ur al d u e pr o c ess b e c a us e t h e y di d “ n ot aff or d
m ail -i n a bs e nt e e v ot ers a n y n oti c e of, or o p p ort u niti es t o c ur e, m at eri al d ef e cts i n . . . t h[ eir]
a bs e nt e e b all ots. ” D e m o cr a c y N ort h C ar oli n a v. N ort h C ar oli n a St at e B d. of El e cti o ns , N o. 2 0c v -4 5 7 D kt. 1 2 4 at 1 5 0 ( M. D. N. C. A u g. 4, 2 0 2 0). T h e c o urt s p e cifi e d t h at “ w h e n t h e b all ot is
r ej e ct e d f or a r e as o n t h at is c ur a bl e, s u c h as i n c o m pl et e wit n ess i nf or m ati o n, or a si gn at ur e
mis m at c h, a n d t h e v ot er is n ot gi v e n n oti c e or a n o p p ort u nit y t o b e h e ar d o n t his d efi ci e n c y, t h e
c o urt fi n ds t his ‘f a ci all y eff e ct[s] a d e pri v ati o n of t h e ri g ht t o v ot e.’ ” I d. at 1 5 6 ( q u oti n g S elf
A d v o c a c y S ols. N. D. v. J a e g er , N o. 3: 2 0-c v -7 1, 2 0 2 0 W L 2 9 5 1 0 1 2, at * 9 ( D. N. D. J u n e 3, 2 0 2 0)).
T his “ c o m p ell e d ” t h e c o urt t o fi n d t h at t h e a bs e nt e e -b all ot st at ut es w er e “ c o nstit uti o n all y
i n a d e q u at e ” a bs e nt a st at e wi d e c uri n g pr o c e d ur e. I d. at 1 5 7. A c c or di n gl y, t h e c o urt e nj oi n e d t h e
St at e B o ar d fr o m all o wi n g a n y a bs e nt e e b all ots t o b e r ej e ct e d “ wit h o ut d u e pr o c ess as t o t h os e
b all ots wit h a m at eri al err or t h at is s u bj e ct t o r e m e di ati o n. ” I d. at 1 8 7. T h e St at e B o ar d w as
dir e ct e d t o i m pl e m e nt a pr o c e d ur e w hi c h “ pr o vi d es a v ot er wit h n oti c e a n d a n o p p ort u nit y t o b e
h e ar d b ef or e a n a bs e nt e e b all ot wit h a m at eri al err or s u bj e ct t o r e m e di ati o n is dis all o w e d or
r ej e ct e d. ” I d. I n c o m pli a n c e wit h t his i nj u n cti o n a n d p urs u a nt t o its st at ut or y a ut h orit y u n d er

36

A p p. 7 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 0 of 4 9

s e cti o n 1 6 3-2 2. 2, o n S e pt e m b er 2 2, 2 0 2 0, t h e St at e B o ar d i nstit ut e d t h e c ur e pr o c e d ur e att a c h e d
t o t h e pr o p os e d c o ns e nt j u d g m e nt. At t h e s a m e ti m e, t h e St at e B o ar d n otifi e d t h e f e d er al c o urt of
its c ur e m e c h a nis m pr o c ess.
Fi n all y, i n a d diti o n t o a ut h orit y u n d er N. C. G e n. St at. § 1 6 3 -2 2. 2, t h e St at e B o a r d,
t hr o u g h its E x e c uti v e Dir e ct or, als o h as a ut h orit y t o i nstit ut e e m er g e n c y or d ers t o c o n d u ct a n
el e cti o n i n t h e mi dst of a c at astr o p h e r es ulti n g i n a dis ast er d e cl ar ati o n b y t h e Pr esi d e nt of t h e
U nit e d St at es or t h e G o v er n or. N. C. G e n. St at. § 1 6 3 -2 7. 1 ; 0 8 N C A C 0 1 . 0 1 0 6. T h es e p o w ers
all o w t h e E x e c uti v e Dir e ct or t o m a k e m o difi c ati o ns t o st at ut es g o v er ni n g t h e “ c o n d u ct of a n
el e cti o n i n a distri ct w h er e t h e n or m al s c h e d ul e f or t h e el e cti o n is disr u pt e d. ” I d. T h e E x e c uti v e
Dir e ct or h as e x er cis e d t his a ut h orit y i n n e arl y e v er y el e cti o n c y cl e i n r e c e nt m e m or y, i n r es p o ns e
t o h urri c a n es a n d ot h er dis ast ers.

M ost r e c e ntl y, t h e E x e c uti v e Dir e ct or e x er cis e d t his a ut h orit y

i n r es p o ns e t o t h e o n g oi n g C O VI D-1 9 p a n d e mi c w h e n s h e iss u e d a n e m er g e n c y or d er m a n d ati n g
mi ni m u m w e e k e n d h o urs f or o n e -st o p sit es, mi ni m u m o n e -st o p e arl y v oti n g sit es, a n d t h e
i m pl e m e nt ati o n of s af et y a n d s a nit ati o n r e q uir e m e nts f or t h e a d mi nistr ati o n of i n-p ers o n v oti n g.
S e e E m er g e n c y Or d er A d mi nist eri n g t h e N o v e m b er 3, 2 0 2 0 G e n er al El e ct i o n D uri n g t h e Gl o b al
C O VI D -1 9 P a n d e mi c a n d P u bli c H e alt h E m er g e n c y (J ul y 1 7, 2 0 2 0), a v ail a bl e at
htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/ St at e _ B o ar d _ M e eti n g _ D o cs/ Or d ers/ E x e c uti v e % 2 0 Dir e c
t or % 2 0 Or d ers/ E m er g e n c y % 2 0 Or d er _ 2 0 2 0-0 7 -1 7. p df . E a c h of t h es e m a n d at es m a d e
m o difi c ati o ns t o t h e e nf or c e m e nt of e xisti n g st at e l a w t o a c c o m m o d at e t h e o n g oi n g crisis.
Si mil arl y h er e, t h e E x e c uti v e Dir e ct or w o ul d h a v e t h e st at ut or y a ut h orit y t o m a k e a n y of
t h e m o difi c ati o ns s et f ort h i n t h e N u m b er e d M e m os usi n g h er e m er g e n c y p o w ers if s h e f o u n d
t h e m n e c ess ar y. Aft er all, t h e St at e of N ort h C ar oli n a is still o p er ati n g u n d er t h e dis ast er
d e cl ar ati o n iss u e d b y t h e Pr esi d e nt of t h e U nit e d St at es a n d t h e G o v er n or a n d t h e E x e c uti v e

37

A p p. 7 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 1 of 4 9

Dir e ct or w o ul d h a v e a ut h orit y t o iss u e t h es e N u m b e r e d M e m os aft er t a ki n g i nt o a c c o u nt t h e
e n u m er at e d f a ct ors i n 0 8 N C A C 0 1 . 0 1 0 6.
T h e r e as o n, t h er ef or e, f or t a ki n g t h es e a cti o ns as p art of a c o ns e nt j u d g m e nt — a n d n ot as
i n d e p e n d e nt e x er cis es of a ut h orit y--is, of c o urs e b e c a us e a c o ns e nt or d er h as att e n da nt b e n efits:
W er e t h e St at e B o ar d a n d E x e c uti v e Dir e ct or t o t a k e t h es e a cti o ns i n d e p e n d e ntl y, t h e y w o ul d n ot
h a v e b e e n a bl e t o n e g oti at e t h e r el e as e of all of Pl ai ntiffs’ ot h er cl ai ms. B y t a ki n g t h es e a cti o ns
as p art of e ntr y of a c o ns e nt j u d g m e nt, t h e St at e D ef e n d a nts ar e a bl e t o e ns ur e a gr e at er p u bli c
b e n efit: s e c uri n g c ert ai nt y f or t h e v ot ers of t his St at e w hil e als o a v oi di n g u n n e c ess ar y e x p e ns e.
B e c a us e t h e E x e c uti v e Dir e ct or a n d t h e St at e B o ar d ar e a ut h ori z e d t o m a k e t h e
m o difi c ati o ns t o t h e e nf o r c e m e nt of N ort h C ar oli n a’s el e cti o n l a ws u n d er N. C. G e n. St at.
§ § 1 6 3 -2 2. 2 a n d 1 6 3 -2 7. 1, t h e pr o p os e d c o ns e nt j u d g m e nt is c o nsist e nt wit h N ort h C ar oli n a l a w
a n d is f air, a d e q u at e, a n d r e as o n a bl e.
B.

T h e P r o visi o ns i n t h e P r o p os e d C o ns e nt J u d g m e nt A r e C o ns ist e nt Wit h t h e
El e cti o ns Cl a us e.

T h e L e gisl ati v e D ef e n d a nts a n d t h e P oliti c al C o m mitt e e I nt er v e n ors’ c oll at er al liti g ati o n
als o ar g u es t h at t h e pr o visi o ns of t h e pr o p os e d c o ns e nt j u d g m e nt ar e u nl a wf ul b e c a us e t h e y
vi ol at e t h e El e cti o ns Cl a us e of t h e U nit e d St at es C o nstit uti o n. T h eir ar g u m e nts ar e b as el ess.
T h e El e cti o ns Cl a us e st at es, i n r el e v a nt p art, t h at “[t] h e Ti m es, Pl a c es a n d M a n n er of
h ol di n g El e cti o ns f or S e n at ors a n d R e pr es e nt ati v es, s h all b e pr es cri b e d i n e a c h St at e b y t h e
L e gisl at ur e t h er e of. ” U. S. C o nst. art. I, § 4, cl. 1. I n c oll at er al liti g ati o n t h at t h e L e gisl ati v e
D ef e n d a nts fil e d o n S at ur d a y ni g ht — j ust i n a d v a n c e of t h e h e ari n g o n t his m oti o n— t h e
L e gisl ati v e D ef e n d a nts ass ert e d t h at t his Cl a us e e m p o w ers “ o nl y t w o e ntiti es ” t o r e g ul at e
e l e cti o ns i n N ort h C ar oli n a: C o n gr ess a n d t h e N ort h C ar oli n a G e n er al Ass e m bl y. M o or e v.
Cir c ost a , T R O M e m or a n d u m at 1 1; s e e als o i d. at 1 2 ( c o nt e n di n g t h at “[ b] y c h o osi n g t o us e t h e

38

A p p. 7 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 2 of 4 9

w or d ‘ L e gisl at ur e,’ t h e El e cti o ns Cl a us e m a k es cl e ar t h at t h e C o nstit uti o n . . . gr a nt[s] t h e p o w er
t o r e g ul at e el e cti o ns . . . t o t h e st at e’s l e gisl ati v e br a n c h ” al o n e). U n d er cl e ar S u pr e m e C o urt
pr e c e d e nt, t h e L e gisl ati v e D ef e n d a nts’ cr a m p e d i nt er pr et ati o n of t h e El e cti o ns Cl a us e is fl atl y
wr o n g.
M or e t h a n a c e nt ur y a g o, t h e S u pr e m e C o urt m a d e cl e ar t h at t h e w or d “ L e gisl at ur e ” i n
t h e El e cti o ns Cl a us e s h o ul d n ot b e r e a d as a r ef er e n c e t o “t h e r e pr es e nt ati v e b o d y al o n e. ” Ariz.
St at e L e gisl at ur e v. Ariz. I n d e p. R e distri cti n g C o m m’ n , 5 7 6 U. S. 7 8 7, 8 0 5 ( 2 0 1 5) ( d es cri bi n g t h e
C o urt’s h ol di n g i n O hi o e x r el. D a vis v. Hil d e br a nt , 2 4 1 U. S. 5 6 5 ( 1 9 1 6)).
T h e S u pr e m e C o urt h as r e p e at e dl y affir m e d t his i nt er pr et ati o n of t h e El e cti o ns Cl a us e,
i n cl u di n g as r e c e ntl y as a f e w T er ms a g o. S e e, e . g., Ariz. I n d e p. R e distri cti n g C o m m’ n , 5 7 6 U. S.
7 8 7; S mil e y v. H ol m , 2 8 5 U. S. 3 5 5 ( 1 9 3 2). I n Ariz o n a I n d e p e n d e nt R e distri cti n g C o m missi o n ,
t h e C o urt ass ess e d t h e c o nstit uti o n alit y of a n i n d e p e n d e nt r e distri cti n g c o m missi o n t h at h a d b e e n
cr e at e d as p art of a n i niti ati v e r atifi e d b y Ari z o n a v o t ers. 2 8 5 U. S. at 7 9 2. Aft er t h e c o m missi o n
a d o pt e d n e w r e distri cti n g m a ps, t h e Ari z o n a L e gisl at ur e s u e d, ar g ui n g t h at t h e c o m missi o n h a d
us ur p e d its a ut h orit y u n d er t h e El e cti o ns Cl a us e. I n t h e Ari z o n a L e gisl at ur e’s vi e w, t h e Cl a us e’s
us e of t h e w or d “ L e gisl at ur e ” “ m e a n[t] s p e cifi c all y a n d o nl y t h e r e pr es e nt ati v e b o d y w hi c h
m a k es t h e l a ws of t h e p e o pl e. ” I d. ( cit ati o n o mitt e d). T h e Ari z o n a L e gisl at ur e t h us m ai nt ai n e d
t h at t h e C o m missi o n— a n d t h e m a ps t h at it h a d dr a w n — w er e u n c o nstit uti o n al.
A g ai n, t h e S u pr e m e C o urt r ej e ct e d t his n arr o w r e a di n g of t h e El e cti o ns Cl a us e , h ol di n g
t h at t h e w or d “ L e gisl at ur e ” m ust b e i nt er pr et e d “i n a c c or d a n c e wit h t h e [r el e v a nt] St at e’s
pr es cri pti o ns f or l a w m a ki n g. ” I d. at 8 1 3, 8 1 4 -2 4 . F or e x a m pl e, if st at e l a w r e q uir es t hat
el e cti o ns l a ws b e p ass e d b y a G e n er al Ass e m bl y s u bj e ct t o t h e G o v er n or’s v et o, “t h e El e cti o ns
Cl a us e . . . r es p e ct[s] t h e St at e’s c h oi c e t o i n cl u d e t h e G o v er n or ” i n t h e l e gisl ati v e pr o c ess. I d. at

39

A p p. 7 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 3 of 4 9

8 0 7; s e e als o S mil e y, 2 8 5 U. S. at 3 6 8, 3 7 2-7 3 ( h ol di n g t h at “ n ot hi n g i n ” t h e El e cti o ns Cl a us e
“ pr e cl u d es a st at e fr o m pr o vi di n g t h at l e gisl ati o n a cti o n i n distri cti n g t h e st at e f or c o n gr essi o n al
el e cti o ns s h all b e s u bj e ct t o t h e v et o p o w er of t h e G o v er n or as i n ot h er c as es of t h e e x er cis e of
t h e l a w m a ki n g p o w er ”).
A p pl yi n g t h es e pr e c e d e nts, t his C o urt c a n n ot si m pl y ass u m e — as t h e L e gisl ati v e
D ef e n d a nts a n d t h e P oliti c al C o m mitt e e I nt er v e n ors ur g e — t h at t h e N ort h C ar oli n a G e n er al
Ass e m bl y is t h e “ L e gisl at ur e ” t h at t h e El e cti o ns Cl a us e r ef er e n c es. Ariz. I n d e p. R e distri cti n g
C o m m’ n , 5 7 6 U. S. at 8 0 5, 8 0 8-0 9, 8 1 6. I nst e a d, t his C o urt m ust l o o k t o N ort h C ar oli n a l a w t o
d et er mi n e w h o t h e St at e a ut h ori z es t o r e g ul at e el e cti o ns. S mil e y , 2 8 5 U. S. at 3 6 8 ( q u esti o n of
w h o h as t h e “ a ut h orit y [t o] m a k[ e] l a ws f or t h e st at e ” is a “ m att er of st at e p olit y ”).
H er e, it is cl e ar t h at st at e l a w e m p o w ers b ot h t h e G e n er al Ass e m bl y a n d t h e St at e B o ar d
t o r e g ul at e t h e “ Ti m e[ ], Pl a c e[ ], a n d M a n n er ” of el e cti o ns. S e e s u pr a p p. 3 5 -3 9. As dis c uss e d
a b o v e, st at e l a w s p e cifi c all y a ut h ori z es t h e St at e D ef e n d a nts t o t a k e t h e a cti o ns it h as i n t h e
pr o p os e d c o ns e nt j u d g m e nt. S e e i d. B e c a us e t h e B o ar d’s a cti o ns ar e e ntir el y c o nsist e nt wit h
“t h e m et h o d w hi c h t h e St at e h as pr es cri b e d ” f or e n a cti n g el e cti o ns r e g ul ati o ns , t h e pr o p os e d
c o ns e nt j u d g m e nt p os es n o pr o bl e m u n d er t h e El e cti o ns Cl a us e . S e e Ariz. I n d e p. R e distri cti n g
C o m m’ n , 5 6 7 U. S. at 8 0 7 ( q u oti n g S mil e y , 2 8 5 U. S. at 3 6 7).
I n a d diti o n, h o w e v er, st at e l a w als o a ut h ori z es t his St at e’s o w n c o urts t o e nf or c e t h e
c o nstit uti o n al b o u n d ari e s of t h e N ort h C ar oli n a C o nstit uti o n. S e e, e. g. , C o o p er , 3 7 0 N. C. at 4 1 0,
8 0 9 S. E. 2 d at 1 0 9 (r ei nf or ci n g t h e a ut h orit y of st at e c o urts t o “ n e c ess aril y c o nstr ai n[] ” t h e
G e n er al Ass e m bl y’s a ut h orit y b y t h e “li mits pl a c e d u p o n t h at a ut h orit y b y ot h er c o nstit uti o n al
pr o visi o ns ”). A c c or di n gl y, t his C o urt’s e ntr y of a c o ns e nt j u d g m e nt w o ul d b e e ntir el y wit hi n t h e
b o u n ds a n d c o nsist e nt wit h t h e El e cti o ns Cl a us e.

40

A p p. 8 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 4 of 4 9

C.

T h e P r o visi o ns i n t h e P r o p os e d C o ns e nt J u d g m e nt A r e C o nsist e nt Wit h t h e
E q u al P r ot e cti o n Cl a us e.

T h e L e gisl ati v e D ef e n d a nts a n d t h e P oliti c al C o m mitt e e I nt er v e n ors als o cl ai m t h at t h e
pr o visi o ns of t h e pr o p os e d c o ns e nt j u d g m e nt ar e u nl a wf ul b e c a us e t h e y vi ol at e t h e E q u al
Pr ot e cti o n Cl a us e of t h e U nit e d St at es C o nstit uti o n. T h e ir ar g u m e nts ar e b as el e ss.
I n t h e s a m e c oll at er al liti g ati o n s t h at t h e L e gisl ati v e D ef e n d a nts a n d t h e P oliti c al
C o m mitt e e I nt er v e n ors fil e d o n S at ur d a y ni g ht, t h e y ass ert e d t h at t h e pr o visi o ns of t h e c o ns e nt
j u d g m e nt i nstit ut e r ul es t h at ar e ar bitr ar y a n d n o n u nif or m. M o or e , N o. 5: 2 0 -c v -5 0 7, D E 1
( C o m pl ai nt), 8 ( E m er g e n c y M oti o n f or T e m p or ar y R estr ai ni n g Or d er); Wis e v. N ort h C ar oli n a
St at e B d. of El e cti o ns , 5: 2 0-c v -5 0 5 ( E. D. N. C. S e pt. 2 6, 2 0 2 0), D E 1 ( C o m pl ai nt), 3 ( E m er g e n c y
M oti o n f or T e m p or ar y R estr ai ni n g Or d er). A g ai n, h o w e v er, t h eir ar g u m e nts ar e e ntir el y
u ns u p p ort e d.
First, t h e L e gisl ati v e D ef e n d a nts d o n ot h a v e st a n di n g t o c h all e n g e t h e pr o visi o ns i n t h e
c o ns e nt j u d g m e nt as ar bitr ar y a n d n o n u nif or m or t h at t h e c o ns e nt j u d g m e nt dil ut es t h eir v ot es.
T h e L e gisl ati v e D ef e n d a nts h a v e a p p e ar e d i n t his c as e i n t h eir offi ci al c a p a citi es, t o pr ess t h eir
p ositi o ns o n b e h alf of t h e G e n er al Ass e m bl y. B ut v ot e -dil uti o n a n d n o n u nif or mit y cl ai ms u n d er
t h e E q u al Pr ot e cti o n Cl a us e c a n o nl y b e br o u g ht b y i n di vi d u al v ot ers. T h e ri g ht t o p arti ci p at e i n
el e cti o ns o n a n e q u al b asis is a ri g ht t h at b el o n gs t o t h e v ot er, n ot t o l e gisl at ors w h o bri n g t h eir
cl ai ms i n t h eir offi ci al c a p a cit y or c a n di d at es f or el e cti o n. D u n n v. Bl u mst ei n , 4 0 5 U. S. 3 3 0, 3 3 6
( 1 9 7 2). T h er ef or e, t h e L e gisl ati v e D ef en d a nts ar e n ot e ntitl e d t o o bj e ct t o t h e c o ns e nt j u d g m e nt
o n t his b asis.
N or d o t h e P oliti c al C o m mitt e e I nt er v e n ors h a v e st a n di n g t o c h all e n g e t h e c o ns e nt
j u d g m e nt o n t his b asis. T h e y, t o o, ar e n ot i n di vi d u al v ot ers w h o c a n bri n g t his cl ai m.

41

A p p. 8 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 5 of 4 9

S e c o n d, e v e n if t h e y w er e e ntitl e d t o o bj e ct o n t h e b asis of t h e E q u al Pr ot e cti o n Cl a us e,
t h eir o bj e cti o n is m eritl ess. T h e pr o visi o ns of t h e c o ns e nt j u d g m e nt d o n ot e nf or c e diff er e nt
r e q uir e m e nts o n diff er e nt v ot ers. T h e y a ct u all y d o t h e e x a ct o p p osit e. S e e N u m b er e d M e m o
2 0 2 0 -1 9 ( E x. B t o J oi nt M oti o n f or E ntr y of Sti p ul ati o n a n d C o ns e nt J u d g m e nt) ( “ C o u nt y b o ar ds
of el e cti o ns h a v e alr e a d y e x p eri e n c e d a n u n pr e c e d e nt e d n u m b er of v ot ers s e e ki n g t o v ot e
a bs e nt e e -b y -m ail i n t h e 2 0 2 0 G e n er al El e cti o n, m a ki n g st at e wi d e u nif or mit y a n d c o nsist e n c y i n
r e vi e wi n g a n d pr o c essi n g t h es e b all ots m or e ess e nti al t h a n e v er. C o u nt y b o ar ds of el e cti o ns m ust
e ns ur e t h at t h e v ot es of all eli gi bl e v ot ers ar e c o u nt e d usi n g t h e s a m e st a n d ar ds, r e g ar dl ess of t h e
c o u nt y i n w hi c h t h e v ot er r esi d es. ”). N eit h er t h e L e gisl ati v e D ef e n d a nts n or t h e P oliti c al
C o m mitt e e I nt er v e n ors s h o w t h at t h e pr o visi o ns ar e b ei n g e nf or c e d diff er e ntl y o n diff er e nt
v ot ers — m u c h l ess t h at t h e y ar e e x p eri e n ci n g diff er e nti al tr e at m e nt. A n y o bj e cti o n o n t h e b asis
of t h e E q u al Pr ot e cti o n Cl a us e f ails.

42

A p p. 8 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 6 of 4 9

C O N C L U SI O N
F or t h e f or e g oi n g r e as o ns, t h e St at e D ef e n d a nts r es p e ctf ull y r e q u est t h at t h e C o u rt e nt er
fi n al j u d g m e nt i n t h e f or m of t h e sti p ul ati o n a n d pr o p os e d c o ns e nt or d er.
D at e d: S e pt e m b er 3 0, 2 0 2 0

J O S H U A H. S T EI N
Att or n e y G e n er al
_____________________________
Al e x a n d er M c C. P et ers
N. C. St at e B ar N o. 1 3 6 5 4
C hi ef D e p ut y Att or n e y G e n er al
E m ail: a p et ers @ n c d oj. g o v
N. C. D e pt. of J usti c e
P ost Offi c e B o x 6 2 9
R al ei g h, N C 2 7 6 0 2
T el e p h o n e: ( 9 1 9) 7 1 6 -6 9 0 0
F a csi mil e: ( 9 1 9) 7 1 6 -6 7 6 3
C o u ns el f or t h e E x e c uti v e
D ef e n d a nts

43

A p p. 8 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 7 of 4 9

C E R TI FI C A T E O F S E R VI C E
T h e u n d ersi g n e d h er e b y c ertifi es t h at t h e f or g oi n g d o c u m e nt w as s er v e d o n t h e f oll o wi n g
p arti es vi a e m ail :
N at h a n H uff
P h el ps D u n b ar L L P
4 1 4 0 P ar k L a k e A v e n u e, S uit e 1 0 0
R al ei g h, N. C. 2 7 6 1 2
n at h a n. h uff @ p h el ps. c o m

B urt o n Cr ai g e
N ar e n dr a K. G h os h
P a ul E. S mit h
P att ers o n H ar k a v y L L P
1 0 0 E ur o p a Dr., S uit e 4 2 0
C h a p el Hill, N. C. 2 7 5 1 7
b cr ai g e @ p at hl a w. c o m
n g h os h @ p at hl a w. c o m
ps mit h @ p at hl a w. c o m

Ni c ol e J o M oss
D a vi d H. T h o m ps o n
P et er A. P att ers o n
C o o p er & Kir k, P L L C
1 5 2 3 N e w H a m ps hir e A v e n u e, N W
W as hi n gt o n, D .C . 2 0 0 3 6
n m oss @ c o o p er kir k. c o m
p p att ers o n @ c o o p er kir k. c o m
dt h o m ps o n @ c o o p er kir k. c o m

M ar c E. Eli as
U z o m a N. N k w o nt a
Ari el B. Gli c k m a n
J y oti J asr as ari a
L ali t h a D. M a d d uri
P E R KI N S C OI E, L L P
7 0 0 T hirt e e nt h Str e et, N. W. S uit e 8 0 0
W as hi n gt o n, D. C. 2 0 0 0 5
M Eli as @ p er ki ns c oi e. c o m
U N k w o nt a @ p er ki ns c oi e. c o m
A G 1i c k m a n @ p er ki ns c oi e. c o m
JJ asr as ari a @ p er ki ns c oi e. c o m
L M a d d uri @ p er ki ns c oi e. c o m

C o u ns el f or I nt er v e n or -D ef e n d a nts
R. S c ott T o bi n
T a yl or E n glis h D u m a L L P
4 2 0 8 Si x F or ks R o a d, S uit e 1 0 0 0
R al ei g h, N. C. 2 7 6 0 9
st o b ei n @t a yl or e n glis h. c o m
B o b b y B ur c hfi el d
M att h e w M. L el a n d
Ki n g & S p al di n g L L P
1 7 0 0 P e n ns yl v a ni a A v e. N. W., S uit e 2 0 0
W as hi n gt o n, D C 2 0 0 0 6 -4 7 0 7
B B ur c hfi el d @ K S L A W. c o m
ml el a n d @ ksl a w. c o m

C o u ns el f or Pl ai ntiffs

C o u ns el f or I nt er v e n or -D ef e n d a nts

44

A p p. 8 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 8 of 4 9

T his t h e 3 0 t h d a y of S e pt e m b er , 2 0 2 0.
_________________________
Al e x a n d er M c C. P et ers
C hi ef D e p ut y Att or n e y G e n er al

45

A p p. 8 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 8- 1

Fil e d 1 0/ 0 8/ 2 0

P a g e 4 9 of 4 9

A P P E N DI X F

A p p. 8 6

E X HI BI T 1

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u mA ep ntp. 4 80-72

Fil e d 1 0/ 0 2/ 2 0

P a g e 1 of 2

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5
R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

N u m bere d Me m o 2 0 2 0 - 2 7
T O:

C o u nt y B o ar ds of El e cti o ns

F R O M:

K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or

R E:

C o urt Or d er R e g ar di n g Wit n ess Si g n at ur e D efi ci e n c y

D A T E:

O ct o b er 1 , 2 0 2 0

O n S e pt e m b er 3 0 , 2 0 2 0, t h e U. S. Distri ct C o urt f or t h e Mi d dl e Distri ct of N ort h C ar oli n a iss u e d
a n or d er r e q uiri n g t h e p arti es t o att e n d a st at us c o nf er e n c e t o dis c uss N u m b er e d M e m o 2 0 2 0- 1 9.
D e m o cr a c y N C v. St at e B o ar d , 1: 2 0 C V 4 5 7, Or d er o n St at us C o nf er e n c e ( M. D. N. C. S e pt. 3 0,
2 0 2 0). I n t h e or d er , t h e c o urt st at es it d o es n ot fi n d N u m b er e d M e m o 2 0 2 0-1 9 “ c o nsist e nt wit h
t h e Or d er e nt er e d b y t his C o urt o n A u g ust 4, 2 0 2 0, ” a n d i n di c at es t h at its pr eli mi n ar y i nj un cti o n
or d er s h o ul d “n ot b e c o nstr u e d as fi n di n g t h at t h e f ail ur e of a wit n ess t o si g n t h e a p pli c ati o n a n d
c ertifi c at e as a wit n ess is a d efi ci e n c y w hi c h m a y b e c ur e d wit h a c ertifi c ati o n aft er t h e b all ot h as
b e e n r et ur n e d. ” I d. at 3- 4. In or d er t o a v oi d c o nf usi o n w hil e r el at e d m att ers ar e p e n di n g i n a
n u m b er of c o urts, t his m e m o is iss u e d eff e cti v e i m m e di at el y a n d is i n pl a c e u ntil f urt h er n u m b er e d
m e m o fr o m th e St at e B o ar d .
C o u nt y b o a r ds t h at r e c ei v e a n e x e c ut e d a bs e nt e e c o nt ai n e r -r et u r n e n v el o p e wit h a missi n g
wit n ess si g n at u r e s h all t a k e n o a cti o n as t o t h at e n v el o p e. T his i n cl u d es a n y c o nt ai n er -r et ur n
e n v el o p es t h at c o nt ai n m ulti pl e d efi ci e n ci es t h at i n cl u d e a missi n g wit n ess si g n at ur e. C o u nt y
b o ar ds s h all n ot s e n d a c ur e c ertifi c ati o n or r eiss u e t h e b all ot if t h e y r e c ei v e a n e x e c ut e d c o nt ai n err et ur n e n v el o p e wit h o ut a wit n ess si g n at ur e. A bs e nt e e e n v el o p e s wit h a missi n g wit n ess si g n at ur e
s h all b e k e pt i n a s e c ur e l o c ati o n a n d s h all n ot b e c o nsi d er e d b y t h e c o u nt y b o ar d u ntil f urt h er
n oti c e . O n c e t h e St at e B o ar d r e c ei v es f urt h er dir e cti o n fr o m a c o urt, w e will iss u e g ui d a n c e t o
c o u nt y b o ar ds o n w h at a cti o ns t h e y s h o ul d t a k e r e g ar di n g c o nt ai n er -r et ur n e n v el o p es wit h a missi n g wit n ess si g n at ur e. G ui d a n c e will als o a d dr ess h o w t o h a n dl e b all ots wit h a missi n g wit n ess
si g n at ur e t h at w er e pr e vi o usl y a ct e d u p o n b y t h e c o u nt y b o ar d if a c ur e c ertifi c ati o n h as b e e n
r et ur n e d.
I n all ot h e r r es p e cts, N u m b e r e d M e m o 2 0 2 0 -1 9 , as r e vis e d o n S e pt e m b e r 2 2, 2 0 2 0, r e m ai ns
i n eff e ct. T his m e a ns t h at c o u nt y b o ar ds s h all c o nti n u e t o iss u e c ur e c ertifi c ati o ns f or all ot h er
d efi ci e n ci es i d e ntifi e d i n S e cti o n 2. 1 of N u m b er e d M e m o 2 0 2 0 -1 9 a n d s h all f oll o w t h e pr o c ess es
o utli n e d i n t h e m e m o f or all d efi ci e n ci es e x c e pt a missi n g wit n ess si g n at ur e.

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u mA ep ntp. 4 80-82

Fil e d 1 0/ 0 2/ 2 0

P a g e 2 of 2

A P P E N DI X G

A p p. 8 9

E X HI BI T 4

A p p. 9 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 of 2 4

A p p. 9 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 2 of 2 4

A p p. 9 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 3 of 2 4

A p p. 9 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 4 of 2 4

A p p. 9 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 5 of 2 4

A p p. 9 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 6 of 2 4

A p p. 9 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 7 of 2 4

A p p. 9 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 8 of 2 4

A p p. 9 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 9 of 2 4

A p p. 9 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 0 of 2 4

A p p. 1 0 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 1 of 2 4

A p p. 1 0 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 2 of 2 4

A p p. 1 0 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 3 of 2 4

A p p. 1 0 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 4 of 2 4

A p p. 1 0 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 5 of 2 4

A p p. 1 0 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 6 of 2 4

A p p. 1 0 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 7 of 2 4

A p p. 1 0 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 8 of 2 4

A p p. 1 0 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 1 9 of 2 4

A p p. 1 0 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 2 0 of 2 4

A p p. 1 1 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 2 1 of 2 4

A p p. 1 1 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 2 2 of 2 4

A p p. 1 1 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 2 3 of 2 4

A p p. 1 1 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 4- 5

Fil e d 1 0/ 0 7/ 2 0

P a g e 2 4 of 2 4

A P P E N DI X H

A p p. 1 1 4

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 71 5 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 71 6 Fil e d 1 0/ 0 3/ 2 0

P a g e 2 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 71 7 Fil e d 1 0/ 0 3/ 2 0

P a g e 3 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 71 8 Fil e d 1 0/ 0 3/ 2 0

P a g e 4 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 71 9 Fil e d 1 0/ 0 3/ 2 0

P a g e 5 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 72 0 Fil e d 1 0/ 0 3/ 2 0

P a g e 6 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 72 1 Fil e d 1 0/ 0 3/ 2 0

P a g e 7 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 72 2 Fil e d 1 0/ 0 3/ 2 0

P a g e 8 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u A mpep.nt 14 72 3 Fil e d 1 0/ 0 3/ 2 0

P a g e 9 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4172 4 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 0 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4172 5 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 1 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4172 6 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 2 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4172 7 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 3 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4172 8 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 4 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4172 9 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 5 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4173 0 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 6 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4173 1 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 7 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4173 2 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 8 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4173 3 Fil e d 1 0/ 0 3/ 2 0

P a g e 1 9 of 2 0

C a s e 5: 2 0- c v- 0 0 5 0 7- D

D o c u Am pe nt
p. 4173 4 Fil e d 1 0/ 0 3/ 2 0

P a g e 2 0 of 2 0

A P P E N DI X I

A p p. 1 3 5

E X HI BI T 4

A p p. 1 3 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 0- 5

Fil e d 1 0/ 0 6/ 2 0

P a g e 1 of 3

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5
R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

N u m bere d Me m o 2 0 2 0 - 2 8
T O:

C o u nt y B o ar ds of El e cti o ns

F R O M:

K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or

R E:

C o urt Or d ers R e g ar di n g N u m b er e d M e m os

D A T E:

O ct o b er 4, 2 0 2 0

T o a v oi d c o nf usi o n w hil e r el at e d m att ers ar e p e n di n g i n a n u m b er of c o urts, t his m e m o is iss u e d
eff e cti v e i m m e di at el y a n d is i n pl a c e u ntil f urt h er n u m b er e d m e m o (s) is iss u e d b y t h e St at e B o ar d.
F or t h e r e as o ns s et f ort h i n t his m e m o, N u m b er e d M e m os 2 0 2 0 - 1 9 ( b ot h v ersi o ns), 2 0 2 0-2 2, 2 0 2 0 2 3 a n d 2 0 2 0 -2 7 ar e o n h ol d u ntil f urt h er n oti c e fr o m t h e St at e B o ar d . O n O ct o b er 2, 2 0 2 0, t h e
W a k e C o u nt y S u p eri or C o urt i n N C Alli a n c e v. St at e B o ar d e nt er e d a c o ns e nt j u d g m e nt or d eri n g
t h at, t o s ettl e all of pl ai ntiffs’ cl ai ms, N u m b er e d M e m o 2 0 2 0 - 1 9 ( A bs e nt e e C o nt ai n er-R et ur n E nv el o p e D efi ci e n ci es) , N u m b er e d M e m o 2 0 2 0- 2 2 (R et ur n D e a dli n e f or M ail e d Ci vili a n A bs e nt e e
B all ots i n 2 0 2 0), a n d N u m b er e d M e m o 2 0 2 0 - 2 3 (I n-P ers o n R et ur n of A bs e nt e e B all ots) s h all b e
iss u e d.
H o w e v er, o n O ct o b er 3, 2 0 2 0, t h e U. S. Distri ct C o urt f or t h e E ast er n Distri ct of N ort h C ar oli n a
t e m p or aril y bl o c k e d t h e St at e B o ar d fr o m e nf or ci n g t h e s a m e n u m b er e d m e m os . T h e c o urt als o
tr a nsf err e d t h e c as es t o t h e U. S. Distri ct C o urt f or t h e Mi d dl e Distri ct of N ort h C ar oli n a t h at h as
j uris di cti o n o v er t h e D e m o cr a c y N C c as e . M o or e v. Cir c ost a , 5: 2 0-C V - 5 0 7- D, ( E. D. N. C. O ct. 3,
2 0 2 0); Wis e v. St at e B o ar d , 5: 2 0-C V - 5 0 7- D, ( E. D. N. C. O ct. 3, 20 2 0). T h e St at e B o ar d ’s att or n e ys
ar e r e vi e wi n g t h es e c o m p eti n g or d ers a n d will pr o vi d e g ui d a n c e as s o o n as p ossi bl e o n h o w t o
m o v e f or w ar d .
At t his ti m e, b e c a us e of t h es e c o nfli cti n g o r d e rs, N u m b e r e d M e m os
2 3 a n d 2 0 2 0- 2 7 a r e o n h ol d.

2 0 2 0- 1 9, 2 0 2 0- 2 2, 2 0 2 0-

C o u nt y b o a r ds t h at r e c ei v e a n e x e c ut e d a bs e nt e e c o nt ai n e r -r et u r n e n v el o p e wit h a d efi ci e n c y
s h all t a k e n o a cti o n as t o t h at e n v el o p e. C o u nt y b o ar ds s h all n ot s e n d a c ur e c ertifi c ati o n or
r eiss u e t h e b all ot if t h e y r e c ei v e a n e x e c ut e d c o nt ai n er-r et ur n e n v el o p e wit h a n y d efi ci e n c y.
C o u nt y b o ar ds als o m a y n ot a c c e pt or r ej e ct a n y b all ots if t h e c o nt ai n er -r et ur n e n v el o p e h as a n y

A p p. 1 3 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 0- 5

Fil e d 1 0/ 0 6/ 2 0

P a g e 2 of 3

d efi ci e n ci es. E n v el o p es wit h d efi ci e n ci es s h all b e k e pt i n a s e c ur e l o c ati o n a n d s h all n ot b e c o nsi d er e d b y t h e c o u nt y b o ar d u ntil f urt h er n oti c e. O n c e t h e St at e B o ar d r e c ei v es f urt h er dir e cti o n
fr o m a c o urt, w e will iss u e g ui d a n c e t o c o u nt y b o ar ds o n w h at a cti o ns t h e y s h o ul d t a k e r e g ar di n g
c o nt ai n er -r et ur n e n v el o p es wit h d efi ci e n ci es . If a c o u nt y b o ar d h as pr e vi o usl y r eiss u e d a b all ot,
a n d t h e s e c o n d e n v el o p e is r et ur n e d wit h o ut a n y d efi ci e n ci es, t h e c o u nt y b o ar d m a y a p pr o v e t h e
s e c o n d b all ot.
C o u nt y b o ar ds t h at r e c e i v e d efi ci e nt e n v el o p es s h all n ot c h e c k t h e m i nt o S EI M S. W e r e c o m m e n d
t h at, if a v ot er c alls y o ur offi c e a n d w a nts t o k n o w a b o ut t h e st at us of t h eir d efi ci e nt b all ot, y o ur
st aff st at e: “W e h a v e r e c ei v e d y o ur b all ot a n d t h er e is a n iss u e. C urr e ntl y t h e c u r e pr o c ess is b ei n g
c o nsi d er e d b y t h e c o urts. W e will c o nt a ct y o u s o o n wit h m or e i nf or m ati o n . ” If t h e b all ot h as a
d efi ci e n c y, d o n ot iss u e a c ur e c ertifi c ati o n or s p oil t h e b all ot e v e n u p o n a v ot er’s r e q u est.

2

A p p. 1 3 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 6 0- 5

Fil e d 1 0/ 0 6/ 2 0

P a g e 3 of 3

A P P E N DI X J

A p p. 1 3 9

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA

TIMOTHY K. MOORE, et al.,
Plaintiffs,
v.
DAMON CIRCOSTA, et al.,
Defendants,
and
NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS, et al.,
Defendant-Intervenors.
PATSY J. WISE, et al.,
Plaintiffs,
v.
THE NORTH CAROLINA STATE
BOARD OF ELECTIONS, et al.,
Defendants,
and
NORTH CAROLINA ALLIANCE FOR
RETIRED AMERICANS, et al.,
Defendant-Intervenors.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

1:20CV911

1:20CV912

A p p. 1 4 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 of 9 1

MEMORANDUM OPINION AND ORDER
OSTEEN, JR., District Judge
Presently before this court are two motions for a
preliminary injunction in two related cases.
In the first case, Moore v. Circosta, No. 1:20CV911
(“Moore”), Plaintiffs Timothy K. Moore and Philip E. Berger
(together, “State Legislative Plaintiffs”), Bobby Heath, Maxine
Whitley, and Alan Swain (together, “Moore Individual
Plaintiffs”) seek an injunction against the enforcement and
distribution of several Numbered Memoranda issued by the North
Carolina State Board of Elections pertaining to absentee voting.
(Moore v. Circosta, No. 1:20CV911, Mot. for Prelim. Inj. and
Mem. in Supp. (“Moore Pls.’ Mot.”) (Doc. 60).)
In the second case, Wise v. North Carolina State Board of
Elections, No. 1:20CV912 (“Wise”), Plaintiffs Patsy J. Wise,
Regis Clifford, Samuel Grayson Baum, and Camille Annette Bambini
(together, “Wise Individual Plaintiffs”), Donald J. Trump for
President, Inc. (“Trump Campaign”), U.S. Congressman Gregory F.
Murphy and U.S. Congressman Daniel Bishop (together, “Candidate
Plaintiffs”), Republican National Committee (“RNC”), National
Republican Senatorial Committee (“NRSC”), National Republican
Congressional Committee (“NRCC”), and North Carolina Republican
Party (“NCRP”) seek an injunction against the enforcement and
- 2 -

A p p. 1 4 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 of 9 1

distribution of the same Numbered Memoranda issued by the North
Carolina State Board of Elections at issue in Moore. (Wise Pls.’
Mem. in Supp. of Mot. to Convert the Temp. Restraining Order
into a Prelim. Inj. (“Wise Pls.’ Mot.”) (Doc. 43).)
By this order, this court finds Plaintiffs have established
a likelihood of success on their Equal Protection challenges
with respect to the State Board of Elections’ procedures for
curing ballots without a witness signature and for the deadline
extension for receipt of ballots. This court believes the
unequal treatment of voters and the resulting Equal Protection
violations as found herein should be enjoined. Nevertheless,
under Purcell and recent Supreme Court orders relating to
Purcell, this court is of the opinion that it is required to
find that injunctive relief should be denied at this late date,
even in the face of what appear to be clear violations.
I.

BACKGROUND
A.

Parties
1.

Moore v. Circosta (1:20CV911)

State Legislative Plaintiffs Timothy K. Moore and Philip E.
Berger are the Speaker of the North Carolina House of
Representatives and the President Pro Tempore of the North
Carolina Senate, respectively. (Moore v. Circosta, No.
1:20CV911, Compl. for Declaratory and Injunctive Relief (“Moore
- 3 -

A p p. 1 4 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 of 9 1

Compl.”) (Doc. 1) ¶¶ 7-8.) Individual Plaintiffs Bobby Heath and
Maxine Whitley are registered North Carolina voters who voted
absentee by mail and whose ballots have been accepted by the
State Board of Elections on September 21, 2020, and
September 17, 2020, respectively. (Id. ¶¶ 9-10.) Plaintiff Alan
Swain is a resident of Wake County, North Carolina, who is
running as a Republican candidate to represent the State’s
Second Congressional District. (Id. ¶ 11.)
Executive Defendants include Damon Circosta, Stella
Anderson, Jeff Carmon, III, and Karen Brinson Bell are members
of the State Board of Elections (“SBE”). (Id. ¶¶ 12-15.)
Executive Defendant Karen Brinson Bell is the Executive Director
of SBE. (Id. ¶ 15.)
Intervenor-Defendants North Carolina Alliance for Retired
Americans, Barker Fowler, Becky Johnson, Jade Jurek, Rosalyn
Kociemba, Tom Kociemba, Sandra Malone, and Caren Rabinowitz
(“Alliance Intervenors”) are plaintiffs in the related state
court action in Wake County Superior Court. (Moore v. Circosta,
No. 1:20CV911 (Doc. 28) at 15.)

1

Barker Fowler, Becky Johnson,

Jade Jurek, Rosalyn Kociemba, Tom Kociemba, Sandra Malone, and

All citations in this Memorandum Opinion and Order to
documents filed with the court refer to the page numbers located
at the bottom right-hand corner of the documents as they appear
on CM/ECF.
1

- 4 -

A p p. 1 4 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 of 9 1

Caren Rabinowitz are individual voters who are concerned they
will be disenfranchised by Defendant SBE’s election rules,
(id.), and North Carolina Alliance for Retired Americans (“NC
Alliance”) is an organization “dedicated to promoting the
franchise and ensuring the full constitutional rights of its
members . . . .” (Id.)
2.

Wise v. N.C. State Bd. of Elections (1:20CV912)

Individual Plaintiffs Patsy J. Wise, Regis Clifford,
Camille Annette Bambini, and Samuel Grayson Baum are registered
voters in North Carolina. (Wise v. N.C. State Bd. of Elections,
No. 1:20CV912, Compl. for Declaratory and Injunctive Relief
(“Wise Compl.”) (Doc. 1) ¶¶ 25-28.) Wise has already cast her
absentee ballot for the November 3, 2020 election by mail, “in
accordance with statutes, including the Witness Requirement,
enacted by the General Assembly.” (Id. ¶ 25.) Plaintiffs
Clifford, Bambini, and Baum intend to vote in the November 3,
2020 election and are “concern[ed] that [their] vote[s] will be
negated by improperly cast or fraudulent ballots.” (Id. ¶¶ 2628.)
Plaintiff Trump Campaign represents the interests of
President Donald J. Trump, who is running for re-election. (Id.
¶¶ 29-30.) Together, Candidate Plaintiffs Trump Campaign, U.S.
Congressman Daniel Bishop, and U.S. Congressman Gregory F.
- 5 -

A p p. 1 4 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 of 9 1

Murphy are candidates who will appear on the ballot for
re-election in the November 3, 2020 general election. (Id.
¶¶ 29-32.)
Plaintiff RNC is a national political party, (id. ¶¶ 3336), that seeks to protect “the ability of Republican voters to
cast, and Republican candidates to receive, effective votes in
North Carolina elections and elsewhere,” (id. ¶ 37), and avoid
diverting resources and spending significant amounts of
resources educating voters regarding confusing changes in
election rules, (id. ¶ 38).
Plaintiff NRSC is a national political party committee that
is exclusively devoted to electing Republican candidates to the
U.S. Senate. (Id. ¶ 40.) Plaintiff NRCC is the national
organization of the Republican Party dedicated to electing
Republicans to the U.S. House of Representatives. (Id. ¶ 41.)
Plaintiff NRCP is a North Carolina state political party
organization that supports Republican candidates running in
North Carolina elections. (Id. ¶¶ 44-45.)
Executive Defendant North Carolina SBE is the agency
responsible for the administration of the elections laws of the
State of North Carolina. (Id. ¶ 46.) As in Moore, included as
Executive Defendants are Damon Circosta, Stella Anderson, Jeff

- 6 -

A p p. 1 4 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 of 9 1

Carmon, III, and Karen Brinson Bell of the North Carolina SBE.
(Id. ¶¶ 47-50.)
Alliance Intervenors from Moore are also IntervenorDefendants in Wise. (1:20CV912 (Doc. 22).)
B.

Factual Background
1.

This Court’s Decision in Democracy

On August 4, 2020, this court issued an order in a third
related case, Democracy North Carolina v. North Carolina State
Board of Elections, No. 1:20CV457, 2020 WL 4484063 (M.D.N.C.
Aug. 4, 2020) (“the August Democracy Order”), that “left the
One-Witness Requirement in place, enjoined several rules related
to nursing homes that would disenfranchise Plaintiff Hutchins,
and enjoined the rejection of absentee ballots unless the voter
is provided due process.” (Id. at *1.) As none of the parties
appealed that order, the injunctive relief is still in effect.
2.

Release of the Original Memo 2020-19

In response to the August Democracy Order, on August 21,
2020, SBE officials released guidance for “the procedure county
boards must use to address deficiencies in absentee ballots.”
(Numbered Memo 2020-19 (“Memo 2020-19” or “the original Memo”)
(Moore v. Circosta, No. 1:20CV911, Moore Compl. (Doc. 1) Ex. 3 –
NC State Bd. of Elections Mem. (“Original Memo 2020-19”) (Doc.
1-4) at 2.) This guidance instructed county boards regarding
- 7 -

A p p. 1 4 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 of 9 1

multiple topics. First, it instructed county election boards to
“accept [a] voter’s signature on the container-return envelope
if it appears to be made by the voter . . . [a]bsent clear
evidence to the contrary,” even if the signature is illegible.
(Id.) The guidance clarified that “[t]he law does not require
that the voter’s signature on the envelope be compared with the
voter’s signature in their registration record,” as
“[v]erification of the voter’s identity is completed through the
witness requirement.” (Id.)
Second, the guidance sorted ballot deficiencies into two
categories: curable and uncurable deficiencies. (Id. at 3.)
Under this version of Memo 2020-19, a ballot could be cured via
voter affidavit alone if the voter failed to sign the
certification or signed in the wrong place. (Id.) A ballot error
could not be cured, and instead, was required to be spoiled, in
the case of all other listed deficiencies, including a missing
signature, printed name, or address of the witness; an
incorrectly placed witness or assistant signature; or an
unsealed or re-sealed envelope. (Id.) Counties were required to
notify voters in writing regarding any ballot deficiency –
curable or incurable - within one day of the county identifying
the defect and to enclose either a cure affidavit or a new
ballot, based on the type of deficiency at issue. (Id. at 4.)
- 8 -

A p p. 1 4 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 of 9 1

In the case of an incurable deficiency, a new ballot could
be issued only “if there [was] time to mail the voter a new
ballot . . . [to be] receive[d] by Election Day.” (Id. at. 3) If
a voter who submitted an uncurable ballot was unable to receive
a new absentee ballot in time, he or she would have the option
to vote in person on Election Day. (Id. at 4.)
If the deficiency was curable by a cure affidavit, the
guidance stated that the voter must return the cure affidavit by
no later than 5 p.m. on Thursday, November 12, 2020. (Id.)
3.

Rescission of Numbered Memo 2020-19

The State began issuing ballots on September 4, 2020,
marking the beginning of the election process. (Wise, No.
1:20CV912, Wise Pls.’ Mot. (Doc. 43).) On September 11, 2020,
SBE directed counties to stop notifying voters of deficiencies
in their ballot, as advised in Memo 2020-19, pending further
guidance from SBE. (Moore, No. 1:20CV911, Moore Pls.’ Mot. (Doc.
60) Ex. 3, Democracy Email Chain (Doc. 60-4) at 6.)
4.

Revision of Numbered Memo 2020-19

On September 22, over two weeks after the State began
issuing ballots, SBE issued a revised Numbered Memo 2020-19,
which set forth a variety of new policies not implemented in the
original Memo 2020-19. (Numbered Memo 2020-19 (“the Revised
Memo” or “Revised Memo 2020-19”) (Moore v. Circosta, No.
- 9 -

A p p. 1 4 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 9 of 9 1

1:20CV911 (Doc. 36) Ex. 3, Revised Numbered Memo 2020-19
(“Revised Memo 2020-19”) (Doc. 36-3).) In subsequent litigation
in Wake County Superior Court, SBE advised the court that both
the original Memo 2020-19 and the Revised Memo were issued “to
ensure full compliance with the injunction entered by Judge
Osteen.” (Moore v. Circosta, No. 1:20CV911, Exec. Defs.’ Br. in
Supp. of Joint Mot. for Entry of Consent Judgment (“SBE State
Court Br.”) (Doc. 68-1) at 15.) Moreover, on September 28, 2020,
during a status conference with a district court in the Eastern
District of North Carolina prior to transfer to this court,
counsel for Defendant SBE stated that Defendant SBE issued the
revised Memo 2020-19 “in order to comply with Judge Osteen’s
preliminary injunction in the Democracy N.C. action in the
Middle District.” (Moore v. Circosta, No. 1:20CV911, Order
Granting Mot. for Temp. Restraining Order (“TRO”) (Doc. 47) at
9.) At that time, counsel for SBE indicated that they had not
yet submitted the Revised Memo 2020-19 to this court, “but that
it was on counsel’s list to get [it] done today.” (Id.)
(internal quotations omitted.) On September 28, 2020, Defendant
SBE filed the Revised Memo 2020-19 with this court in the
Democracy action. (Democracy N.C. v. N.C. State Bd. of
Elections, No. 1:20CV457 (Doc. 143-1).)

- 10 -

A p p. 1 4 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 0 of 9 1

The revised guidance modified which ballot deficiencies
fell into the curable and uncurable categories. Unlike the
original Memo 2020-19, the Revised Memo advised that ballots
missing a witness or assistant name or address, as well as
ballots with a missing or misplaced witness or assistant
signature, could be cured via voter certification. (Moore v.
Circosta, No. 1:20CV911, Revised Memo 2020-19 (Doc. 36-3) at 3.)
According to the revised guidance, the only deficiencies that
could not be cured by certification, and thus required
spoliation, were where the envelope was unsealed or where the
envelope indicated the voter was requesting a replacement
ballot. (Id. at 4.)
The cure certification in Revised 2020-19 required voters
to sign and affirm the following:
I am submitting this affidavit to correct a problem
with missing information on the ballot envelope. I am
an eligible voter in this election and registered to
vote in [name] County, North Carolina. I solemnly
swear or affirm that I voted and returned my absentee
ballot for the November 3, 2020 general election and
that I have not voted and will not vote more than one
ballot in this election. I understand that
fraudulently or falsely completing this affidavit is a
Class I felony under Chapter 163 of the North Carolina
General Statutes.
(Moore v. Circosta, No. 1:20CV911 (Doc. 45-1) at 34.)
The revised guidance also extended the deadline for
civilian absentee ballots to be received to align with that for
- 11 -

A p p. 1 5 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 1 of 9 1

military and overseas voters. (Moore v. Circosta, No. 1:20CV911,
Revised Memo 2020-19 (Doc. 36-3) at 5.) Under the original Memo
2020-19, in order to be counted, civilian absentee ballots must
have been received by the county board office by 5 p.m. on
Election Day, November 3, 2020, or if postmarked, by Election
Day, by 5:00 p.m. on November 6, 2020. (Moore v. Circosta, No.
1:20CV911, Original Memo 2020-19 (Doc. 1-4) at 5 (citing N.C.
Gen. Stat. § 163-231(b)).) Under the Revised Memo 2020-19,
however, a late civilian ballot would be counted if postmarked
on or before Election Day and received by 5:00 p.m. on
November 12, 2020. (Moore v. Circosta, No. 1:20CV911, Revised
Memo 2020-19 (Doc. 36-3) at 5.) This is the same as the deadline
for military and overseas voters, as indicated in the Original
Memo 2020-19. (Id.)
5.

2

Numbered Memoranda 2020-22 and 2020-23

SBE issued two other Numbered Memoranda on September 22,
2020, in addition to Revised Numbered Memo 2020-19.
First, SBE issued Numbered Memo 2020-22, the purpose of
which was to further define the term postmark used in Numbered
Memo 2020-19. (Wise, No. 1:20CV912, Wise Compl. (Doc. 1), Ex. 3,

In Democracy N. Carolina v. N.C. State Board of
Elections, No. 1:20CV457, an order is entered contemporaneously
with this Memorandum Opinion and Order enjoining certain aspects
of the Revised Memo 2020-19.
2

- 12 -

A p p. 1 5 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 2 of 9 1

N.C. State Bd. of Elections Mem. (“Memo 2020-22”) (Doc. 1-3) at
2.) Numbered Memo 2020-22 advised that although “[t]he postmark
requirement for ballots received after Election Day is in place
to prohibit a voter from learning the outcome of an election and
then casting their ballot. . . . [T]he USPS does not always
affix a postmark to a ballot return envelope.” (Id.) Recognizing
that SBE now offers “BallotTrax,” a system in which voters and
county boards can track the status of a voter’s absentee ballot,
SBE said “it is possible for county boards to determine when a
ballot was mailed even if does not have a postmark.” (Id.)
Moreover, SBE recognized that commercial carriers offer tracking
services that document when a ballot was deposited with the
commercial carrier. (Id.) For these reasons, the new guidance
stated that a ballot would be considered postmarked by Election
Day if it had a postmark, there is information in BallotTrax, or
“another tracking service offered by the USPS or a commercial
carrier, indicat[es] that the ballot was in the custody of USPS
or the commercial carrier on or before Election Day.” (Id.
at 3.)
Second, SBE issued Numbered Memo 2020-23, which provides
“guidance and recommendations for the safe, secure, and
controlled in-person return of absentee ballots.” (Wise, No.
1:20CV912, Wise Compl. (Doc. 1), Ex. 4, N.C. State Bd. of
- 13 -

A p p. 1 5 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 3 of 9 1

Elections Mem. (“Memo 2020-23”) (Doc. 1-4) at 2.) Referring to
N.C. Gen. Stat. § 163-226.3(a)(5),

3

which prohibits any person

other than the voter’s near relative or legal guardian to take
possession of an absentee ballot of another voter for delivery
or for return to a county board of elections, (id.), Numbered
Memo 2020-23 confirms that “an absentee ballot may not be left
in an unmanned drop box.” (Id.) The guidance reminds county
boards that they must keep a written log when any person returns
an absentee ballot in person, which includes the name of the
individual returning the ballot, their relationship to the
voter, the ballot number, and the date it was received. (Id. at
3.) If the individual who drops off the ballot is not the voter,
their near relative, or legal guardian, the log must also record
their address and phone number. (Id.)
At the same time, the guidance advises county boards that
“[f]ailure to comply with the logging requirement, or delivery
or an absentee ballot by a person other than the voter, the
voter’s near relative, or the voter’s legal guardian, is not
sufficient evidence in and of itself to establish that the voter
did not lawfully vote their ballot.” (Id. at 3.) Instead, the
guidance advises the county board that they “may . . . consider

The Memoranda incorrectly cites this statute as N.C. Gen.
Stat. § 163-223.6(a)(5).
3

- 14 -

A p p. 1 5 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 4 of 9 1

the delivery of a ballot . . . in conjunction with other
evidence in determining whether the ballot is valid and should
be counted.” (Id. at 4.)
6.

Consent Judgment in North Carolina Alliance for
Retired Americans v. North Carolina State Bd. of
Elections

On August 10, 2020, NC Alliance, the Defendant-Intervenors
in the two cases presently before this court, filed an action
against SBE in North Carolina’s Wake County Superior Court
challenging, among other voting rules, the witness requirement
for mail-in absentee ballots and rejection of mail-in absentee
ballots that are postmarked by Election Day but delivered to
county boards more than three days after the election. (Moore v
Circosta, No. 1:20CV911, SBE State Court Br. (Doc. 68-1) at 15.)
On August 12, 2020, Philip Berger and Timothy Moore,
Plaintiffs in Moore, filed a notice of intervention as of right
in the state court action and became parties to that action as
intervenor-defendants on behalf of the North Carolina General
Assembly. (Id. at 16.)
On September 22, 2020, SBE and NC Alliance filed a Joint
Motion for Entry of a Consent Judgment with the superior court.
(Id.) Philip Berger and Timothy Moore were not aware of this
“secretly-negotiated” Consent Judgment, (Wise Pls.’ Mot. (Doc.
43) at 6), until the parties did not attend a previously
- 15 -

A p p. 1 5 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 5 of 9 1

scheduled deposition, (Democracy v. N.C. Bd. of Elections, No.
1:20CV457 (Doc. 168) at 73.)
Among the terms of the Consent Judgment, SBE agreed to
extend the deadline for receipt of mail-in absentee ballots
mailed on or before Election Day to nine days after Election
Day, to implement the cure process established in Revised Memo
2020-19, and to establish separate mail in absentee ballot “drop
off stations” at each early voting site and county board of
elections office which were to be staffed by county board
officials. (Moore v. Circosta, No. 1:20CV911, SBE State Court
Br. (Doc. 68-1) at 16.)
In its filings with the state court, SBE frequently cited
this court’s decision in Democracy as a reason for why the Wake
County Superior Court Judge should accept the Consent Judgment.
SBE argued that a cure procedure for deficiencies related to the
witness requirement were necessary because “[w]itness
requirements for absentee ballots have been shown to be, broadly
speaking, disfavored by the courts,” (id. at 26), and that
“[e]ven in North Carolina, a federal court held that the witness
requirement could not be implemented as statutorily authorized
without a mechanism for voters to have adequate notice of and
[an opportunity to] cure materials [sic] defects that might keep
their votes from being counted,” (id. at 27). SBE argued that,
- 16 -

A p p. 1 5 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 6 of 9 1

“to comply with the State Defendants’ understanding of the
injunction entered by Judge Osteen, the State Board directed
county boards of elections not to disapprove any ballots until a
new cure procedure that would comply with the injunction could
be implemented,” (id. at 30), and that ultimately, the cure
procedure introduced in Revised Memo 2020-19 as part of the
consent judgment would comply with this injunction. (Id.) SBE
indicated that it had notified the federal court of the cure
mechanism process on September 22, 2020, (id.), although this
court was not made aware of the cure procedure until September
28, 2020, (Democracy N.C. v. N.C. State Bd. of Elections, No.
1:20CV457 (Doc. 143-1)), the day before the processing of
absentee ballots was scheduled to begin on September 29, 2020,
(Moore v. Circosta, No. 20CV911 Transcript of Oral Argument
(“Oral Argument Tr.”)(Doc. 70) at 109.)
On October 2, 2020, the Wake County Superior Court entered
the Stipulation and Consent Judgment. (Moore v. Circosta, No.
1:20CV911, State Court Consent Judgment (Doc. 45-1).) Among its
recitals, which Defendant SBE drafted and submitted to the judge
as is customary in state court, (Oral Argument Tr. (Doc. 70) at
91), the Wake County Superior Court noted this court’s
preliminary injunction in Democracy, finding,
WHEREAS, on August 4, 2020, the United States
District Court for the Middle District of North
- 17 -

A p p. 1 5 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 7 of 9 1

Carolina enjoined the State Board from “the
“disallowance or rejection . . . of absentee ballots
without due process as to those ballots with a
material error that is subject to remediation.”
Democracy N.C. v. N.C. State Bd. of Elections, No.
1:20-cv-00457-WO-JLW (M.D.N.C. Aug. 4, 2020) (Osteen,
J.). ECF 124 at 187. The injunction is to remain in
force until the State Board implements a cure process
that provides a voter with “notice and an opportunity
to be heard before an absentee ballot with a material
error subject to remediation is disallowed or
rejected.” Id.
(State Court Consent Judgment (Doc. 45-1) at 6.)
7.

4

Numbered Memoranda 2020-27, 2020-28, and 2020-29

In addition to the Numbered Memoranda issued on
September 22, 2020, as part of the consent judgment in the state
court case, SBE has issued three additional numbered memoranda.
First, on October 1, 2020, SBE issued Numbered Memo
2020-27, which was issued in response to this court’s order in
Democracy regarding the need for parties to attend a status
conference to discuss Numbered Memo 2020-19. (Moore v. Circosta,
No. 1:20CV911 (Doc. 40-2) at 2.) The guidance advises county
boards that this court did not find Numbered Memo 2020-19:
“consistent with the Order entered by this Court on
August 4, 2020,” and indicates that its preliminary
injunction order should “not be construed as finding
that the failure of a witness to sign the application
and certificate as a witness is a deficiency which may
An additional discussion of the facts related to SBE’s use
of this court’s order in obtaining a Consent Judgment is set out
in this court’s order in Democracy v. North Carolina State Board
of Elections, No. 1:20CV457 (M.D.N.C. Oct. 14, 2020) (enjoining
witness cure procedure).
4

- 18 -

A p p. 1 5 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 8 of 9 1

be cured with a certification after the ballot has
been returned.”
(Id.) “In order to avoid confusion while related matters are
pending in a number of courts,” the guidance advises that
“[c]ounty boards that receive an executed absentee containerreturn envelope with a missing witness signature shall take no
action as to that envelope.” (Id.) In all other respects, SBE
stated that Revised Numbered Memo 2020-19 remains in effect.
(Id.)
Second, on October 4, 2020, SBE issued Numbered Memo
2020-28, which states that both versions of Numbered Memo
2020-19, as well as Numbered Memoranda 2020-22, 2020-23, and
2020-27 “are on hold until further notice” following the
temporary restraining order entered in the instant cases on
October 3, 2020. (Moore v. Circosta, No. 1:20CV911 (Doc. 60-5)
at 2.) Moreover, the guidance reiterated that “[c]ounty boards
that receive an executed absentee container-return envelope with
a deficiency shall take no action as to that envelope,”
including sending a cure notification or reissuing the ballot.
(Id. at 2-3.) Instead, the guidance directs county boards to
store envelopes with deficiencies in a secure location until
further notice. (Id. at 3.) If, however, a county board had
previously issued a ballot and the second envelope is returned

- 19 -

A p p. 1 5 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 1 9 of 9 1

without any deficiencies, the guidance permits the county board
to approve the second ballot. (Id.)
Finally, on October 4, 2020, SBE issued Numbered Memo
2020-29, which states that it provides “uniform guidance and
further clarification on how to determine if the correct address
can be identified if the witness’s or assistant’s address on an
absentee container-return envelope is incomplete. (Wise, No.
1:20CV912 (Doc. 43-5).) First, the guidance clarifies that if a
witness or assistant does not print their address, the envelope
is deficient. (Id. at 2.) Second, the guidance states that
failure to list a witness’s ZIP code does not require a cure; a
witness or assistant’s address may be a post office box or other
mailing address; and if the address is missing a city or state,
but the county board can determine the correct address, the
failure to include this information does not invalidate the
container-return envelope. (Id.) Third, if both the city and ZIP
code are missing, the guidance directs staff to determine
whether the correct address can be identified. (Id.) If they
cannot be identified, then the envelope is deficient. (Id.)
C.

Procedural History

On September 26, 2020, Plaintiffs in Moore filed their
action in the United States District Court for the Eastern
District of North Carolina. (Moore Compl. (Doc. 1).) Plaintiffs
- 20 -

A p p. 1 5 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 0 of 9 1

in Wise also filed their action in the United States District
Court for the Eastern District of North Carolina on
September 26, 2020. (Wise Compl. (Doc. 1).)
Alliance Intervenors filed a Motion to Intervene as
Defendants in Moore on September 30, 2020, (Moore v. Circosta,
No. 1:20CV911 (Doc. 27)), and in Wise on October 2, 2020, (Wise,
No. 1:20CV912 (Doc. 21)). This court granted Alliance
Intervenors’ Motion to Intervene on October 8, 2020. (Moore v.
Circosta, No. 1:20CV911 (Doc. 67); Wise, No. 1:20CV912 (Doc.
49).)
The district court in the Eastern District of North
Carolina issued a temporary restraining order in both cases on
October 3, 2020, and transferred the actions to this court for
this court’s “consideration of additional or alternative
injunctive relief along with any such relief in Democracy North
Carolina v. North Carolina State Board of Elections . . . .”
(Moore v. Circosta, 1:20CV911, TRO (Doc. 47) at 2; Wise, No.
1:20CV912 (Doc. 25) at 2.)
On October 5, 2020, this court held a Telephone Conference,
(Moore v. Circosta, No. 1:20CV911, Minute Entry 10/05/2020;
Wise, No. 1:20CV912, Minute Entry 10/05/2020), and issued an
order directing the parties to prepare for a hearing on the
temporary restraining order and/or a preliminary injunction and
- 21 -

A p p. 1 6 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 1 of 9 1

to submit additional briefing, (Moore v. Circosta, No. 1:20CV911
(Doc. 51); Wise, No. 1:20CV912 (Doc. 30)). On October 6, 2020,
Plaintiffs in Wise filed a Memorandum in Support of Plaintiffs’
Motion to Convert the Temporary Restraining Order into a
Preliminary Injunction, (Wise Pls.’ Mot. (Doc. 43)), and
Plaintiffs in Moore filed a Motion for a Preliminary Injunction
and Memorandum in Support of Same, (Moore Pls.’ Mot. (Doc. 60)).
Defendant SBE filed a response to Plaintiffs’ motions in both
cases on October 7, 2020. (Moore v. Circosta, No. 1:20CV911,
State Defs.’ Resp. to Pls.’ Mot. for Prelim. Inj. (“SBE Resp.”)
(Doc. 65); Wise, No. 1:20CV912 (Doc. 45).) Alliance Intervenors
also filed a response to Plaintiffs’ motions in both cases on
October 7, 2020. (Moore v. Circosta, No. 1:20CV911, Proposed
Intervenors’ Mem. in Opp’n to Pls.’ Mot. for a Prelim. Inj.
(“Alliance Resp.”) (Doc. 64); Wise, No. 1:20CV912 (Doc. 47).)

5

This court held oral arguments on October 8, 2020, in which
all of the parties in these two cases presented arguments with
respect to Plaintiffs’ motions for a preliminary injunction.

Defendant SBE and Alliance Intervenors’ memoranda filed in
opposition to Plaintiffs’ motions for a preliminary injunction
in Moore are identical to those that each party filed in Wise.
(Compare SBE Resp. (Doc. 65) and Alliance Resp. (Doc. 64) with
Wise, No. 1:20CV912 (Doc. 45) and Wise, No. 1:20CV912 (Doc.
47).) For clarity and ease, this court will cite only to the
briefs Defendant SBE and Alliance Intervenors filed in Moore in
subsequent citations.
5

- 22 -

A p p. 1 6 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 2 of 9 1

(Moore v. Circosta, No. 1:20CV911, Minute Entry 10/08/2020;
Wise, No. 1:20CV912, Minute Entry 10/08/2020.)
This court has federal question jurisdiction over these
cases under 28 U.S.C. § 1331. This matter is ripe for
adjudication.
D.

Preliminary Injunction Standard of Review

“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that he is
likely to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and that
an injunction is in the public interest.” Winter v. Nat. Res.
Def. Council, Inc., 555 U.S. 7, 20 (2008). Such an injunction
“is an extraordinary remedy intended to protect the status quo
and prevent irreparable harm during the pendency of a lawsuit.”
Di Biase v. SPX Corp., 872 F.3d 224, 230 (4th Cir. 2017).
II.

ANALYSIS
Executive Defendants and Alliance Intervenors challenge

Plaintiffs’ standing to seek a preliminary injunction regarding
their Equal Protection, Elections Clause, and Electors Clause
claims. (Alliance Resp. (Doc. 64) at 14-18; SBE Resp. (Doc. 65)
at 11-13.) Executive Defendants and Alliance Intervenors also
challenge this court’s ability to hear this action under
abstention, (Alliance Resp. (Doc. 64) at 10-14; SBE Resp. (Doc.
- 23 -

A p p. 1 6 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 3 of 9 1

65) at 10-11), Rooker-Feldman (Alliance Resp. (Doc. 64) at 13),
and preclusion doctrines, (SBE Resp. (Doc. 65) at 7-10).
Finally, Executive Defendants and Alliance Intervenors attack
Plaintiffs’ motions for preliminary injunction on the merits.
(Alliance Resp. (Doc. 64) at 19-26; SBE Resp. (Doc. 65) at
13-18.)
Because Rooker-Feldman, abstention, and preclusion are
dispositive issues, this court addresses them first, then
addresses Plaintiffs’ motions on standing and the likelihood of
success on the merits.
As to each of these abstention doctrines, as will be
explained further, this court’s preliminary injunction order,
(Doc. 124), in Democracy North Carolina v. North Carolina State
Board of Elections, No. 1:20CV457, played a substantial role as
relevant authority supporting SBE’s request for approval, in
North Carolina state court, of Revised Memo 2020-19 and the
related Consent Judgment. (See discussion infra Part
II.D.3.b.i.) As Berger, Moore, and SBE are all parties in
Democracy, this court initially finds that abstention doctrines
do not preclude this court’s exercise of jurisdiction. This
court’s August Democracy Order was issued prior to the filing of
these state court actions, and that Order was the basis of the
subsequent grant of affirmative relief by the state court. This
- 24 -

A p p. 1 6 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 4 of 9 1

court declines to find that any abstention doctrine would
preclude it from issuing orders in aid of its jurisdiction, or
as to parties appearing in a pending case in this court.
A.

Rooker-Feldman Doctrine

Rooker-Feldman doctrine is a jurisdictional doctrine that
prohibits federal district courts from “‘exercising appellate
jurisdiction over final state-court judgments.’” See Thana v.
Bd. of License Comm’rs for Charles Cnty., 827 F.3d 314, 319 (4th
Cir. 2016) (quoting Lance v. Dennis, 546 U.S. 459, 463 (2006)
(per curiam)). The presence or absence of subject matter
jurisdiction under Rooker-Feldman is a threshold issue that this
court must determine before considering the merits of the case.
Friedman’s, Inc. v. Dunlap, 290 F.3d 191, 196 (4th Cir. 2002).
Although Rooker-Feldman originally limited only federalquestion jurisdiction, the Supreme Court has recognized the
applicability of the doctrine to cases brought under diversity
jurisdiction:
Rooker and Feldman exhibit the limited circumstances
in which this Court’s appellate jurisdiction over
state-court judgments, 28 U.S.C. § 1257, precludes a
United States district court from exercising
subject-matter jurisdiction in an action it would
otherwise be empowered to adjudicate under a
congressional grant of authority, e.g., § 1330
(suits against foreign states), § 1331 (federal
question), and § 1332 (diversity).

- 25 -

A p p. 1 6 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 5 of 9 1

See Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,
291-92 (2005). Under the Rooker-Feldman doctrine, courts lack
subject matter jurisdiction to hear “cases brought by [1] statecourt losers complaining of [2] injuries caused by state-court
judgments [3] rendered before the district court proceedings
commenced and [4] inviting district court review and rejection
of those judgments.” Id. at 284. The doctrine is “narrow and
focused.” Thana, 827 F.3d at 319. “[I]f a plaintiff in federal
court does not seek review of the state court judgment itself
but instead ‘presents an independent claim, it is not an
impediment to the exercise of federal jurisdiction that the same
or a related question was earlier aired between the parties in
state court.’” Id. at 320 (quoting Skinner v. Switzer, 562 U.S.
521, 532 (2011)). Rather, “any tensions between the two
proceedings should be managed through the doctrines of
preclusion, comity, and abstention.” Id. (citing Exxon, 544 U.S.
at 292–93).
Moreover, “the Rooker–Feldman doctrine applies only when
the loser in state court files suit in federal district court
seeking redress for an injury allegedly caused by the state
court’s decision itself.” Davani v. Va. Dep’t of Transp., 434
F.3d 712, 713 (4th Cir. 2006); see also Hulsey v. Cisa, 947 F.3d
246, 250 (4th Cir. 2020) (“A plaintiff’s injury at the hands of
- 26 -

A p p. 1 6 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 6 of 9 1

a third party may be ‘ratified, acquiesced in, or left
unpunished by’ a state-court decision without being ‘produced
by’ the state-court judgment.”) (internal citations omitted).
Here, Plaintiffs are challenging SBE’s election procedures
and seeking injunction of those electoral rules, not attempting
to directly appeal results of a state court order. More
importantly, however, the Fourth Circuit has previously found
that a party is not a state court loser for purposes of RookerFeldman if “[t]he [state court] rulings thus were not ‘final
state-court judgments’” against the party bringing up the same
issues before a federal court. Hulsey, 947 F.3d at 251 (quoting
Lance, 546 U.S. at 463. In the Alliance state court case,
Alliance brought suit against SBE. The Plaintiffs from this case
were intervenors. They were not parties to the Settlement
Agreement and were in no way properly adjudicated “state court
losers.” Given the Supreme Court’s intended narrowness of the
Rooker-Feldman doctrine, see Lance, 546 U.S. at 464, and
Plaintiffs’ failure to fit within the Fourth Circuit’s
definition of “state-court losers,” this court will decline to
abstain under the Rooker-Feldman doctrine.
B.

Abstention
1.

Colorado River Abstention

- 27 -

A p p. 1 6 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 7 of 9 1

Abstention “is the exception, not the rule.” Colo. River
Water Conservation Dist. v. United States, 424 U.S. 800, 813
(1976); see also id. at 817 (noting the “virtually unflagging
obligation of the federal courts to exercise the jurisdiction
given them”). Thus, this court’s task “is not to find some
substantial reason for the exercise of federal jurisdiction,”
but rather “to ascertain whether there exist ‘exceptional’
circumstances, the ‘clearest of justifications,’ . . . to
justify the surrender of that jurisdiction.” Moses H. Cone Mem’l
Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 25-26 (1983).
First, and crucially for this case, the court must
determine whether there are ongoing state and federal
proceedings that are parallel. Al-Abood ex rel. Al-Abood v. ElShamari, 217 F.3d 225, 232 (4th Cir. 2000) (“The threshold
question in deciding whether Colorado River abstention is
appropriate is whether there are parallel suits.”); Ackerman v.
ExxonMobil Corp., 734 F.3d 237, 248 (4th Cir. 2013) (finding
that abstention is exercised only “in favor of ongoing, parallel
state proceedings” (emphasis added)). In this instance, the
parties have failed to allege any ongoing state proceeding that
this federal suit might interfere with. In fact, Plaintiffs in
this case were excluded as parties in the Consent Judgment and
are bringing independent claims in this federal court alleging
- 28 -

A p p. 1 6 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 8 of 9 1

violations, inter alia, of the Equal Protection Clause. This
court does not find that Colorado River abstention prevents it
from adjudicating Equal Protection claims raised by parties who
were not parties to the Consent Judgment.
2.

Pennzoil Abstention

As alleged by Defendants, Pennzoil does dictate that
federal courts should not “interfere with the execution of state
judgments.” Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 14 (1987).
However, in the very next sentence, the Pennzoil court caveats
that this doctrine applies “[s]o long as those challenges relate
to pending state proceedings.” Id. In fact, in Pennzoil itself,
the Court clarified that abstention was proper because “[t]here
is at least one pending judicial proceeding in the state courts;
the lawsuit out of which Texaco’s constitutional claims arose is
now pending before a Texas Court of Appeals in Houston, Texas.”
Id. at 14 n.13.
Abstention was also justified in Pennzoil because the Texas
state court was not presented with the contested federal
constitutional questions, and thus, “when [the subsequent] case
was filed in federal court, it was entirely possible that the
Texas courts would have resolved this case . . . without
reaching the federal constitutional questions.” Id. at 12. In
the present case, Plaintiffs raised their constitutional claims
- 29 -

A p p. 1 6 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 2 9 of 9 1

in the state court prior to the entry of the Consent Judgment.
The state court, through the Consent Judgment and without taking
evidence, adjudicated those claims as to the settling parties.
The Consent Judgment is effective through the 2020 Election and
specifies no further basis upon which Plaintiffs here may seek
relief. As a result, there does not appear to be any relief
available to Plaintiffs for the federal questions raised here.
For these reasons, this court will also decline to abstain under
Pennzoil.
3.

Pullman Abstention

Pullman abstention can be exercised where: (1) there is “an
unclear issue of state law presented for decision”; and (2)
resolution of that unclear state law issue “may moot or present
in a different posture the federal constitutional issue such
that the state law issue is potentially dispositive.” Educ.
Servs., Inc. v. Md. State Bd. for Higher Educ., 710 F.2d 170,
174 (4th Cir. 1983); see also N.C. State Conference of NAACP v.
Cooper, 397 F. Supp. 3d 786, 794 (M.D.N.C. 2019). Pullman does
not apply here because any issues of state law are not, in this
court’s opinion, unclear or ambiguous. Alliance’s brief in Moore
posits that “whether NCSBE has the authority to enter the
Consent Judgment and promulgate the Numbered Memos” are at the
center of this case, thereby urging Pullman abstention.
- 30 -

A p p. 1 6 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 0 of 9 1

(Alliance Resp. (Doc. 64 at 12.) SBE has undisputed authority to
issue guidance consistent with state law and may issue guidance
contrary to state law only in response to natural disasters –
the court finds this, though ultimately unnecessary to the
relief issued in this case, fairly clear. (See discussion supra
at Part II.E.2.b.ii.) Moreover, this court has already expressly
assessed and upheld the North Carolina state witness
requirement, which is the primary state law at issue in this
case. Democracy N. Carolina, 2020 WL 4484063, at *48.
Furthermore, Defendants and Intervenors would additionally
need to show how “resolution of . . . state law issues pending
in state court” would “eliminate or substantially modify
the federal constitutional issues raised in Plaintiffs’
Complaint.” N.C. State Conference of NAACP, 397 F. Supp. 3d at
796. As Alliance notes, the Plaintiffs did not appeal the state
court’s conclusions, but sought relief in federal court – there
is no state law issue pending in state court here. For all of
these reasons, this court declines to abstain under Pullman.
C.

Issue Preclusion

Collateral estoppel, or issue preclusion “refers to the
effect of a prior judgment in foreclosing successive litigation
of an issue of fact or law actually litigated and resolved in a
valid court determination essential to the prior judgment,
- 31 -

A p p. 1 7 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 1 of 9 1

whether or not the issue arises on the same or a different
claim.” New Hampshire v. Maine, 532 U.S. 742, 748-49 (2001). The
purpose of this doctrine is to “protect the integrity of the
judicial process . . . .” Id. at 749 (internal quotations
omitted).
Plaintiffs argue that issue preclusion does not bar their
Equal Protection claims. Citing Arizona v. California, 530 U.S.
392 (2000), Plaintiffs in Wise argue that a negotiated
settlement between parties, like the consent judgment between
the Alliance Intervenors and Defendant SBE in Wake County
Superior Court, does not constitute a final judgment for issue
preclusion. (Wise Pls.’ Mot. (Doc. 43) at 23.) Plaintiffs in
Moore, citing In re Microsoft Corp. Antitrust Litig., 355 F.3d
322 (4th Cir. 2004), argue that issue preclusion cannot be
asserted because the Individual Plaintiffs in Moore were not
parties to the state court litigation that resulted in the
consent judgment. (Moore Pls.’ Mot. (Doc. 60) at 4.)
In response, Defendant SBE argues that, under North
Carolina law, issue preclusion applies where (1) the issue is
identical to the issue actually litigated and necessary to a
prior judgment, (2) the prior action resulted in a final
judgment on the merits, and (3) the plaintiffs in the latter
action are the same as, or in privity with, the parties in the
- 32 -

A p p. 1 7 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 2 of 9 1

earlier action, (SBE Resp. (Doc. 65) at 7), and the parties in
these federal actions and those in the state actions are in
privity under the third element of the test, (id. at 8).
This court finds that issue preclusion does not bar
Plaintiffs’ claims. In Arizona v. California, the Supreme Court
held that “[i]n most circumstances, it is recognized that
consent agreements ordinarily are intended to preclude any
further litigation on the claim presented but are not intended
to preclude further litigation on any of the issues presented.”
530 U.S. at 414 (internal quotations omitted). Moreover,
“settlements ordinarily occasion no issue preclusion . . .
unless it is clear . . . that the parties intend their agreement
to have such an effect.” Id.
The Consent Judgment SBE and Alliance entered into does not
clearly demonstrate that they intended their agreement to have
an issue preclusive effect with regard to claims brought now by
Plaintiffs in Moore and Wise. The language of the Consent
Judgment demonstrates that it “constitutes a settlement and
resolution of Plaintiffs’ claims against Executive Defendants
pending in this Lawsuit” and that “by signing this Stipulation
and Consent Judgment, they are releasing any claims . . . that
they might have against Executive Defendants.” (State Court
Consent Judgment (Doc. 45-1) at 14 (emphasis added).) Although
- 33 -

A p p. 1 7 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 3 of 9 1

Timothy Moore and Philip Berger, State Legislative Plaintiffs in
Moore, were Defendant-Intervenors in the NC Alliance action,
they were not parties to the consent judgment. (Id.) Thus,
because the plain language of the agreement did not expressly
indicate an intention to preclude Plaintiffs Moore and Berger
from litigating the issue in subsequent litigation, neither
these State Legislative Plaintiffs, nor any other parties with
whom they may or may not be in privity, are estopped from
raising these claims now before this court.
D.

Plaintiffs’ Equal Protection Claims

Plaintiffs raise “two separate theories of an equal
protection violation,” – a “vote dilution claim, and an
arbitrariness claim.” (Oral Argument Tr. (Doc. 70) at 52; see
also Wise Pls.’ Mot. (Doc. 43) at 12-15.)
1.

Voting Harms Prohibited by the Equal Protection
Clause

Under the Fourteenth Amendment of the U.S. Constitution, a
state may not “deny to any person within its jurisdiction the
equal protection of the laws.” U.S. Const. amend. XIV. The
Fourteenth Amendment is one of several constitutional provisions
that “protects the right of all qualified citizens to vote, in
state as well as federal elections.” Reynolds v. Sims, 377 U.S.
533, 554 (1964). Because the Fourteenth Amendment protects not
only the “initial allocation of the franchise,” as well as “to
- 34 -

A p p. 1 7 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 4 of 9 1

the manner of its exercise,” Bush v. Gore, 531 U.S. 98, 104
(2000), “lines may not be drawn which are inconsistent with the
Equal Protection Clause . . . .” Id. at 105 (citing Harper v.
Va. State Bd. of Elections, 383 U.S. 663, 665 (1966)).
The Supreme Court has identified two theories of voting
harms prohibited by the Fourteenth Amendment. First, the Court
has identified a harm caused by “debasement or dilution of the
weight of a citizen’s vote,” also referred to “vote dilution.”
Reynolds, 377 U.S. at 555. Courts find this harm arises where
gerrymandering under a redistricting plan has diluted the
“requirement that all citizens’ votes be weighted equally, known
as the one person, one vote principle,” and resulted in one
group or community’s vote counting more than another’s. Raleigh
Wake Citizens Ass’n v. Wake Cnty. Bd. of Elections, 827 F.3d
333, 340 (4th Cir. 2016); see also Gill v. Whitford, 585 U.S.
____, ____, 138 S. Ct. 1916, 1930-31 (2018) (finding that the
“harm” of vote dilution “arises from the particular composition
of the voter’s own district, which causes his vote – having been
packed or cracked – to carry less weight than it would carry in
another, hypothetical district”); Wesberry v. Sanders, 376 U.S.
1, 18 (1964) (finding that vote dilution occurred where
congressional districts did not guarantee “equal representation
for equal numbers of people”); Wright v. North Carolina, 787
- 35 -

A p p. 1 7 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 5 of 9 1

F.3d 256, 268 (4th Cir. 2015) (invalidating a voter
redistricting plan).
Second, the Court has found that the Equal Protection
Clause is violated where the state, “[h]aving once granted the
right to vote on equal terms,” through “later arbitrary and
disparate treatment, value[s] one person’s vote over that of
another.” Bush, 531 U.S. at 104-05 (2000); see also Baker v.
Carr, 369 U.S. 186, 208 (1962) (“A citizen’s right to a vote
free of arbitrary impairment by state action has been judicially
recognized as a right secured by the Constitution, when such
impairment resulted from dilution by a false tally, or by a
refusal to count votes from arbitrarily selected precincts, or
by a stuffing of the ballot box.”) (internal citations omitted).
This second theory of voting harms requires courts to balance
competing concerns around access to the ballot. On the one hand,
a state should not engage in practices which prevent qualified
voters from exercising their right to vote. A state must ensure
that there is “no preferred class of voters but equality among
those who meet the basic qualifications.” Gray v. Sanders, 372
U.S. 368, 379-80 (1963). On the other hand, the state must
protect against “the diluting effect of illegal ballots.” Id. at
380. Because “the right to have one’s vote counted has the same
dignity as the right to put a ballot in a box,” id., the vote
- 36 -

A p p. 1 7 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 6 of 9 1

dilution occurs only where there is both “arbitrary and
disparate treatment.” Bush, 531 U.S. at 105. To this end, states
must have “specific rules designed to ensure uniform treatment”
of a voter’s ballot. Id. at 106.
2.

Standing to Bring Equal Protection Claims

In light of the harms prohibited by the Equal Protection
Clause, this court must first consider whether Plaintiffs have
standing to bring these claims.
For a case or controversy to be justiciable in federal
court, a plaintiff must allege “such a personal stake in the
outcome of the controversy as to warrant his invocation of
federal court jurisdiction and to justify exercise of the
court’s remedial powers on his behalf.” White Tail Park, Inc. v.
Stroube, 413 F.3d 451, 458 (4th Cir. 2005) (quoting Planned
Parenthood of S.C. Inc. v. Rose, 361 F.3d 786, 789 (4th Cir.
2004)).
The party seeking to invoke the federal courts’
jurisdiction has the burden of satisfying Article III’s standing
requirement. Miller v. Brown, 462 F.3d 313, 316 (4th Cir. 2006).
To meet that burden, a plaintiff must demonstrate three
elements: (1) that the plaintiff has suffered an injury in fact
that is “concrete and particularized” and “actual or imminent”;
(2) that the injury is fairly traceable to the challenged
- 37 -

A p p. 1 7 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 7 of 9 1

conduct of the defendant; and (3) that a favorable decision is
likely to redress the injury. Lujan v. Defenders of Wildlife,
504 U.S. 555, 560-61 (1992).
In multi-plaintiff cases, “[a]t least one plaintiff must
have standing to seek each form of relief requested in the
complaint.” Town of Chester v. Laroe Estates, Inc., 581 U.S.
____, ____, 137 S. Ct. 1645, 1651 (2017). Further, if there is
one plaintiff “who has demonstrated standing to assert these
rights as his own,” the court “need not consider whether the
other individual and corporate plaintiffs have standing to
maintain the suit.” Vill. of Arlington Heights v. Metro. Hous.
Dev. Corp., 429 U.S. 252, 264 & n.9 (1977).
In the voting context, “voters who allege facts showing
disadvantage to themselves as individuals have standing to sue,”
Baker, 369 U.S. at 206, so long as their claimed injuries are
“distinct from a ‘generally available grievance about the
government,’” Gill, 138 S. Ct. at 1923 (quoting Lance v.
Coffman, 549 U.S. 437, 439 (2007) (per curiam)).
Defendant SBE and Alliance Intervenors argue that
Individual Plaintiffs in Wise and Moore have not alleged a
concrete and particularized injury under either of the two Equal
Protection theories. (Alliance Resp. (Doc. 64) at 14-15; SBE
Resp. (Doc. 65) at 12-13.)
- 38 -

A p p. 1 7 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 8 of 9 1

First, under a vote dilution theory, they argue that courts
have “repeatedly rejected this theory as a basis for standing,
both because it is unduly speculative and impermissibly
generalized.” (Alliance Resp. (Doc. 64) at 17.) Second, under an
arbitrary and disparate treatment theory, they argue that the
injury is too generalized because the Numbered Memoranda apply
equally to all voters across the state and that Plaintiffs
“cannot claim an injury for not having to go through a remedial
process put in place for other voters.” (SBE Resp. (Doc. 65) at
12.)
Plaintiffs in Moore and Wise do not address standing for
their Equal Protection claims in their memoranda in support of
their motions for a preliminary injunction. (See Wise Pls.’ Mot.
(Doc. 43); Moore Pls.’ Mot. (Doc. 60).) At oral argument held on
October 8, 2020, however, counsel for the Moore Plaintiffs
responded to Defendant SBE and Alliance Intervenor’s standing
arguments. (Oral Argument Tr. (Doc. 70) at 52-59.)
First, under a vote dilution theory, counsel argued that
“the Defendants confuse a widespread injury with not having a
personal injury,” (id. at 53), and that the Supreme Court’s
decision in Reynolds demonstrates that “impermissible vote
dilution occurs when there’s ballot box stuffing,” (id.),
suggesting that each voter would have standing to sue under the
- 39 -

A p p. 1 7 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 3 9 of 9 1

Supreme Court’s precedent in Reynolds because their vote has
less value. (Id.) Second, under an arbitrary and disparate
treatment theory, counsel argued that Plaintiffs were subjected
to the witness requirement and that “[t]here are burdens
associated with that” which support a finding of an injury in
fact. (Id. at 56.) Counsel argued the harm that is occurring is
not speculative because, for example, voters have and will
continue to fail to comply with the witness requirement, (id. at
55-56), and ballots will arrive between the third and ninth day
following the election pursuant to the Postmark Requirement,
(id. at 58). Moreover, counsel argued that the “regime” imposed
by the state is arbitrary, citing limitations on assistance
allowed to complete a ballot, compared to the lessened
restrictions associated with the witness requirement under
Numbered Memo 2020-19. (Id. at 59.)
This court finds that Individual Plaintiffs in Moore and
Wise have not articulated a cognizable injury in fact for their
vote dilution claims. However, all of the Individual Plaintiffs
in Moore, and one Individual Plaintiff in Wise have articulated
an injury in fact for an arbitrary and disparate treatment
claim.

- 40 -

A p p. 1 7 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 0 of 9 1

a.

Vote Dilution

Although the Supreme Court has “long recognized that a
person’s right to vote is ‘individual and personal in nature.’”
Gill, 138 S. Ct. at 1930 (citing Reynolds, 377 U.S. at 561), the
Court has expressly held that “vote dilution” refers
specifically to

”invidiously minimizing or canceling out the

voting potential of racial or ethnic minorities, Abbott v.
Perez, 585 U.S. ____, ____, 138 S. Ct. 2305, 2314 (2018)
(internal quotations and modifications omitted) (emphasis
added), a harm which occurs where “the particular composition of
the voter’s own district . . . causes his vote – having been
packed or cracked – to carry less weight than it would carry in
another, hypothetical district.” Gill, 138 S. Ct. at 1931.
Indeed, lower courts which have addressed standing in vote
dilution cases arising out of the possibility of unlawful or
invalid ballots being counted, as Plaintiffs have argued here,
have said that this harm is unduly speculative and impermissibly
generalized because all voters in a state are affected, rather
than a small group of voters. See, e.g., Donald J. Trump for
President, Inc. v. Cegavske, Case No. 2:20-CV-1445 JCM (VCF),
2020 WL 5626974, at *4 (D. Nev. Sept. 18, 2020) (“As with other
generally available grievances about the government, plaintiffs
seek relief on behalf of their member voters that no more
- 41 -

A p p. 1 8 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 1 of 9 1

directly and tangibly benefits them than it does the public at
large.”) (internal quotations and modifications omitted); Martel
v. Condos, Case No. 5:20-cv-131, 2020 WL 5755289, at *4 (D. Vt.
Sept. 16, 2020) (“If every voter suffers the same incremental
dilution of the franchise caused by some third-party’s
fraudulent vote, then these voters have experienced a
generalized injury.”); Paher v. Cegavske, Case No. 3:20-cv-0234MMD-WGC, 2020 WL 2089813, at * 5 (D. Nev. Apr. 30, 2020)
(“Plaintiffs’ purported injury of having their votes diluted due
to ostensible election fraud may be conceivably raised by any
Nevada voter.”); Am. Civil Rights Union v. Martinez-Rivera, 166
F. Supp. 3d. 779, 789 (W.D. Tex. 2015) (“[T]he risk of vote
dilution[ is] speculative and, as such, [is] more akin to a
generalized grievance about the government than an injury in
fact.”).
Although “[i]t would over-simplify the standing analysis to
conclude that no state-wide election law is subject to challenge
simply because it affects all voters,” Martel, 2020 WL 5755289,
at *4, the notion that a single person’s vote will be less
valuable as a result of unlawful or invalid ballots being cast
is not a concrete and particularized injury in fact necessary
for Article III standing. Compared to a claim of gerrymandering,
in which the injury is specific to a group of voters based on
- 42 -

A p p. 1 8 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 2 of 9 1

their racial identity or the district where they live, all
voters in North Carolina, not just Individual Plaintiffs, would
suffer the injury Individual Plaintiffs allege. This court finds
this injury too generalized to give rise to a claim of vote
dilution, and thus, neither Plaintiffs in Moore nor in Wise have
standing to bring their vote dilution claims under the Equal
Protection Clause.
b.

Arbitrary and Disparate Treatment

In Bush, the Supreme Court held that, “[h]aving once
granted the right to vote on equal terms, the State may not, by
later arbitrary and disparate treatment, value one person’s vote
over that of another.” 531 U.S. at 104-05. Plaintiffs argue that
they have been subjected to arbitrary and disparate treatment
because they voted under one set of rules, and other voters,
through the guidance in the Numbered Memoranda, will be
permitted to vote invalidly under a different and unequal set of
rules, and that this is a concrete and particularized injury.
(Oral Argument Tr. (Doc. 70) at 70-71.)
For the purposes of determining whether Plaintiffs have
standing, is it not “necessary to decide whether [Plaintiffs’]
allegations of impairment of their votes” by Defendant SBE’s
actions “will, ultimately, entitle them to any relief,” Baker,
369 U.S. at 208; whether a harm has occurred is best left to
- 43 -

A p p. 1 8 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 3 of 9 1

this court’s analysis of the merits of Plaintiffs’ claims, (see
discussion infra Section II.D.3). Instead, the appropriate
inquiry is, “[i]f such impairment does produce a legally
cognizable injury,” whether Plaintiffs “are among those who have
sustained it.” Baker, 369 U.S. at 208.
This court finds that Individual Plaintiffs in Moore and
one Individual Plaintiff in Wise have standing to raise an
arbitrary and disparate treatment claim because their injury is
concrete, particularized, and not speculative. Bobby Heath and
Maxine Whitley, the Individual Plaintiffs in Moore, are
registered North Carolina voters who voted absentee by mail and
whose ballots have been accepted by SBE. (Moore Compl. (Doc. 1)
¶¶ 9-10.) In Wise, Individual Plaintiff Patsy Wise is a
registered voter who cast her absentee ballot by mail. (Wise
Compl. (Doc. 1) ¶ 25.)
If Plaintiffs Heath, Whitley, and Wise were voters who
intended to vote by mail but who had not yet submitted their
ballots, as is the case with the other Individual Plaintiffs in
Wise, (Wise Compl. (Doc. 1) ¶¶ 26-28), or voters who had
intended to vote in-person either during the Early Voting period
or on Election Day, then they would not in fact have been
impacted by the laws and procedures for submission of absentee
ballots by mail and the complained-of injury would be merely “an
- 44 -

A p p. 1 8 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 4 of 9 1

injury common to all other registered voters,” Martel, 2020 WL
5755289, at *4. See also Donald J. Trump for President, Inc.,
2020 WL 5626974, at *4 (“Plaintiffs never describe how their
member voters will be harmed by vote dilution where other voters
will not.”). Indeed, this court finds that Individual Plaintiffs
Clifford, Bambini, and Baum in Wise do not have standing to
challenge the Numbered Memoranda, because any “shock[]” and
“serious concern[s]” they have that their vote “will be negated
by improperly cast or fraudulent ballots,” (Wise Compl. (Doc. 1)
¶¶ 26-28), is merely speculative until such point that they have
actually voted by mail and had their ballots accepted, which
Plaintiffs’ Complaint in Wise does not allege has occurred.
(Id.)
Yet, because Plaintiffs Heath, Whitley, and Wise have, in
fact, already voted by mail, (Moore Compl. (Doc. 1) ¶¶ 9-10;
Wise Compl. (Doc. 1) ¶ 25), their injury is not speculative.
Under the Numbered Memoranda 2020-19, 2020-22, and 2020-23,
other voters who vote by mail will be subjected to a different
standard than that to which Plaintiffs Heath, Whitley, and Wise
were subjected when they cast their ballots by mail. Assuming
this is an injury that violates the Equal Protection Clause,
Baker, 369 U.S. at 208, the harm alleged by Plaintiffs is
particular to voters in Heath, Whitley, and Wise’s position,
- 45 -

A p p. 1 8 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 5 of 9 1

rather than a generalized injury that any North Carolina voter
could claim. For this reason, this court finds that Individual
Plaintiffs Heath, Whitley, and Wise have standing to raise Equal
Protection claims under an arbitrary and disparate treatment
theory. Because at least one plaintiff in each of these multiplaintiff cases has standing to seek the relief requested, the
court “need not consider whether the other individual and
corporate plaintiffs have standing to maintain the suit.” Vill.
of Arlington Heights, 429 U.S. at 264 & n.9.
3.

Likelihood of Success on the Merits

Having determined that Individual Plaintiffs have standing
to bring their arbitrary and disparate treatment claims, this
court now considers whether Plaintiffs’ claims are likely to
succeed on the merits. To demonstrate a likelihood of success on
the merits, “[a] plaintiff need not establish a certainty of
success, but must make a clear showing that he is likely to
succeed at trial.” Di Biase, 872 F.3d at 230.
a.

Parties’ Arguments

Plaintiffs argue that four policies indicated in the
Numbered Memoranda are invalid under the Equal Protection
Clause: (1) the procedure which allows ballots without a witness
signature to be retroactively validated through the cure
procedure indicated in Revised Numbered Memo 2020-19 (“Witness
- 46 -

A p p. 1 8 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 6 of 9 1

Requirement Cure Procedure”); (2) the procedure which allows
absentee ballots to be received up to nine days after Election
Day if they are postmarked on Election Day, as indicated in
Numbered Memo 2020-19 (“Receipt Deadline Extension”); and (3)
the procedure which allows for anonymous delivery of ballots to
unmanned drop boxes, as indicated in Numbered Memo 2020-23
(“Drop Box Cure Procedure”); (4) the procedure which allows
ballots to be counted without a United States Postal Service
postmark, as indicated in Numbered Memo 2020-22 (“Postmark
Requirement Changes”). (Moore Compl. (Doc. 1) ¶ 93; Wise Compl.
(Doc. 1) ¶ 124; Wise Pls.’ Mot. (Doc. 43) at 13-14.)
Plaintiffs in Wise argue that the changes in these
Memoranda “guarantee that voters will be treated arbitrarily
under the ever-changing voting regimes.” (Wise Pls.’ Mot. (Doc.
43) at 11.) Similarly, Plaintiffs in Moore argue that the three
Memoranda were issued “after tens of thousands of North
Carolinians cast their votes following the requirements set by
the General Assembly,” which deprives Plaintiffs “of the Equal
Protection Clause’s guarantee because it allows for ‘varying
standards to determine what [i]s a legal vote.” (Moore Compl.
(Doc. 1) ¶ 90 (citing Bush, 531 U.S. at 107).)
In response, Defendants argue that the Numbered Memoranda
will not lead to the arbitrary and disparate treatment of
- 47 -

A p p. 1 8 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 7 of 9 1

ballots prohibited by the Supreme Court’s decision in Bush v.
Gore, 531 U.S. 98 (2000). Defendant SBE argues that the consent
judgment and Numbered Memos do “precisely what Bush
contemplated: It establishes uniform and adequate standards for
determining what is a legal vote, all of which apply statewide,
well in advance of Election Day. Indeed, the only thing stopping
uniform statewide standards from going into effect is the TRO
entered in these cases.” (SBE Resp. (Doc. 65) at 17.) Moreover,
Defendant SBE argues that the consent judgment “simply
establishes uniform standards that help county boards ascertain
which votes are lawful,” and “in no way lets votes be cast
unlawfully.” (Id. at 18.)
Alliance Intervenors argue that the Numbered Memos “apply
equally to all voters,” (Alliance Resp. (Doc. 64) at 18), and
“Plaintiffs have not articulated, let alone demonstrated, how
their right to vote – or anyone else’s – is burdened or valued
unequally,” (id. at 19). Moreover, Alliance Intervenors argue
that the release of the Numbered Memoranda after the election
began does not raise equal protection issues because,
“[e]lection procedures often change after voting has started to
ensure that the fundamental right to vote is protected.” (Id. at
20.)

- 48 -

A p p. 1 8 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 8 of 9 1

Both Defendant SBE and Alliance Intervenors argue that the
release of the Numbered Memoranda after the election began does
not raise equal protection issues, as election procedures often
change after voting has started. (SBE Resp. (Doc. 65) at 18;
Alliance Resp. (Doc. 64) at 20.) For example, Defendant SBE
argues that “[i]f it is unconstitutional to extend the receipt
deadline for absentee ballots to address mail disruptions, then
it would also be unconstitutional to extend hours at polling
places on Election Day to address power outages or votingmachine malfunctions.” (SBE Resp. (Doc. 65) at 18 (citing N.C.
Gen. Stat. § 163-166.01).) “Likewise, the steps that the Board
has repeatedly taken to ensure that people can vote in the wake
of natural disasters like hurricanes would be invalid if those
steps are implemented after voting begins.” (Id.)
b.

Analysis

This court agrees with the parties that an Equal Protection
violation occurs where there is both arbitrary and disparate
treatment. Bush, 531 U.S. at 105. This court also agrees with
Defendants that not all disparate treatment rises to the level
of an Equal Protection violation. As Defendant SBE argues, the
General Assembly has empowered SBE to make changes to voting
policies and procedures throughout the election, including
extending hours at polling places or adjusting voting in
- 49 -

A p p. 1 8 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 4 9 of 9 1

response to natural disasters. (SBE Resp. (Doc. 65) at 18.)
Other federal courts have upheld changes to election procedures
even after voting has commenced. For example, in 2018, a federal
court enjoined Florida’s signature matching procedures and
ordered a cure process after the election. Democratic Exec.
Comm. of Fla. V. Detzner, 347 F. Supp. 3d 1017, 1031 (N.D. Fla.
2018), appeal dismissed as moot sub nom. Democratic Exec. Comm.
of Fla. v. Nat’l Republican Senatorial Comm., 950 F.3d 790 (11th
Cir. 2020). Similarly, a Georgia federal court in 2018 ordered a
cure process in the middle of the absentee and early voting
periods. Martin v. Kemp, 341 F. Supp. 3d 1326 (N.D. Ga. 2018),
appeal dismiss sub nom. Martin v. Sec’y of State of Ga., No.
18-14503-GG, 2018 WL 7139247 (11th Cir. Dec. 11, 2018).
A change in election rules that results in disparate
treatment shifts from constitutional to unconstitutional when
these rules are also arbitrary. The ordinary definition of the
word “arbitrary” refers to matters “[d]epending on individual
discretion” or “involving a determination made without
consideration of or regard for facts, circumstances, fixed
rules, or procedures.” Arbitrary, Black’s Law Dictionary (11th
ed. 2019). This definition aligns with the Supreme Court’s
holding in Reynolds and Bush, that the State must ensure equal
treatment of voters both at the time it grants citizens the
- 50 -

A p p. 1 8 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 0 of 9 1

right to vote and throughout the election. Bush, 531 U.S. at
104-05 (“Having once granted the right to vote on equal terms,
the State may not, by later arbitrary and disparate treatment,
value one person’s vote over that of another.”); Reynolds, 377
U.S. at 555 (“[T]he right of suffrage can be denied by a
debasement or dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of the
franchise.”).
The requirement that a state “grant[] the right to vote on
equal terms,” Bush, 531 U.S. at 104, includes protecting the
public “from the diluting effect of illegal ballots,” Gray, 372
U.S. at 380. To fulfill this requirement, a state legislature
must define the manner in which voting should occur and the
minimum requirements for a valid, qualifying ballot. In North
Carolina, the General Assembly has passed laws defining the
requirements for permissible absentee voting, N.C. Gen. Stat.
§ 163-226 et seq., including as recently as this summer, when it
modified the one-witness requirement, 2020 N.C. Sess. Laws 202017 (H.B. 1169) § 1.(a). As this court found in its order issuing
a preliminary injunction in Democracy, these requirements
reflect a desire by the General Assembly to prevent voter fraud
resulting from illegal voting practices. Democracy N. Carolina,
2020 WL 4484063, at *35.
- 51 -

A p p. 1 9 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 1 of 9 1

A state cannot uphold its obligation to ensure equal
treatment of all voters at every stage of the election if
another body, including SBE, is permitted to contravene the duly
enacted laws of the General Assembly and to permit ballots to be
counted that do not satisfy the fixed rules or procedures the
state legislature has deemed necessary to prevent illegal
voting. Any guidance SBE adopts must be consistent with the
guarantees of equal treatment contemplated by the General
Assembly and Equal Protection.
Thus, following this precedent, and the ordinary definition
of the word “arbitrary,” this court finds that SBE engages in
arbitrary behavior when it acts in ways that contravene the
fixed rules or procedures the state legislature has established
for voting and that fundamentally alter the definition of a
validly voted ballot, creating “preferred class[es] of voters.”
Gray, 372 U.S. at 380.
This definition of arbitrariness does not require this
court to consider whether the laws enacted by the General
Assembly violate other provisions in the North Carolina or U.S.
Constitution or whether there are better public policy
alternatives to the laws the General Assembly has enacted. These
are separate inquiries. This court’s review is limited to

- 52 -

A p p. 1 9 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 2 of 9 1

whether the challenged Numbered Memos are consistent with state
law and do not create a preferred class or classes of voters.
i.

Witness Requirement Cure Procedure

This court finds Plaintiffs have demonstrated a likelihood
of success on the merits with respect to their Equal Protection
challenge to the Witness Requirement Cure Procedure in Revised
Memo 2020-19.
Under the 2020 N.C. Sess. Laws 2020-17 (H.B. 1169) § 1.(a),
a witnessed absentee ballot must be “marked . . . in the
presence of at least one [qualified] person . . . .” This clear
language dictates that the witness must be (1) physically
present with the voter, and (2) present at the time the ballot
is marked by the voter.
Revised Memo 2020-19 counsels that ballots missing a
witness signature may be cured where voters sign and affirm the
following statement:
I am submitting this affidavit to correct a problem
with missing information on the ballot envelope. I am
an eligible voter in this election and registered to
vote in [name] County, North Carolina. I solemnly
swear or affirm that I voted and returned my absentee
ballot for the November 3, 2020 general election and
that I have not voted and will not vote more than one
ballot in this election. I understand that
fraudulently or falsely completing this affidavit is a
Class I felony under Chapter 163 of the North Carolina
General Statutes.
(Moore v. Circosta, No. 1:20CV911 (Doc. 45-1) at 34.)
- 53 -

A p p. 1 9 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 3 of 9 1

This “cure” affidavit language makes no mention of whether
a witness was in the presence of the voter at the time that the
voter cast their ballot, which is the essence of the
Legislature’s Witness Requirement. 2020 N.C. Sess. Laws 2020-17
(H.B. 1169) § 1.(a). In fact, a voter could truthfully sign and
affirm this statement and have their ballot counted by their
county board of elections without any witness becoming involved
in the process.

6

Because the effect of this affidavit is to

Plaintiffs do not challenge the use of the cure affidavit
for ballot deficiencies generally, aside from arguing that the
cure affidavit circumvents the statutory Witness Requirement.
(See Moore Compl. (Doc. 1) ¶ 93; Wise Compl. (Doc. 1) ¶ 124.)
Although not raised by Plaintiffs, this courts finds the
indefiniteness of the cure affidavit language troubling as a
means of correcting even curable ballot deficiencies.
During oral arguments, Defendants did not and could not
clearly define what it means to “vote,” (see, e.g., Oral
Argument Tr. (Doc. 70) at 130-32), which is all that the
affidavit requires voters to attest that they have done. (Moore
v. Circosta, No. 1:20CV911, State Court Consent Judgment (Doc.
45-1) at 34.) Under the vague “I voted” language used in the
affidavit, a voter who completed their ballot with assistance
from an unauthorized individual; a voter who does not qualify
for voting assistance; or a voter who simply delegated the
responsibility for completing their ballot to another person
could truthfully sign this affidavit, although all three acts
are prohibited under state law. See N.C. Gen. Stat. § 163226.3(a)(1). Because the cure affidavit does not define what it
means to vote, voters are permitted to decide what that means
for themselves.
This presents additional Equal Protection concerns. A state
must ensure that there is “no preferred class of voters but
equality among those who meet the basic qualifications.” Gray,
372 U.S. at 380. Because the affidavit does not serve as an
adequate means to ensure that voters did not engage in
unauthorized ballot casting procedures, inevitably, not all
(Footnote continued)
6

- 54 -

A p p. 1 9 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 4 of 9 1

eliminate the statutorily required witness requirement, this
court finds that Plaintiffs have demonstrated a likelihood of
success on the merits in proving that the Witness Requirement
Cure Procedure indicated in Revised Memo 2020-19 is arbitrary.
Based on counsel’s statements at oral arguments, Defendant
SBE may contend that the guidance in Revised Memo 2020-19 is not
arbitrary because it was necessary to resolve the Alliance state
court action. (Oral Argument Tr. (Doc. 70) at 105 (“Our reading
then of state law is that the Board has the authority to make
adjustments in emergencies or as a means of settling protracted
litigation until the General Assembly reconvenes.”).) However,
Defendant SBE’s arguments to the state court judge and the court
in the Eastern District of North Carolina belie that assertion,
as they advised the state court that both the original Memo
2020-19 and the Revised Memo were issued “to ensure full
compliance with the injunction entered by Judge Osteen,” (SBE
State Court Br. (Doc. 68-1) at 15), and they advised the court
in the Eastern District of North Carolina that they had issued

voters will be held to the same standards for casting their
ballot. This is, by definition, arbitrary and disparate
treatment inconsistent with existing state law.
This court’s concerns notwithstanding, however, Plaintiffs
do not challenge the use of a cure affidavit in other contexts,
so this court will decline to enjoin the use of a cure affidavit
beyond its application as an alternative for compliance with the
Witness Requirement.
- 55 -

A p p. 1 9 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 5 of 9 1

the revised Memo 2020-19 “in order to comply with Judge Osteen’s
preliminary injunction in the Democracy N.C. action in the
Middle District.” (TRO (Doc. 47) at 9.) As this court more fully
explains in its order issued in Democracy, this court finds that
Defendant SBE improperly used this court’s August Democracy
Order to modify the witness requirement. Democracy N. Carolina,
No. 1:20CV457 (M.D.N.C. Oct. 14, 2020) (enjoining witness cure
procedure). Because Defendant SBE acted improperly in that
fashion, this court declines to accept an argument now that
elimination of the witness requirement was a rational and
justifiable basis upon which to settle the state lawsuit.
Furthermore, it is difficult to conceive that SBE was authorized
to resolve a pending lawsuit that could create a preferred class
of voters: those who may submit an absentee ballot without a
witness under an affidavit with no definition of the meaning of
“vote.”
This court also finds Plaintiffs have demonstrated a
likelihood of success on the merits in proving disparate
treatment may result as a result of the elimination of the
Witness Requirement. Individual Plaintiffs Wise, Heath, and
Whitley assert that they voted absentee by mail, including
complying with the Witness Requirement. (Wise Compl. (Doc. 1)
¶ 25; Moore Compl. (Doc. 1) ¶¶ 9-10.) Whether because a voter
- 56 -

A p p. 1 9 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 6 of 9 1

inadvertently cast a ballot without a witness or because a voter
was aware of the “cure” procedure and thus, willfully did not
cast a ballot with a witness, there will be voters whose ballots
are cast without a witness. Accordingly, this court finds that
Plaintiffs have demonstrated a likelihood of success on the
merits in proving that the Witness Requirement Cure Procedure
indicated in Memo 2020-19 creates disparate treatment.
Thus, because Plaintiffs have demonstrated a likelihood of
success on the merits with respect to arbitrary and disparate
treatment that may result from under Witness Requirement Cure
Procedure in Revised Memo 2020-19, this court finds Plaintiffs
have established a likelihood of success on their Equal
Protection claim.
ii.

Receipt Deadline Extension

This court finds that Plaintiffs are likely to succeed on
their Equal Protection challenge to the Receipt Deadline
Extension in Revised Memo 2020-19.
Under N.C. Gen. Stat. § 163-231(b), in order to be counted,
civilian absentee ballots must have been received by the county
board office by 5 p.m. on Election Day, November 3, 2020, or if
postmarked by Election Day, by 5:00 p.m. on November 6, 2020.
The guidance in Revised Memo 2020-19 extends the time in which
absentee ballots must be returned, allowing a late civilian
- 57 -

A p p. 1 9 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 7 of 9 1

ballot to be counted if postmarked on or before Election Day and
received by 5:00 p.m. on November 12, 2020 (Revised Memo 2020-19
(Doc. 36-3) at 5.)
Alliance Intervenors argue that, “[t]o the extent Numbered
Memo 2020-22 introduces a new deadline, it affects only the
counting of ballots for election officials after Election Day
has passed – not when voters themselves must submit their
ballots. All North Carolina absentee voters still must mail
their ballots by Election Day.” (Alliance Resp. (Doc. 64) at
21.)
This court disagrees, finding Plaintiffs have demonstrated
a likelihood of success on the merits in proving that this
change contravenes the express deadline established by the
General Assembly, by extending the deadline from three days
after Election Day, to nine days after Election Day. Moreover,
it results in disparate treatment, as voters like Individual
Plaintiffs returned their ballots within the time-frame
permitted under state law, (Wise Compl. (Doc. 1) ¶ 25; Moore
Compl. (Doc. 1) ¶¶ 9-10), but other voters whose ballots would
otherwise not be counted if received three days after Election
Day, will now have an additional six days to return their
ballot.

- 58 -

A p p. 1 9 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 8 of 9 1

Because Plaintiffs have demonstrated a likelihood of
success on the merits in proving arbitrary and disparate
treatment may result under the Receipt Deadline Extension, this
court finds Plaintiffs have established a likelihood of success
on the merits of their Equal Protection claim.
iii. Drop Box Cure Procedure
Plaintiffs have failed to establish a likelihood of
success, however, on their Equal Protection challenge to the
Drop Box Cure Procedure indicated in Numbered Memo 2020-23.
(Wise, No. 1:20CV912, Memo 2020-23 (Doc. 1-4).)
N.C. Gen. Stat. § 163-226.3(a)(5) makes it a felony for any
person other than the voter’s near relative or legal guardian to
take possession of an absentee ballot of another voter for
delivery or for return to a county board of elections.
“Because of this provision in the law,” and the need to
ensure compliance with it, SBE recognized in Memo 2020-23 that,
“an absentee ballot may not be left in an unmanned drop box,”
(Wise, No. 1:20CV912, Memo 2020-23 (Doc. 1-4) at 2), and
directed county boards which have a “drop box, slot, or similar
container at their office” for other business purposes to place
a “sign indicating that absentee ballots may not be deposited in
it.” (Id.)

- 59 -

A p p. 1 9 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 5 9 of 9 1

Moreover, the guidance reminds county boards that they must
keep a written log when any person returns an absentee ballot in
person, which includes the name of the individual returning the
ballot, their relationship to the voter, the ballot number, and
the date it was received. (Id. at 3.) If the individual who
drops off the ballot is not the voter, their near relative, or
legal guardian, the log must also record their address and phone
number. (Id.) The guidance also advises county boards that
“[f]ailure to comply with the logging requirement, or delivery
or an absentee ballot by a person other than the voter, the
voter’s near relative, or the voter’s legal guardian, is not
sufficient evidence in and of itself to establish that the voter
did not lawfully vote their ballot.” (Id. at 3.) Instead, the
guidance advises the county board that they “may . . . consider
the delivery of a ballot . . . in conjunction with other
evidence in determining whether the ballot is valid and should
be counted.” (Id. at 4.)
Plaintiffs argue that this guidance “undermines the General
Assembly’s criminal prohibition of the unlawful delivery of
ballots,” (Moore Compl. (Doc. 1) ¶ 68), and “effectively
allow[s] voters to use drop boxes for absentee ballots,” (Wise
Pls.’ Mot. (Doc. 43) at 13), and thus, violates the Equal

- 60 -

A p p. 1 9 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 0 of 9 1

Protection Clause, (Moore Compl. (Doc. 1) ¶ 93). This court
disagrees.
Although Numbered Memo 2020-23 was released on
September 22, 2020, (Wise, No. 1:20CV912, Memo 2020-23 (Doc.
1-4) at 2), the guidance it contains is not new. Consistent with
the guidance in Numbered Memo 2020-23, SBE administrative rules
adopted on December 1, 2018, require that any person delivering
a ballot to a county board of elections office provide:
(1) Name of voter;
(2) Name of person delivering ballot;
(3) Relationship to voter;
(4) Phone Number (if available) and current address of
person delivering ballot;
(5) Date and time of delivery of ballot; and
(6) Signature or mark of person delivering ballot
certifying that the information provided is true and
correct and that the person is the voter or the
voter’s near relative as defined in [N.C. Gen. Stat
§ 163-226(f)] or verifiable legal guardian as defined
in [N.C. Gen. Stat. § 163-226(e)].
8 N.C. Admin. Code 18.0102 (2018). Moreover, the administrative
rule states that “the county board of elections may consider the
delivery of a ballot in accordance with this Rule in conjunction
with other evidence in determining whether the container-return
envelope has been properly executed according to the
requirements of [N.C. Gen. Stat. § 163-231],” (id.), and that
- 61 -

A p p. 2 0 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 1 of 9 1

“[f]ailure to comply with this Rule shall not constitute
evidence sufficient in and of itself to establish that the voter
did not lawfully vote his or her ballot.” (Id.)
Because the guidance contained in Numbered Memo 2020-23 was
already in effect at the start of this election as a result of
SBE’s administrative rules, Individual Plaintiffs were already
subject to it at the time that they cast their votes.
Accordingly, because all voters were subject to the same
guidance, Plaintiffs have not demonstrated a likelihood of
success on the merits in proving disparate treatment.
It is a closer issue with respect to whether Plaintiffs
have demonstrated a likelihood of success on the merits in
proving that the rules promulgated by Defendant SBE are
inconsistent with N.C. Gen. Stat. § 163-226.3(a)(5).
This statute makes it a felony for any person other than
the voter’s near relative or legal guardian to take possession
of an absentee ballot of another voter for delivery or for
return to a county board of elections. Id. It would seem
logically inconsistent that the General Assembly would
criminalize this behavior, while at the same time, permit
ballots returned by unauthorized third parties to be considered
valid. Yet, upon review of the legislative history, this court
finds the felony statute has been in force since 1979, 1979 N.C.
- 62 -

A p p. 2 0 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 2 of 9 1

Sess. Laws Ch. 799 (S.B. 519) § 4, https://www.ncleg.gov/
enactedlegislation/sessionlaws/pdf/1979-1980/sl1979-799.pdf
(last visited Oct. 13, 2020), and in its current form since
2013. 2013 N.C. Sess. Laws 381 (H.B. 589) § 4.6.(a).
That the General Assembly, by not taking legislative
action, and instead, permitted SBE’s administrative rule and the
General Assembly’s statute to coexist for nearly two years and
through several other elections undermines Plaintiffs’ argument
that Defendant SBE has acted arbitrarily. For this reason, this
court finds that Plaintiffs have not demonstrated a likelihood
of success on the merits in proving the arbitrariness of the
guidance in Numbered Memo 2020-23 and accordingly, Plaintiffs
have failed to establish a likelihood of success on their Equal
Protection challenge to Numbered Memo 2020-23.
If the General Assembly believes that SBE’s administrative
rules are inconsistent with its public policy goals, they are
empowered to pass legislation which overturns the practice
permitted under the administrative rule.
iv.

Postmark Requirement Changes

Similarly, this court finds that Plaintiffs have failed to
establish likelihood of success on the merits with respect to
their Equal Protection challenge to the Postmark Requirement

- 63 -

A p p. 2 0 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 3 of 9 1

Changes in Numbered Memo 2020-22. (Wise, 1:20CV912, Memo 2020-22
(Doc. 1-3).)
Under Numbered Memo 2020-22, a ballot will be considered
postmarked by Election Day if it has a USPS postmark, there is
information in BallotTrax, or “another tracking service offered
by the USPS or a commercial carrier, indicat[es] that the ballot
was in the custody of USPS or the commercial carrier on or
before Election Day.” (Id. at 3.) This court finds that these
changes are consistent with N.C. Gen. Stat. § 163-231(b)(2)b,
which does not define what constitutes a “postmark,” and
instead, merely states that ballots received after 5:00 p.m. on
Election Day may not be accepted unless the ballot is
“postmarked and that postmark is dated on or before the day of
the . . . general election . . . and are received by the county
board of elections not later than three days after the election
by 5:00 p.m.”
In the absence of a statutory definition for postmark, this
court finds Plaintiffs have not demonstrated a likelihood of
success on the merits in proving that Numbered Memo 2020-22 is
inconsistent with N.C. Gen. Stat. § 163-231(b)(2)b, and thus,
arbitrary. If the General Assembly believes that the Postmark
Requirement Changes indicated in Memo 2020-22 are inconsistent
with its public policy goals, they are empowered to pass
- 64 -

A p p. 2 0 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 4 of 9 1

legislation which further specifies the definition of a
“postmark.” In the absence of such legislation, however, this
court finds that Plaintiffs have failed to establish a
likelihood of success on the merits of their Equal Protection
challenge.

- 65 -

A p p. 2 0 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 5 of 9 1

4.

Irreparable Harm

In addition to a likelihood of success on the merits, a
plaintiff must also make a “clear showing that it is likely to
be irreparably harmed absent preliminary relief” in order to
obtain a preliminary injunction. UBS Fin. Servs. Inc. v.
Carilion Clinic, 880 F. Supp. 2d 724, 733 (E.D. Va. 2012)
(quoting Real Truth About Obama, Inc. v. Fed. Election Comm’n,
575 F.3d 342, 347 (4th Cir. 2009)). Further, an injury is
typically deemed irreparable if monetary damages are inadequate
or difficult to ascertain. See Multi-Channel TV Cable Co. v.
Charlottesville Quality Cable Operating Co., 22 F.3d 546, 551
(4th Cir. 1994), abrogated on other grounds by Winter, 555 U.S.
at 22. “Courts routinely deem restrictions on fundamental voting
rights irreparable injury.” League of Women Voters of N.C. v.
North Carolina, 769 F.3d 224, 247 (4th Cir. 2014). “[O]nce the
election occurs, there can be no do-over and no redress. The
injury to these voters is real and completely irreparable if
nothing is done to enjoin th[ese] law[s].” Id.
The court therefore finds Plaintiffs have demonstrated a
likelihood of irreparable injury regarding the Equal Protection
challenges to the Witness Requirement and the Receipt Deadline
Extension.
5.

Balance of Equities
- 66 -

A p p. 2 0 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 6 of 9 1

The third factor in determining whether preliminary relief
is appropriate is whether the plaintiff demonstrates “that the
balance of equities tips in his favors.” Winter, 555 U.S. at 20.
The Supreme Court’s decision in Purcell v. Gonzalez, 549
U.S. 1 (2006), urges that this court should issue injunctive
relief as narrowly as possible. The Supreme Court has made clear
that “lower federal courts should ordinarily not alter the
election rules on the eve of an election,” Republican Nat’l
Comm. v. Democratic Nat’l Comm., 589 U.S. ____, ____, 140 S. Ct.
1205, 1207 (2020) (per curiam), as a court order affecting
election rules will progressively increase the risk of “voter
confusion” as “an election draws closer.” Purcell, 549 U.S. at
4-5; see also Texas All. for Retired Americans v. Hughs, ____
F.3d ____, 2020 WL 5816887, at *2 (5th Cir. Sept. 30, 2020)
(“The principle . . . is clear: court changes of election laws
close in time to the election are strongly disfavored.”). This
year alone, the Purcell doctrine of noninterference has been
invoked by federal courts in cases involving witness
requirements and cure provisions during COVID-19, Clark v.
Edwards, Civil Action No. 20-283-SDD-RLB, 2020 WL 3415376, at
*1-2 (M.D. La. June 22, 2020); the implementation of an all-mail
election plan developed by county election officials, Paher,
2020 WL 2748301, at *1, *6; and the use of college IDs for
- 67 -

A p p. 2 0 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 7 of 9 1

voting, Common Cause v. Thomsen, No. 19-cv-323-JDP, 2020 WL
5665475, at *1 (W.D. Wis. Sept. 23, 2020) – just to name a few.
Purcell is not a per se rejection of any injunctive relief
close to an election. However, as the Supreme Court’s
restoration of the South Carolina witness requirement last week
illustrates, a heavy thumb on the scale weighs against changes
to voting regulations. Andino v. Middleton, ____ S. Ct. ____,
2020 WL 5887393, at *1 (Oct. 5, 2020) (Kavanaugh, J.,
concurring) (“By enjoining South Carolina’s witness requirement
shortly before the election, the District Court defied [the
Purcell] principle and this Court’s precedents.”).
In this case, there are two SBE revisions where this court
has found that Plaintiffs are likely to succeed on the merits.
First, the Witness Requirement Cure Procedure, which determines
whether SBE will send the voter a cure certification or spoil
the ballot and issue a new one. This court has, on separate
grounds, already enjoined the Witness Requirement Cure Procedure
in Democracy North Carolina v. North Carolina State Board of
Elections, No. 1:20CV457 (M.D.N.C. Oct. 24, 2020) (enjoining
witness cure procedure). Thus, the issue of injunctive relief on
the Witness Requirement Cure Procedure is moot at this time.
Nevertheless, in the absence of relief in Democracy, it seems
likely that SBE’s creation of “preferred class[es] of voters”,
- 68 -

A p p. 2 0 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 8 of 9 1

Gray, 372 U.S. at 380, with elimination of the witness
requirement and the cure procedure could merit relief in this
case.
Ripe for this court’s consideration is the Receipt Deadline
Extension, which contradicts state statutes regarding when a
ballot may be counted. Ultimately, this court will decline to
enjoin the Receipt Deadline Extension, in spite of its likely
unconstitutionality and the potential for irreparable injury.
The Purcell doctrine dictates that this court must “ordinarily”
refrain from interfering with election rules. Republican Nat’l
Comm., 140 S. Ct. at 1207. These issues may be taken up by
federal courts after the election, or at any time in state
courts and the legislature. However, in the middle of an
election, less than a month before Election Day itself, this
court cannot cause “judicially created confusion” by changing
election rules. Id. Accordingly, this court declines to impose a
preliminary injunction because the balance of equities weighs
heavily against such an injunction.
E.

Plaintiffs’ Electors Clause and Elections Clause
Claims

As an initial matter, this court will address the
substantive issues of the Electors Clause and the Elections
Clause together. The Electors Clause of the U.S. Constitution
requires “[e]ach State shall appoint, in such Manner as the
- 69 -

A p p. 2 0 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 6 9 of 9 1

Legislature thereof may direct, a Number of Electors” for
President. U.S. Const. art. II, § 1, cl. 2. Plaintiffs in Wise
argue that, in order to “effectuate” this Electors requirement,
“the State must complete its canvas of all votes cast by three
weeks after the general election” under N.C. Gen. Stat. § 163182.5(c). (Wise Pls.’ Mot. (Doc. 43) at 15.) Plaintiffs argue
that (1) the extension of the ballot receipt deadline and (2)
the changing of the postmark requirement “threaten to extend the
process and threaten disenfranchisement,” as North Carolina
“must certify its electors by December 14 or else lose its voice
in the Electoral College. (Id.)
The meaning of “Legislature” within the Electors Clause can
be analyzed in the same way as “Legislature” within the
Elections Clause. For example,
As an initial matter, the Court finds no need to
distinguish between the term ‘Legislature’ as it is
used in the Elections Clause as opposed to
the Electors Clause. Not only were both these clauses
adopted during the 1787 Constitutional Convention, but
the clauses share a “considerable similarity.
. . . .
. . . [T]he Court finds that the term
“Legislature” is used in a sufficiently similar
context in both clauses to properly afford the term an
identical meaning in both instances.
Donald J. Trump for President, Inc. v. Bullock, No. CV 20-66-HDLC, 2020 WL 5810556, at *11 (D. Mont. Sept. 30, 2020). Nor do
- 70 -

A p p. 2 0 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 0 of 9 1

Plaintiffs assert any difference in the meaning they assign to
“Legislature” and its authority between the two Clauses.
This court finds that all Plaintiffs lack standing under
either Clause. The discussion infra of the Elections Clause
applies equally to the Electors Clause.
1.

Elections Clause
a.

Standing

The Elections Clause standing analysis differs in Moore and
Wise, though this court ultimately arrives at the same
conclusion in both cases.
i.

Standing in Wise

In Wise, Plaintiffs are private parties clearly established
by Supreme Court precedent to have no standing to contest the
Elections Clause in this manner. Plaintiffs are individual
voters, a campaign committee, national political parties, and
two Members of the U.S. House of Representatives. Even though
Plaintiffs are part of the General Assembly, they bring their
Elections Clause claim alleging an institutional harm to the
General Assembly. Though the Plaintiffs claim to have suffered
“immediate and irreparable harm”, (Wise Compl. (Doc. 1) ¶¶ 100,
109), this does not establish standing for their Elections
Clause claim or Electors Clause claim. See Corman v. Torres, 287
F. Supp. 3d 558, 573 (M.D. Pa. 2018) (“[T]he Elections Clause
- 71 -

A p p. 2 1 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 1 of 9 1

claims asserted in the verified complaint belong, if they belong
to anyone, only to the . . . General Assembly.”). The Supreme
Court has already held that a private citizen does not have
standing to bring an Elections Clause challenge without further,
more particularized harms. See Lance, 549 U.S. at 441-42 (“The
only injury [private citizen] plaintiffs allege is that . . .
the Elections Clause . . . has not been followed. This injury is
precisely the kind of undifferentiated, generalized grievance
about the conduct of government that we have refused to
countenance in the past.”). Plaintiffs allege no such extra
harms, and in fact, do not speak to standing in their brief at
all.
ii.

Standing in Moore

In Moore, both Plaintiff Moore and Plaintiff Berger are
leaders of chambers in the General Assembly. The Plaintiffs
allege harm stemming from SBE flouting the General Assembly’s
institutional authority. (Wise Pls.’ Mot. (Doc. 43) at 16.)
However, as Proposed Intervenors NC Alliance argue, “a subset of
legislators has no standing to bring a case based on purported
harm to the Legislature as a whole.” (Alliance Resp. (Doc. 64)
at 15.) The Supreme Court has held that legislative plaintiffs
can bring Elections Clause claims on behalf of the legislature
itself only if they allege some extra, particularized harm to
- 72 -

A p p. 2 1 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 2 of 9 1

themselves – or some direct authority from the whole legislative
body to bring the legal claim. Specifically, the Supreme Court
found a lack of standing where “[legislative plaintiffs] have
alleged no injury to themselves as individuals”; where “the
institutional injury they allege is wholly abstract and widely
disperse”; and where the plaintiffs

“have not been authorized

to represent their respective Houses of Congress in this
action.” Raines v. Byrd, 521 U.S. 811, 829 (1997).
An opinion in a very similar case in the Middle District of
Pennsylvania is instructive:
[T]he claims in the complaint rest solely on the
purported usurpation of the Pennsylvania General
Assembly’s exclusive rights under the Elections Clause
of the United States Constitution. We do not gainsay
that these [two] Senate leaders are in some sense
aggrieved by the Pennsylvania Supreme Court’s actions.
But that grievance alone does not carry them over the
standing bar. United States Supreme Court precedent is
clear — a legislator suffers no Article III injury
when alleged harm is borne equally by all members of
the legislature.
Corman, 287 F. Supp. 3d at 567. In the instant case, the two
members of the legislature do not allege individual injury. The
institutional injury they allege is dispersed across the entire
General Assembly. The crucial element, then, is whether Moore
and Berger are authorized by the General Assembly to represent
its interests. The General Assembly has not directly authorized
Plaintiffs to represent its interests in this specific case. See
- 73 -

A p p. 2 1 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 3 of 9 1

Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n,
576 U.S. 787, 802 (2015) (finding plaintiff “[t]he Arizona
Legislature” had standing in an Elections Clause case only
because it was “an institutional plaintiff asserting an
institutional injury” which “commenced this action after
authorizing votes in both of its chambers”). Moore and Berger
argued the general authorization in N.C. Gen. Stat. Section 12032.6(b), which explicitly authorizes them to represent the
General Assembly “[w]henever the validity or constitutionality
of an act of the General Assembly or a provision of the
Constitution of North Carolina is the subject of an action in
any State or federal court.” N.C. Gen. Stat. § 120-32.6(b). The
text of § 120-32.6 references N.C. Gen. Stat. § 1-72.2, which
further specifies that Plaintiffs will “jointly have standing to
intervene on behalf of the General Assembly as a party in any
judicial proceeding challenging a North Carolina statute or
provision of the North Carolina Constitution.” (emphasis added).
Neither statute, however, authorizes them to represent the
General Assembly as a whole when acting as plaintiffs in a case
such as this one. See N.C. State Conference of NAACP v. Berger,
970 F.3d 489, 501 (4th Cir. 2020) (granting standing to Moore
and Berger in case where North Carolina law was directly
challenged, distinguishing “execution of the law” from “defense
- 74 -

A p p. 2 1 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 4 of 9 1

of a challenged act”). The facts of this case do not match up
with this court’s prior application of N.C. Gen. Stat. § 1-72.2,
which has been invoked where legislators defend the
constitutionality of legislation passed by the legislature when
the executive declines to do so. See Fisher-Borne v. Smith, 14
F. Supp. 3d 699, 703 (M.D.N.C. 2014). Furthermore, to the extent
Plaintiffs Moore and Berger disagree with the challenged
provisions of the Consent Judgment, they have not alleged they
lack the authority to bring the legislature back into session to
negate SBE’s exercise of settlement authority. See N.C. Gen.
Stat. § 163-22.2.
Thus, even Plaintiff Moore and Plaintiff Berger lack
standing to proceed with the Elections Clause claim.
Nonetheless, this court will briefly address the merits as well.

- 75 -

A p p. 2 1 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 5 of 9 1

2.

Merits of Elections Clause Claim
a.

The ‘Legislature’ May Delegate to SBE

The Elections Clause of the U.S. Constitution states that
the “Times, Places, and Manner of holding Elections for Senators
and Representatives, shall be prescribed in each State by the
Legislature thereof.” U.S. Const. art. I, § 4, cl. 1. Plaintiffs
assert that the General Assembly instituted one such time/place/
manner rule regarding the election by passing H.B. 1169.
Therefore, Plaintiffs argue, SBE “usurped the General Assembly’s
authority” when it “plainly modif[ied]” what the General
Assembly had implemented. (Wise Pls.’ Mot. (Doc. 43) at 14.)
The Elections Clause certainly prevents entities other than
the legislature from unilaterally tinkering with election
logistics and procedures. However, Plaintiffs fail to establish
that the Elections Clause forbids the legislature itself from
voluntarily delegating this authority. The “Legislature” of a
state may constitutionally delegate the power to implement
election rules – even rules that may contradict previously
enacted statutes.
State legislatures historically have the power and ability
to delegate their legislative authority over elections and
remain in compliance with the Elections Clause. Ariz. State
Legislature, 576 U.S. at 816 (noting that, despite the Elections
- 76 -

A p p. 2 1 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 6 of 9 1

Clause, “States retain autonomy to establish their own
governmental processes”). Here, the North Carolina General
Assembly has delegated some authority to SBE to contravene
previously enacted statutes, particularly in the event of
certain “unexpected circumstances.” (SBE Resp. (Doc. 65) at 15.)
The General Assembly anticipated that SBE may need to
implement rules that would contradict previously enacted
statutes. See N.C. Gen. Stat. § 163-27.1(a) (“In exercising
those emergency powers, the Executive Director shall avoid
unnecessary conflict with the provisions of this Chapter.”
(emphasis added)). Plaintiffs claim that “[t]he General Assembly
could not, consistent with the Constitution of the United
States, delegate to the Board of Elections the power to suspend
or re-write the state’s election laws.” (Wise Compl. (Doc. 1)
¶ 97.) This would mean that the General Assembly could not
delegate any emergency powers to SBE. For example, if a
hurricane wiped out all the polling places in North Carolina,
Plaintiffs’ reading of the Constitution would prohibit the
legislature from delegating to SBE any power to contradict
earlier state law regarding election procedures. (See SBE Resp.
(Doc. 65) at 15).
As courts have adopted a broad understanding of
“Legislature” as written in the Elections Clause, see Corman,
- 77 -

A p p. 2 1 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 7 of 9 1

287 F. Supp. 3d at 573, it follows that a valid delegation from
the General Assembly allowing SBE to override the General
Assembly in certain circumstances would not be unconstitutional.
See Donald J. Trump for President, 2020 WL 5810556, at *12
(finding that the legislature’s “decision to afford” the
Governor certain statutory powers to alter the time/place/manner
of elections was legitimate under the Elections Clause).
b.

Whether SBE Exceeded Legitimate Delegated
Powers

The true question becomes, then, whether SBE was truly
acting within the power legitimately delegated to it by the
General Assembly. Even Proposed Intervenors NC Alliance note
that SBE’s actions “could . . . constitute plausible violations
of the Elections Clause if they exceeded the authority granted
to [SBE] by the General Assembly.” (Alliance Resp. (Doc. 64) at
19.)
SBE used two sources of authority to enter into the Consent
Agreement changing the laws and rules of the election process
after it had begun: N.C. Gen. Stat. § 163-22.2 and § 163-27.1.
i.

SBE’s Authority to Avoid Protracted
Litigation

First, this court finds that, while N.C. Gen. Stat. § 16322.2 authorizes agreements in lieu of protracted litigation, it

- 78 -

A p p. 2 1 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 8 of 9 1

does not authorize the extensive measures taken in the Consent
Agreement:
In the event any portion of Chapter 163 of the General
Statutes or any State election law or form of election
of any county board of commissioners, local board of
education, or city officer is held unconstitutional or
invalid by a State or federal court or is
unenforceable because of objection interposed by the
United States Justice Department under the Voting
Rights Act of 1965 and such ruling adversely affects
the conduct and holding of any pending primary or
election, the State Board of Elections shall have
authority to make reasonable interim rules and
regulations with respect to the pending primary or
election as it deems advisable so long as they do not
conflict with any provisions of this Chapter 163 of
the General Statutes and such rules and regulations
shall become null and void 60 days after the convening
of the next regular session of the General Assembly.
The State Board of Elections shall also be authorized,
upon recommendation of the Attorney General, to enter
into agreement with the courts in lieu of protracted
litigation until such time as the General Assembly
convenes.
N.C. Gen. Stat. § 163-22.2. While the authority delegated under
this statute is broad, it limits SBE’s powers to implementing
rules that “do not conflict with any provisions of this
Chapter.” Moreover, this power appears to exist only “until such
time as the General Assembly convenes.” Id. By eliminating the
witness requirement, SBE implemented a rule that conflicted
directly with the statutes enacted by the North Carolina
legislature.
Moreover, SBE’s power to “enter into agreement with the
courts in lieu of protracted litigation” is limited by the
- 79 -

A p p. 2 1 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 7 9 of 9 1

language “until such time as the General Assembly convenes.” Id.
Plaintiffs appear to have a remedy to what they contend is an
overreach of SBE authority by convening.
ii.

SBE’s Power to Override the Legislature
in an Emergency

Second, Defendants rely upon N.C. Gen. Stat. § 163-27.1.
That statute provides:
(a) The Executive Director, as chief State elections
official, may exercise emergency powers to conduct an
election in a district where the normal schedule for
the election is disrupted by any of the following:
(1) A natural disaster.
(2) Extremely inclement weather.
(3) An armed conflict involving Armed Forces of
the United States, or mobilization of those
forces, including North Carolina National Guard
and reserve components of the Armed Forces of the
United States.
N.C. Gen. Stat. § 163-27.1(a)(1-3). As neither (a)(2) or (3)
apply, the parties agree that only (a)(1), a natural disaster,
is at issue in this case. On March 10, 2020, the Governor of
North Carolina declared a state of emergency as a result of the
spread of COVID-19. N.C. Exec. Order No. 116 (March 10, 2020).
Notably, the Governor did not declare a disaster pursuant to
N.C. Gen. Stat. § 166A-19.21. Instead, on March 25, 2020, it was
the President of the United States who declared a state of
disaster existed in North Carolina:
- 80 -

A p p. 2 1 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 0 of 9 1

I have determined that the emergency conditions in the
State of North Carolina resulting from the Coronavirus
Disease 2019 (COVID-19) pandemic beginning on January
20, 2020, and continuing, are of sufficient severity
and magnitude to warrant a major disaster declaration
under the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, 42 U.S.C. 5121 et seq. (the
“Stafford Act”). Therefore, I declare that such a
major disaster exists in the State of North Carolina.
Notice, North Carolina; Major Disaster and Related
Determinations, 85 Fed. Reg. 20701 (Mar. 25, 2020) (emphasis
added). The President cited the Stafford Act as justification
for declaring a major disaster. See 42 U.S.C. § 5122(2).
Notably, neither the Governor’s Emergency Proclamation nor the
Presidential Proclamation identified COVID-19 as a natural
disaster.
On March 12, 2020, the Executive Director of SBE, Karen
Brinson Bell (“Bell”), crafted an amendment to SBE’s Emergency
Powers rule. Bell’s proposed rule change provided as follows:
(a) In exercising his or her emergency powers and
determining whether the “normal schedule” for the
election has been disrupted in accordance with G.S.
163A 750, 163-27.1, the Executive Director shall
consider whether one or more components of election
administration has been impaired. The Executive
Director shall consult with State Board members when
exercising his or her emergency powers if feasible
given the circumstances set forth in this Rule.
(b) For the purposes of G.S. 163A-750, 163-27.1, the
following shall apply:
(1) A natural disaster or extremely inclement
weather include a: any of the following:
- 81 -

A p p. 2 2 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 1 of 9 1

(A) Hurricane;
(B) Tornado;
(C) Storm or snowstorm;
(D) Flood;
(E) Tidal wave or tsunami;
(F) Earthquake or volcanic eruption;
(G) Landslide or mudslide; or
(H) Catastrophe arising from natural causes
resulted and resulting in a disaster
declaration by the President of the United
States or the Governor. Governor, a national
emergency declaration by the President of
the United States, or a state of emergency
declaration issued under G.S. 166A-19.3(19).
“Catastrophe arising from natural causes”
includes a disease epidemic or other public
health incident. The disease epidemic or
other public health incident must make [that
makes] it impossible or extremely hazardous
for elections officials or voters to reach
or otherwise access the voting [place or
that creates] place, create a significant
risk of physical harm to persons in the
voting place, or [that] would otherwise
convince a reasonable person to avoid
traveling to or being in a voting place.
https://files.nc.gov/ncoah/documents/Rules/RRC/06182020-Followup-Tab-B-Board-of-Elections.pdf at 5 (proposed changes in
strikethroughs, or underline.) Shortly after submitting the rule
change, effective March 20, 2020, SBE declared COVID-19 a
natural disaster, attempting to invoke its authority under the
Emergency Powers Statute, § 163-27.1. However, the Rules Review
Commission subsequently unanimously rejected Bell’s proposed
rule change, finding in part that there was a “lack of statutory
authority as set forth in G.S. 150B-21.9(a)(1),” and more
specifically, that “the [SBE] does not have the authority to
- 82 -

A p p. 2 2 1
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 2 of 9 1

expand the definition of ‘natural disaster’ as proposed.” North
Carolina Office of Administrative Hearings, Rules Review
Commission Meeting Minutes (May 21, 2020), at 4
https://files.nc.gov/ncoah/Minutes-May-2020.pdf.
In a June 12, 2020 letter, the Rules Review Commission
Counsel indicated that Bell had responded to the committee’s
findings by stating “that the agency will not be submitting a
new statement or additional findings,” and, as a result, “the
Rule [was] returned” to the agency. Letter re: Return of Rule 08
NCAC 01.0106 (June 12, 2020) at 1 https://files.nc.gov/ncoah/
documents/Rules/RRC/06182020-Follow-up-Tab-B-Board-ofElections.pdf. Despite the Rules Review Commission’s rejection
of Bell’s proposed changes, on July 17, 2020, Bell issued an
Emergency Order with the following findings:
18. N.C. Gen. Stat. § 163-27.1 and 08 NCAC 01.
0106 authorize me to exercise emergency powers to
conduct an election where the normal schedule is
disrupted by a catastrophe arising from natural causes
that has resulted in a disaster declaration by the
President of the United States or the Governor, while
avoiding unnecessary conflict with the laws of North
Carolina. The emergency remedial measures set forth
here are calculated to offset the nature and scope of
the disruption from the COVID-19 disaster.
19. Pursuant to N.C. Gen. Stat. § 163-27.1 and 08
NCAC 01. 0106(a) and (b), and after consultation with
the State Board, I have determined that the COVID-19
health emergency is a catastrophe arising from natural
causes — i.e., a naturally occurring virus — resulting
in a disaster declaration by the President of the
United States and a declaration of a state of
- 83 -

A p p. 2 2 2
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 3 of 9 1

emergency by the Governor, and that the disaster has
already disrupted and continues to disrupt the
schedule and has already impacted and continues to
impact multiple components of election administration.
(Democracy N. Carolina, No. 1:20CV457 (Doc. 101-1) ¶¶ 18-19.)
This directly contradicted the Rules Commission’s finding that
such a change was outside SBE’s authority. In keeping with
Bell’s actions, the State failed to note in argument before this
court that Bell’s proposal had been rejected explicitly because
SBE lacked statutory authority to exercise its emergency powers.
In fact, at the close of a hearing before this court, the State
made the following arguments:
but the Rules Review Commission declined to let it go
forward as a temporary rule, I think I’m remembering
this right, without stating why. But it did not go
through.
In the meantime, the president had declared a
state of national -- natural disaster declaration. The
president had declared a disaster declaration, so
under the existing rule, the powers kicked into place.
. . . .
And the statute that does allow her to make those
emergency decisions says in it, in exercising those
emergency decisions says in it, in exercising those
emergency powers, the Executive Director shall avoid
unnecessary conflict with the provisions of this
chapter, this chapter being Chapter 163 of the
election laws.
(Democracy N. Carolina, No. 1:20CV457, Evidentiary Hr’g Tr. vol.
3 (Doc. 114) at 109.) This court agrees with the Rules Review
Commission: re-writing the definition of “natural disaster” is
- 84 -

A p p. 2 2 3
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 4 of 9 1

outside SBE’s rulemaking authority. N.C. Gen. Stat. § 16327.1(a)(1) limits the Executive Director’s emergency powers to
those circumstances where “the normal schedule for the election
is disrupted by any of the following: (1) A natural disaster.”

7

Nor does the President’s major disaster proclamation define
COVID-19 as a “natural disaster” – at least not as contemplated
by the state legislature when § 163-27.1 (or its predecessor,
§ 163A-750) was passed. To the contrary, the Emergency Powers
are limited to an election “in a district where the normal
schedule for the election is disrupted.” N.C. Gen. Stat. § 16327.1(a). Nothing about COVID-19 disrupts the normal schedule for
the election as might be associated with hurricanes, tornadoes,
or other natural disasters.
(a)

Elimination of the Witness
Requirement

Finally, even if, as SBE argues, it had the authority to
enter into a Consent Agreement under its emergency powers, it
did not have the power to contradict statutory authority by
eliminating the witness requirement. See N.C. Gen. Stat. § 16327.1(a) (“In exercising those emergency powers, the Executive
Director shall avoid unnecessary conflict with the provisions of
Notably, Bell makes no finding as to whether this is a
Type I, II, or III Declaration of Disaster, which would in turn
limit the term of the Disaster Declaration. See, e.g., N.C. Gen.
Stat. § 166A-19.21.
7

- 85 -

A p p. 2 2 4
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 5 of 9 1

this Chapter.”) (emphasis added). The legislature implemented a
witness requirement and SBE removed that requirement. This is
certainly an unnecessary conflict with the legislature’s
choices.
By the State’s own admission, any ballots not subject to
witnessing would be unverified. The State of North Carolina
argued as much in urging this court to uphold the one-witness
requirement:
As Director Bell testified, it is a basic bedrock
principle of elections that you have some form of
verifying that the voter is who they say they are;
voter verification. As she said, when a voter comes
into the poll, whether that is on election day proper
or whether it is by –
. . . .
Obviously, you can’t do that when it is an
absentee ballot. Because you don’t see the voter, you
can’t ask the questions. So the witness requirement,
the purpose of it is to have some means that the
person who sent me this is the person -- the person
who has sent this absentee ballot is who they say they
are. That’s the purpose of the witness requirement.
The witness is witnessing that they saw this person,
and they know who they are, that they saw this person
fill out the ballot and prepare the ballot to mail in.
And that is the point of it.
And, as Director Bell testified,
heard a lot from the Plaintiffs about
do not have witness requirements. And
that the majority of states, I think
not have a witness requirement.

I mean, we’ve
how many states
that is true,
at this point, do

But as Director Bell testified, they’re going to
have one of two things. They’re going to either have
- 86 -

A p p. 2 2 5
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 6 of 9 1

the witness requirement, or they’re going to have a
means of verifying the signature . . . .
One thing -- and I think that is unquestionably
an important State interest. Some means of knowing
that this ballot that says it came from Alec Peters
actually is from Alec Peters, because somebody else
put their name down and said, yes, I saw Alec Peters
do this. I saw him fill out this ballot.
Otherwise, we have no way of knowing who the
ballot -- whether the ballot really came from the
person who voted. It is there to protect the integrity
of the elections process, but it is also there to
protect the voter, to make sure that the voter knows - everybody knows that the voter is who they say they
are, and so that somebody else is not voting in their
place.
Additionally, it is a tool for dealing with voter
fraud.
(Democracy N. Carolina, No. 1:20CV457, Evidentiary Hr’g Tr. vol.
3 (Doc. 114) at 111-12.) In this hearing, the State continued on
to note that “there needs to be some form of verification of who
the voter is,” which can “either be through a witness
requirement or . . . through signature verification,” but “it
needs to be one or the other.” (Id. at 115-16.) Losing the
witness requirement, according to the State, would mean having
“no verification.” (Id. at 116.) Contravening a legislatively
implemented witness requirement and switching to a system of “no
verification,” (id.), was certainly not a necessary conflict
under § 163-27.1(a).

- 87 -

A p p. 2 2 6
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 7 of 9 1

SBE argues that this court does not have authority to
address how this switch contradicted state law and went outside
its validly delegated emergency powers. This is a state law
issue, as the dispute is over the extent of the Executive
Director’s authority as granted to her by the North Carolina
Legislature. The State claims that, since a North Carolina
Superior Court Judge has approved this exercise of authority,
this court is obligated to follow that state court judgment.
(SBE Resp. (Doc. 65) at 16.)
However, when the Supreme Court of a state has not spoken,
federal courts must predict how that highest court would rule,
rather than automatically following any state court that might
have considered the question first. See Doe v. Marymount Univ.,
297 F. Supp. 3d 573, 590 (E.D. Va. 2018) (“[F]ederal courts are
not bound to follow state trial court decisions in exercising
their supplemental jurisdiction.”). The Fourth Circuit has
addressed this issue directly in diversity jurisdiction contexts
as well:
a federal court sitting in diversity is not bound by a
state trial court’s decision on matters of state law.
In King v. Order of United Commercial Travelers of
America, 333 U.S. 153, 68 S. Ct. 488, 92 L. Ed. 608
(1948), the Supreme Court upheld the Fourth Circuit’s
refusal to follow an opinion issued by a state trial
court in a South Carolina insurance case. The Court
concluded, “a Court of Common Pleas does not appear to
have such importance and competence within South
Carolina’s own judicial system that its decisions
- 88 -

A p p. 2 2 7
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 8 of 9 1

should be taken as authoritative expositions of that
State’s ‘law.’” Id. at 161, 68 S. Ct. 488.
Twin City Fire Ins. Co. v. Ben Arnold-Sunbelt Beverage Co. of
S.C., 433 F.3d 365, 370 (4th Cir. 2005). In other words, this
court’s job is to predict how the Supreme Court of North
Carolina would rule on the disputed state law question. Id. at
369 (“If the Supreme Court of [North Carolina] has spoken
neither directly nor indirectly on the particular issue before
us, [this court is] called upon to predict how that court would
rule if presented with the issue.”)(quotation omitted); Carter
v. Fid. Life Ass’n, 339 F. Supp. 3d 551, 554 (E.D.N.C.), aff’d,
740 F. App’x 41 (4th Cir. 2018) (“Accordingly, the court applies
North Carolina law, and the court must determine how the Supreme
Court of North Carolina would rule.”). In predicting how the
North Carolina Supreme Court might decide, this court
“consider[s] lower court opinions in [North Carolina], the
teachings of treatises, and the practices of other
states.” Twin City Fire Ins. Co., 433 F.3d at 369. This court
“follow[s] the decision of an intermediate state appellate court
unless there is persuasive data that the highest court would
decide differently.” Town of Nags Head v. Toloczko, 728 F.3d
391, 397-98 (4th Cir. 2013).
In all candor, this court cannot conceive of a more
problematic conflict with the provisions of Chapter 163 of the
- 89 -

A p p. 2 2 8
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 8 9 of 9 1

North Carolina General Statutes than the procedures implemented
by the Revised 2020-19 memo and the Consent Order. Through this
abandonment of the witness requirement, some class of voters
will be permitted to submit ballots with no verification. Though
SBE suggests that its “cure” is sufficient to protect against
voter fraud, the cure provided has few safeguards: it asks only
if the voter “voted” with no explanation of the manner in which
that vote was exercised. (Moore v. Circosta, No. 1:20CV911,
State Court Consent Judgment (Doc. 45-1) at 34.) This court
believes this is in clear violation of SBE’s powers, even its
emergency powers under N.C. Gen. Stat. § 163-27.1(a). However,
none of this changes the fact that Plaintiffs in both Wise and
Moore lack standing to challenge the legitimacy of SBE’s
election rule-setting power under either the Elections Clause or
the Electors Clause.
III. CONCLUSION
This court believes the unequal treatment of voters and the
resulting Equal Protection violations as found herein should be
enjoined. Nevertheless, under Purcell and recent Supreme Court
orders relating to Purcell, this court is of the opinion that it
is required to find that injunctive relief should be denied at
this late date, even in the face of what appear to be clear
violations. For the foregoing reasons, this court finds that in
- 90 -

A p p. 2 2 9
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 9 0 of 9 1

Moore v. Circosta, No. 1:20CV911, Plaintiffs’ Motion for
Preliminary Injunction should be denied. This court also finds
that in Wise v. N. Carolina State Bd. of Elections, No.
1:20CV912, the Plaintiffs’ Motion to Convert the Temporary
Restraining Order into a Preliminary Injunction should be
denied.
IT IS THEREFORE ORDERED that Plaintiffs’ Motion for
Preliminary Injunction in Moore v. Circosta, No. 1:20CV911,
(Doc. 60), is DENIED.
IT IS FURTHER ORDERED that Plaintiffs’ Motion to Convert
the Temporary Restraining Order into a Preliminary Injunction in
Wise v. N. Carolina State Bd. of Elections, No. 1:20CV912, (Doc.
43), is DENIED.
This the 14th day of October, 2020.

__________________________________
United States District Judge

- 91 -

A p p. 2 3 0
C a s e 1: 2 0- c v- 0 0 9 1 1- W O- J L W

D o c u m e nt 7 4

Fil e d 1 0/ 1 4/ 2 0

P a g e 9 1 of 9 1

A P P E N DI X K

A p p. 2 3 1

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 of 4 9

FI L E D: O ct o b er 2 0, 2 0 2 0
P U B LI S H E D
U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E F O U R T H CI R C UI T

N o. 2 0- 2 1 0 4
P A T S Y J. WI S E; R E GI S C LI F F O R D; S A M U E L G R A Y S O N B A U M; D O N A L D
J. T R U M P F O R P R E SI D E N T, I N C.; G R E G O R Y F.
M U R P H Y, U. S.
C o n gr ess m a n;
D A NI E L
BI S H O P,
U. S.
C o n gr ess m a n;
R E P U B LI C A N
N A TI O N A L C O M MI T T E E; N A TI O N A L R E P U B LI C A N S E N A T O RI A L
C O M MI T T E E; N A TI O N A L R E P U B LI C A N C O N G R E S SI O N A L C O M MI T T E E;
N O R T H C A R O LI N A R E P U B LI C A N P A R T Y; C A MI L L E A N N E T T E B A M BI NI ,
Pl ai ntiffs – A p p ell a nts,
v.
D A M O N CI R C O S T A, i n his offi ci al c a p a cit y as C h air of t h e St at e B o ar d of
El e cti o ns; S T E L L A A N D E R S O N, i n h er offi ci al c a p a cit y as S e cr et ar y of t h e St at e
B o ar d of El e cti o ns; J E F F C A R M O N, i n his offi ci al c a p a cit y as M e m b er of t h e N C
St at e B o ar d of El e cti o ns; K A R E N B RI N S O N B E L L, i n h er offi ci al c a p a cit y as
E x e c uti v e Dir e ct or of t h e N ort h C ar oli n a St at e B o ar d of El e cti o ns; N O R T H
C A R O LI N A S T A T E B O A R D O F E L E C TI O N S,
D ef e n d a nts – A p p ell e es,
and
B A R K E R F O W L E R; B E C K Y J O H N S O N; J A D E J U R E K; R O S A L Y N
K O CI E M B A; T O M K O CI E M B A; S A N D R A M A L O N E; N O R T H C A R O LI N A
A L LI A N C E F O R R E TI R E D A M E RI C A N S; C A R E N R A BI N O WI T Z,
I nt er v e n ors/ D ef e n d a nts – A p p ell e es.

A p p. 2 3 2

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 of 4 9

N o. 2 0- 2 1 0 7
TI M O T H Y K. M O O R E, i n his offi ci al c a p a cit y as S p e a k er of t h e N ort h C ar oli n a
H o us e of R e pr es e nt ati v es; P HI LI P E. B E R G E R, i n his offi ci al c a p a cit y as Pr esi d e nt
Pr o T e m p or e of t h e N ort h C ar oli n a S e n at e; B O B B Y H E A T H; M A XI N E
W HI T L E Y; A L A N S W AI N,
Pl ai ntiffs – A p p ell a nts,
v.
D A M O N CI R C O S T A, i n his offi ci al c a p a cit y as C h air of t h e N ort h C ar oli n a St at e
B o ar d of El e cti o ns; S T E L L A A N D E R S O N, i n h er offi ci al c a p a cit y as a m e m b er of
t h e N ort h C ar oli n a St at e B o ar d El e cti o ns; J E F F C A R M O N, III, i n his offi ci al
c a p a cit y as a m e m b er of t h e N ort h C ar oli n a St at e B o ar d of El e cti o ns; K A R E N
B RI N S O N B E L L, i n h er offi ci al c a p a cit y as t h e E x e c uti v e Dir e ct or of t h e N ort h
C ar oli n a St at e B o ar d of El e cti o ns,
D ef e n d a nts – A p p ell e es,
and
B A R K E R F O W L E R; B E C K Y J O H N S O N; J A D E J U R E K; R O S A L Y N
K O CI E M B A; T O M K O CI E M B A; S A N D R A M A L O N E; N O R T H C A R O LI N A
A L LI A N C E F O R R E TI R E D A M E RI C A N S; C A R E N R A BI N O WI T Z
I nt er v e n ors/ D ef e n d a nts – A p p ell e es.

O R D E R
U p o n c o nsi d er ati o n of s u b missi o ns r el ati v e t o t h e e m er g e n c y m oti o ns f or i nj u n cti o n
p e n di n g a p p e al, t h e c o urt d e ni es i nj u n cti v e r eli ef p e n di n g a p p e al .

2

A p p. 2 3 3

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 of 4 9

C hi ef J u d g e Gr e g or y, J u d g e M ot z, J u d g e Ki n g, J u d g e K e e n a n, J u d g e W y n n, J u d g e
Di a z, J u d g e Fl o y d, J u d g e T h a c k er, J u d g e H arris, J u d g e Ri c h ar ds o n, J u d g e Q u attl e b a u m,
a n d J u d g e R us hi n g v ot e d t o d e n y t h e m oti o ns f or i nj u n cti o n. J u d g e

Wil ki ns o n, J u d g e

Ni e m e y er, a n d J u d g e A g e e v ot e d t o gr a nt t h e m oti o ns f or i nj u n cti o n.
J u d g e W y n n wr ot e a n o pi ni o n o n t h e d e ni al of e m er g e n c y i nj u n cti v e r eli ef . J u d g e
M ot z wr ot e a c o n c urri n g o pi ni o n.

J u d g e Wil ki ns o n a n d J u d g e A g e e wr ot e a diss e nti n g

o pi ni o n i n w hi c h J u d g e Ni e m e y er j oi n e d. J u d g e Ni e m e y er wr ot e a s e p ar at e diss e nti n g
o pi ni o n.
F or t h e C o urt
/s/ P atri ci a S. C o n n or, Cl er k

3

A p p. 2 3 4

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 of 4 9

W Y N N, Cir c uit J u d g e, d e n yi n g e m er g e n c y i nj u n cti v e r eli ef:
T h e j u d g es of t h e F o urt h Cir c uit a n d o ur f ell o w j u d g es o n N ort h C ar oli n a’s st at e
a n d f e d er al c o urts h a v e d o n e a n a d mir a bl e j o b a n al y zi n g t h es e w ei g ht y iss u es u n d er
s ubst a nti al ti m e c o nstr ai nts. O ur pr u d e nt d e cisi o n t o d a y d e cli n es t o e nj oi n t h e N ort h
C ar oli n a St at e B o ar d of El e cti o ns’s e xt e nsi o n of its d e a dli n e f or t h e r e c ei pt of a bs e nt e e
b all ots f or t h e o n g oi n g g e n er al el e cti o n.
R e a di n g t h e diss e nti n g o pi ni o n of o ur c oll e a g u es J u d g e Wil ki ns o n a n d J u d g e A g e e,
o n e mi g ht t hi n k t h e s k y is f alli n g. Missi n g fr o m t h eir l e n gt h y o pi ni o n is a r e c o g niti o n of
t h e n arr o w n ess of t h e iss u e b ef or e us. I m p ort a ntl y, t h e o nl y iss u e w e m ust n o w d e ci d e is
Pl ai ntiffs’ r e q u est f or a n e m er g e n c y i nj u n cti o n p e n di n g a p p e al r e g ar di n g a si n gl e as p e ct of
t h e pr o c e d ur es t h at t h e distri ct c o urt b el o w r ef us e d t o e nj oi n: a n e xt e nsi o n of t h e d e a dli n e
f or t h e r e c ei pt of m ail-i n b all ots. All b all ots m ust still b e m ail e d o n or b ef or e El e cti o n D a y.
T h e c h a n g e is si m pl y a n e xt e nsi o n fr o m t hr e e t o ni n e d a ys aft er El e cti o n D a y f or a ti m el y
b all ot t o b e r e c ei v e d a n d c o u nt e d. T h at is all.
I m pl e m e nt ati o n of t h at si m pl e, c o m m o ns e ns e c h a n g e w as d el a y e d b y j u di ci al
i nt er v e nti o n. T o b e s ur e, s o m e of t h at i nt er v e nti o n w as b y t h e st at e c o urts: alt h o u g h a st at e
tri al c o urt a p pr o v e d of t h e b all ot-r e c ei pt e xt e nsi o n, a st at e a p p ell at e c o urt st a y e d it p e n di n g
a p p e al, a st a y t h at w as lift e d l at e y est er d a y aft er n o o n. S e e D ef e n d a nts’ S u p p. L ett er ( O ct.
1 9, 2 0 2 0). T h at st a y w as, of c o urs e, t h e st at e c o urt’s pr er o g ati v e. B ut pri or t o t h e st at e
a p p ell at e c o urt’s i nt er v e nti o n, it w as s ol el y f e d er al c o urt i nt er v e nti o n t h at k e pt t his c h a n g e
fr o m b ei n g i m pl e m e nt e d. O ur diss e nti n g c oll e a g u es w o ul d p er p et u at e t h at i nt er v e nti o n
n o w, d es pit e t h e S u pr e m e C o urt’s a d m o niti o ns a g ai nst t a ki n g s u c h a cti o n.
4

A p p. 2 3 5

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 5 of 4 9

Y et N ort h C ar oli n a v ot ers d es er v e cl arit y o n w h et h er t h e y

m ust r el y o n a n

o v er b ur d e n e d P ost Offi c e t o d eli v er t h eir b all ots wit hi n t hr e e d a ys aft er El e cti o n D a y. T h e
n e e d f or cl arit y h as b e c o m e e v e n m or e ur g e nt i n t h e l ast w e e k, as i n -p ers o n e arl y v oti n g
st art e d i n N ort h C ar oli n a o n O ct o b er 1 5 a n d will e n d o n O ct o b er 3 1. As o ur diss e nti n g
c oll e a g u es s o r e c e ntl y r e mi n d e d us, a f e d er al c o urt i nj u n cti o n w o ul d “r e pr es e nt[] a st ar k
i nt erf er e n c e wit h [ N ort h] C ar oli n a’s el e ct or al pr o c ess ri g ht i n t h e mi d dl e of t h e el e cti o n
s e as o n, ” w hi c h is i n a p pr o pri at e b e c a us e “t h e f e d er al C o nstit uti o n pr o vi d es St at es — n ot
f e d er al j u d g es— t h e a bilit y t o c h o os e a m o n g m a n y p er missi bl e o pti o ns w h e n d esi g ni n g
el e cti o ns, ” es p e ci all y w h e n t h e “l a w is c o m m o n pl a c e a n d e mi n e ntl y s e nsi bl e. ” Mi d dl et o n
v. A n di n o , N o. 2 0-2 0 2 2, 2 0 2 0 W L 5 7 5 2 6 0 7, at * 1 ( 4t h Cir. S e pt. 2 5, 2 0 2 0) ( Wil ki ns o n a n d
A g e e, JJ., diss e nti n g) (i nt er n al q u ot ati o n m ar ks o mitt e d).
T his f ast -m o vi n g c as e is pr o c e e di n g i n

st at e c o urt a n d i n v ol v es a n o n g oi n g

el e cti o n — t w o s o u n d r e as o ns f or us t o st a y o ur h a n d. B e c a us e Pl ai ntiffs h a v e n ot
est a blis h e d a li k eli h o o d of s u c c ess o n t h e m erits — a n d b e c a us e, i n a n y e v e nt, P ur c ell a n d
A n di n o r e q uir e t h at w e n ot i nt er v e n e at t his l at e st a g e —w e ri g htl y d e cli n e t o e nt er a n
i nj u n cti o n p e n di n g a p p e al.
I.
T h e N ort h C ar oli n a Alli a n c e f or R etir e d A m eri c a ns a n d s e v er al i n di vi d u al v ot ers
fil e d s uit a g ai nst t h e St at e B o ar d of El e cti o ns ( “ B o ar d ”) i n W a k e C o u nt y S u p eri or C o urt
o n A u g ust 1 0, 2 0 2 0, c h all e n gi n g, a m o n g ot h er pr o visi o ns, t h e st at e’s r e q uir e m e nt t h at m ail i n b all ots b e r e c ei v e d wit hi n t hr e e d a ys of El e cti o n D a y. S p e a k er Ti m M o or e a n d S e n at e

5

A p p. 2 3 6

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 6 of 4 9

Pr esi d e nt Pr o T e m p or e P hil B er g er — t w o of t h e pl ai ntiffs h er e— i nt er v e n e d as d ef e n d a nts
al o n gsi d e t h e B o ar d o n A u g ust 1 2. 1
O n S e pt e m b er 1 5, t h e St at e B o ar d v ot e d u n a ni m o usl y — a n d i n bi p artis a n f as hi o n! —
t o e xt e n d t h e r e c ei pt d e a dli n e f or t his el e cti o n u ntil ni n e d a ys aft er El e cti o n D a y ( N o v e m b er
1 2, 2 0 2 0). 2 T h e N C Alli a n c e pl ai ntiffs a gr e e d t o a s ettl e m e nt b as e d, i n p art, o n t his c h a n g e.
O n S e pt e m b er 2 2, t h e y j oi n e d t h e B o ar d i n as ki n g t h e st at e c o urt t o a p pr o v e a C o ns e nt
J u d g m e nt f or m ali zi n g t h e n e w r e c ei pt d e a dli n e. T h e st at e c o urt iss u e d a n or d er a p pr o vi n g
t h e C o ns e nt J u d g m e nt o n O ct o b er 2. 3 T his O ct o b er 2 or d er est a blis h e d t h e r el e v a nt st at us
q u o f or P ur c ell p ur p os es. U n d er t his st at us q u o, all a bs e nt e e v ot es c ast b y El e cti o n D a y
a n d r e c ei v e d b y N o v e m b er 1 2 w o ul d b e c o u nt e d.

1

T h e p oliti c al -c o m mitt e e Pl ai ntiffs i n t h e Wis e c as e b ef or e us als o s u c c essf ull y
i nt er v e n e d i n t h e N C Alli a n c e liti g ati o n o n S e pt e m b er 2 4, 2 0 2 0, w h er e t h e y cl ai m e d t o
r e pr es e nt t h e i nt er est of “ R e p u bli c a n v ot ers t hr o u g h o ut t h e st at e. ” M o or e v. Cir c ost a , N o.
2 0- 2 0 6 2, D ef e n d a nts - A p p ell a nts’ A p p’ x at 2 8 6.
2

T his w as f ar fr o m a r a di c al m o v e. T h e B o ar d r e g ul arl y e xt e n ds its a bs e nt e e b all ot
r e c ei pt d e a dli n es i n r es p o ns e t o t h e h urri c a n es t h at b ef all us i n t h e a ut u m n. S e e E m er g e n c y
Or d er — U p d at e d 1 1/ 5/ 1 0 1 8, N. C. St at e B d. of El e cti o ns ( N o v. 5, 2 0 1 8),
htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/ St at e _ B o ar d _ M e eti n g _ D o cs/ Or d ers/ E x e c uti v e %
2 0 Dir e ct or % 2 0 Or d ers/ Or d er _ 2 0 1 8- 1 0- 1 9. p df ( e xt e n di n g d e a dli n e t o ni n e d a ys aft er
El e cti o n D a y i n r es p o ns e t o H urri c a n e Fl or e n c e); S e c o n d E m er g e n c y E x e c uti v e Or d er,
N. C.
St at e
B d.
of
El e cti o ns
( S e pt.
6,
2 0 1 9),
htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/ St at e _ B o ar d _ M e eti n g _ D o cs/ Or d ers/ E x e c uti v e %
2 0 Dir e ct or % 2 0 Or d ers/ Or d er 2 _ 2 0 1 9- 0 9- 0 6. p df ( e xt e n di n g d e a dli n e t o ei g ht d a ys aft er
El e cti o n D a y i n r es p o ns e t o H urri c a n e D ori a n).
3

T h e st at e c o urt e x pli citl y f o u n d t h at t h e C o ns e nt J u d g m e nt w as t h e pr o d u ct of
ar ms-l e n gt h n e g oti ati o ns b et w e e n t h e p arti es. S e e Wis e I nt er v e n or-A p p ell e es’ A p p’ x at 3 7.
Eff orts t o c h ar a ct eri z e t his g o o d -f ait h a gr e e m e nt as a c oll usi v e b a c kr o o m d e al b ull d o z e
t hr o u g h t h at pl ai nl y s u p p ort a bl e c o n cl usi o n.
6

A p p. 2 3 7

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 7 of 4 9

H o w e v er, o n S e pt e m b er 2 6, S p e a k er M o or e, L e a d er B er g er, a n d ot h ers i niti at e d t w o
f e d er al l a ws uits i n t h e E ast er n Distri ct of N ort h C ar oli n a. O n O ct o b er 3— t h e d a y aft er t h e
st at e c o urt iss u e d fi n al j u d g m e nt — J u d g e D e v er gr a nt e d t h os e p arti es’ r e q u est f or a
T e m p or ar y R estr ai ni n g Or d er, pr e v e nti n g t h e C o ns e nt J u d g m e nt fr o m g oi n g i nt o eff e ct.

4

J u d g e D e v er’s or d er t h us s us p e n d e d t h e st at us q u o alr e a d y cr e at e d b y t h e st at e c o urt or d er.
O n O ct o b er 5, t h e B o ar d fil e d e m er g e n c y m oti o ns f or a d mi nistr ati v e a n d t e m p or ar y
st a ys of t h e T R O— w hi c h it pr o p erl y u n d erst o o d t o b e a pr eli mi n ar y i nj u n cti o n, i n eff e ct if
n ot i n n a m e — p e n di n g a p p e al i n t his C o urt. W hil e t h os e m oti o ns w er e p e n di n g, o n O ct o b er
6, Pl ai ntiffs fil e d a m oti o n i n t h e distri ct c o urt t o f or m all y c o n v ert t h e T R O i nt o a
pr eli mi n ar y i nj u n cti o n. O n t h e s a m e d a y, Pl ai ntiffs s o u g ht a writ of s u p ers e d e as as w ell as
a t e m p or ar y st a y a n d e x p e dit e d r e vi e w of t h e N C Alli a n c e j u d g m e nt fr o m t h e N ort h
C ar oli n a C o urt of A p p e als.
A w e e k w e nt b y. T h e F o urt h Cir c uit p a n el assi g n e d t o h e ar t h e B o ar d’s m oti o ns t o
st a y J u d g e D e v er’s T R O di d n ot t a k e a n y a cti o n. T h e distri ct c o urt fi n all y r ul e d o n t h e
m oti o ns f or pr eli mi n ar y i nj u n cti o ns o n O ct o b er 1 4. A n d o n O ct o b er 1 5, t h e st at e a p p ell at e
c o urt gr a nt e d a t e m p or ar y st a y — a st a y t h at it diss ol v e d y est er d a y w h e n it d e ni e d t h e
p etiti o ns f or writs of s u p ers e d e as. A c c or di n gl y, t h e b all ot r e c ei pt e xt e nsi o n h as g o n e i nt o
eff e ct. S e e D ef e n d a nts’ S u p p. L ett er ( O ct. 1 9, 2 0 2 0).
A g ai n, b ef or e us n o w is o nl y t h e iss u e of w h et h er t o gr a nt a n i nj u n cti o n — w hi c h a
distri ct c o urt h as alr e a d y d e ni e d — of t h e b all ot -r e c ei pt e xt e nsi o n. O ur diss e nti n g c oll e a g u es
4

B y t h at or d er, J u d g e D e v er als o tr a nsf err e d t h e c as e t o J u d g e Ost e e n i n t h e Mi d dl e
Distri ct of N ort h C ar oli n a.
7

A p p. 2 3 8

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 8 of 4 9

a p p ar e ntl y b eli e v e t h e wit n ess -r e q uir e m e nt iss u e is als o b ef or e us, as t h eir o pi ni o n is
p e p p er e d wit h r ef er e n c es t o it, a n d e v e n pr o p os es t o or d er i nj u n cti v e r eli ef o n t h at p oi nt.
S e e Wil ki ns o n a n d A g e e Diss e nti n g O p. at

4 6 . Y et, as Pl ai ntiffs t h e ms el v es vi g or o usl y

ass ert, “t h e o nl y as p e ct of t h e r e vis e d N u m b er e d

M e m o 2 0 2 0 -1 9 t h at A p p ell a nts ar e

s e e ki n g t o e nj oi n is t h e e xt e nsi o n of t h e r e c ei pt d e a dli n e. ” M o or e R e pl y Br. at 1; s e e als o
Wis e R e pl y Br. at 3 ( n oti n g t h at t h e m ost r e c e nt v ersi o n of t h e m e m o iss u e d b y t h e B o ar d
“ h o n or[s] t h e

Wit n ess R e q uir e m e nt ”). A n d i n d e e d, as t h e distri ct c o urt n ot e d, t h e o n e -

wit n ess r e q uir e m e nt r e m ai ns i n pl a c e u n d er t h e distri ct c o urt’s A u g ust 4, 2 0 2 0 i nj u n cti o n.
M o or e v. Cir c ost a , N o. 1: 2 0 C V 9 1 1, 2 0 2 0 W L 6 0 6 3 3 3 2, at * 2 ( M. D. N. C. O ct. 1 4, 2 0 2 0).
T h e i nj u n cti o n o ur c oll e a g u es pr o p os e t o iss u e o n t h e wit n ess r e q uir e m e nt is t h er ef or e
i n a p pr o pri at e, a n d t h eir r ef er e n c es t hr o u g h o ut t h eir o pi ni o n t o t h at as p e ct of t h e p arti es’
dis p ut e ar e i n a p p osit e.
II.
Fr o m t h e o uts et, P ur c ell str o n gl y c o u ns els a g ai nst iss ui n g a n i nj u n cti o n h er e.
T h e st at us q u o is pl ai nl y t h at t h e b all ot- r e c ei pt e xt e nsi o n is i n pl a c e. T h e e xt e nsi o n
t o o k eff e ct aft er t h e distri ct c o urt’s T R O e x pir e d ( O ct o b er 1 6) a n d t h e st at e a p p ell at e c o urt
diss ol v e d its t e m p or ar y a d mi nistr ati v e st a y ( O ct o b er 1 9). B ut e v e n b ef or e t h os e i nj u n cti o ns
lift e d, t h e b all ot-r e c ei pt e xt e nsi o n h as b e e n t h e st at us q u o e v er si n c e t h e tri al c o urt a p pr o v e d
t h e s ettl e m e nt ( O ct o b er 2).
T h e S u pr e m e C o urt’s r e c e nt d e cisi o n i n A n di n o i nstr u cts t h at it is n ot f e d er al c o urt
d e cisi o ns, b ut st at e d e cisi o ns, t h at est a blis h t h e st at us q u o. I n A n di n o , t h er e w as a st at e l a w
i n pl a c e t h at w as m o difi e d b y a f e d er al c o urt i nj u n cti o n f or t h e pri m ari es; t h e st at e l a w
8

A p p. 2 3 9

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 9 of 4 9

c o nti n u e d t o b e i n pl a c e f or t h e N o v e m b er el e cti o n; a n d t h e distri ct c o urt a g ai n e nj oi n e d it.
M y vi e w w as t h at t h e i nj u n cti o n at t h e ti m e of t h e pri m ari es — est a blis hi n g t h e r ul es w h e n
v ot ers m ost r e c e ntl y v ot e d — w as t h e st at us q u o. Mi d dl et o n v. A n di n o , N o. 2 0-2 0 2 2, 2 0 2 0
U. S. A p p. L E XI S 3 1 0 9 3, at * 1 0 ( 4t h Cir. S e p. 3 0, 2 0 2 0) ( W y n n, J., c o n c urri n g). B ut o ur
diss e nti n g c oll e a g u es dis a gr e e d, vi e wi n g t h e st at e l a w as t h e st at us q u o a n d f e d er al c o urt
i nt er v e nti o n as i n a p pr o pri at e u n d er P ur c ell . S e e Mi d dl et o n , 2 0 2 0

W L 5 7 5 2 6 0 7, at * 1

( Wil ki ns o n a n d A g e e, JJ., diss e nti n g). T h e S u pr e m e C o urt a gr e e d wit h o ur c oll e a g u es.
A n di n o v. Mi d dl et o n , N o. 2 0 A 5 5, 2 0 2 0 W L 5 8 8 7 3 9 3, at * 1 ( U. S. O ct. 5, 2 0 2 0). A p p ar e ntl y,
t h e n, it is t h e st at e’s a cti o n— n ot a n y i nt er v e ni n g f e d er al c o urt d e cisi o n — t h at est a blis h es
t h e st at us q u o.
H er e, t h e st at e’s a cti o n w as t o i m pl e m e nt t h e c h all e n g e d m o difi c ati o ns.

5

T h e st at us

q u o w as t h er ef or e est a blis h e d o n O ct o b er 2, w h e n t h e st at e c o urt a p pr o v e d t h e C o ns e nt
J u d g m e nt i n N C Alli a n c e . T h e distri ct c o urt b el o w a gr e e d. S e e M o or e , 2 0 2 0 W L 6 0 6 3 3 3 2,
at * 2 3 (r ef usi n g t o e nj oi n t h e a bs e nt e e b all ot r e c ei pt d e a dli n e e xt e nsi o n as it w o ul d b e
i na p pr o pri at e t o c a us e c o nf usi o n b y “ c h a n gi n g [t h e] el e cti o n r ul es ” t h e st at e est a blis h e d o n
O ct o b er 2). P ur c ell a n d A n di n o t h er ef or e r e q uir e t h at w e r ef us e t o e nt er a n i nj u n cti o n h er e.
F urt h er, c o ntr ar y t o o ur diss e nti n g c oll e a g u es’ ass erti o n,

Wil ki ns o n a n d A g e e

Diss e nti n g O p. at 4 4 – 4 5, P ur c ell is a b o ut f e d er al c o urt i nt er v e nti o n. S e e, e. g. , A n di n o,

5

O ur diss e nti n g c oll e a g u es b eli e v e t h at w e m ust d ef er t o t h e G e n er al Ass e m bl y o v er
t h e B o ar d. Wil ki ns o n a n d A g e e Diss e nti n g O p. at 2 2 . B ut w h et h er t h e B o ar d m a y pr o p erl y
a ct as a n a g e nt of t h e st at e l e gisl at ur e is a c o m pli c at e d q u esti o n of st at e l a w t h at is, at t his
m o m e nt, b ei n g liti g at e d i n st at e c o urt. As dis c uss e d b el o w, P ull m a n a bst e nti o n r e q uir es
t h at w e r efr ai n fr o m i nj e cti n g o urs el v es i nt o t h e mi d dl e of t his dis p ut e.
9

A p p. 2 4 0

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 0 of 4 9

2 0 2 0 W L 5 8 8 7 3 9 3, at * 1 ( K a v a n a u g h, J., c o n c urri n g) ( “[ F] or m a n y y e ars, t his C o urt h as
r e pe at e dl y e m p h asi z e d t h at f e d er al c o urts or di n aril y s h o ul d n ot alt er st at e el e cti o n r ul es i n
t h e p eri o d cl os e t o a n el e cti o n. ” ( e m p h asis a d d e d)); R e p u bli c a n N at’l C o m m. v. D e m o cr ati c
N at’l C o m m. , 1 4 0 S. Ct. 1 2 0 5, 1 2 0 7 ( 2 0 2 0) ( “ T his C o urt h as r e p e at e dl y e m p h a si z e d t h at
l o w er f e d er al c o urts s h o ul d or di n aril y n ot alt er t h e el e cti o n r ul es o n t h e e v e of a n el e cti o n. ”
( e m p h asis a d d e d)); A n di n o , 2 0 2 0 W L 5 7 5 2 6 0 7, at * 1 ( Wil ki ns o n a n d A g e e, JJ., diss e nti n g)
( “[ T] h e f e d er al C o nstit uti o n pr o vi d es St at es — n ot f e d er al j u d g es — t h e a bilit y t o c h o os e
a m o n g m a n y p er missi bl e o pti o ns w h e n d esi g ni n g el e cti o ns. T h e [ c o nt est e d i nj u n cti o n]
u p e n ds t his w h ol e str u ct ur e a n d t ur ns its b a c k u p o n o ur f e d er alist s yst e m. ” (i nt er n al
q u ot ati o n m ar ks a n d cit ati o n o mitt e d) ( e m p h asis a d d e d)); cf. S c ar n ati v. B o o c k v ar , N o.
2 0 A 5 3, 2 0 2 0 U. S. L E XI S 5 1 8 2, at * 1 ( O ct. 1 9, 2 0 2 0) ( d e n yi n g b y di vi d e d v ot e a n
a p pli c ati o n f or st a y of d e cisi o n b y P e n ns yl v a ni a S u pr e m e C o urt e xt e n di n g d e a dli n e f or
r e c ei pt of a bs e nt e e b all ots); R e p u bli c a n P art y of P a. v. B o o c k v ar , N o. 2 0 A 5 4, 2 0 2 0 U. S.
L E XI S 5 1 8 1, at * 1 ( O ct. 1 9, 2 0 2 0) (s a m e).
O ur diss e nti n g c oll e a g u es’ att e m pt t o str et c h P ur c ell b e y o n d its cl e ar li mits t o c o v er
n ot j ust f e d er al c o urt a cti o n, b ut als o a cti o n b y st at e c o urts a n d st at e e x e c uti v e a g e n ci es
a cti n g p urs u a nt t o a l e gisl ati v e d el e g ati o n of a ut h orit y, pr o v es t o o m u c h. T h e y cit e n o
a ut h orit y f or t his e x p a nsi o n, a n d t h er e is n o n e.
I n d e e d, o ur diss e nti n g c oll e a g u es’ ass erti o n t h at “t h er e is n o pri n ci pl e d r e as o n w h y
t his r ul e s h o ul d n ot a p pl y a g ai nst i nt erf er e nc es b y st at e c o urts a n d a g e n ci es , ” Wil ki ns o n
a n d A g e e Diss e nti n g O p. at 4 4 , fli ps P ur c ell o n its h e a d: o ur c oll e a g u es j ustif y f e d er al c o urt
i nt er v e nti o n —t h e o n e t hi n g P ur c ell cl e arl y c o u ns els a g ai nst — b as e d o n t h eir o w n n oti o ns
10

A p p. 2 4 1

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 1 of 4 9

of w h at t h e S u pr e m e C o urt s h oul d h a v e s ai d i n P ur c ell .

W e c a n n ot a gr e e wit h s u c h a n

e x p a nsi o n of f e d er al c o urt p o w er at t h e e x p e ns e of st at es’ ri g hts t o r e g ul at e t h eir o w n
el e cti o ns. 6 T o d o s o w o ul d a m o u nt t o i n a p pr o pri at e j u di ci al a cti vis m.
III.
T ur ni n g t o w h et h er Pl ai ntiffs ar e li k el y t o s u c c e e d o n t h e m erits, t h e distri ct c o urt
c o n cl u d e d t h at t h e B o ar d li k el y vi ol at e d t h e E q u al Pr ot e cti o n Cl a us e w h e n it e xt e n d e d t h e
d e a dli n e f or r e c ei pt of ci vili a n a bs e nt e e b all ots p ost m ar k e d b y El e cti o n D a y fr o m t hr e e
d a ys aft er El e cti o n D a y t o ni n e d a ys aft er El e cti o n D a y. T h e c o urt r eli e d h e a vil y o n B us h
v. G or e , 5 3 1 U. S. 9 8 ( 2 0 0 0) ( p er c uri a m). S e e M o or e , 2 0 2 0 W L 6 0 6 3 3 3 2, at * 1 7, 1 9. B us h
pr o hi bits ar bitr ar y a n d dis p ar at e tr e at m e nt i n t h e v al u ati o n of o n e p er s o n’s v ot e i n r el ati o n
t o a n ot h er’s. 7

6

A d diti o n all y, t h e pri m ar y j ustifi c ati o n b e hi n d t h e P ur c ell pri n ci pl e —as o ur
diss e nti n g c oll e a g u es c orr e ctl y st at e — is t o a v oi d “ c h a os. ” S e e Wil ki ns o n a n d A g e e
Diss e nti n g O p. at 2 3 , 34 , 46; s e e als o P ur c ell v. G o nz al ez , 5 4 9 U. S. 1, 4– 5 ( 2 0 0 6) ( n oti n g
t h at “[ c] o urt or d ers aff e cti n g el e cti o ns ” c a n cr e at e “ v ot er c o nf usi o n ”). It is diffi c ult t o
c o n c ei v e w h at c h a os o ur c oll e a g u es c a n p ossi bl y b e e n visi o ni n g h er e. V ot er b e h a vi or
c a n n ot b e i m p a ct e d b y o ur d e cisi o n o n e w a y or a n ot h er. V ot ers m ust p ost m ar k t h eir m aili n b all ots o n or b ef or e El e cti o n D a y. T h us, t h e d e a dli n e e xt e nsi o n o nl y c h a n g es t w o t hi n gs:
m or e v ot es c ast b y m ail will b e c o u nt e d r at h er t h a n dis c ar d e d b e c a us e of m ail d el a ys, a n d
f e w er v ot ers will h a v e t o ris k c o ntr a cti n g t h e n o v el c or o n a vir us b y v oti n g i n p ers o n. O nl y
a gr ot es q u el y s w oll e n v ersi o n of P ur c ell w o ul d c o nsi d er t his “ v ot er c o nf usi o n, ” or i n a n y
w a y h ar mf ul.
7

Of c o urs e, B us h is of li mit e d pr e c e d e nti al v al u e. S e e B us h , 5 3 1 U. S. at 1 0 9 ( “ O ur
c o nsi d er ati o n is li mit e d t o t h e pr es e nt cir c u mst a n c es, f or t h e pr o bl e m of e q u al pr ot e cti o n
i n el e cti o n pr o c ess es g e n er all y pr es e nts m a n y c o m pl e xiti es. ”). T his a n al ysis tr e ats it as
bi n di n g f or pr es e nt p ur p os es.
11

A p p. 2 4 2

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 2 of 4 9

T his c as e t ot all y l a c ks t h e c o n c er n wit h ar bitr ar y or dis p ar at e st a n d ar ds t h at
m oti v at e d B us h . T h e st a n d ar d c o ul d n ot b e cl e ar er or m or e u nif or m: e v er y o n e m ust c ast
t h eir b all ot o n or b ef or e El e cti o n D a y, a n d t h e b all ot will b e c o u nt e d f or e v er y o n e as l o n g
as it is r e c ei v e d wit hi n ni n e d a ys aft er El e cti o n D a y. N or will t h e b all ot r e c ei pt e xt e nsi o n
l e a d t o t h e “ u n e q u al e v al u ati o n of b all ots, ” a n ot h er w orr y i n B us h . 5 3 1 U. S. at 1 0 6.
E v er y o n e’s b all ot is w ort h t h e s a m e u n d er t h e e xt e nsi o n.
L o o ki n g b e y o n d B us h , t h er e a p p e ars t o b e n o s u p p ort f or t h e distri ct c o urt’s e q u al
pr ot e cti o n c o n cl usi o n a n y w h er e i n o ur j uris pr u d e n c e. H er e, n o v ot er will b e tr e at e d
diff er e ntl y t h a n a n y ot h er v ot er as e v er y o n e will b e a bl e t o h a v e t h eir a bs e nt e e b all ots
c o u nt e d if m ail e d i n o n ti m e a n d r e c ei v e d o n ti m e. M or e o v er, i n a s h ar p d e p art ur e fr o m t h e
or di n ar y v oti n g -ri g hts l a ws uit, n o o n e w as h urt b y t his d e a dli n e e xt e nsi o n . T h e e xt e nsi o n
d o es n ot i n a n y w a y i nfri n g e u p o n a si n gl e p ers o n’s ri g ht t o v ot e: all eli gi bl e v ot ers w h o
wis h t o v ot e m a y d o s o o n or b ef or e El e cti o n D a y.
I n d e e d, s e v er al of t h e pl ai ntiffs h a v e alr e a d y v ot e d. S e e M o or e , 2 0 2 0 W L 6 0 6 3 3 3 2,
at * 1 – 2. T h e e xt e nsi o n si m pl y m a k es it e asi er f or m or e p e o pl e t o v ot e a bs e nt e e i n t h e
mi d dl e of a gl o b al p a n d e mi c t h at h as kill e d o v er 2 0 0, 0 0 0 A m eri c a ns. H o w t his i m pli c at es
t h e E q u al Pr ot e cti o n Cl a us e— a k e y pr o visi o n of t h e R e c o nstr u cti o n A m e n d m e nts t h at
pr ot e cts i n di vi d u als’ ri g ht t o

e q u al pr ot e cti o n u n d er t h e l a w 8 — is b e y o n d o ur

u n d erst a n di n g.

8

Cf. B at e n v. M c M ast er , 9 6 7 F. 3 d 3 4 5, 3 5 5 ( 4t h Cir. 2 0 2 0), as a m e n d e d (J ul y 2 7,
2 0 2 0) ( Ni e m e y er, J.) ( “ D es pit e t h e pl ai ntiffs’ ar g u m e nt t o t h e c o ntr ar y, n o v ot e . . . is
dil ut e d. E v er y q u alifi e d p ers o n g ets o n e v ot e a n d e a c h v ot e is c o u nt e d e q u all y i n
d et er mi ni n g t h e fi n al t all y. ”).
12

A p p. 2 4 3

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 3 of 4 9

B ut t h er e is m or e. Pl ai ntiffs’ e q u al pr ot e cti o n ar g u m e nt is pl ai nl y i n c o nfli ct wit h
t h e S u pr e m e C o urt’s r e c e nt a cti o n i n A n di n o , w h er e t h e C o urt p er mitt e d v ot es t h at l a c k e d
a wit n ess si g n at ur e t o b e c o u nt e d s o l o n g as t h e y w er e c ast b ef or e t h e S u pr e m e C o urt’s
st a y iss u e d a n d w er e r e c ei v e d wit hi n t w o d a ys of t h e or d er. A n di n o , 2 0 2 0 W L 5 8 8 7 3 9 3, at
* 1. If t h e B o ar d’s a bs e nt e e b all ot r e c ei pt d e a dli n e vi ol at es t h e E q u al Pr ot e cti o n Cl a us e b y
c h a n gi n g r ul es mi d- el e cti o n, s o di d t h e S u pr e m e C o urt’s or d er i n A n di n o .
N or is t h e p erf u n ct or y a n al ysis of o ur diss e nti n g c oll e a g u es o n t his p oi nt p ers u asi v e:
t h e y m er el y r ef er e n c e st at e offi ci als a p pl yi n g “ diff er e nt r ul es t o diff er e nt v ot ers i n t h e s a m e
el e cti o n ” a n d c o n c er ns a b o ut “t h e dil uti n g eff e ct of ill e g al b all ots. ” Wil ki ns o n a n d A g e e
Diss e nti n g O p. at 4 2 – 4 3 . W h et h er b all ots ar e ill e g all y c o u nt e d if t h e y ar e r e c ei v e d m or e
t h a n t hr e e d a ys aft er El e cti o n D a y d e p e n ds o n a n iss u e of st at e l a w fr o m w hi c h w e m ust
a bst ai n.
As f or a p pl yi n g diff er e nt r ul es t o diff er e nt v ot ers, a g ai n, t h e B o ar d’s c h a n g e d o es
n o s u c h t hi n g. All v ot ers m ust a bi d e b y t h e e x a ct s a m e r estri cti o n: t h e y m ust c ast t h eir
b all ots o n or b ef or e El e cti o n D a y. T h e c h a n g e i m p a cts o nl y a n el e m e nt o utsi d e t h e v ot ers’
c o ntr ol: h o w q ui c kl y t h eir b all ots m ust b e r e c ei v e d t o b e c o u nt e d. T his c h a n g e, of c o urs e,
m a y h a v e its o w n i m p ort a nt c o ns e q u e n c es f or t h e h e alt h of o ur citi z e nr y — i n t er ms of
u n n e c ess ar y i nf e cti o ns a v oi d e d — a n d o ur d e m o cr a c y — i n t er ms of l a wf ul b all ots c ast a n d
c o u nt e d.
I V.
Pl ai ntiffs als o b eli e v e t h at t h e B o ar d vi ol at e d t h e El e cti o ns Cl a us e w h e n t h e y
e xt e n d e d t h e a bs e nt e e b all ot r e c ei pt d e a dli n e. B ut as t h e distri ct c o urt pr o p erl y c o n cl u d e d,
13

A p p. 2 4 4

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 4 of 4 9

Pl ai ntiffs l a c k st a n di n g t o bri n g t h eir El e cti o ns Cl a us e cl ai m. M o or e , 2 0 2 0 W L 6 0 6 3 33 2,
at * 2 3 – 2 5. T w o of t h e pl ai ntiffs i n M o or e ar e l e a d ers of t h eir r es p e cti v e c h a m b ers i n t h e
N ort h C ar oli n a G e n er al Ass e m bl y: t h e S p e a k er of t h e H o us e ( M o or e) a n d t h e Pr esi d e nt
Pr o T e m p or e of t h e S e n at e ( B er g er).
I n t h eir c urr e nt r e q u est f or a n i nj u n cti o n, t h e y ar g u e t h at t h e y h a v e st a n di n g t o bri n g
a n El e cti o ns Cl a us e cl ai m o n b e h alf of t h e N ort h C ar oli n a G e n er al Ass e m bl y p urs u a nt t o
N. C. G e n. St at. § 1 2 0-3 2. 6( b), w hi c h pr o vi d es i n r el e v a nt p art t h at “[ w] h e n e v er t h e v ali dit y
or c o nstit uti o n alit y of a n a ct of t h e G e n er al Ass e m bl y or a pr o visi o n of t h e C o nstit uti o n of
N ort h C ar oli n a is t h e s u bj e ct of a n a cti o n i n a n y St at e or f e d er al c o urt, t h e S p e a k er of t h e
H o us e of R e pr es e nt ati v es a n d t h e Pr esi d e nt Pr o T e m p or e of t h e S e n at e, as a g e nts of t h e
St at e t hr o u g h t h e G e n er al Ass e m bl y, s h all b e n e c ess ar y p arti es. ” T his pr o visi o n d o es
n ot hi n g t o c o nf er st a n di n g o n Pl ai ntiffs M o or e a n d B er g er b e c a us e t h e s u bj e ct of t his a cti o n
is a c h a n g e b y t h e B o ar d, n ot t h e v ali dit y or c o nstit uti o n alit y of a n a ct of t h e G e n er al
Ass e m bl y or a pr o visi o n of t h e N ort h C ar oli n a C o nstit uti o n.
V.
F urt h er m or e, e v e n if Pl ai ntiffs h a d st a n di n g t o p urs u e t h e El e cti o ns Cl a us e iss u e,
t h e P ull m a n a bst e nti o n d o ctri n e str o n gl y c o u ns els us, as a f e d er al c o urt, a g ai nst e x er cisi n g
j uris di cti o n o v er t h at cl ai m. P ull m a n a bst e nti o n a p pli es w h er e “t h er e is ( 1) a n u n cl e ar iss u e
of st at e l a w pr es e nt e d f or d e cisi o n ( 2) t h e r es ol uti o n of w hi c h m a y m o ot or pr es e nt i n a
diff er e nt p ost ur e t h e f e d er al c o nstit uti o n al iss u e s u c h t h at t h e st at e l a w iss u e is p ot e nti al l y
dis p ositi v e. ” E d u c. S er vs., I n c. v. M d. St at e B d. f or Hi g h er E d u c. , 7 1 0 F. 2 d 1 7 0, 1 7 4 ( 4t h
Cir. 1 9 8 3) (i nt er n al q u ot ati o n m ar ks o mitt e d).
14

A p p. 2 4 5

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 5 of 4 9

H er e, Pl ai ntiffs ar e as ki n g f e d er al c o urts t o d et er mi n e w h et h er t h e B o ar d a ct e d
wit hi n t h e s c o p e of its a ut h orit y d el e g at e d b y t h e L e gisl at ur e. T his is a cl os e iss u e of st at e
l a w i n v ol vi n g c o m p eti n g i nt er pr et ati o ns of N ort h C ar oli n a’s st at ut es g o v er ni n g el e cti o n
pr o c e d ur es a n d i m pli c ati n g c o m pl e x q u esti o ns c o n c er ni n g t h e s e p ar ati o n of p o w ers i n t h e
st at e. N o n e of t h e p arti es h a v e s u g g est e d or ar g u e d t h at st at e c o urts h a v e alr e a d y s ettl e d
t his iss u e c o n cl usi v el y. I n d e e d, t h e st at e c o urt t h at a p pr o v e d t h e C o ns e nt J u d g m e nt
c o nsi d er e d a n d r ej e ct e d Pl ai ntiffs’ ar g u m e nt as t o t his iss u e, w hil e t h e distri ct c o urt r e a c h e d
t h e o p p osit e c o n cl usi o n. S e e Wis e I nt er v e n or-A p p ell e es’ A p p’ x at 4 5 4 – 5 6; M o or e , 2 0 2 0
W L 6 0 6 3 3 3 2, at * 2 6 – 3 0 . T his v er y c o nfli ct s u g g ests t h at t h e iss u e is f ar fr o m s ettl e d. 9
N or is t h er e a n y q u esti o n t h at t h e r es ol uti o n of t his st at e l a w q u esti o n is “ p ot e nti all y
dis p ositi v e. ” E d u c. S er vs. , 7 1 0 F. 2 d at 1 7 4. If a r e vi e wi n g st at e c o urt d e ci d es t h at t h e B o ar d
a ct e d wit hi n its a ut h orit y, t h e n t h er e is pl ai nl y n o El e cti o ns Cl a us e pr o bl e m. C o n v ers el y,
if t h e st at e c o urt c o n cl u d es t h at t h e B o ar d l a c k e d a ut h orit y a n d d e cl ar es t h e C o ns e nt
J u d g m e nt i n v ali d, w e will n o l o n g er h a v e a c as e si n c e t h at w o ul d m o ot all of t h e f e d er al
c o nstit uti o n al cl ai ms.
I n d e e d, w e h a v e pr e vi o usl y d e e m e d P ull m a n a bst e nti o n a p pr o pri at e w h er e t h e
r es ol uti o n of a n iss u e c o n c er ni n g st at e d el e g ati o n of a ut h orit y

w o ul d

m o ot t h e

c o nstit uti o n al q u esti o ns pr es e nt e d. S e e K H o p e, I n c. v. O nsl o w C nt y. , 1 0 7 F. 3 d 8 6 6 ( 4t h

9

T h at b ei n g s ai d, a st at e tri al c o urt a p pr o v e d of t h e b al l ot-r e c ei pt e xt e nsi o n, a n d a
st at e a p p ell at e c o urt d e cli n e d t o e nj oi n it. A c c or di n gl y, all e vi d e n c e s u g g ests t h at t h e st at e
c o urts d o n ot b eli e v e t h e B o ar d a ct e d b e y o n d its a ut h orit y i n or d eri n g t h e e xt e nsi o n.
15

A p p. 2 4 6

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

Cir. 1 9 9 7) ( u n p u blis h e d t a bl e dis p ositi o n).

P g: 1 6 of 4 9

A n d c o ntr ar y t o t h e distri ct c o urt’s

misst at e m e nt, M o or e , 2 0 2 0 W L 6 0 6 3 3 3 2, at * 1 1, t h e st at e-l a w q u esti o n c o n c er ni n g t h e
s c o p e of t h e B o ar d’s a ut h orit y r e m ai ns s q u ar el y b ef or e t h e st at e c o urts. 1 0 S e e

Wis e

I nt er v e n or-A p p ell e es’ A p p’ x at 6 8 6 – 9 2. “ W h er e t h er e is a n a cti o n p e n di n g i n st at e c o urt
t h at will li k el y r es ol v e t h e st at e-l a w q u esti o ns u n d erl yi n g t h e f e d er al cl ai m, ” t h e S u pr e m e
C o urt h as “r e g ul arl y or d er e d a bst e nti o n. ” H arris C nt y. C o m m’rs Ct. v. M o or e , 4 2 0 U. S.
7 7, 8 3 ( 1 9 7 5).
F e w c as es i m pli c at e t h e “ d u al ai ms ” of t h e P ull m a n a bst e nti o n d o ctri n e — “ a v oi di n g
a d vis or y c o nstit uti o n al d e cisi o n m a ki n g ” a n d “ pr o m oti n g t h e pri n ci pl es of c o mit y a n d
f e d er alis m ” —m or e str o n gl y t h a n t his o n e. P ust ell v. L y n n P u b. S c hs. , 1 8 F. 3 d 5 0, 5 3 ( 1st
Cir. 1 9 9 4). T h us, w e s h o ul d a bst ai n fr o m “ n e e dl ess f e d er al i nt er v e nti o n i nt o l o c al aff airs. ”
I d.
Pl ai ntiffs d o n ot h a v e st a n di n g t o p urs u e t h eir El e cti o ns Cl a us e cl ai m a n y w a y. B ut
n o n et h el ess, t his iss u e m a y h a v e i m pli c ati o ns f or t h eir E q u al Pr ot e cti o n cl ai m as w ell.
I n ass essi n g Pl ai ntiffs’ li k eli h o o d of s u c c ess o n t h e m erits r e g ar di n g t h eir E q u al
Pr ot e cti o n c h all e n g e t o t h e r e c ei pt d e a dli n e e xt e nsi o n, t h e distri ct c o urt r est e d its a n al ysis
i n p art o n t h e f a ct t h at t h e “ c h a n g e c o ntr a v e n es t h e e x pr ess d e a dli n e est a blis h e d b y t h e
G e n er al A ss e m bl y, ” w hi c h is t hr e e d a ys aft er El e cti o n D a y. M o or e , 2 0 2 0 W L 6 0 6 3 3 3 2, at
* 1 9; s e e als o Wil ki ns o n a n d A g e e Diss e nti n g O p. at 4 3 ( a p p e ari n g t o a gr e e wit h t h e distri ct
10

A c c or di n gl y, alt h o u g h t h e distri ct c o urt is of c o urs e c orr e ct t h at w e g e n er all y
“ m ust pr e di ct h o w [ a st at e’s] hi g h est c o urt w o ul d r ul e ” w h e n it h as n ot y et d o n e s o, h er e,
w e n e e d n ot g u ess: w e m a y si m pl y all o w t his l a ws uit t o pr o c e e d, as it is pr es e ntl y d oi n g,
i n t h e st at e c o urts. M o or e , 2 0 2 0 W L 6 0 6 3 3 3 2, at * 3 0.
16

A p p. 2 4 7

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 7 of 4 9

c o urt’s a n al ysis o n t his p oi nt b y r ef erri n g t o “ t h e dil uti n g eff e ct of ill e g al b all ots ”). Of
c o urs e, if t h e B o ar d is t h e a g e nt of t h e L e gisl at ur e f or p ur p os es of t h e El e cti o ns Cl a us e —
t h e v er y st at e-l a w iss u e fr o m w hi c h w e m ust a bst ai n d e ci di n g— t h er e is n o c o ntr a v e nti o n
a n d t h er e ar e n o ill e g al b all ots.
VI.
I n s u m, Pl ai ntiffs ar e n ot li k el y t o s u c c e e d o n t h e m erits wit h t h eir n o v el E q u al
Pr ot e cti o n t h e or y. T h e y l a c k st a n di n g t o r ais e t h eir El e cti o ns Cl a us e c h all e n g e; e v e n if t h e y
di d n ot, w e o u g ht t o e x er cis e P ull m a n a bst e nti o n. F urt h er m or e, all s u g g esti o ns fr o m t h e
st at e c o urts p oi nt t o t h e c o n cl usi o n t h at t h e B o ar d pr o p erl y e x er cis e d its l e gisl ati v e
d el e g ati o n of a ut h orit y. T h er e is n o irr e p ar a bl e h ar m fr o m a b all ot e xt e nsi o n: a g ai n,
e v er y o n e m ust s u b mit t h eir b all ot b y t h e s a m e d at e . T h e e xt e nsi o n m er el y all o ws m or e
l a wf ull y c ast b all ots t o b e c o u nt e d, i n t h e e v e nt t h er e ar e a n y d el a ys pr e ci pit at e d b y a n
a v al a n c h e of m ail- i n b all ots.
A n d t h e b al a n c e of e q uiti es is i nfl u e n c e d h e a vil y b y P ur c ell a n d tilts a g ai nst f e d er al
c o urt i nt er v e nti o n at t his l at e st a g e. A n di n o est a blis h es t h at t h e a p pr o pri at e st at us -q u o
fr a m e w or k is t h e st at us q u o cr e at e d b y t h e st at e’s a cti o ns, n ot b y l at er f e d er al c o urt
i nt er v e nti o ns. W e o u g ht n ot t o p er p et u at e a n y f urt h er t his i n a p pr o pri at e i nt er v e nti o n b y
gr a nti n g t h e “ e xtr a or di n ar y a n d dr asti c r e m e d y ” of a pr eli mi n ar y i nj u n cti o n. C A S A d e M d.,
I n c. v. Tr u m p, 9 7 1 F. 3 d 2 2 0, 2 4 1 ( 4t h Cir. 2 0 2 0) ( Wil ki ns o n, J.) ( q u oti n g M u n af v. G er e n ,
5 5 3 U. S. 6 7 4, 6 9 0 – 9 1 ( 2 0 0 8)). S u c h a r e m e d y w o ul d b e p arti c ul arl y e xtr a or di n ar y h er e,
w h er e t h e i nj u n cti o n w o ul d b e gr a nt e d b y a f e d er al a p p ell at e c o urt i n t h e first i nst a n c e —
aft er a f e d er al tri al c o urt, st at e tri al c o urt, a n d st at e a p p ell at e c o urt all d e cli n e d t o d o s o.
17

A p p. 2 4 8

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 8 of 4 9

A n d e v e n if r e as o n a bl e mi n ds c a n dis a gr e e o n t h e m erits, a n i nj u n cti o n is still
i n a p pr o pri at e h er e. T h e distri ct c o urt b eli e v e d t h at Pl ai ntiffs w er e li k el y t o s u c c e e d o n t h eir
e q u al pr ot e cti o n cl ai ms. B ut, p urs u a nt t o P ur c ell , t h e c o urt c o n cl u d e d t h at i nj u n cti v e r eli ef
w as i n a p pr o pri at e at t his l at e d at e. M o or e , 2 0 2 0 W L 6 0 6 3 3 3 2, at * 1. W e ri g htf ull y d o n ot
dist ur b t h at s o u n d j u d g m e nt fr o m a j u d g e w h o h as b e e n t h o u g htf ull y c o nsi d eri n g t h es e
m att ers f or m o nt hs. N or n e e d w e: t h e st at e a p p ell at e c o urt h as its elf e x er cis e d c o ntr ol o v er
t his m att er a n d t h e S u pr e m e C o urt of N ort h C ar oli n a st a n ds r e a d y t o a ct t h er e aft er. As t h e
distri ct c o urt wis el y r e c o g ni z e d, t h er e is n o n e e d, i n t h e mi d dl e of a n o n g oi n g el e cti o n, f or
t h e f e d er al c o urts t o i nt er v e n e i nt o t h e v oti n g aff airs of N ort h C ar oli n a.
A c c or di n gl y, t his C o urt m ust d e n y t h e r e q u est e d i nj u n cti o n. T o d o ot h er wis e w o ul d
ris k e n d a n g eri n g a gr e at m a n y of o ur d o ctri n es, t o s a y n ot hi n g of t h e h e alt h of t h e v ot ers
of N ort h C ar oli n a as t h e y att e m pt t o s af el y e x er cis e t h eir ri g ht t o v ot e.

18

A p p. 2 4 9

U S C A 4 A p p e al: 2 0- 2 1 0 4

DI A N A

D o c: 2 0

G RI B B O N

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 1 9 of 4 9

M O T Z , Cir c uit J u d g e, c o n c urri n g i n t h e d e ni al of e m er g e n c y

i nj u n cti v e r eli ef:
I c o n c ur i n f ull wit h J u d g e W y n n’s e x c ell e nt o pi ni o n f or t h e c o urt. I writ e s e p ar at el y
t o r eit er at e j ust t w o p oi nts.
First, r e c e nt a cti o ns of t h e S u pr e m e C o urt m a k e cl e ar t h at it is u p t o a st at e t o d e ci d e
w h at el e cti o n pr o c e d ur es ar e i n eff e ct o n

El e cti o n D a y, a n d n ot f e d er al c o urts. S e e,

e. g. , R e p u bli c a n P art y of P a. v. B o o c k v ar, S e c. of P a., N o. 2 0 A 5 4, 5 9 2 U. S. --- ( O ct. 1 9,
2 0 2 0); A n di n o v.

Mi d dl et o n, N o. 2 0 A 5 5, 2 0 2 0 W L

5 8 8 7 3 9 3 ( U. S. O ct. 5, 2 0 2 0). I n d e e d,

i n a c as e stri ki n gl y si mil ar t o t his o n e, t h e S u pr e m e C o urt r e c e ntl y d e cli n e d t o gr a nt a
st a y w h er e “t h e st at e el e cti o n offi ci als s u p p ort t h e c h all e n g e d d e cr e e. ” R e p u bli c a n N at’l
C o m m. v. C o m m o n C a us e R h o d e Isl a n d, N o. 2 0 A 2 8, 2 0 2 0 W L

4 6 8 0 1 5 1 ( U. S. A u g. 1 3,

2 0 2 0). S o t o o h er e. T h e N ort h C ar oli n a l e gisl at ur e b y st at ut e c o nf err e d a ut h orit y o n t h e
B o ar d of El e cti o ns t o “ e x er cis e e m er g e n c y p o w ers t o c o n d u ct a n el e cti o n i n a distri ct w h er e
t h e n or m al s c h e d ul e is disr u pt e d b y ” a “ n at ur al dis ast er. ” N. C. G e n. St at. § 1 6 3- 2 7. 1. T h at
t w o i n di vi d u al l e gisl at ors dis a gr e e wit h t his d el e g ati o n of p o w er b y t h e l e gisl at ur e is of n o
m o m e nt:

“i n di vi d u al

m e m b ers [ of a st at e l e gisl at ur e] l a c k st a n di n g t o ass ert t h e

i nstit uti o n al i nt er ests of a l e gisl at ur e ” a bs e nt cl e ar a ut h ori z ati o n. Vir gi ni a H o us e of
D el e g at es v. B et h u n e- Hill, 1 3 9 S. Ct. 1 9 4 5, 1 9 5 3 ( 2 0 1 9).
S e c o n d, t h e pl ai ntiffs’ e q u al pr ot e cti o n ar g u m e nt is d e e pl y tr o u bli n g. Q uit e u nli k e
t h e or di n ar y c h all e n g e t o st at e el e cti o n pr o c e d ur es, pl ai ntiffs h er e h a v e n ot ass ert e d a n y
i nj ur y t o t h eir f u n d a m e nt al ri g ht t o v ot e. S e e A n d ers o n v. C el e br ezz e , 4 6 0 U. S. 7 8 0, 78 9
( 1 9 8 3). R at h er, t h e y c h all e n g e m e as ur es t h at r e m o v e b ur d e ns o n ot h er citi z e ns e x er cisi n g
19

A p p. 2 5 0

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

t h eir ri g ht t o v ot e.

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 0 of 4 9

T h e diss e nt s e e ks t o r e c ast t h es e m e as ur es, ai m e d at m a xi mi zi n g

citi z e ns’ a bilit y t o h a v e “ a v oi c e i n t h e el e cti o n, ” W es b err y v. S a n d ers , 3 7 6 U. S. 1, 1 7
( 1 9 6 4), as o n es wit h n ef ari o us “ dil uti n g eff e ct[s], ” Diss e nti n g O p. at 4 3 ( q u oti n g Gr a y v.
S a n d ers , 3 7 2 U. S. 3 6 8, 3 8 0 ( 1 9 6 3)).

N ot s o. T o b e s ur e, a st at e “ m a y n ot, b y l at er ar bitr ar y

a n d dis p ar at e tr e at m e nt, v al u e o n e p ers o n’s v ot e o v er t h at of a n ot h er. ” B us h v. G or e , 5 3 1
U. S. 9 8, 1 0 5 ( 2 0 0 0). B ut if t h e e xt e n si o n w e nt i nt o eff e ct, pl ai ntiffs’ v ot es w o ul d n ot c o u nt
f or l ess r el ati v e t o ot h er N ort h C ar oli n a v ot ers. T his is t h e c or e of a n E q u al Pr ot e cti o n
Cl a us e c h all e n g e. S e e R e y n ol ds v. S i ms, 3 7 7 U. S. 5 3 3, 5 6 8 ( 1 9 6 4) ( “ Si m pl y st at e d, a n
i n di vi d u al’s ri g ht t o v ot e . . . is u n c o nstit uti o n all y i m p air e d w h e n its w ei g ht is i n a
s u bst a nti al f as hi o n dil ut e d w h e n c o m p ar e d wit h v ot es of citi z e ns li vi n g o n ot h er p arts of
t h e St at e. ”) ( e m p h asis a d d e d). T h e e xt e nsi o n d o es n ot dil ut e s o m e v ot es r el ati v e t o ot h ers
— r at h er, it h as t h e s a m e eff e ct o n all N ort h C ar oli n a v ot ers.

20

A p p. 2 5 1

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 1 of 4 9

WI L KI N S O N a n d A G E E, Cir c uit J u d g es, wit h w h o m NI E M E Y E R, Cir c uit J u d g e, j oi ns,
diss e nti n g:
W e diss e nt fr o m t h e c o urt’s gr a nt of a

h e ari n g e n b a n c i n t his c as e a n d t h e f ail ur e

of t h e c o urt t o gr a nt a p p ell a nts’ m oti o ns f or i nj u n cti o ns a g ai nst t h e N ort h C ar oli n a St at e
B o ar d of El e cti o ns p e n di n g a p p e al. B e c a us e of t his c as e’s i m p ort a n c e, w e j u d g e it is
n e c ess ar y t o l a y o ut o ur r e as o ni n g wit h cl arit y. T his c o urs e is n e c ess ar y i n or d er t o dr a w
att e nti o n t o t h e a c c el er ati n g p a c e of pr e -el e cti o n liti g ati o n i n t his c o u ntr y a n d all t h e
d a m a gi n g c o ns e q u e n c es e ns ui n g t h er efr o m. 1
H er e, as i n A n di n o v. Mi d dl et o n , N o. 2 0 A 5 5, 2 0 2 0 W L 5 8 8 7 3 9 3 ( U. S. O ct. 5, 2 0 2 0),
w e ar e f a c e d wit h n o nr e pr es e nt ati v e e ntiti es c h a n gi n g el e cti o n l a w i m m e di at el y pr e c e di n g
or d uri n g a f e d er al el e cti o n. I n m a ki n g t h os e c h a n g es, t h e y h a v e u n d o n e t h e w or k of t h e
el e ct e d st at e l e gisl at ur es, t o w hi c h t h e C o nstit uti o n cl e arl y a n d e x pli citl y d el e g at es t h e
p o w er t o “ pr es cri b e[] ” “[t] h e Ti m es, Pl a c es a n d M a n n er of h ol di n g El e cti o ns. ” U. S. C o nst.
art. I, § 4, cl. 1. T h e C o nstit uti o n d o es n ot assi g n t h es e p o w ers h olisti c all y t o t h e st at e
g o v er n m e nts b ut r at h er pi n p oi nts a p arti c ul ar br a n c h of st at e g o v er n m e nt — “t h e
L e gisl at ur es t h er e of. ” I d. W h et h er it is a f e d er al c o urt — as it w as i n A n di n o — or a st at e
el e cti o n b o ar d — as it is h er e — d o es n ot m att er; b ot h ar e u n a c c o u nt a bl e e ntiti es stri p pi n g

1

T w o c as es ar e c o ns oli d at e d b ef or e us: M o or e v. Cir c ost a , N o. 2 0-2 1 0 7, a n d Wis e v.
Cir c ost a , N o. 2 0-2 1 0 4. F or t h e s a k e of c o n cisi o n, w e r ef er t o Ti m ot h y M o or e, S p e a k er of
t h e N ort h C ar oli n a H o us e of R e pr es e nt ati v es, a n d P hili p B er g er, Pr esi d e nt Pr o T e m p or e of
t h e N ort h C ar oli n a S e n at e, as t h e “l e gisl ati v e l e a d er pl ai ntiffs ” a n d all t h e i n di vi d u al v ot er
pl ai ntiffs i n b ot h c as es as t h e “ v ot er pl ai ntiffs. ” T h e d ef e n d a nts i n b ot h c as es ar e t h e N ort h
C ar oli n a St at e B o ar d of El e cti o ns a n d its offi c ers, m e m b ers, a n d C h air, w h o m w e r ef er t o
c oll e cti v el y as “t h e B o ar d. ”
21

A p p. 2 5 2

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 2 of 4 9

p o w er fr o m t h e l e gisl at ur es. T h e y ar e c h a n gi n g t h e r ul es of t h e g a m e i n t h e mi d dl e of a n
el e cti o n — e x a ctl y w h at P ur c ell v. G o nz al ez , 5 4 9 U. S. 1 ( 2 0 0 6), c o u ns els a g ai nst. B y t h e
ti m e t h e B o ar d c h a n g e d t h e r ul es, v ot ers h a d c ast o v er 1 5 0, 0 0 0 b all ots i n N ort h C ar oli n a.
L et’ s u n d erst a n d t h e str at e g y t h at is b ei n g d e pl o y e d h er e. T h e st at us q u o is t h e
el e cti o n l a w e n a ct e d b y t h e N ort h C ar oli n a G e n er al Ass e m bl y. T h e C o nstit uti o n gr a nts
st at e l e gisl at ur es t h at p o w er. Pri n ci pl es of d e m o cr ati c a c c o u nt a bilit y r ei nf or c e it. T h e f air
n oti c e t o all v ot ers of el e cti o n gr o u n d r ul es w ell i n a d v a n c e of El e cti o n D a y c o m m e n d it.
T h e n al o n g c o m e t h e disr u pti v e eff orts of f e d er al c o urts or, i n t his c as e, a st at e
el e cti o n b o ar d t o u p e n d t h e s et r ul es ri g ht i n t h e mi d dl e of a n el e cti o n. T h e disr u pt ors t h e n
h ail t h eir a cti o n as t h e n e w st at us q u o, w hi c h is (t h e ir o n y of t his is ri c h) cl ai m e d t o b e
b e y o n d a n y p o w er of dist ur b a n c e.
It t a k es n o s p e ci al g e ni us t o k n o w w h at t his i nsi di o us f or m ul a is pr o d u ci n g. O ur
c o u ntr y is n o w pl a g u e d b y a pr olif er ati o n of pr e -el e cti o n liti g ati o n t h at cr e at es c o nf usi o n
a n d t ur m oil a n d t h at t hr e at e ns t o u n d er mi n e p u bli c c o nfi d e n c e i n t h e f e d er al c o urts, st at e
a g e n ci es, a n d t h e el e cti o ns t h e ms el v es.
O nl y b y r e p airi n g t o st at e l e gisl ati v e i nt e nt c a n w e e xtri c at e o urs el v es fr o m t his
d e bilit ati n g c o n diti o n. T h e st at ut es of st at e l e gisl at ur es ar e o ur s ol e N ort h St ar. W h e n, as
h er e, t h e pl ai n w or di n g of t h os e e n a ct m e nts is tr a ns gr ess e d, t h e e ntir e b o d y p oliti c p a ys a
gri e v o us pri c e. I n t h e s er vi c e of p oli c y o bj e cti v es, t h e m aj orit y is stri p pi n g st at e l e gisl at ur es
of t h e r es p o nsi bilit y o ur f o u n di n g c h art er h as assi g n e d t h e m. A n d i n s o d oi n g, it h as
e n c o ur a g e d ot h ers t o r e g ar d st at e st at ut es as littl e m or e t h a n a d vis or y a n d f or pr e - el e cti o n
liti g a nts f air g a m e.
22

A p p. 2 5 3

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 3 of 4 9

S o m eti m es t h e st at e l e gisl at ur e will b e i n t h e h a n ds of o n e p art y. S o m eti m es it will
b e i n t h e h a n ds of t h e ot h er. S o m eti m es c o ntr ol m a y b e di vi d e d. It m att ers n ot. T h es e l a ws
ar e w h at w e as a n ati o n h a v e t o li v e b y, a n d t o wit n ess o ur d e m o cr ati c diss ol uti o n i n t his
m a n n er is h e art -r e n di n g f or t h e m a n y g o o d A m eri c a ns of all p ers u asi o ns w h o still vi e w
p artis a n a d v a nt a g e as s u b or di n at e t o t h eir c o u ntr y’s l asti n g w elf ar e.
As f or S c ar n ati v. B o o c k v ar , N o. 2 0 A 5 3, 2 0 2 0 W L 6 1 2 8 1 9 4 ( U. S. O ct. 2 0, 2 0 2 0),
w h er e a st a y w as d e ni e d b y t h e S u pr e m e C o urt o n a 4 -4 v ot e: t h e cir c u mst a n c es h er e ar e
m at eri all y diff er e nt. F or o n e t hi n g, t h e p etiti o n i n B o o c k v ar w as br o u g ht t o t h e c o urt b y
r e pr es e nt ati v es of a si n gl e h o us e of t h e P e n ns yl v a ni a l e gisl at ur e,

w h er e as h er e

r e pr es e nt ati v es of b ot h h o us es ar e u nit e d i n t h eir p etiti o n b ef or e t h e c o urts. I n a d diti o n, t h e
q u esti o n a bl e cir c u mst a n c es t h at pl ai nl y i n di c at e d a st at e a g e n c y’s s u b v ersi o n of t h e st at e
l e gisl at ur e’s i nt e nt w er e n ot pr es e nt i n t h e P e n ns yl v a ni a c as e. T h e a g e n c y’s e xt e nsi o n of
t h e st at ut or y r e c ei pt d e a dli n e f or m ail e d a bs e nt e e b all ots w as t wi c e as l o n g as i n t h e
P e n ns yl v a ni a s uit. N or di d t h e P e n ns yl v a ni a a cti o n i n v ol v e t h e eli mi n ati o n b y a n a g e n c y
of a st at ut or y wit n ess si g n at ur e r e q uir e m e nt. I n s h ort, t his c as e pr es e nts a cl e a n o p p ort u nit y
f or t h e S u pr e m e C o urt t o ri g ht t h e a br o g ati o n of a cl e ar c o nstit uti o n al m a n d at e a n d t o
i m p art t o t h e f e d er al el e cti o ns pr o c ess a str o n g c o m mit m e nt t o t h e r ul e of l a w.
All o wi n g t h e B o ar d’s c h a n g es t o g o i nt o eff e ct n o w, t w o w e e ks b ef or e t h e el e c ti o n
a n d aft er h alf a milli o n p e o pl e h a v e v ot e d i n N ort h C ar oli n a, w o ul d c a us e y et f urt h er
i nt ol er a bl e c h a os. T h us f or t h e r e as o ns t h at f oll o w, w e diss e nt a n d w o ul d gr a nt t h e r e q u est
f or a n i nj u n cti o n p e n di n g a p p e al. W e ur g e pl ai ntiffs t o t a k e t his c as e u p t o t h e S u pr e m e
C o urt i m m e di at el y. N ot t o m orr o w. N ot t h e n e xt d a y. N o w.
23

A p p. 2 5 4

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 4 of 4 9

I.
A.
O n J u n e 1 2, 2 0 2 0, G o v er n or R o y C o o p er si g n e d i nt o l a w t h e Bi p artis a n El e cti o ns
A ct of 2 0 2 0 ( Bi p artis a n El e cti o ns A ct), i n w hi c h a n o v er w h el mi n g bi p artis a n m aj orit y of
t h e G e n er al Ass e m bl y a m e n d e d N ort h C ar oli n a’s el e cti o n pr o c e d ur es. S e e 2 0 2 0 N. C. S ess.
L a ws § 2 0 2 0- 1 7. R es p o n di n g t o t h e C O VI D -1 9 p a n d e mi c, t h e bill alt er e d t h e st at e’s
el e cti o n l a w t o f a cilit at e s af e v oti n g, w hil e m ai nt ai ni n g t h e i nt e grit y of t h e st at e’s el e cti o ns.
I n o n e k e y p art, t h e l a w r e d u c e d t h e wit n ess r e q uir e m e nt f or a bs e nt e e b all ots fr o m t w o
wit n ess es t o o n e wit n ess o n t h e c o n diti o n t h at t h e wit n ess i n cl u d e his or h er n a m e a n d
a d dr ess wit h t h eir si g n at ur e. S e e i d. § 1.( a). T h e G e n er al Ass e m bl y als o l eft i n pl a c e t h e
d e a dli n e f or r e c ei pt of a bs e nt e e b all ots p ost m ar k e d o n or b ef or e El e cti o n D a y; t h at d e a dli n e
c o nti n u e d t o b e “t hr e e d a ys aft er t h e el e cti o n b y 5: 0 0 p. m. ” N. C. G e n. St at. § 1 6 3 2 3 1( b)( 2) b.
A s eri es of st at e a n d f e d er al l a ws uits f oll o w e d t h e p ass a g e of t his l a w, c h all e n gi n g
its c o nt e nts as w ell as u n c h a n g e d pr o visi o ns of N ort h C ar oli n a’s el e cti o n c o d e.
I n t h e first f e d er al c as e, D e m o cr a c y N ort h C ar oli n a a n d s e v er al N ort h C ar oli ni a n
v ot ers s u e d t h e B o ar d i n t h e Mi d dl e Distri ct of N ort h C ar oli n a. T h e c o urt all o w e d t h e
S p e a k er of t h e N ort h C ar oli n a H o us e of R e pr es e nt ati v es ( S p e a k er) a n d t h e Pr esi d e nt Pr o
T e m p or e of t h e N ort h C ar oli n a S e n at e ( Pr esi d e nt Pr o T e m p or e) t o i nt er v e n e i n t h e c as e.
O n A u g ust 4, J u d g e Ost e e n iss u e d a n or d er gr a nti n g i n p art a n d d e n yi n g i n p art t h e
pr eli mi n ar y i nj u n cti o n r e q u est e d b y t h e pl ai ntiffs. S e e D e m o cr a c y N. C. v. N. C. St at e B d.
of El e cti o ns , N o. 1: 2 0- C V-4 5 7, 2 0 2 0 W L 4 4 8 4 0 6 3, at * 6 4 ( M. D. N. C. A u g. 4, 2 0 2 0). H e
24

A p p. 2 5 5

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 5 of 4 9

u p h el d t h e o n e -wit n ess r e q uir e m e nt as c o nstit uti o n al a n d d e cli n e d t o s u p pl a nt t h e
l e gisl at ur e b y or d eri n g t h e est a blis h m e nt of c o nt a ctl ess dr o p b o x es. I d. at * 3 6, * 4 5.
B.
N ot e v e n a w e e k aft er J u d g e Ost e e n iss u e d his o pi ni o n a n d or d er, t h e N ort h C ar oli n a
Alli a n c e f or R etir e d A m eri c a ns a n d a diff er e nt s et of i n di vi d u al v ot ers fil e d s uit a g ai nst t h e
St at e B o ar d of El e cti o ns i n t h e N ort h C ar oli n a S u p eri or C o urt f or t h e C o u nt y of W a k e. O n
A u g ust 1 2, t h e S p e a k er a n d t h e Pr esi d e nt Pr o T e m p or e fil e d a n oti c e of i nt er v e nti o n as of
ri g ht. O n A u g ust 1 8, t h e pl ai ntiffs r e q u est e d a pr eli mi n ar y i nj u n cti o n a n d fil e d bri efi n g a n d
e vi d e n c e i n s u p p ort o n S e pt e m b er 4. O n S e pt e m b er 2 2, t h e pl ai ntiffs a n d t h e B o ar d
d ef e n d a nts j oi ntl y

m o v e d f or e ntr y of a c o ns e nt d e cr e e. T h e l e gisl ati v e d ef e n d a nt -

i nt er v e n ors o p p os e d e ntr y of t h e d e cr e e.
T h e c o ns e nt d e cr e e or d er e d t hr e e c h a n g es t o N ort h C ar oli n a’s el e cti o n pr o c e d ur es.

2

First, t h e d e cr e e e xt e n d e d t h e st at ut or y r e c ei pt d e a dli n e f or m ail e d a bs e nt e e b all ots
p ost m ar k e d o n or b ef or e El e cti o n D a y b y si x d a ys. M o or e A p p ell a nt A p p. at 3 5. T h at
c h a n g e tr e bl e d t h e l e gisl at ur e’s r e c ei pt d e a dli n e fr o m t hr e e d a ys t o ni n e. S e c o n d, t h e d e cr e e
eff e cti v el y eli mi n at e d t h e wit n ess r e q uir e m e nt f or a bs e nt e e b all ots b y cr e ati n g a c ur e
pr o c ess t hr o u g h w hi c h v ot ers c o ul d — wit h o ut a wit n ess —s elf- c ertif y t h eir b all ots. S e e i d.
at 3 6. T hir d, t h e d e cr e e r e q uir e d t h e est a blis h m e nt of “ a s e p ar at e a bs e nt e e b all ot dr o p - off
st ati o n at e a c h o n e-st o p e arl y v oti n g l o c ati o n a n d at c o u nt y b o ar d offi c es. ” I d.

2

T h es e c h a n g es w er e o utli n e d i n t hr e e B o ar d m e m or a n d a: t h e S e pt e m b er 2 0 2 0- 1 9 m e m o,
t h e N u m b er e d M e m o 2 0 2 0- 2 2, a n d t h e N u m b er e d M e m o 2 0 2 0- 2 3.
25

A p p. 2 5 6

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 6 of 4 9

O n S e pt e m b er 2 6, t h e S p e a k er a n d t h e Pr esi d e nt Pr o T e m p or e al o n g wit h t hr e e
i n di vi d u al v ot ers s o u g ht a T R O a n d pr eli mi n ar y i nj u n cti o n i n t h e E ast er n Distri ct of N ort h
C ar oli n a t o pr o hi bit t h e i m pl e m e nt ati o n of t h es e c h a n g es.
O n O ct o b er 2, t h e st at e c o urt e nt er e d t h e c o ns e nt j u d g m e nt, w hi c h it e x pl ai n e d i n
a n O ct o b er 5 o pi ni o n. T h e N ort h C ar oli n a C o urt of A p p e als iss u e d a n a d mi nistr ati v e st a y
a g ai nst t h e c o ns e nt d e cr e e o n O ct o b er 1 6, 2 0 2 0, a n d lift e d it wit h o ut o pi ni o n o n O ct o b er
1 9, 2 0 2 0.
O n O ct o b er 3, J u d g e D e v er, t h e f e d er al j u d g e i n t h e E ast er n Distri ct of N ort h
C ar oli n a, gr a nt e d t h e r e q u est e d T R O e nj oi ni n g t h e i m pl e m e nt ati o n of t h e St at e B o ar d’s
t hr e e m e m or a n d a u ntil O ct o b er 1 6, 2 0 2 0, a n d tr a nsf err e d t h e c as e t o J u d g e Ost e e n t o h ol d
pr eli mi n ar y i nj u n cti o n h e ari n gs i n c o nj u n cti o n wit h D e m o cr a c y N. C. M o or e v. Cir c ost a ,
N o. 5: 2 0- C V- 5 0 7- D, 2 0 2 0

W L 5 8 8 0 1 2 9, at * 9 ( E. D. N. C.

O ct. 3, 2 0 2 0).

Wit h o ut

c o nsi d eri n g pl ai ntiffs’ El e cti o ns Cl a us e cl ai m, J u d g e D e v er f o u n d t h eir E q u al Pr ot e cti o n
Cl a us e ar g u m e nts “ p ers u asi v e. ” I d. at * 5. H e f o u n d t h at, b y c h a n gi n g el e cti o n r ul es aft er
t h e N ort h C ar oli n a el e cti o n h a d b e g u n, t h e B o ar d “i g n or e d t h e st at ut or y s c h e m e a n d
ar bitr aril y cr e at e d m ulti pl e, dis p ar at e r e gi m es u n d er w hi c h N ort h C ar oli n a v ot ers c ast
a bs e nt e e b all ots. ” I d. at * 7. T h es e a cti o ns l e d t o a hi g h li k eli h o o d of “ a d e b as e m e nt or
dil uti o n of t h e w ei g ht of a citi z e n’s v ot e, ” i d. at * 6 ( q u oti n g R e y n ol ds v. Si ms , 3 7 7 U. S.
5 3 3, 5 5 4 ( 1 9 6 4)), a n d a n “ ar bitr ar y or dis p ar at e tr e at m e nt of m e m b ers of [t h e st at e’s]
el e ct or at e, ” i d. ( q u oti n g B us h v. G or e , 5 3 1 U. S. 9 8, 1 0 5 ( 2 0 0 0) ( p er c uri a m)) ( alt er ati o n i n
ori gi n al). T h e c o urt iss u e d t h e T R O as n e c ess ar y “t o m ai nt ai n t h e st at us q u o. ” I d. at * 7
( citi n g P ur c ell v. G o nz al ez , 5 4 9 U. S. 1, 4 – 6 ( 2 0 0 6) ( p er c uri a m)).
26

A p p. 2 5 7

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 7 of 4 9

C.
Aft er h e ari n gs, J u d g e Ost e e n d e ni e d t h e pr eli mi n ar y i nj u n cti o n. H e r ej e ct e d t h e
d ef e n d a nt B o ar d’s ar g u m e nts t h at ( 1) t h e c o urt l a c k e d j uris di cti o n, ( 2) a bst e nti o n w as
a p pr o pri at e, a n d ( 3) c oll at er al est o p p el b arr e d t h e pl ai ntiffs’ cl ai ms. M o or e A p p ell a nt A p p.
at 9 3 – 1 0 1. I n D e m o cr a c y N ort h C ar oli n a , J u d g e Ost e e n iss u e d a n All Writs A ct i nj un cti o n
t h at pr o hi bit e d t h e B o ar d fr o m i nstit uti n g t h e wit n ess r e q uir e m e nt c ur e pr o c e d ur e, a n d t h at
i nj u n cti o n is n ot b ef or e t his c o urt o n a p p e al.

W e n ot e, h o w e v er, t h at J u d g e Ost e e n f o u n d

t h at t h e B o ar d ( 1) “ mis c h ar a ct eri z e[ e d] ” his A u g ust 4 “i nj u n cti o n i n or d er t o o bt ai n
c o ntr a di ct or y r eli ef i n a n ot h er c o urt, ” Wis e A p p ell a nt A p p. at 3 8 6, a n d ( 2) misr e pr es e nt e d
t o hi m t h e ar g u m e nts t h at it m a d e t o t h e st at e c o urt, s e e i d. at 3 8 8 – 8 9.
C o nsi d eri n g t h e v ot er pl ai ntiffs’ E q u al Pr ot e cti o n Cl a us e cl ai ms first, J u d g e Ost e e n
f o u n d t h at n o n e h a d st a n di n g o n t h eir v ot e dil uti o n t h e or y, b ut t h at t h e y di d h a v e st a n di n g
o n t h eir ar bitr ar y a n d dis p ar at e tr e at m e nt t h e or y. I d. at 1 0 7 – 0 8. T h e v ot er pl ai ntiffs
arti c ul at e d a c o g ni z a bl e i nj ur y f or t h at t h e or y b e c a us e t h e y h a d alr e a d y c ast t h eir a bs e nt e e
b all ots a n d t h us h a d t o m e et a diff er e nt st a n d ar d f or v oti n g t h a n t h e a bs e nt e e v ot ers w h o
h a d n ot y et v ot e d w h e n t h e B o ar d iss u e d its c h a n g es i n S e pt e m b er. I d. at 1 1 1 – 1 4. O n t h e
El e cti o ns Cl a us e cl ai m, t h e c o urt h el d t h at t h e l e gisl ati v e l e a d ers l a c k e d st a n di n g b e c a us e
“[t] h e G e n er al Ass e m bl y h a[ d] n ot dir e ctl y a ut h ori z e d Pl ai ntiffs t o r e pr es e nt its i nt er ests i n
t his s p e cifi c c as e, ” b ut r at h er its st at ut or y a ut h ori z ati o n c o v er e d o nl y i nt er v e ni n g as
d ef e n d a nts w h e n t h e c o nstit uti o n alit y of a N ort h C ar oli n a st at ut e w as c h all e n g e d. I d. at
1 4 0 – 4 3.

27

A p p. 2 5 8

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 8 of 4 9

J u d g e Ost e e n f o u n d t h at t h e v ot er pl ai ntiffs h a d est a blis h e d a li k eli h o o d of s u c c ess
o n t h e m erits. I d. at 1 2 1. T h e B o ar d’s a cti o ns w er e ar bitr ar y b e c a us e its wit n ess c ur e
pr o c ess c o ntr a v e n e d t h e d ul y e n a ct e d l a ws of t h e st at e l e gisl at ur e. S e e i d. at 1 2 2 – 2 3. T h e
B o ar d’s pr o c e d ur e all o w e d v ot es f or w hi c h t h er e w as n o wit n ess at a n y p oi nt i n t h e pr o c ess,
a n d t his cr e at e d a pr ef err e d cl ass of v ot ers. I d. at 1 2 4. J u d g e Ost e e n n ot e d t h at his A u g ust
4 i nj u n cti o n di d n ot r e q uir e t h e B o ar d t o d o t his, s o it c o ul d n ot b e t h e b asis of s ettli n g t h e
st at e c o urt l a ws uit t hr o u g h t h e c o ns e nt d e cr e e, w hi c h h e c h ar a ct eri z e d as “s e cr etl y n e g oti at e d. ” I d. at 8 3, 1 2 4. T h e e xt e nsi o n of t h e b all ot d e a dli n e w as als o ar bitr ar y b e c a us e
t h e c h a n g e “ c o ntr a v e n e[ d] t h e e x pr ess d e a dli n e est a blis h e d b y t h e G e n er al Ass e m bl y. ” I d.
at 1 2 6. Si n c e t h es e c o nstit uti o n al vi ol ati o ns c o ul d n ot b e r e m e di e d aft er t h e el e cti o n, h e
f o u n d t h at t h e v ot ers w o ul d s uff er irr e p ar a bl e h ar m. I d. at 1 3 4. H o w e v er, h e f o u n d t h at t h e
b al a n c e of t h e e q uiti es w ei g h e d a g ai nst r eli ef b e c a us e h e b eli e v e d t h e P ur c ell pri n ci pl e,
w hi c h b ars c o urts fr o m c h a n gi n g el e cti o n r ul es s h ortl y b ef or e f e d er al el e cti o ns, a p pli e d t o
pr o hi bit hi m fr o m e nt eri n g a n i nj u n cti o n s o cl os e t o a n el e cti o n. I d. at 1 3 5 – 3 7.
D es pit e n ot fi n di n g st a n di n g f or t h e l e gisl ati v e pl ai ntiffs, J u d g e Ost e e n n e v ert h el ess
a d dr ess e d t h e m erits of t h e El e cti o ns Cl a us e cl ai m a n d f o u n d t h at t h e B o ar d h a d e x c e e d e d
its a ut h orit y u n d er N ort h C ar oli n a l a w b e c a us e its r ul es h a d cr e at e d “ a n u n n e c ess ar y
c o nfli ct wit h t h e l e gisl at ur e’s c h oi c e ” w h e n it w as u n d er a st at ut or y m a n d at e t o mi ni mi z e
c o nfli ct wit h t h e st at e’s el e cti o n l a w. I d. at 1 5 4.
O n O ct o b er 1 5, t h e l e gisl ati v e l e a d ers a n d t h e v ot er pl ai ntiffs fil e d a n oti c e of a p p e al
a n d r e q u est e d a n i nj u n cti o n p e n di n g r es ol uti o n of t h eir a p p e al t o pr es er v e t h e st at us q u o.

28

A p p. 2 5 9

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 2 9 of 4 9

W e h a v e j uris di cti o n p urs u a nt t o 2 8 U. S. C. § 1 2 9 2( a)( 1) t o r e vi e w t h e d e ni al of a
pr eli mi n ar y i nj u n cti o n.
II.
As a pr eli mi n ar y m att er, t h e B o ar d d ef e n d a nts pr es e nt t w o r e as o ns w h y t h e distri ct
c o urt c o ul d n ot h e ar pl ai ntiffs’ cl ai ms. First, t h e y ar g u e t h at pl ai ntiffs ar e c oll at er all y
est o p p e d fr o m m a ki n g t h eir E q u al Pr ot e cti o n Cl a us e ar g u m e nt i n li g ht of t h e N ort h
C ar oli n a st at e c o urt d e cisi o n. S e c o n d, t h e y ar g u e t h at t h e v ot er pl ai ntiffs d o n ot h a v e
st a n di n g t o s e e k r eli ef. F or t h e r e as o ns dis c uss e d h er ei n, t h e y ar e mist a k e n.
A.
C oll at er al est o p p el d o es n ot b ar pl ai ntiffs fr o m r aisi n g t h eir E q u al Pr ot e cti o n Cl a us e
cl ai m i n f e d er al c o urt.

W e l o o k t o t h e pr e cl usi o n l a w of N ort h C ar oli n a t o m a k e t his

d et er mi n ati o n b e c a us e “t h e F ull F ait h a n d Cr e dit A ct r e q uir es t h at f e d er al c o urts gi v e t h e
st at e-c o urt j u d g m e nt . . . t h e s a m e pr e cl usi v e eff e ct it w o ul d h a v e h a d i n a n ot h er c o urt of
t h e s a m e St at e. ” P ars o ns St e el, I n c. v. First Al a. B a n k , 4 7 4 U. S. 5 1 8, 5 2 5 ( 1 9 8 6). I n N ort h
C ar oli n a, u n d er t h e d o ctri n e of c oll at er al est o p p el, “t h e d et er mi n ati o n of a n iss u e i n a pri or
j u di ci al or a d mi nistr ati v e pr o c e e di n g pr e cl u d es t h e r eliti g ati o n of t h at iss u e i n a l at er a cti o n,
pr o vi d e d t h e p art y a g ai nst w h o m t h e est o p p el is ass ert e d e nj o y e d a f ull a n d f air o p p ort u nit y
t o liti g at e t h at iss u e i n t h e e arli er pr o c e e di n g. ” W hit a cr e P’s hi p v. Bi osi g ni a, I n c. , 5 9 1
S. E. 2 d 8 7 0, 8 8 0 ( N. C. 2 0 0 4). D ef e n d a nts m ust est a blis h t h at all r e q uir e m e nts ar e s atisfi e d.
T h o m as M. M cI n nis & Ass o cs. v. H all , 3 4 9 S. E. 2 d 5 5 2, 5 5 7 ( N. C. 1 9 8 6).
I n t h e i nst a nt c as e, t h e B o ar d is att e m pti n g t o c oll at er all y est o p t h e v ot er pl ai ntiffs
fr o m ar g ui n g t h at its r ul e c h a n g es a n d t h e st at e c o urt c o ns e nt d e cr e e vi ol at e t h eir ri g hts t o
29

A p p. 2 6 0

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 0 of 4 9

v ot e u n d er t h e E q u al Pr ot e cti o n Cl a us e. T h os e v ot ers w er e n ot p art y t o t h e st at e c o urt
liti g ati o n, s o t h e B o ar d m ust s h o w t h at t h e v ot er pl ai ntiffs i n t h e i nst a nt c as e “[ a]r e i n
pri vit y wit h p arti es ” t o t h e st at e c o urt c as e —t h at is, t h e l e gisl ati v e l e a d ers. I d.
I n its br o a d c o nt o urs, “‘ pri vit y’ f or p ur p os es of . . . c oll at er al est o p p el ‘ d e n ot es a
m ut u al or s u c c essi v e r el ati o ns hi p t o t h e s a m e ri g hts of pr o p ert y.’ ” H al es v. N. C. I ns. G u ar.
Ass’ n , 4 4 5 S. E. 2 d 5 9 0, 5 9 4 ( N. C. 1 9 9 4) ( q u oti n g S ettl e e x r el. S ulli v a n v. B e asl e y , 3 0 8
S. E. 2 d 2 8 8, 2 9 0 ( N. C. 1 9 8 3)). T h e N ort h C ar oli n a S u pr e m e C o urt h as s ai d t h at “i nt er est[]
i n t h e s a m e q u esti o n ” is n ot s uffi ci e nt t o est a blis h pri vit y. St at e e x r el. T u c k er v. Fri nzi ,
4 7 4 S. E. 2 d 1 2 7, 1 3 0 ( N. C. 1 9 9 6) ( q u oti n g 4 7 A m. J ur. 2 d J u d g m e nts § 6 6 3 ( 1 9 9 5)). T h e
d ef e n d a nts p oi nt t o n o s h ar e d pr o p ert y ri g hts b et w e e n t h e l e gisl ati v e l e a d ers a n d t h e v ot er
pl ai ntiffs a n d off er o nl y o ut - of-st at e pr e c e d e nt f or t h e pr o p ositi o n t h at t h es e p arti es’
r el ati o ns hi p is o n e t h at c a n gi v e ris e t o pri vit y. Si n c e t h e g e n er al r ul e i n A m eri c a n l a w is
o n e of n o n p art y pr e cl usi o n i n o nl y “li mit e d cir c u mst a n c es, ” T a yl or v. St ur g ell , 5 5 3 U. S.
8 8 0, 8 9 8 ( 2 0 0 8), w e d e cli n e t o s o e xt e n d N ort h C ar oli n a pri vit y l a w a n d fi n d t h at t h e v ot er
pl ai ntiffs ar e n ot c oll at er all y est o p p e d fr o m bri n gi n g t h eir E q u al Pr ot e cti o n Cl a us e cl ai m.
W e als o a gr e e wit h J u d g e Ost e e n’s c o n cl usi o n t h at t h e l e gisl ati v e pl ai ntiffs ar e n ot
c oll at er all y est o p p e d fr o m bri n gi n g t h eir El e cti o ns Cl a us e cl ai m, a n d w e r ej e ct d ef e n d a nts’
ar g u m e nts t o t h e c o ntr ar y. As t h e S u pr e m e C o urt e x pl ai n e d i n Ariz o n a v. C alif or ni a , 5 3 0
U. S. 3 9 2, 4 1 4 ( 2 0 0 0), t h e g e n er al A m eri c a n r ul e is t h at “ c o ns e nt j u d g m e nts or di n aril y
s u p p ort cl ai m pr e cl usi o n b ut n ot iss u e pr e cl usi o n. ” I d. ( q u oti n g 1 8 C h arl es Al a n Wri g ht,
Art h ur R. Mill er, & E d w ar d H. C o o p er, F e d er al Pr a cti c e a n d Pr o c e d ur e § 4 4 4 3, p p. 3 8 48 5 ( 1 9 8 1)). Alt h o u g h t h e c o ns e nt d e cr e e dis c uss es t h e r el e as e of cl ai ms a g ai nst t h e B o ar d,
30

A p p. 2 6 1

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 1 of 4 9

it e vi n c es n o i nt e nt t o pr e cl u d e t h e l e gisl ati v e l e a d ers fr o m liti g ati n g t h eir El e cti o n Cl a us e
cl ai m i n s u bs e q u e nt liti g ati o n. A n d t h e l e gisl ati v e l e a d ers n e v er c o ns e nt e d t o or si g n e d t h e
c o ns e nt d e cr e e. S e e N as h Ct y. B d. of E dit ors v. Bilt m or e C o. , 6 4 0 F. 2 d 4 8 4 ( 4t h Cir. 1 9 8 1)
( u n d er N ort h C ar oli n a l a w a “l a c k of a ct u al c o ns e nt ” n e g at es pr e cl usi o n). A n d e v e n if t h e
c o ns e nt d e cr e e c o ul d h a v e pr e cl usi v e eff e ct, o ur r e vi e w of t h e r e c or d s u g g ests t h at t h e
l e gisl ati v e pl ai ntiffs di d n ot h a v e “ a f ull a n d f air o p p ort u nit y t o liti g at e t h at iss u e i n t h e
e arli er pr o c e e di n g, ” W hit a cr e P’s hi p , 5 9 1 S. E. 2 d at 8 8 0. T h e st at e c o urt a d dr ess e d t h e
l e gisl ati v e l e a d ers’ El e cti o n Cl a us e ar g u m e nt i n a si n gl e c o n cl us or y s e nt e n c e wit h o ut a n y
a n al ysis. U n d er N ort h C ar oli n a pr e cl usi o n l a w, pl ai ntiffs ar e n ot b arr e d fr o m r eliti g ati n g
t h e i m p ort a nt El e cti o ns Cl a us e iss u es t h e y r ais e i n t his c as e.
B.
Arti cl e III of t h e U. S. C o nstit uti o n li mits f e d er al c o urts t o r es ol vi n g “ c as es a n d
c o ntr o v ersi es, ” of w hi c h “[t] h e d o ctri n e of st a n di n g is a n i nt e gr al c o m p o n e nt. ” Mill er v.
Br o w n , 4 6 2 F. 3 d 3 1 2, 3 1 6 ( 4t h Cir. 2 0 0 6). As t h e p arti es i n v o ki n g f e d er al j uris di cti o n,
pl ai ntiffs “ b e ar[] t h e b ur d e n of est a blis hi n g st a n di n g. ” I d. T o d o s o, t h e y m ust s h o w t h at
t h eir i nj ur y is ( 1) “ a ct u al[,] . . . n ot c o nj e ct ur al or h y p ot h eti c al, ( 2) . . . tr a c e a bl e t o t h e
c h all e n g e d c o n d u ct[,] a n d ( 3) ” r e dr ess a bl e b y a f a v or a bl e c o urt or d er. I d. ( citi n g L uj a n v.
D ef e n d ers of Wil dlif e , 5 0 4 U. S. 5 5 5, 5 6 0– 6 1 ( 1 9 9 2)).

W e first a d dr ess t h e l e gisl ati v e

l e a d ers’ st a n di n g t o bri n g t h e El e cti o ns Cl a us e cl ai m a n d t h e n t ur n t o t h e v ot ers’ st a n di n g
t o bri n g t h e E q u al Pr ot e cti o n Cl a us e cl ai m.
T h e S p e a k er a n d t h e Pr esi d e nt Pr o T e m p or e h a v e st a n di n g t o bri n g a c h all e n g e
u n d er t h e El e cti o ns Cl a us e. U n d er N ort h C ar oli n a l a w, t h e S p e a k er a n d t h e Pr esi d e nt Pr o
31

A p p. 2 6 2

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 2 of 4 9

T e m p or e j oi ntl y r e pr es e nt t h e i nt er ests of t h e G e n er al Ass e m bl y of N ort h C ar oli n a a n d c a n
p urs u e t h os e i nt er ests i n c o urt. S e e N. C. G e n. St at. § 1 -7 2. 2. Alt h o u g h t h e G e n er al
Ass e m bl y di d n ot a ut h ori z e t his p arti c ul ar s uit, t h at is j ust o n e p ossi bl e i n di ci u m of
i nstit uti o n al i nj ur y, n ot a r e q uir e m e nt. It is s uffi ci e nt t h at t h e G e n er al Ass e m bl y a ut h ori z e d
t h e m t o r e pr es e nt t h eir i nt er ests i n c o urt. A n d, u nli k e Vir gi ni a H o us e of D el e g at es v.
B et h u n e- Hill , 1 3 9 S. Ct. 1 9 4 5 ( 2 0 1 9), i n w hi c h a cl os el y -di vi d e d C o urt di d n ot fi n d
st a n di n g, t h e l e gisl ati v e l e a d ers i n t his c as e r e pr es e nt b ot h h o us es a n d ar e ass erti n g a n
i nt er est of t h e l e gisl at ur e q u a l e gisl at ur e, n ot o n e of t h e st at e. T h us , t his c as e is m or e
a n al o g o us t o Ariz o n a St at e L e gisl at ur e v. Ariz o n a I n d e p e n d e nt R e distri cti n g C o m missi o n ,
5 7 6 U. S. 7 8 7 ( 2 0 1 5), i n w hi c h t h e C o urt di d fi n di n g l e gisl ati v e st a n di n g.
I n a n al y zi n g l e gisl ati v e st a n di n g, t h e S u pr e m e C o urt h as a p pli e d t h e s a m e
fr a m e w or k fr o m L uj a n t h at g o v er ns g e n er al st a n di n g a n al ysis. S e e Ariz. St at e L e gisl at ur e ,
5 7 6 U. S. at 7 9 9 – 8 0 0. T h e l e gisl ati v e l e a d ers m ai nt ai n t h at t h e G e n er al Ass e m bl y h as b e e n
i nj ur e d b y t h e B o ar d us ur pi n g t h eir a ut h orit y u n d er t h e El e cti o ns Cl a us e t o s et “[t] h e Ti m es,
Pl a c es a n d M a n n er of h ol di n g El e cti o ns ” b e c a us e t h e B o ar d’s r ul e c h a n g es c o ntr a v e n e t h e
r e c e ntl y e n a ct e d el e cti o n st at ut e. Li k e t h e Ari z o n a L e gisl at ur e wit h its r e distri cti n g pl a n,
t h e N ort h C ar oli n a G e n er al Ass e m bl y cl ai ms its el e cti o n ti m eli n e a n d wit n ess r e q uir e m e nt
h a v e b e e n “ c o m pl et el y n ullifi e d ” b y i m p er missi bl e e x e c uti v e a cti o n. I d. at 8 0 3 ( q u oti n g
R ai n es v. B yr d , 5 2 1 U. S. 8 1 1, 8 2 3 ( 1 9 9 7)). T his is a s uffi ci e ntl y c o n cr et e i nfri n g e m e nt o n
t h e G e n er al Ass e m bl y’s c o nstit uti o n al pr er o g ati v es t o pr o c e e d t o t h e m erits. A n d t h e
tr a c e a bilit y a n d r e dr ess a bilit y pr o n gs ar e als o m et b e c a us e a n i nj u n cti o n a g ai nst t h e
i m pl e m e nt ati o n of t h e N u m b er e d M e m or a n d a w o ul d r et ur n t h e el e ct or al pr o c e d ur es t o t h e
32

A p p. 2 6 3

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 3 of 4 9

st at us q u o, w hi c h t h e l e gisl ati v e l e a d ers b eli e v e is c o nsist e nt wit h t h e st at ut e t h e y e n a ct e d
a n d t h us r e dr ess es t h eir El e cti o ns Cl a u s e gri e v a n c e.
T h e v ot ers h a v e st a n di n g t o bri n g a n E q u al Pr ot e cti o n Cl a us e cl ai m. T h e y ar g u e t h at
t h e B o ar d’s all o w a n c e of b all ots wit h o ut a wit n ess a n d b all ots r e c ei v e d aft er t h e st at ut or y
d e a dli n e ar bitr aril y a n d dis p ar at el y tr e ats t h e m diff er e ntl y fr o m ot h er v ot ers i n vi ol ati o n of
t h e E q u al Pr ot e cti o n Cl a us e. S e e B us h v. G or e , 5 3 1 U. S. 9 8, 1 0 4– 0 5 ( 2 0 0 0). Si n c e t h e
B o ar d’s pr o c e d ur al c h a n g es dir e ctl y c a us e d t his all e g e d h ar m a n d a n i nj u n cti o n w o ul d
r et ur n t h e el e ct or al pr o c e d ur es t o t h e st at us q u o, t h e tr a c e a bilit y a n d r e dr ess a bilit y pr o n gs
of st a n di n g h a v e b e e n s atisfi e d. F or m u c h t h e s a m e r e as o ns as t h e distri ct c o urt, w e fi n d
t h at t h e pl ai ntiffs h a v e d e m o nstr at e d a n a ct u al i nj ur y t h e y will s uff er if t h e y ar e c orr e ct o n
t h e m erits. Si n c e s o m e v ot er pl ai ntiffs h a v e alr e a d y c ast t h eir a bs e nt e e b all ots, t h e eff e cti v e
eli mi n ati o n of t h e wit n ess r e q uir e m e nt a n d t h e e xt e nsi o n of t h e b all ot r e c ei pt d e a dli n e
w o ul d cr e at e r e q uir e m e nts f or l at er v ot ers t h at diff er e d fr o m t h os e t o w hi c h t h e pl ai ntiffs
w er e s u bj e ct.

3

T h er ef or e, w e fi n d t h at t h e v ot er pl ai ntiffs h a v e a d e q u at el y pl e a d e d f a cts t o s u p p ort
t h eir st a n di n g t o bri n g t his c as e.
III.
T o m erit a n i nj u n cti o n p e n di n g a p p e al, pl ai ntiffs m ust s h o w t h e y ar e li k el y t o
s u c c e e d o n t h e m erits of t h eir a p p e al, t h at t h e y will b e irr e p ar a bl y i nj ur e d a bs e nt a n
i nj u n cti o n, t h at t h e e q uit a bl e b al a n c e f a v ors a n i nj u n cti o n, a n d t h at a n i nj u n cti o n b e n efits

3

T h e v ot er pl ai ntiffs als o all e g e a h ar m st e m mi n g fr o m v ot e dil uti o n. B e c a us e a si n gl e
b asis is s uffi ci e nt t o est a blis h st a n di n g, w e d o n ot ass ess t his ar g u m e nt.
33

A p p. 2 6 4

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 4 of 4 9

t h e p u bli c. S e e J o h n D o e C o. v. C o ns u m er Fi n. Pr ot. B ur e a u , 8 4 9 F. 3 d 1 1 2 9, 1 1 3 1 ( D. C.
Cir. 2 0 1 7); F el d m a n v. Ariz. S e c’ y of St at e’s Offi c e , 8 4 3 F. 3 d 3 6 6, 3 6 7 ( 9t h Cir. 2 0 1 6). W e
c o n cl u d e t h at all f o ur f a ct ors f a v or pl ai ntiffs, a n d w e t h er ef or e w o ul d iss u e t h e i nj u n cti o n
p e n di n g a p p e al.
Or di n aril y, w e w o ul d h esit at e t o iss u e a n i nj u n cti o n p e n di n g a p p e al. B ut t w o s p e ci al
f a ct ors ar e pr es e nt i n t his c as e. First, o ur dis a gr e e m e nt wit h t h e distri ct c o urt is v er y n arr o w.
W e a gr e e wit h t h e distri ct c o urt’s c o n cl usi o n t h at pl ai ntiffs ar e li k el y t o s u c c e e d o n t h e
m erits of t h eir cl ai ms a n d t h at t h e y will b e irr e p ar a bl y i nj ur e d a bs e nt a pr eli mi n ar y
i nj u n cti o n. H o w e v er, t h e distri ct c o urt r e as o n e d t h at t h e P ur c ell pri n ci pl e, w hi c h b ars
c o urts fr o m c h a n gi n g b all oti n g r ul es s h ortl y b ef or e f e d er al el e cti o ns, r e q uir e d d e n yi n g a
pr eli mi n ar y i nj u n cti o n “ e v e n i n t h e f a c e of w h at a p p e ar t o b e cl e ar vi o l ati o ns. ” M o or e
A p p ell a nt A p p. at 1 5 8. W e b eli e v e t h at

P ur c ell r e q uir es t h e o p p osit e r es ult, a n d t h at it

o p er at es t o b ar t h e B o ar d fr o m c h a n gi n g t h e r ul es at t h e l ast mi n ut e t hr o u g h a st at e - c o urt
c o ns e nt d e cr e e.
S e c o n d, a n i nj u n cti o n p e n di n g a p p e al is n e c ess ar y t o pr es er v e t h e st at us q u o,
pr o p erl y u n d erst o o d. E x er cisi n g its c o nstit uti o n al p o w er u n d er t h e El e cti o ns Cl a us e of t h e
U. S. C o nstit uti o n, t h e G e n er al Ass e m bl y s et r ul es f or t h e u p c o mi n g el e cti o n i n r es p o ns e t o
t h e C O VI D-1 9 p a n d e mi c. B y c h a n gi n g t h os e r ul es d uri n g a n o n g oi n g el e cti o n, t h e B o ar d
c h a n g e d t h e st at us q u o. O nl y a n i nj u n cti o n p e n di n g a p p e al c a n “ all e vi at e t h at o n g oi n g
h ar m. ” J o h n D o e C o. , 8 4 9 F. 3 d at 1 1 3 7 ( K a v a n a u g h, J., diss e nti n g). All o wi n g t h e B o ar d’s
c h a n g es t o g o i nt o eff e ct n o w, o nl y t w o w e e ks b ef or e t h e el e cti o n a n d aft er h alf a milli o n
N ort h C ar oli ni a ns h a v e v ot e d, will c a us e c h a os t h at e q uit y c a n n ot t ol er at e.
34

A p p. 2 6 5

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 5 of 4 9

A.
First, w e a gr e e wit h t h e distri ct c o urt t h at pl ai ntiffs ar e li k el y t o s u c c e e d o n t h e
m erits of t h eir a p p e al. T h e B o ar d h as c o m m a n d e er e d t h e

N ort h C ar oli n a

G e n er al

Ass e m bl y’s c o nstit uti o n al pr er o g ati v e t o s et t h e r ul es f or t h e u p c o mi n g f e d er al el e cti o ns
wit hi n t h e st at e. T h e C o nstit uti o n e x pli citl y gr a nts t h e p o w er t o s et t h e r ul es f or f e d er al
el e cti o ns t o t h e G e n er al Ass e m bl y. T h e El e cti o ns Cl a us e st at es t h at “[t] h e Ti m es, Pl a c es,
a n d M a n n er of h ol di n g El e cti o ns f or S e n at ors a n d R e pr es e nt ati v es, s h all b e pr es cri b e d i n
e a c h St at e b y t h e L e gisl at ur e t h er e of ; b ut C o n gr ess m a y at a n y ti m e b y L a w m a k e or alt er
s u c h R e g ul ati o ns. ” U. S. C o nst. art. 1, § 4, cl. 1 ( e m p h asis a d d e d). T h e El e ct ors Cl aus e
st at es t h at “[ e] a c h St at e s h all a p p oi nt, i n s u c h M a n n er as t h e L e gisl at ur e t h er e of m a y
dir e ct , ” el e ct ors f or Pr esi d e nt a n d Vi c e Pr esi d e nt. U. S. C o nst. art. II, § 1, cl. 2 ( e m p h asis
a d d e d); s e e als o M c P h ers o n v. Bl a c k er , 1 4 6 U. S. 1, 2 7 ( 1 8 9 2) ( e x pl ai ni n g t h at t his cl a us e
“ c o n v e y[s] t h e br o a d est p o w er of d et er mi n ati o n ” a n d “l e a v es it t o t h e l e gisl at ur e
e x cl usi v el y t o d efi n e t h e m et h o d ” of a p p oi nti n g pr esi d e nti al el e ct ors).
U nli k e m a n y p arts of t h e C o nstit uti o n, t h es e cl a us es s p e a k i n cl e ar, dir e ct l a n g u a g e.
T h e p o w er t o r e g ul at e t h e r ul es of f e d er al el e cti o ns is gi v e n t o a s p e cifi c e ntit y wit hi n e a c h
St at e: t h e “ L e gisl at ur e t h er e of. ” T h e w or d “l e gisl at ur e ” w as “ n ot of u n c ert ai n m e a ni n g
w h e n i n c or p or at e d i nt o t h e C o nstit uti o n. ” S mil e y v. H ol m , 2 8 5 U. S. 3 5 5, 3 6 5 ( 1 9 3 2);
H a w k e v. S mit h , 2 5 3 U. S. 2 2 1, 2 2 7 ( 1 9 2 0). I n N ort h C ar oli n a, t h e l e gisl ati v e p o w er is gi v e n
s ol el y t o t h e G e n er al Ass e m bl y. N. C. C o nst. art. II, § 1 ( “ T h e l e gisl ati v e p o w er of t h e St at es
s h all b e v est e d i n t h e G e n er al Ass e m bl y . . . . ”).

35

A p p. 2 6 6

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 6 of 4 9

B ut t h es e cl a us es als o e m b o d y t h e brilli a n c e of ot h er c o nstit uti o n al pr o visi o ns: t h e y
est a blis h a c h e c k o n t h e p o w er of t h e st at e l e gisl at ur e. T h at p o w er is gi v e n t o o n e
i nstit uti o n: t h e U nit e d St at es C o n gr ess. T his p o w er is n ot gi v e n t o t h e st at e c o urts, a n d it is
n ot gi v e n t o t h e st at es’ e x e c uti v e br a n c h es. S e e, e. g. , T h e F e d er alist N o. 5 9 ( Al e x a n d er
H a milt o n ) ( dis c ussi n g di visi o n of p o w er b et w e e n t h e st at e l e gisl at ur es a n d C o n gr ess t o
m a k e f e d er al el e cti o n r ul es b ut

m e nti o ni n g n o ot h er br a n c h es of g o v er n m e nt). T h e

F o u n d ers k n e w h o w t o disti n g uis h b et w e e n st at e l e gisl at ur es a n d t h e St at e g o v er n m e nts as
a w h ol e. T h e y di d s o r e p e at e dl y t hr o u g h o ut t h e C o nstit uti o n. S e e, e. g. , U. S. C o nst. art. 1,
§ 2 ( disti n g uis hi n g b et w e e n “ St at e ” a n d “ St at e L e gisl at ur e ”). T h er ef or e, t h e o nl y pl a usi bl e
i nf er e n c e fr o m t h e c o nstit uti o n al t e xt is t h at t h e t er m “l e gisl at ur e ” u n a m bi g u o usl y e x cl u d es
t h e p o w er t o r e g ul at e f e d er al el e cti o ns fr o m st at e c o urts a n d e x e c uti v e- br a n c h offi ci als. 4
D ef e n d a nts ar g u e t h at t his is j ust a st at e -l a w c as e, a n d t h at t h e f e d er al c o urts h a v e
n o b usi n ess a cti n g u p o n it. W e a gr e e wit h d ef e n d a nts t h at f e d er alis m a n d a r o b ust r es p e ct
f or t h e s u bst a nti al a ut h orit y of t h e st at e c o urts ar e ess e nti al t o o ur c o nstit uti o n al or d er.

4

I n Ariz o n a St at e L e gisl at ur e , t h e C o urt f o u n d t h at t h e l e gisl ati v e p o w er of a St at e
t o dr a w c o n gr essi o n al distri ct li n es c o ul d b e s h ar e d wit h ot h er br a n c h es of st at e
g o v er n m e nt. 5 7 6 U. S. at 8 0 8 – 0 9 ( “[ O] ur pr e c e d e nt t e a c h es us t h at r e distri cti n g is a
l e gisl ati v e f u n cti o n, t o b e p erf or m e d i n a c c or d a n c e wit h t h e St at e’s pr es cri pti o ns f or
l a w m a ki n g, w hi c h m a y i n cl u d e t h e r ef er e n d u m a n d t h e G o v er n or’s v et o. ”). T h at c as e d o es
n ot c o ntr ol t his o n e b e c a us e t h e Ari z o n a C o nstit uti o n c h a n g e d t h e st at e’s “l a w m a ki n g
pr o c ess ” t o e m p o w er a n e ntit y i n a d diti o n t o t h e st at e l e gisl at ur e: t h e p e o pl e a cti n g t hr o u g h
r ef er e n d u m. I d. at 8 1 7 – 1 8. T h e C o urt’s a n al ysis w as als o li mit e d t o t h e El e cti o ns Cl a us e,
w hi c h w as r el e v a nt t o cr afti n g c o n gr essi o n al distri cts, a n d n ot t h e El e ct ors Cl a us e. E v e n if
Ariz o n a St at e L e gisl at ur e st a n ds f or t h e pr o p ositi o n t h at N ort h C ar oli n a c o ul d e m p o w er
t h e B o ar d t o c h a n g e t h e el e cti o n r ul es i n f e d er al pr esi d e nti al a n d l e gisl ati v e r a c es c o nsist e nt
wit h t h e El e cti o ns Cl a us e a n d t h e El e ct ors Cl a us e, it is a p p ar e nt t h at st at e l a w d o es n ot
a ut h ori z e w h at t h e B o ar d di d i n t his c as e, as J u d g e Ost e e n c o n cl u d e d b el o w.
36

A p p. 2 6 7

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 7 of 4 9

W h e n t h e f e d er al C o nstit uti o n w as r atifi e d, t h e St at es r et ai n e d s o v er ei g n p o w ers, i n cl u di n g
t h e g e n er al p oli c e p o w er t o p ass l e gisl ati o n. W h e n a st at e e x er cis es t h e p oli c e p o w er t o
p ass l e gisl ati o n, it is s u bj e ct t o t h e li mits of its o w n c o nstit uti o n. A n d t h e r es p o nsi bilit y of
d et er mi ni n g t h e m e a ni n g of a st at e’s l e gisl ati o n b el o n gs pri m aril y t o t h at st at e’s j u di ci ar y.
F e d er al c o urts m ust t a k e gr e at c ar e n ot t o i ntr u d e o n t h at p o w er. S e e, e. g. , Eri e R. R. C o. v.
T o m p ki ns , 3 0 4 U. S. 6 4 ( 1 9 3 8).
B u t t h os e w ei g ht y pri n ci pl es d o n ot c o ntr ol i n t his c as e. T h e f e d er al C o nstit uti o n
di d a bit m or e t h a n j ust r e c o g ni z e t h e St at es’ pr e e xisti n g p oli c e p o w ers. It als o gr a nt e d st at e
l e gisl at ur es a n e w p o w er t h e y di d n ot p oss ess b ef or e r atifi c ati o n: t h e p o w er t o s et t h e r ul es
f or f e d er al el e cti o ns. S e e U. S. T er m Li mits, I n c. v. T h or nt o n , 5 1 4 U. S. 7 7 9, 8 0 3 ( 1 9 9 5).
B e c a us e f e d er al el e cti o ns “ aris e fr o m t h e C o nstit uti o n its elf, ” a n y “st at e a ut h orit y t o
r e g ul at e el e cti o n t o t h os e offi c es . . . h a d t o b e d el e g at e d t o, r at h er t h a n r es er v e d b y, t h e
St at es. ” C o o k v. Gr ali k e , 5 3 1 U. S. 5 1 0, 5 2 2 ( 2 0 0 1). W h e n t h e st at e l e gisl at ur es e x er cis e
t his p o w er, t h e y ar e e x er cisi n g a f e d er al c o nstit uti o n al p o w er t h at c a n n ot b e us ur p e d b y
ot h er br a n c h es of st at e g o v er n m e nt. S e e Ariz o n a St at e L e gisl at ur e , 5 7 6 U. S. at 8 0 7– 0 8
( disti n g uis hi n g b et w e e n st at e l e gisl ati v e p o w ers “ d eri v e d fr o m t h e p e o pl e of t h e St at e ” a n d
t h os e wit h a “s o ur c e i n t h e F e d er al C o nstit uti o n ” ( q u oti n g H a w k e , 2 5 3 U. S. at 2 2 9 – 3 0)).
T h us, a “si g nifi c a nt d e p art ur e fr o m t h e [ St at e’s] l e gisl ati v e s c h e m e f or a p p oi nti n g
Pr esi d e nti al el e ct ors ” or f or el e cti n g m e m b ers of t h e f e d er al C o n gr ess “ pr es e nts a f e d er al
c o nstit uti o n al q u esti o n ” w e

m ust a ns w er. B us h v. G or e , 4 3 1

U. S. 9 8, 1 1 3 ( 2 0 0 0)

( Re h n q uist, C.J., c o n c urri n g); s e e als o M arti n v. H u nt er’s L ess e e , 1 4 U. S. ( 1 W h e at) 3 0 4
( 1 8 1 6) ( c o n cl u di n g Vir gi ni a c o urt misi nt er pr et e d st at e l a w i n or d er t o r e a c h a f e d er al
37

A p p. 2 6 8

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 8 of 4 9

q u esti o n); Ri c h ar d H. F all o n, Jr., et al., H art & W e c hsl er’s T h e F e d er al C o urts a n d t h e
F e d er al S yst e m

4 8 7 –8 8 ( 7t h e d. 2 0 1 5) ( dis c ussi n g h o w f e d er al c o urts c a n a ns w er

a nt e c e d e nt st at e -l a w q u esti o ns t o r e a c h f e d er al l e g al q u esti o ns). Alt h o u g h w e h esit at e t o
o pi n e o n st at e l a w, t h e c o nstit uti o n al d el e g ati o n of p o w er t o t h e st at e l e gisl at ur e m e a ns t h at
“t h e t e xt of [st at e] el e cti o n l a w its elf, a n d n ot j ust its i nt er pr et ati o n b y t h e c o urts of t h e
St at es, t a k es o n i n d e p e n d e nt si g nifi c a n c e. ” B us h , 4 3 1 U. S. at 1 1 2– 1 3 ( R e h n q uist, C.J.,
c o n c urri n g). T his o bli g at es us t o a n al y z e st at e l a w t o d et er mi n e if t h e f e d er al C o nstit uti o n
w as vi ol at e d. T h e i nt e grit y of f e d er al el e cti o ns is n ot a si m pl e st at e-l a w m att er.
I n t h e pr es e nt c as e, t h e B o ar d d o es n ot e v e n tr y t o ar g u e t h at t h e c o ns e nt d e cr e e is
c o nsist e nt wit h t h e Bi p artis a n El e cti o ns A ct of 2 0 2 0. I nst e a d, t h e B o ar d ar g u es t h at it h a d
a ut h orit y t o c h a n g e t h e el e cti o n r ul es u n d er N. C. G e n. St at. § 1 6 3- 2 7. 1, w hi c h gi v es it
a ut h orit y t o “ e x er cis e e m er g e n c y p o w ers t o c o n d u ct a n el e cti o n i n a distri ct w h er e t h e
n or m al s c h e d ul e is disr u pt e d b y ” a “ n at ur al dis ast er, ” “ e xtr e m el y i n cl e m e nt w e at h er, ” or
“ a n ar m e d c o nfli ct. ”
W e a gr e e wit h t h e distri ct c o urt t h at t h e B o ar d’s cl ai m of st at ut or y a ut h orit y f or its
a cti o ns is m eritl ess. Alt h o u g h t h e C O VI D -1 9 p a n d e mi c is a tr a u m ati c e v e nt f or t h e c o u nt r y,
it is n ot t h e t y p e of “ n at ur al dis ast er ” r ef err e d t o b y t h e st at ut e. T h e st at ut e e n visi o ns a
s u d d e n dis ast er “ w h er e t h e n or m al s c h e d ul e f or t h e el e cti o n is disr u pt e d ” a n d t h e G e n er al
Ass e m bl y d o es n ot h a v e ti m e t o r es p o n d t o it b ef or e a s c h e d ul e d el e cti o n. T his li mit ati o n
o n t h e st at ut e is r ei nf or c e d b y t h e f a ct t h at it gr a nts t h e B o ar d p o w er t o m a k e c h a n g es o nl y
“i n a distri ct ” w h er e disr u pti o n o c c urs, s u g g esti n g t h e p o w er is f ar m or e li mit e d t h a n t h e
B o ar d s u g g ests. A g o o d e x a m pl e of a dis ast er t h at w o ul d q u alif y is if a h urri c a n e d e v ast at e d
38

A p p. 2 6 9

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 3 9 of 4 9

p art of t h e St at e a c o u pl e of d a ys b ef or e t h e el e cti o n. H er e, i n c o ntr ast, t h e p a n d e mi c h as
b e e n o n g oi n g f or m o nt hs a n d t h e G e n er al Ass e m bl y c o n v e n e d t o a d o pt a bill s p e cifi c all y
i nt e n d e d t o a c c o u nt f or t h e c o n diti o ns cr e at e d b y C O VI D-1 9. T h e B o ar d c a n n ot
c h ar a ct eri z e C O VI D -1 9 as a s u d d e n dis ast er “ w h er e t h e n or m al s c h e d ul e f or t h e el e cti o n
is disr u pt e d. ”
F urt h er, t h e st at ut e e n visi o ns o nl y mi n or d e p art ur es fr o m t h e G e n er al Ass e m bl y’s
el e cti o n r ul es. T h e pr o visi o n r eli e d u p o n b y t h e B o ar d st at es t h at t h e B o ar d “s h all a v oi d
u n n e c ess ar y c o nfli ct ” wit h ot h er pr o visi o ns of t h e St at e’s el e cti o n r ul es. N. C. G e n. St at. §
1 6 3- 2 7. 1. I g n ori n g t h at l a n g u a g e, t h e B o ar d a d o pt e d m aj or c h a n g es t o t h e el e cti o n l a w t h at
cl e arl y cl as h wit h t h e G e n er al Ass e m bl y’s i nt e nt. R ar el y will l e gisl ati v e i nt e nt b e as
str ai g htf or w ar d as it is i n t his c as e. J ust a f e w m o nt hs a g o, a n o v er w h el mi n g bi p artis a n
m aj orit y of t h e G e n er al Ass e m bl y p ass e d, a n d G o v er n or C o o p er si g n e d, a bill s etti n g t h e
r ul es f or t h e u p c o mi n g el e cti o n i n li g ht of t h e C O VI D -1 9 p a n d e mi c. Bi p artis a n El e cti o ns
A ct of 2 0 2 0, 2 0 2 0

N. C. S ess. L a ws

s u bst a nti all y e x p a n d e d

§ 2 0 2 0- 1 7. Alt h o u g h t h e

m ail -i n v oti n g a n d

G e n er al

Ass e m bl y

m a d e it e asi er, it als o r et ai n e d i m p ort a nt

li mit ati o ns o n t h at v oti n g t o c o m b at p ot e nti al v ot er fr a u d, a fi g ht w hi c h “t h e St at e
i n dis p ut a bl y h as a c o m p elli n g i nt er est ” i n wi n ni n g. P ur c ell , 5 4 9 U. S. at 4 ( q u oti n g E u v.
S. F. Ct y. D e m o cr ati c C e nt. C o m m., 4 8 9 U. S. 2 1 4, 2 3 1 ( 1 9 8 9)). F or e x a m pl e, t h e G e n er al
Ass e m bl y s hift e d fr o m r e q uiri n g a bs e nt e e v ot ers t o s e c ur e t w o wit n ess es t o r e q uiri n g o nl y
o n e wit n ess. Alt h o u g h t h at m o v e e x pr ess es a d esir e t o f a cilit at e a bs e nt e e v oti n g, it als o
e x pr ess es a fir m d esir e t o r et ai n a

wit n ess r e q uir e m e nt. T h e B o ar d pr o d u c e d a n

“ u n n e c ess ar y c o nfli ct ” wit h st at e l a w i n vi ol ati o n of N. C. G e n. St at. § 1 6 3- 2 7 b y dis c ar di n g
39

A p p. 2 7 0

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 0 of 4 9

t h e wit n ess r e q uir e m e nt i n f a v or of a pr o c ess i n w hi c h v ot ers c o ul d s elf-c ertif y t h eir b all ots.
A n d t h e f a ct t h at t h e G e n er al Ass e m bl y m ai nt ai n e d its d e a dli n e f or t h e r e c ei pt of a bs e nt e e
b all ots, e v e n as ot h er st at es w er e si g nifi c a ntl y e xt e n di n g t h e m, e vi n c es a n i nt e nt n ot t o
all o w a bs e nt e e v ot es t o b e r e c ei v e d w ell aft er t h e el e cti o n. T h at t h e B o ar d a gr e e d t o a
r e c ei pt d a y f ar l at er t h a n t h e G e n er al Ass e m bl y e n a ct e d pr o d u c e d a n ot h er “ u n n e c ess ar y
c o nfli ct ” wit h st at e l a w i n vi ol ati o n of N. C. G e n St at. § 1 6 3- 2 7. 5
I n li g ht of s u c h cl e ar l e gisl ati v e i nt e nt, w e c a n n ot i d e ntif y a si g nifi c a nt r ati o n al e f or
t h e B o ar d’s d e cisi o n t o j ettis o n t h e G e n er al Ass e m bl y’s el e cti o n r ul es i n a l a ws uit. As is
u nf ort u n at el y h a p p e ni n g i n j ust a b o ut e v er y st at e

w h er e c o m p etiti v e el e cti o ns ar e

o c c urri n g, a s eri es of l a ws uits w er e br o u g ht t o c h all e n g e t h e st at e l e gisl at ur e’s c h oi c es. B ut
c o nsi d eri n g t h e S u pr e m e C o urt’s w ell -est a blis h e d r ul e t h at c o urts s h o ul d n ot c h a n g e t h e
r ul es of f e d er al el e cti o ns s h ortl y b ef or e t h e y b e gi n, a n d t h e l o n g list of c as es u p h ol di n g
wit n ess r e q uir e m e nts a n d a bs e nt e e b all ot d e a dli n es, t h es e l a ws uits h a d littl e c h a n c e of
s u c c ess. I n d e e d, a f e d er al j u d g e u p h el d t h e r ul es t h at t h e B o ar d v oi d e d j ust t w o m o nt hs
a g o. B ut a pr a cti c all y i d e nti c al c h all e n g e w as t h e n br o u g ht i n st at e c o urt, a n d t h e B o ar d
s h o w e d littl e or n o i nt er est i n d ef e n di n g t h e G e n er al Ass e m bl y’s r ul es e v e n aft er a n i niti al
f e d er al-c o urt vi ct or y. T h e B o ar d a gr e e d t o a c o ns e nt d e cr e e t h at b ar g ai n e d a w a y i m p ort a nt

5

W e als o a gr e e wit h J u d g e Ost e e n t h at t h e B o ar d w as n ot a ut h ori z e d t o a d o pt t h es e
r ul e c h a n g es u n d er N. C. G e n. St at. § 1 6 3-2 2( a), w hi c h all o ws t h e B o ar d t o a d o pt r ul es a n d
r e g ul ati o ns f or el e cti o ns “s o l o n g as t h e y d o n ot c o nfli ct wit h a n y pr o visi o ns ” of t h e
G e n er al Ass e m bl y’s el e cti o n r ul es. As dis c uss e d, t h e B o ar d’s c h a n g es i n t his c as e fl atl y
c o ntr a di ct t h e r ul es s et b y t h e G e n er al Ass e m bl y. W e als o c o n c ur wit h J u d g e Ost e e n’s
c o n cl usi o n t h at t h e B o ar d di d n ot h a v e a ut h orit y t o c h a n g e t h e el e cti o n r ul es u n d er N. C.
G e n. St at. § 1 6 3- 2 2. 2.
40

A p p. 2 7 1

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 1 of 4 9

s af e g u ar ds d esi g n e d t o pr ot e ct t h e i nt e grit y of m ail -i n b all oti n g. A n d J u d g e Ost e e n f o u n d
t h at t h e B o ar d n e g oti at e d t his d e al s e cr etl y a n d wit h o ut c o ns ulti n g t h e l e gisl ati v e l e a d ers,
a n d it c o nti n u e d t o a d v o c at e f or t h e c o ns e nt d e cr e e e v e n t h o u g h t h e l e a d ers of t h e G e n er al
Ass e m bl y i nt er v e n e d a n d vi g or o usl y o bj e ct e d t o it. W e t h er ef or e c a n n ot c o n cl u d e t h at t h e
B o ar d’s a cti o ns c o nstit ut e d a g o o d f ait h eff ort t o i m pl e m e nt t h e G e n er al Ass e m bl y’s
el e cti o n l a w.
Fi n all y, t h e B o ar d’s a cti o ns a p p e ar t o vi ol at e t h e N ort h C ar oli n a C o nstit uti o n, w hi c h
est a blis h es t h at t h e G e n er al Ass e m bl y is t h e “ L e gisl at ur e ” a n d e x er cis es all l e gisl ati v e
p o w er u n d er st at e l a w. N. C. C o nst. art. II, § 1 ( “ T h e l e gisl ati v e p o w er of t h e St at es s h all
b e v est e d i n t h e G e n er al Ass e m bl y . . . . ”). A n d t h e N ort h C ar oli n a S u pr e m e C o urt h as
est a blis h e d a n o n d el e g ati o n d o ctri n e li miti n g t h e a bilit y of t h e G e n er al Ass e m bl y t o
d el e g at e l e gisl ati v e p o w er t o a n e x e c uti v e a g e n c y. A d a ms v. N. C. D e p’t of N at. & E c o n.
R es. , 2 4 9 S. E. 2 d 4 0 2, 4 1 0 (N. C. 1 9 7 8) ( “[ T] h e l e gisl at ur e m a y n ot a b di c at e its p o w er t o
m a k e l a ws or d el e g at e its s u pr e m e l e gisl ati v e p o w er t o a n y c o or di n at e br a n c h or t o a n y
a g e n c y w hi c h it m a y cr e at e. ”). P er missi bl e d el e g ati o ns ar e li mit e d t o sit u ati o ns f e at uri n g
“ c o m pl e x c o n diti o ns i n v ol vi n g n u m er o us d et ails wit h w hi c h t h e L e gisl at ur e c a n n ot d e al
dir e ctl y. ” N. C. T ur n pi k e A ut h. v. Pi n e Isl a n d, I n c. , 1 4 3 S. E. 2 d 3 1 9, 3 2 3 ( N. C. 1 9 6 5). T his
m a k es t h e B o ar d’s br o a d i nt er pr et ati o n of its e m er g e n c y p o w ers u n d er N. C. G e n. St at. §
1 6 3- 2 7. 1 e v e n m or e i m pl a usi bl e, as it w o ul d tr a nsf or m t h e pr o visi o n fr o m a cl e arl y
a c c e pt a bl e n arr o w d el e g ati o n i nt o a d u bi o usl y br o a d d el e g ati o n.
We

d o n ot q u esti o n t h e a bilit y of t h e B o ar d, or ot h er st at e el e cti o n b o ar ds, t o m a k e

mi n or a d h o c c h a n g es t o el e cti o n r ul es i n r es p o ns e t o s u d d e n e m er g e n ci es. T h er e is a l o n g
41

A p p. 2 7 2

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 2 of 4 9

hist or y, b ot h i n N ort h C ar oli n a a n d i n ot h er st at es, of t his p o w er b ei n g e x er cis e d, a n d w e
u n d erst a n d t h at t his p o w er is i m p ort a nt t o t h e s m o ot h f u n cti o ni n g of el e cti o ns. F or
e x a m pl e, if a n el e ctri c al p o w er o ut a g e h alts v oti n g i n a pr e ci n ct, w e ar e c o nfi d e nt t h at t h e
B o ar d c o ul d l e g all y e xt e n d v oti n g i n t h at pr e ci n ct.
B ut h er e t h e st at e l e gisl at ur e’s c o nstit uti o n al p o w er is at st a k e. If w e r ef us e t o d ef e n d
t h e pr er o g ati v e of t h e G e n er al Ass e m bl y t o cr e at e el e cti o n r ul es i n a c as e as cl e ar as t his
o n e, t h e p o w er of t h e st at e l e gisl at ur es u n d er t h e El e cti o ns Cl a us e a n d t h e El e ct ors Cl a us e
will b e at t h e m er c y of ot h er st at e -g o v er n m e nt a ct ors. If n o n -r e pr es e nt ati v e st at e offi ci als
c a n disr e g ar d a cl e ar m a n d at e fr o m t h e st at e l e gisl at ur e m er el y b y cl ai mi n g st at e-l a w
a ut h orit y, a n d if f e d er al c o urts c a n n ot r e vi e w t h at cl ai m, n o n -r e pr es e nt ati v e st at e offi ci als
will b e a bl e t o stri p t h e st at e l e gisl at ur es of t h eir f e d er al c o nstit uti o n al p o w er w h e n e v er
t h e y dis a gr e e wit h l e gisl ati v e pri oriti es. T h e p o w er of t h e p e o pl e’s r e pr es e nt ati v es o v er
el e cti o ns will b e j e o p ar di z e d. T h at c a n n ot b e, a n d t h e C o nstit uti o n d o es n ot all o w it.
W e als o a gr e e wit h t h e c o n cl usi o n of b ot h J u d g e Ost e e n a n d J u d g e D e v er t h at
pl ai ntiffs h a v e a g o o d c h a n c e of vi n di c ati n g t h eir E q u al Pr ot e cti o n Cl a us e cl ai ms o n a p p e al.
As n ot e d, t h e B o ar d c h a n g e d t h e r ul es aft er v ot ers h a d c ast o v er 1 5 0, 0 0 0 b all ots i n N ort h
C ar oli n a. Pl ai ntiffs’ E q u al Pr ot e cti o n Cl a us e cl ai ms t h us r ais e s eri o us q u esti o ns a b o ut t h e
s c o p e of t h e S u pr e m e C o urt’s o n e -p ers o n, o n e -v ot e pri n ci pl e, a n d t h e att e n d a nt li mit ati o ns
o n t h e a bilit y of st at e offi ci als t o a p pl y diff er e nt r ul es t o diff er e nt v ot ers i n t h e s a m e
el e cti o n. S e e Gill v. W hitf or d , 1 3 8 S. Ct. 1 9 1 6, 1 9 2 9 ( 2 0 1 8) ( “‘[ V] ot ers w h o all e g e f a cts
s h o wi n g dis a d v a nt a g e t o t h e ms el v es as i n di vi d u als h a v e st a n di n g t o s u e’ t o r e m e d y t h at
dis a d v a nt a g e. ” ( q u oti n g B a k er v. C arr , 3 6 9 U. S. 1 8 6, 2 0 6 ( 1 9 6 2))); R e y n ol ds v. Si ms , 3 7 7
42

A p p. 2 7 3

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 3 of 4 9

U. S. 5 3 3, 5 5 5 ( 1 9 6 4). B y i nt e nti o n all y all o wi n g v ot es t o b e c ast t h at vi ol at e t h e Bi p artis a n
El e cti o ns A ct of 2 0 2 0, d ef e n d a nts cr e at e d s eri o us q u esti o ns u n d er t h e E q u al Pr ot e cti o n
Cl a us e t h at s h o ul d b e c o nsi d er e d o n a p p e al. A n d ers o n v. U nit e d St at es , 4 1 7 U. S. 2 1 1, 2 2 6
( 1 9 7 4) ( “ T h e ri g ht t o a n h o n est [ v ot e c o u nt] is a ri g ht p oss ess e d b y e a c h v oti n g el e ct or, a n d
t o t h e e xt e nt t h at t h e i m p ort a n c e of his v ot e is n ullifi e d, w h oll y or i n p art, h e h as b e e n
i nj ur e d i n t h e fr e e e x er cis e of a ri g ht or pri vil e g e s e c ur e d t o hi m b y t h e l a ws a n d
C o nstit uti o n of t h e U nit e d St at es. ” (i nt er n al q u ot ati o n

m ar ks a n d cit ati o n o mitt e d)).

B e c a us e t h e S u pr e m e C o urt h as e x pl ai n e d t h at t h e E q u al Pr ot e cti o n Cl a us e pr ot e cts a g ai nst
“ t h e dil uti n g eff e ct of ill e g al b all ots, ” Gr a y v. S a n d ers , 3 7 2 U. S. 3 6 8, 3 8 0 ( 1 9 6 3), pl ai ntiffs
ar e li k el y t o s u c c e e d o n t h eir a p p e al of t his cl ai m .
B.
S e c o n d, t h e pl ai ntiffs will s uff er irr e p ar a bl e i nj ur y a bs e nt a n i nj u n cti o n p e n di n g
a p p e al. T h e st at e l e gisl ati v e l e a d ers will s uff er irr e p ar a bl e i nj ur y if t h eir c ar ef ull y cr aft e d
l e gisl ati o n f or t h e u p c o mi n g el e cti o n is u ps et. E nj oi ni n g a “ St at e fr o m c o n d u cti n g [its]
el e cti o ns p urs u a nt t o a st at ut e e n a ct e d b y t h e L e gisl at ur e . . . s eri o usl y a n d irr e p ar a bl y
h ar m[s] [t h e St at e]. ” A b b ott v. P er ez, 1 3 8 S.

Ct. 2 3 0 5, 2 3 2 4 ( 2 0 1 8). As C hi ef J usti c e

R o b erts h as e x pl ai n e d, t h e i n a bilit y t o “ e m pl o y a d ul y e n a ct e d st at ut e ” is a n irr e p ar a bl e
h ar m. M ar yl a n d v. Ki n g , 5 6 7 U. S. 1 3 0 1, 1 3 0 3 ( 2 0 1 2) ( R o b erts, C.J., i n c h a m b ers). T his
irr e p ar a bl e h ar m is es p e ci all y p oi g n a nt i n t h e pr es e nt c as e b e c a us e t h e G e n er al Ass e m bl y
a d o pt e d el e cti o n r ul es s p e cifi c all y f or t his el e cti o n , a n d all o wi n g t h e m t o b e disr e g ar d e d
u ntil aft er t h e el e cti o n r e n d ers t h eir l e gisl ati v e a cti o n c o m pl et el y p oi ntl ess. As t o t h e E q u al

43

A p p. 2 7 4

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 4 of 4 9

Pr ot e cti o n Cl a us e cl ai m, t h e i nj ur y t h e v ot er pl ai ntiffs all e g e will n e c ess aril y c o m e t o p ass
i n t h e a bs e n c e of a n i nj u n cti o n, t h us c a usi n g irr e p ar a bl e i nj ur y.
C.
Fi n all y, w e c o n cl u d e t h at t h e b al a n c e of t h e e q uiti es a n d t h e p u bli c i nt er est f a v or
pl ai ntiffs. E n dl ess s uits h a v e b e e n br o u g ht t o c h a n g e t h e el e cti o n r ul es s et b y st at e
l e gisl at ur es. S e e St a nf or d- MI T

H e alt h y El e cti o ns Pr oj e ct,

C O VI D- R el at e d El e cti o n

Liti g ati o n Tr a c k er (l ast visit e d O ct. 1 9, 2 0 2 0) ( d o c u m e nti n g 3 8 5 l a ws uits fil e d a g ai nst
el e cti o n r ul es t his y e ar), htt ps:// h e alt h y el e cti o ns- c as e -tr a c k er.st a nf or d. e d u/. T his p er v asi v e
j o c k e yi n g t hr e at e ns t o u n d er mi n e p u bli c c o nfi d e n c e i n o ur el e cti o ns. A n d t h e c o nst a nt c o urt
b attl es m a k e a m o c k er y of t h e C o nstit uti o n’s e x pli cit d el e g ati o n of t his p o w er t o t h e st at e
l e gisl at ur es.
T h e S u pr e m e C o urt h as r e p e at e dl y m a d e cl e ar t h at c o urts s h o ul d n ot c h a n g e t h e
r ul es of a f e d er al el e cti o n i n t h e “ w e e ks b ef or e a n el e ctio n. ” P ur c ell v. G o nz al ez , 5 4 9 U. S.
1, 4 ( 2 0 0 6) ( p er c uri a m); s e e als o R e p u bli c a n N at’l C o m m. v. D e m o cr ati c N at’l C o m m. ,
1 4 0 S. Ct. 1 2 0 5, 1 2 0 7 ( 2 0 2 0) ( p er c uri a m). T h e distri ct c o urt d e ni e d i nj u n cti v e r eli ef s ol el y
o n t h e b asis of P ur c ell . W e c o m m e n d t h e distri ct c o urt f or its g o o d-f ait h eff ort t o c o m pl y
wit h P ur c ell i n a y e ar w h er e c o urts ar e t o o oft e n m e d dli n g i n el e cti o ns. H o w e v er, w e
c o n cl u d e t h e distri ct c o urt mis u n d erst o o d h o w P ur c ell a p pli es t o t his c as e. As t h e distri ct
c o urt o bs er v e d, P ur c ell h as tr a diti o n all y b e e n a p pli e d a g ai nst f e d er al c o urts c h a n gi n g t h e
r ul es s h ortl y b ef or e el e cti o ns. B ut t h er e is n o pri n ci pl e d r e as o n w h y t his r ul e s h o ul d n ot
a p pl y a g ai nst i nt erf er e n c es b y st at e c o urts a n d a g e n ci es. T h e vi cti m of a l ast - mi n ut e
i nt erf er e n c e, w h at e v er its s o ur c e, is t h e s a m e: a f e d er al el e cti o n. It is a diffi c ult e n o u g h t as k
44

A p p. 2 7 5

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 5 of 4 9

t o c o n d u ct a n el e cti o n i n t h e mi d dl e of a p a n d e mi c wit h o ut pr olif er ati n g l a ws uits a n d
c o nst a ntl y c h a n gi n g r ul es. Att e m pts t o c h a n g e el e cti o n r ul es, w h et h er f a cilit at e d i n f e d er al
or st at e c o urt, c a us e t h e “j u di ci all y -cr e at e d c o nf usi o n ” t h at t h e P ur c ell pri n ci pl e is d esi g n e d
t o g u ar d a g ai nst. S e e R e p u bli c a n N at ’l C o m m., 1 4 0 S. Ct. at 1 2 0 7. W h e n e v er i nt erf er e n c e
o c c urs, it i n c e nti vi z es a n a v al a n c h e of p artis a n a n d d est a bili zi n g liti g ati o n a g ai nst el e cti o n
r ul es d ul y e n a ct e d b y st at e l e gisl at ur es. If P ur c ell di d n ot a p pl y i n st at e c o urts, f e d er al
el e cti o n r ul es w o ul d c o nti n u e t o b e at t h e m er c y of liti g ati o n a n d r us h e d, l ast - mi n ut e
d e cisi o ns b y st at e j u d g es i n c o ntr a v e nti o n of t h e d el e g ati o n of a ut h orit y b y t h e C o nstit uti o n
u n d er t h e El e cti o ns Cl a us e.
T h er ef or e, w e c o n cl u d e t h at P ur c ell r e q uir es gr a nti n g a n i nj u n cti o n p e n di n g a p p e al
i n t his c as e. T h e st at us q u o, pr o p erl y u n d erst o o d, is a n el e cti o n r u n u n d er t h e G en er al
Ass e m bl y’s r ul es — t h e v er y r ul es t h at h a v e b e e n g o v er ni n g t his el e cti o n si n c e it b e g a n i n
S e pt e m b er. T h e B o ar d a n d t h e N ort h C ar oli n a S u p eri or C o urt f or t h e C o u nt y of

Wa ke

i m p er missi bl y d e p art e d fr o m t h at st at us q u o a p pr o vi n g c h a n g es t o t h e el e cti o n r ul es i n a
c o ns e nt d e cr e e i n t h e mi d dl e of a n el e cti o n. O v er 1 5 0, 0 0 0 b all ots h a d alr e a d y b e e n r e c ei v e d
w h e n t h e B o ar d c h a n g e d t h e r ul es, a n d its a cti o ns h a v e dr a p e d a s hr o u d of u n c ert ai nt y u p o n
N ort h C ar oli n a’s el e cti o ns. N o w t h at o v er h alf a milli o n v ot es h a v e b e e n c ast, all o wi n g t h e
B o ar d’s c h a n g es t o g o i nt o eff e ct w o ul d c a us e e v e n gr e at er t ur b ul e n c e. P ur c ell c o u ns els i n
f a v or of e n di n g t his u n c ert ai nt y b y iss ui n g i nj u n cti v e r eli ef p e n di n g a p p e al.
T h e G e n er al Ass e m bl y est a blis h e d r ul es f or or d erl y el e cti o ns a mi dst a p a n d e mi c. A
w a v e of l ast -mi n ut e liti g ati o n i n f e d er al a n d st at e c o urts h as r es ult e d i n N ort h C ar oli n a’s
r ul es c h a n gi n g r e p e at e dl y wit hi n a f e w w e e ks. T his is h a p p e ni n g as h u n dr e ds of t h o us a n ds
45

A p p. 2 7 6

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 6 of 4 9

of N ort h C ar oli ni a ns h a v e alr e a d y v ot e d i n i m p ort a nt el e cti o ns. T his c h a os m ust e n d.
B e c a us e o nl y a n i nj u n cti o n p e n di n g a p p e al r est or es or d er, w e w o ul d iss u e it.
⃰

⃰

⃰

T his p h e n o m e n o n is h ar dl y u ni q u e t o N ort h C ar oli n a. Ar o u n d t h e c o u ntr y, c o urts
ar e c h a n gi n g t h e r ul es of t h e u p c o mi n g el e cti o ns at t h e l ast mi n ut e. It m a k es t h e pr o mis e
of t h e C o nstit uti o n’s El e cti o ns a n d El e ct ors Cl a us es i nt o a f ar c e. It disr es p e cts t h e S u pr e m e
C o urt’s r e p e at e d a n d cl e ar c o m m a n d n ot t o i nt erf er e s o l at e i n t h e d a y. T his p er ni ci o us
p att er n is

m a ki n g t h e c o urts a p p e ar p artis a n, d est a bili zi n g f e d er al el e cti o ns, a n d

u n d er mi ni n g t h e p o w er of t h e p e o pl e t o c h o os e r e pr es e nt ati v es t o s et el e cti o n r ul es. B y n ot
iss ui n g t h e i nj u n cti o n p e n di n g a p p e al w e pr o p os e i n P art I V, t his c o urt h as miss e d a n
o p p ort u nit y t o st a n d at h w art t his d estr u cti v e tr e n d.
I V.
O ur pr o p os e d i nj u n cti o n p e n di n g a p p e al w o ul d r e a d as f oll o ws:
U p o n c o nsi d er ati o n of s u b missi o ns r el e v a nt t o a p p ell a nts’ e m er g e n c y
m oti o ns f or i nj u n cti o ns p e n di n g a p p e al, w e h er e b y gr a nt t h e m oti o ns. T h e
N ort h C ar oli n a B o ar d of El e cti o ns is e nj oi n e d fr o m eli mi n ati n g t h e N ort h
C ar oli n a G e n er al Ass e m bl y’s r e q uir e m e nt t h at a bs e nt e e a n d m ail -i n b all ots
i n cl u d e a wit n ess si g n at ur e. S e e El e cti o ns A ct of 2 0 2 0, 2 0 2 0 N. C. S ess. L a ws
§ 2 0 2 0- 1 7. T h e N ort h C ar oli n a . B o ar d of El e cti o ns is als o e nj oi n e d fr o m
e xt e n di n g t h e d e a dli n e f or t h e r e c ei pt of a bs e nt e e a n d m ail -i n b all ots b e y o n d
t h at est a blis h e d b y t h e N ort h C ar oli n a G e n er al Ass e m bl y i n N. C. G e n. St at.
§ 1 6 3. 2 3 1( b)( 2) b. U n d er t h e G e n er al Ass e m bl y’s l a w, s u c h a bs e nt e e a n d
46

A p p. 2 7 7

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 7 of 4 9

m ail- i n b all ots m ust b e m ail e d a n d p ost m ar k e d o n or b ef or e El e cti o n D a y,
a n d t h e y m ust b e r e c ei v e d wit hi n “t hr e e d a ys aft er t h e el e cti o n b y 5: 0 0 p. m. ”
T his or d er will r e m ai n i n eff e ct u ntil t h es e c as es ar e fi n all y d e ci d e d o n t h e
m erits, or u ntil f urt h er n oti c e b y t his C o urt.

47

A p p. 2 7 8

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 8 of 4 9

NI E M E Y E R, Cir c uit J u d g e, diss e nti n g:
I a m pl e as e d t o j oi n t h e diss e nti n g o pi ni o n writt e n b y t h e p a n el m aj orit y. T his c as e
w as ori gi n all y assi g n e d t o a p a n el, b ut t h e w or k of t h e p a n el w as h astil y pr e e m pt e d b y a n
e n b a n c v ot e r e q u est e d b y t h e p a n el’s diss e nt er aft er t h e p a n el m aj orit y h a d s h ar e d its vi e ws
b ut b ef or e t h os e vi e ws c o ul d b e p u blis h e d.
T o b e s ur e, a n e n b a n c h e ari n g m a y b e r e q u est e d at a n yti m e.

B ut t h e tr a diti o n al

pr a cti c e of t his c o urt is f or t h e assi g n e d p a n el t o h e ar a c as e a n d p u blis h its o pi ni o n b ef or e
t h e c o urt c o nsi d ers w h et h er t o r e h e ar t h e c as e e n b a n c. O n c e i n a r ar e w hil e, t h e c o urt h as
el e ct e d i nst e a d t o h e ar a c as e e n b a n c b ef or e c o nsi d er ati o n b y a p a n el o n t h e gr o u n d t h at
t h e e xtr a or di n ar y i m p ort a n c e of t h e m att er j ustifi es t h e p arti ci p ati o n of t h e e ntir e c o urt.
B u t h er e, n eit h er c o urs e w as f oll o w e d. T h e p a n el c o nsi d er e d t h e c as e assi g n e d t o it a n d
pr o m ptl y e x c h a n g e d v ot es o n t h e o ut c o m e.

Fi n di n g t h at h e h a d b e e n o ut v ot e d, t h e

diss e nti n g j u d g e i m m e di at el y i niti at e d a n e n b a n c v ot e b ef or e t h e p a n el c o ul d e v e n cir c u l at e
its vi e ws t o t h e e ntir e c o urt, l et al o n e t o t h e p u bli c. T his d e p art ur e fr o m o ur tr a diti o n al
pr o c ess stri k es m e as n e e dl essl y di visi v e —

e v e n c o nsi d eri n g t h e m att er’s ti m e s e nsiti v e

n at ur e. I a m s a d d e n e d t o s e e it, es p e ci all y o n a c o urt t h at h as t a k e n s u c h pri d e i n its
c oll e gi alit y.
O n t h e m erits, t h e e n b a n c a cti o n a p p e ars t o b e j ust as a g gr essi v e. Aft er a s u bst a nti al
n u m b er of N ort h C ar oli n a v ot ers — w ell o v er 1, 0 0 0, 0 0 0 as of O ct o b er 1 7, 2 0 2 0 — h a v e
v ot e d a n d o nl y t w o w e e ks b ef or e el e cti o n d a y, t h e e n b a n c m aj orit y n o w a cts t o p er mit
c h a n g es t o b all oti n g r ul es. S u c h a cti o n b y t h e e n b a n c m aj orit y, as t h e p a n el m aj orit y h as

48
A p p. 2 7 9

U S C A 4 A p p e al: 2 0- 2 1 0 4

D o c: 2 0

Fil e d: 1 0/ 2 0/ 2 0 2 0

P g: 4 9 of 4 9

e x pl ai n e d, fli es i n t h e f a c e of t h e pri n ci pl e t h at b all oti n g r ul es f or f e d er al el e cti o ns m ust
n ot b e c h a n g e d s h ortl y b ef or e el e cti o ns — i n d e e d, i n t his c as e, d uri n g a n el e cti o n.
I diss e nt fr o m t h e pr e e m pti v e e n b a n c a cti o n i n t his c as e, a n d f or t h e r e as o ns gi v e n
b y t h e p a n el m aj orit y, I v ot e t o gr a nt t h e r e q u est e d i nj u n cti o n a g ai nst i m pl e m e nt ati o n of
l ast mi n ut e b all ot r ul es c h a n g es.

49
A p p. 2 8 0

A P P E N DI X L

A p p. 2 8 1

E X HI BI T 1

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am pe p.
nt 12 82 2 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 of 4 3

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am pe p.
nt 12 82 3 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 of 4 3

1.

O n A u g ust 1 8, 2 0 2 0, Pl ai ntiffs fil e d a n A m e n d e d C o m pl ai nt, s e e ki n g d e cl ar at or y

a n d i nj u n cti v e r eli ef t o e nj oi n N ort h C ar oli n a l a ws r el at e d t o i n-p ers o n a n d a bs e nt e e -b y -m ail
v oti n g i n t h e r e m ai ni n g el e cti o ns i n 2 0 2 0 t h at t h e y all e g e d u n c o nstit uti o n all y b ur d e n t h e ri g ht t o
v ot e i n li g ht of t h e c urr e nt p u bli c h e alt h crisis c a us e d b y t h e n o v el c or o n a vir us ( “ C O VI D- 1 9 ”).
2.

Als o o n A u g ust 1 8 , Pl ai ntiffs fil e d a M oti o n f or Pr eli mi n ar y I nj u n cti o n s e e ki n g

t o:
(i)

e nj oi n t h e e nf or c e m e nt of t h e a bs e nt e e b all ot r e c ei pt d e a dlin e s et f ort h i n
N. C. G. S. § 1 6 3- 2 3 1( b)( 1), ( 2), as a p pli e d t o b all ots s u b mitt e d t hr o u g h t h e
U nit e d St at es P ost al S er vi c e ( U S P S) f or t h e 2 0 2 0 el e cti o ns , a n d or d er
D ef e n d a nts t o c o u nt all ot h er wis e eli gi bl e b all ots t h at ar e p ost m ar k e d b y
El e cti o n D a y a n d r e c e i v e d b y c o u nt y b o ar ds of el e cti o ns u p t o ni n e d a ys
aft er El e cti o n D a y;

(ii)

e nj oi n t h e e nf or c e m e nt of t h e wit n ess r e q uir e m e nts f or a bs e nt e e b all ots s et
f ort h i n N. C. G e n. St at. § 1 6 3 -2 3 1( a), as a p pli e d t o v ot ers r esi di n g i n
si n gl e- p ers o n or si n gl e- a d ult h o us e h ol ds;

(iii)

e nj oi n t h e e nf or c e m e nt of N. C. G e n. St at. § 1 6 3 -2 3 1( b)( 1) t o t h e e xt e nt
t h at it r e q uir es v ot ers t o p a y f or p ost a g e i n or d er t o m ail t h eir a bs e nt e e
b all ots ;

(i v)

or d er D ef e n d a nts t o pr o vi d e p ost a g e f or a bs e nt e e b all ots s u b mitt e d b y
m ail i n t h e N o v e m b er el e cti o n;

( v)

or d er D ef e n d a nts t o pr o vi d e u nif or m g ui d a n c e a n d tr ai ni n g f or el e cti o n
offi ci als e n g a g i n g i n si g n at ur e v erifi c ati o n a n d i nstr u ct c o u nt y el e cti o n
offi ci als n ot t o r ej e ct a bs e nt e e b all ots d u e t o p er c ei v e d n o n -m at c hi n g
si g n at ur es u ntil t h e c o u nt y offi ci als r e c ei v e s u c h g ui d a n c e a n d u n d er g o
tr ai ni n g;

( vi)

e nj oi n t h e e nf or c e m e nt of N. C. G e n. St at. § § 1 6 3 -2 2 6. 3( a)( 5), 1 6 3 2 3 0. 2( c) a n d ( e), 1 6 3 -2 3 1( b)( 1), a n d a n y ot h er l a ws t h at pr o hi bit
i n di vi d u als or or g a ni z ati o ns fr o m assisti n g v ot ers t o s u b mit a bs e nt e e
b all ots or t o fill o ut a n d s u b mit a bs e nt e e b all ot r e q u est f or ms; a n d

( vii)

e nj oi n t h e e nf or c e m e nt of N. C . G e n. St at. § 1 6 3 -2 2 7. 2( b) a n d a n y ot h er
l a ws t h at pr e v e nt c o u nt y el e cti o n offi ci als fr o m pr o vi di n g a d diti o n al o n est o p ( “ e arl y ”) v oti n g d a ys a n d or d eri n g D ef e n d a nts t o all o w c o u nt y
el e cti o n offi ci als t o e x p a n d e arl y v oti n g b y u p t o a n a d diti o n al 2 1 d a ys f or
t h e N o v e m b er el e cti o n.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

- 2D o c u Am pe p.
nt 12 82 4 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 of 4 3

Pl ai ntiffs fil e d a bri ef i n s u p p ort of t h eir M oti o n o n S e pt e m b er 4, 2 0 2 0.
3.

Si n c e Pl ai ntiffs m o v e d t h e C o urt f or pr eli mi n ar y i nj u n cti v e r eli ef, Pl ai ntiffs a n d

E x e c uti v e D ef e n d a nts h a v e e n g a g e d i n s u bst a nti al g o o d -f ait h n e g oti ati o ns r e g ar di n g a p ot e nti al
s ettl e m e nt of Pl ai ntiffs’ cl ai ms a g ai nst E x e c uti v e D ef e n d a nts.
4.

F oll o wi n g e xt e nsi v e n e g oti ati o n, t h e P arti es h a v e r e a c h e d a s ettl e m e nt t o f ull y

r es ol v e Pl ai ntiffs’ cl ai ms, t h e t er ms of w hi c h ar e s et f ort h i n t h e pr o p os e d C o ns e nt J u d g m e nt
fil e d c o n c urr e ntl y wit h t his J oi nt M oti o n.
5.
M e m os

As s et f ort h i n t h e C o ns e nt J u d g m e nt a n d i n t h e e x hi bits t h er et o, (N u m b er e d
2 0 2 0- 1 9, 2 0 2 0- 2 2, a n d 2 0 2 0- 2 3 ), all b all ots p ost m ar k e d b y El e cti o n D a y s h all b e

c o u nt e d if ot h er wis e eli gi bl e a n d r e c ei v e d u p t o ni n e d a ys aft er El e cti o n D a y, p urs u a nt t o
N u m b er e d M e m o 2 0 2 0- 2 2. N u m b er e d M e m o 2 0 2 0 - 1 9 i m pl e m e nts a pr o c e d ur e t o c ur e c ert ai n
d efi ci e n ci es wit h a bs e nt e e b all ots, i n cl u di n g missi n g v ot er, wit n ess , or assist a nt si g n at ur es a n d
a d dr ess es . Fi n all y, N u m b er e d

M e m o 2 0 2 0 - 2 3 i nstr u cts c o u nt y b o ar ds t o d esi g n at e s e p ar at e

a bs e nt e e b all ot dr o p -off st ati o ns at all o n e -st o p e arl y v oti n g l o c ati o ns a n d c o u nt y b o ar d offi c es ,
t hr o u g h w hi c h v ot ers a n d a ut h ori z e d p ers o ns m a y r et ur n a bs e nt e e b all ots i n p ers o n.
6.

Pl ai ntiffs a n d E x e c uti v e D ef e n d a nts f urt h er a gr e e t o e a c h b e ar t h eir o w n f e es,

e x p e ns es, a n d c osts

wit h r es p e ct t o all cl ai ms r ais e d b y Pl ai ntiffs a g ai nst t h e E x e c uti v e

D ef e n d a nts, a n d all s u c h cl ai ms Pl ai ntiffs all e g e a g ai nst t h e E x e c uti v e D ef e n d a nts i n t his a cti o n
r el at e d t o t h e c o n d u ct of t h e 2 0 2 0 el e cti o ns s h all b e dis miss e d.
W HE REF O RE

Pl ai ntiffs a n d E x e c uti v e D ef e n d a nts r es p e ctf ull y r e q u est t h at t his C o urt gr a nt

t h eir J oi nt M oti o n a n d e nt er t h e pr o p os e d C o ns e nt J u d g m e nt , fil e d c o n c urr e ntl y wit h t his m oti o n,
as a f ull a n d fi n al r es ol uti o n of Pl ai ntiffs’ cl ai ms a g ai nst E x e c uti v e D ef e n d a nts r el at e d t o t h e
c o n d u ct of t h e 2 0 2 0 el e cti o ns.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

- 3D o c u Am pe p.
nt 12 82 5 Fil e d 0 9/ 2 6/ 2 0

P a g e 4 of 4 3

D at e d: S e pt e m b er 2 2 , 2 0 2 0

R es p e ctf ull y s u b mitt e d,

M ar c E. Eli as
U z o m a N. N k w o nt a
L alit h a D. M a d d uri
J y oti J asr as ari a
Ari el B. Gli c k m a n
P E R KI N S C OI E L L P
7 0 0 T hirt e e nt h Str e et, N. W., S uit e 8 0 0
W as hi n gt o n, D. C. 2 0 0 0 5
T el e p h o n e: 2 0 2. 6 5 4. 6 2 0 0
F a csi mil e: 2 0 2. 6 5 4. 6 2 1 1
M Eli as @ p er ki ns c oi e. c o m
U N k w o nt a @ p er ki ns c oi e. c o m
L M a d d uri @ p er ki ns c oi e. c o m
JJ asr as ari a @ p er ki ns c oi e. c o m
A Gli c k m a n @ p er ki ns c oi e. c o m

B y:
N ar e n dr a K. G h os h, N C B ar N o. 3 7 6 4 9
B urt o n Cr ai g e, N C B ar N o. 9 1 8 0
P a ul E. S mit h, N C B ar N o. 4 5 0 1 4
P A T T E RS O N H A R K A V Y L LP
1 0 0 E ur o p a Dri v e, S uit e 4 2 0
C h a p el Hill, N C 2 7 5 1 7
T el e p h o n e: 9 1 9. 9 4 2. 5 2 0 0
B Cr ai g e @ p at hl a w. c o m
N G h os h @ p at hl a w. c o m
P S mit h @ p at hl a w. c o m
Att or n e ys f or Pl ai ntiffs

M oll y Mit c h ell
P E R KI N S C OI E L L P
1 1 1 1 W est J eff ers o n Str e et, S uit e 5 0 0
B ois e, I d a h o 8 3 7 0 2
T el e p h o n e: 2 0 8. 3 4 3. 3 4 3 4
F a csi mil e: 2 0 8. 3 4 3. 3 2 3 2
M Mit c h ell @ p er ksi n c oi e. c o m
Att or n e ys f or Pl ai ntiffs
/s/ Al e x a n d er M c C. P et ers
Al e x a n d er M c C. P et ers, N. C. B ar N o. 1 3 6 5 4
T err a n c e St e e d
N ort h C ar oli n a D e pt. of J usti c e
P ost Offi c e B o x 6 2 9
R al ei g h, N. C. 2 7 6 0 2
a p et ers @ n c d oj. g o v
tst e e d @ n c d oj. g o v
Att or n e ys f or E x e c uti v e D ef e n d a nts

C a s e 4: 2 0- c v- 0 0 1 8 2- D

- 4D o c u Am pe p.
nt 12 82 6 Fil e d 0 9/ 2 6/ 2 0

P a g e 5 of 4 3

C E R TI FI C A T E O F S E R VI C E
I c ertif y t h at I s er v e d t h e f or e g oi n g d o c u m e nt b y e m ail t o c o u ns el f or d ef e n d a nts,
a d dr ess e d as f oll o ws:
Al e x a n d er M c C. P et ers
N. C. D e p art m e nt of J usti c e
P O Box 629
R al ei g h, N C 2 7 6 0 2
a p et ers @ n c d oj. g o v
Att or n e y f or D ef e n d a nts
Ni c ol e J o M oss, N. C. B ar N o. 3 1 9 5 8
C o o p er & Kir k, P L L C
1 5 2 3 N e w H a m ps hir e A v e n u e N W
W as hi n gt o n D C, 2 0 0 3 6
n m oss @ c o o p er kir k. c o m
N at h a n A. H uff, N. C. B ar N o. 4 0 6 2 6
P h el ps D u n b ar L L P
Gl e n L a k e O n e
4 1 4 0 P ar kl a k e A v e n u e, S uit e 1 0 0
R al ei g h, N ort h C ar oli n a 2 7 6 1 2- 3 7 2 3
N at h a n. H uff @ p h el ps. c o m
Att or n e ys f or I nt er v e n ors
R. S c ott T o bi n
T A Y L O R E N G LI S H D U M A L L P
4 2 0 8 Si x F or ks R o a d. S uit e 1 0 0 0
R al ei g h, N C. 2 7 6 0 9
st o bi n @t a yl or e n glis h. c o m
B o b b y R. B ur c hfi el d
KI N G & S P A L DI N G L L P
1 7 0 0 P e n ns yl v a ni a A v e, N. W., S uit e 2 0 0
W as hi n gt o n. D. C. 2 0 0 0 6- 4 7 0 7
B B ur c hfi el d @ K S L A W. c o m
Att or n e ys f or Pr o p os e d I nt er v e n ors
T his t h e 2 2 n d d a y of S e pt e m b er, 2 0 2 0.
_______________________________
N ar e n dr a K. G h os h

C a s e 4: 2 0- c v- 0 0 1 8 2- D

- 5D o c u Am pe p.
nt 12 82 7 Fil e d 0 9/ 2 6/ 2 0

P a g e 6 of 4 3

ST ATE OF N O RT H C A R OLI N A
C O U NT Y OF W A KE
N
R
F
J
K
C

I N T H E G E N E R A L C O U R T O F J U S TI C E
S U P E RI O R C O U R T DI VI S I O N

O R T H C A R O LI N A A L LI A N C E F O R
E TI R E D A M E RI C A N S; B A R K E R
O W L E R; B E C K Y J O H N S O N; J A D E
U R E K; R O S A L Y N K O CI E M B A; T O M
O CI E M B A; S A N D R A M A L O N E; a n d
A R E N R A BI N O WI T Z ,

N o. 2 0- C V S - 8 8 8 1

Pl ai ntiffs,
v.
T H E N O R T H C A R O LI N A S T A T E B O A R D
O F E L E C TI O N S; a n d D A M O N CI R C O S T A,
i n his offi ci al c a p a cit y as C H AI R O F T H E
N O R T H C A R O LI N A S T A T E B O A R D O F
E L E C TI O N S ,

S TI P U L A TI O N A N D C O N S E N T
J U D G ME NT

D ef e n d a nts , a n d,
P HI LI P E. B E R G E R , i n his offi ci al c a p a cit y as
Pr esi d e nt Pr o T e m p or e of t h e N ort h C ar oli n a
S e n at e ; a n d TI M O T H Y K. M O O R E, i n his
offi ci al c a p a cit y as S p e a k er of t h e N ort h
C ar oli n a H o us e of R e pr es e nt ati v es,
I nt er v e n or- D ef e n d a nts.

Pl ai ntiffs N ort h C ar oli n a Alli a n c e f or R etir e d A m eri c a ns, B ar k er F o wl er, B e c k y J o h ns o n,
J a d e J ur e k, R os al y n K o ci e m b a, T o m K o ci e m b a, S a n dr a
E x e c uti v e

D ef e n d a n ts

M al o n e , a n d C ar e n R a bi n o wit z , a n d

D a m o n Cir c ost a a n d t h e N ort h C ar oli n a St at e B o ar d of El e cti o ns

( c oll e cti v el y, “t h e C o ns e nt P arti es ”) sti p ul at e t o t h e f oll o wi n g a n d r e q u est t h at t his C o urt a p pr o v e
t his C o ns e nt J u d g m e nt. T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt e n c o m p ass es Pl ai ntiffs ’ cl ai ms ,
w hi c h

p ert ai n t o el e cti o ns i n 2 0 2 0 ( “2 0 2 0 el e cti o ns ”) a n d ar e pr e mis e d u p o n t h e c urr e nt p u bli c

h e alt h crisis f a ci n g N ort h C ar oli n a c a us e d b y t h e o n g oi n g s pr e a d of t h e n o v el c or o n a vir us.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am pe p.
nt 12 82 8 Fil e d 0 9/ 2 6/ 2 0

P a g e 7 of 4 3

I.
R E CI T A L S
W H E R E A S o n A u g ust 1 0, 2 0 2 0, Pl ai ntiffs fil e d a c o m pl ai nt , a n d , o n A u g ust 1 8, 2 0 2 0,
Pl ai ntiffs fil e d a n

a m e n d e d c o m pl ai nt

a g ai nst

E x e c uti v e

D ef e n d a nt s c h all e n gi n g t h e

c o nstit uti o n alit y a n d e nf or c e m e nt , d uri n g t h e 2 0 2 0 el e cti o ns, of: ( 1) N ort h C ar oli n a’s li mit ati o ns
o n t h e n u m b e r of d a ys a n d h o urs of e arl y v oti n g t h at c o u nti es m a y off er, N. C. G e n. St at. § 1 6 3 2 2 7. 2( b); ( 2) its r e q uir e m e nt t h at all a bs e nt e e b all ot e n v el o p es m ust b e si g n e d b y a wit n ess
d uri n g t h e p a n d e mi c , as a p pli e d t o v ot ers i n si n gl e -p ers o n or si n gl e -a d ult h o us e h ol ds, Bi p artis a n
El e cti o ns A ct of 2 0 2 0, 2 0 2 0 N. C. S ess. L a ws 2 0 2 0 -1 7, § 1.( a) ( “ H B 1 1 6 9 ”) (t h e “ Wit n ess
R e q uir e m e nt ”); ( 3) its f ail ur e t o pr o vi d e pr e-p ai d p ost a g e f or a bs e nt e e b all ots a n d b all ot r e q u est
f or ms, N. C. G e n. St at. § 1 6 3 -2 3 1( b)( 1) (t h e “ P ost a g e R e q uir e m e nt ”); ( 4) l a ws r e q uiri n g c o u nt y
b o ar ds of el e cti o ns t o r ej e ct a bs e nt e e b all ots t h at ar e p ost m ar k e d b y El e cti o n D a y b ut d eli v er e d
t o c o u nt y b o ar ds m or e t h a n t hr e e d a ys aft er t h e el e cti o n, as a p pli e d t o v ot ers w h o s u b mit b all ots
t hr o u g h t h e U nit e d St at es P ost al S er vi c e, i d. § 1 6 3-2 3 1( b)( 2) (t h e “ R e c ei pt D e a dli n e ”); ( 5) t h e
pr a cti c e i n s o m e c o u nti es of r ej e cti n g a bs e nt e e b all ots f or si g n at ur e d ef e cts (t h e “ Si g n at ur e
M at c hi n g Pr o c e d ur es ”); ( 6 ) l a ws pr o hi biti n g v ot ers fr o m r e c ei vi n g assist a n c e fr o m t h e v ast
m aj orit y of i n di vi d u als a n d or g a ni z ati o ns i n
r e q u est f or ms, 2 0 1 9

c o m pl eti n g or s u b mitti n g t h eir a bs e nt e e b all ot

N. C. S ess. L a ws 2 0 1 9- 2 3 9, § 1. 3( a) ( “ S B 6 8 3 ”), (t h e “ A p pli c ati o n

Assist a n c e B a n ”); a n d ( 7) l a ws s e v er el y r estri cti n g v ot ers’

a bilit y t o o bt ai n assist a n c e i n

d eli v eri n g t h eir m ar k e d a n d s e al e d a bs e nt e e b all ots t o c o u nt y b o ar ds, a n d i m p osi n g cri mi n al
p e n alti es f or pr o vi di n g s u c h assist a n c e, N. C. G e n. St at. § 1 6 3 -2 2 6. 3( a)( 5) (t h e “ B all ot D eli v er y
B a n ”) ( c oll e cti v el y, t h e “ C h all e n g e d Pr o visi o ns ”);

C a s e 4: 2 0- c v- 0 0 1 8 2- D

2
D o c u Am pe p.
nt 12 82 9 Fil e d 0 9/ 2 6/ 2 0

P a g e 8 of 4 3

W H E R E AS

t h e C o m pl ai nt se e ks t o e nj oi n e nf or c e m e nt of t h e C h all e n g e d Pr o visi o ns

d uri n g t h e 2 0 2 0 el e cti o ns d u e t o t h e o n g oi n g p u bli c h e alt h crisis c a us e d b y t h e s pr e a d of t h e
n o v el c or o n a vir us ( C O VI D- 1 9);
W H E R E AS

t h e C O VI D - 1 9 p u bli c h e alt h crisis is o n g oi n g , a n d N ort h C ar oli n a r e m ai ns

u n d er E x e c uti v e Or d er 1 6 3 , w hi c h c o nt e m pl at es a p h as e d r e o p e ni n g of N ort h C ar oli n a b ut
str o n gl y r e c o m m e n d s s o ci al dist a n ci n g, E x e c. Or d er 1 6 3, § 2. 2, m a n d at e s m as k w e ari n g i n m ost
b usi n ess a n d g o v er n m e nt s etti n gs, i d. § 3. 2 , i m p os es c a p a cit y li mits i n m ost p u bli c-f a ci n g
b usi n ess a n d g o v er n m e nt s etti n gs, i d., § 3. 2 ( e), pr o hi bits m ass g at h eri n gs, i d. § 7, a n d st at es t h at
“[ p] e o pl e w h o ar e at hi g h ris k of s e v er e ill n ess fr o m C O VI D -1 9 ar e v er y str o n gl y e n c o ur a g e d t o
st a y h o m e a n d tr a v el o nl y f or a bs ol ut el y ess e nti al p ur p os es, ” i d. § 2. 1;
W H E R E AS

N ort h C ar oli n a r e m ai ns u n d er a st at e of e m er g e n c y, d e cl ar e d b y t h e

G o v er n or, “ b as e d o n t h e p u bli c h e alt h e m er g e n c y p os e d b y C O VI D- 1 9,” E x e c . Or d er 1 1 6 , a n d
u n d er a f e d er al dis ast er d e cl ar ati o n st at e wi d e, 8 5 F e d. R e g. 2 0 7 0 1;
W H E R E AS

as of S e pt e m b er 1 9, 2 0 2 0, N ort h C ar oli n a h as h a d m or e t h a n 1 9 2, 2 4 8

c o nfir m e d C O VI D- 1 9 c as es, wit h m or e t h a n 3, 2 3 5 f at aliti es;
W H E R E AS

C O VI D - 1 9 c as e c o u nts c o nti n u e t o gr o w a cr oss t h e c o u ntr y, a n d t h e

dir e ct or of t h e C e nt er f or Dis e as e C o ntr ol a n d Pr e v e nti o n r e c e ntl y w ar n e d t h at t h e c o u ntr y
s h o ul d br a c e f or “t h e w orst f all fr o m a p u bli c h e alt h p ers p e cti v e, w e’ v e e v er h a d ” 1 ;
W H E R E AS

t h e E x e c uti v e Dir e ct or of t h e N ort h C ar oli n a St at e B o ar d of El e cti o ns

o bs er v e d t h at C O VI D -1 9 i nf e cti o ns i n N ort h C ar oli n a ar e li k el y t o c o nti n u e i nt o t h e f all, t hr o u g h
at l e ast El e cti o n D a y ; 2
1

C or o n a vir us i n C o nt e xt: C D C Dir e ct or Dis c uss es N e xt St e ps i n t h e W ar A g ai nst C O VI D ,
I nt er vi e w wit h J o h n W h yt e, W e b M D ( A u g. 1 3, 2 0 2 0), htt ps:// w w w. w e b m d. c o m/ c or o n a vir us- i nc o nt e xt/ vi d e o/r o b ert-r e dfi el d.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

3
D o c u Am pe p.
nt 12 92 0 Fil e d 0 9/ 2 6/ 2 0

P a g e 9 of 4 3

W H E R E A S , o n J u n e 2 2, 2 0 2 0, t h e C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n ( C D C)
iss u e d i nt eri m g ui d a n c e t o pr e v e nt t h e s pr e a d of C O VI D-1 9 i n el e cti o n -p olli n g l o c ati o ns. 3 T h e
C D C g ui d a n c e e n c o ur a g es el e cti o ns offi ci als t o:
• “ E n c o ur a g e v ot ers t o st a y at l e ast 6 f e et a p art ” fr o m e a c h ot h er b y p osti n g si g ns a n d
pr o vi di n g ot h er vis u al c u es a n d h a v e pl a ns t o m a n a g e li n es t o e ns ur e s o ci al dist a n ci n g
c a n b e m ai nt ai n e d ;
• I n cr e as e t h e n u m b er of p olli n g l o c ati o ns a v ail a bl e f or e arl y v oti n g a n d e xt e n d h o urs of
o p er ati o n at e arl y v oti n g sit es;
•

M ai nt ai n or i n cr e as e t h e t ot al n u m b er of p olli n g pl a c es a v ail a bl e t o t h e p u bli c o n

El e cti o n D a y t o i m pr o v e t h e a bilit y t o s o ci al dist a n c e ;
• Mi ni mi z e li n es as m u c h as p ossi bl e, es p e ci all y i n s m all, i n d o or s p a c es;
• “ Li mit t h e n u m b er of v ot ers i n t h e f a cilit y b y m o vi n g li n es o ut d o ors if w e at h er p er mits
or usi n g a ti c k et s yst e m f or a c c ess t o t h e f a cilit y ” ;
• Off er alt er n ati v es t o i n- p ers o n v oti n g;
• Off er alt er n ati v e v oti n g o pti o ns t h at mi ni mi z e e x p os ur e b et w e e n p oll

w or k ers a n d

v ot ers ;

2

N. C. St at e B d . of El e cti o ns, E m er g e n c y Or d er , A d mi nist eri n g t h e N o v e m b er 3, 2 0 2 0
G e n er al El e cti o n D uri n g t h e Gl o b al C O VI D -1 9 P a n d e mi c a n d P u bli c H e alt h E m er g e n c y (J ul y
1 7,
2 0 2 0),
htt ps://s 3. a m a z o n a ws. c o m/ dl. n cs b e. g o v/ St at e _ B o ar d _ M e eti n g _ D o cs/ Or d ers/ E x e c uti v e % 2 0 Dir e c
t or % 2 0 Or d ers/ E m er g e n c y % 2 0 Or d er _ 2 0 2 0- 0 7- 1 7. p df.
3
C o nsi d er ati o ns f or El e cti o n P olli n g L o c ati o ns a n d V ot ers: I nt eri m g ui d a n c e t o pr e v e nt
s pr e a d of c or o n a vir us dis e as e 2 0 1 9 ( C O VI D- 1 9), C D C, htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9n c o v/ c o m m u nit y/ el e cti o n - p olli n g-l o c ati o ns. ht ml.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

4
D o c u Am ep ntp. 1-2 29 1 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 0 of 4 3

W H E R E AS

l ar g e cr o w ds at e arl y v oti n g a n d l o n g li n es o n E l e cti o n D a y m a y cr e at e

p u bli c h e alt h ris ks a n d i m p os e s e v er e b ur d e ns o n t h e ri g ht t o v ot e, m a ki n g a bs e nt e e v oti n g b y
m ail ess e nti al t o a m eli or at e t h es e p ossi biliti es;

W H E R E A S , as of S e pt e m b er 1 8, 2 0 2 0, m or e t h a n 8 8 9, 2 7 3 a bs e nt e e b all ots h a d alr e a d y
b e e n r e q u est e d b y N ort h C ar oli n a v ot ers, m or e t h a n 1 4 ti m es t h e n u m b er of a bs e nt e e b all ots t h at
h a d b e e n r e q u est e d b y t his ti m e i n 2 0 1 6;
W H E R E AS

t h e a bs e nt e e v oti n g p eri o d f or t h e 2 0 2 0 el e cti o ns b e g a n o n S e pt e m b er 4,

2 0 2 0, N. C . Ge n. S t at. § 1 6 3- 2 2 7. 1 0( a), a n d , as of S e pt e m b er 2 1 , 2 0 2 0, n e arl y 1, 4 0 0 a bs e nt e e
b all ots h a d b e e n fl a g g e d f or i n c o m pl et e wit n ess i nf or m ati o n, a c c or di n g t o d at a fr o m t h e St at e
B o ar d of El e cti o ns 4 ;
W H E R E A S , o n A u g ust 4, 2 0 2 0, t h e U nit e d St at es Distri ct C o urt f or t h e Mi d dl e Distri ct
of N ort h C ar oli n a e nj oi n e d t h e St at e B o ar d fr o m “t h e dis all o w a n c e or r ej e cti o n . . . of a bs e nt e e
b all ots

wit h o ut d u e pr o c ess as t o t h os e b all ots

wit h a

m at eri al err or t h at is s u b j e ct t o

r e m e di ati o n. ” D e m o cr a c y N. C. v. N. C. St at e B d. of El e cti o ns , N o. 1: 2 0 -c v - 0 0 4 5 7-W O -J L W
( M. D. N. C. A u g. 4, 2 0 2 0) ( Ost e e n, J.), E C F 1 2 4 at 1 8 7. T h e i nj u n cti o n is t o r e m ai n i n f or c e u ntil
t h e St at e B o ar d i m pl e m e nts a c ur e pr o c ess t h at pr o vi d es a v ot er wit h “ n oti c e a n d a n o p p ort u nit y
t o b e h e ar d b ef or e a n a bs e nt e e b all ot wit h a m at eri al err or s u bj e ct t o r e m e di ati o n is dis all o w e d or
r ej e ct e d. ” I d.
W H E R E AS

c o urts i n ot h er st at es h a v e e nj oi n e d t h os e st at es fr o m e nf or ci n g wit n ess a n d

n ot ari z ati o n r e q uir e m e nts, s o m e of w hi c h ar e si mil ar t o N ort h C ar oli n a’s C h all e n g e d Pr o visi o ns ,

4

N ort h
C ar oli n a
E arl y
V oti n g
St atisti cs ,
htt ps:// el e ct pr oj e ct. git h u b.i o/ E arl y -V ot e - 2 0 2 0 G/ N C. ht ml.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

U. S.

5
D o c u Am ep ntp. 1-2 29 2 Fil e d 0 9/ 2 6/ 2 0

El e cti o ns

P a g e 1 1 of 4 3

Pr oj e ct,

f or el e cti o ns o c c urri n g t his y e ar d uri n g t h e C O VI D -1 9 p a n d e mi c . S e e , e. g., C o m m o n C a us e R.I.
v. G or b e a , N o. 2 0-1 7 5 3, 2 0 2 0 W L 4 5 7 9 3 6 7, at * 2 ( 1st Cir. A u g. 7, 2 0 2 0) ( d e n yi n g m oti o n t o
st a y c o ns e nt j u d g m e nt s us p e n di n g “ n ot ar y or t w o -wit n ess r e q uir e m e nt ” f or m ail b all ots a n d
fi n di n g t h at “ [t]a ki n g a n u n us u al a n d i n f a ct u n n e c ess ar y c h a n c e wit h y o ur lif e is a h e a v y b ur d e n
t o b e ar si m pl y t o v ot e. ”), st a y d e ni e d s u b n o m. R e p u bli c a n N at’l C o m m. v. C o m m o n C a us e , N o.
2 0 A 2 8, 2 0 2 0 W L 4 6 8 0 1 5 1 ( U. S. A u g. 1 3, 2 0 2 0); T h o m as v. A n di n o , N o. 3: 2 0-c v - 0 1 5 5 2-J M C,
2 0 2 0 W L 2 6 1 7 3 2 9, at * 2 1 ( D. S. C. M a y 2 5, 2 0 2 0) (fi n di n g “str o n g li k eli h o o d t h at t h e b ur d e ns
pl a c e d u p o n [ pl ai ntiffs] b y ” si n gl e-wit n ess si g n at ur e r e q uir e m e nt “ o ut w ei g h t h e i m pr e cis e, a n d
( as a d mitt e d b y [ d ef e n d a nts]) i n eff e cti v e, st at e i nt er ests of c o m b ati n g v ot er fr a u d a n d pr ot e cti n g
v oti n g i nt e grit y ”); L e a g u e of W o m e n V ot ers of V a. v. V a. St at e B d. of El e cti o ns , N o. 6: 2 0-C V 0 0 0 2 4, 2 0 2 0

W L 2 1 5 8 2 4 9, at * 8 ( W. D. V a.

M a y 5, 2 0 2 0) ( “I n o ur c urr e nt er a of s o ci al

dist a n ci n g — w h er e n ot j ust Vir gi ni a ns, b ut all A m eri c a ns, h a v e b e e n i nstr u ct e d t o m ai nt ai n a
mi ni m u m of si x f e et fr o m t h os e o utsi d e t h eir h o us e h ol d — t h e b ur d e n [ of t h e

witn ess

r e q uir e m e nt] is s u bst a nti al f or a s u bst a nti al a n d dis cr et e cl ass of Vir gi ni a’s el e ct or at e. D uri n g
t his p a n d e mi c, t h e wit n ess r e q uir e m e nt h as b e c o m e ‘b ot h t o o r estri cti v e a n d n ot r estri cti v e
e n o u g h t o eff e cti v el y pr e v e nt v ot er fr a u d. ’”); Sti p ul ati o n a n d P arti al C o ns e nt J u d g m e nt, L a R os e
v. Si m o n , N o. 6 2-C V - 2 0-3 1 4 9 ( 2 d J u d. Dist. Mi n n. J u n e 1 7, 2 0 2 0) ( a p pr o vi n g c o ns e nt j u d g m e nt
t o n ot e nf or c e Wit n ess R e q uir e m e nt a n d R e c ei pt d e a dli n e f or pri m ar y el e cti o n); Sti p ul ati o n a n d
P arti al C o ns e nt J u d g m e nt, L a R os e v. Si m o n , N o. 6 2-C V - 2 0-3 1 4 9 ( 2 d J u d. Dist. Mi n n. J ul y 1 7,
2 0 2 0) ( a p pr o vi n g si mil ar c o ns e nt j u d g m e nt f or N o v e m b er g e n er al el e cti o n);

C a s e 4: 2 0- c v- 0 0 1 8 2- D

6
D o c u Am ep ntp. 1-2 29 3 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 2 of 4 3

W H E R E AS

t h e d eli v er y st a n d ar ds f or t h e P ost al S er vi c e, e v e n i n or di n ar y ti m es ,

c o nt e m pl at e at a mi ni m u m at l e ast a w e e k f or b all ots t o b e pr o c ess e d t hr o u g h t h e p ost al s yst e m
a n d d eli v er e d t o el e cti o n offi ci als 5 ;
W H E R E AS

t h e G e n er al C o u ns el of t h e P ost al S er vi c e s e nt a l ett er o n J ul y 3 0, 2 0 2 0 t o

N ort h C ar oli n a’s S e cr et ar y of St at e w ar n i n g t h at, u n d er N ort h C ar oli n a’s “ el e cti o n l a ws, c ert ai n
d e a dli n es f or r e q u esti n g a n d c asti n g m ail -i n b all ots ar e i n c o n gr u o us wit h t h e P ost al S er vi c e’s
d eli v er y st a n d ar ds , ” a n d t h at “t h er e is a si g nifi c a nt ris k ” t h at “ b all ots m a y b e r e q u est e d i n a
m a n n er t h at is c o nsist e nt wit h y o ur el e cti o n r ul es a n d r et ur n e d pr o m ptl y, a n d y et n ot b e r et ur n e d
i n ti m e t o b e c o u nt e d. ”6 I n p arti c ul ar, t h e P ost al S er vi c e r e c o m m e n d e d t h at el e cti o n offi ci als
tr a ns mitti n g c o m m u ni c ati o n t o v ot ers “ all o w 1 w e e k f or d eli v er y t o v ot ers, ” a n d t h at ci vili a n
v ot ers “s h o ul d g e n er all y m ail t h eir c o m pl et e d b all ots at l e ast o n e w e e k b ef or e t h e st at e’s d u e
d at e. I n st at es t h at all o w m ail -i n b all ots t o b e c o u nt e d if t h e y ar e b ot h p ost m ar k e d b y El e cti o n
D a y a n d r e c ei v e d b y el e cti o n offi ci als b y a s p e cifi c d at e t h at is l ess t h a n a w e e k aft er El e cti o n
D a y, v ot ers s h o ul d m ail t h eir b all ots at l e ast o n e w e e k b ef or e t h e y m ust b e r e c ei v e d b y el e c ti o n
offi ci als. ” I d.;
W H E R E AS

m ail d eli v er y c o n diti o ns ar e alr e a d y l e a di n g t o gr e at er d el a ys: si n c e mi d-

J ul y t h er e h a v e b e e n s h ar p d e cr e as es i n t h e p er c e nt a g e of U . S. Post al S er vi c e m ail, s e nt b y a n y
m et h o d, d eli v er e d o n ti m e;

7

5

St at e a n d L o c al El e cti o n M ail — Us er’s G ui d e , U. S. P ost al S er v. (J a n. 2 0 2 0),
htt ps:// a b o ut. us ps. c o m/ p u bli c ati o ns/ p u b 6 3 2. p df.
6
L ett er t o N ort h C ar oli n a S e cr et ar y of St at e fr o m U S P S G e n er al C o u ns el, A p p’ x t o C o m pl.,
E C F N o. 1 -1 at 5 3 - 5 5, C o m m o n w e alt h of P e n ns yl v a ni a v. D e J o y , N o. 2: 20- c v - 0 4 0 9 6-G A M
( E. D. P a. A u g. 2 1, 2 0 2 0).
7
S er vi c e P erf or m a n c e M e as ur e m e nt P M G Bri efi n g , U. S. P ost al S er v. (A u g. 1 2, 2 0 2 0 ),
htt ps:// o v ersi g ht. h o us e. g o v/sit es/ d e m o cr ats. o v ersi g ht. h o us e. g o v/fil es/ d o c u m e nts/ P M G % 2 0 Bri efi
n g _ S er vi c e % 2 0 P erf or m a n c e % 2 0 M a n a g e m e nt _ 0 8 _ 1 2 _ 2 0 2 0. p df.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

7
D o c u Am ep ntp. 1-2 29 4 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 3 of 4 3

W H E R E A S o n A u g ust 2 1, 2 0 2 0, t h e St at e of N ort h C ar oli n a, al o n g wit h si x ot h er st at es
fil e d a l a ws uit c h all e n gi n g t h e P ost al S er vi c e’s pr o c e d ur al c h a n g es t h at t h e St at e all e g es will
li k el y d el a y el e cti o n m ail e v e n f urt h er, cr e ati n g a “si g nifi c a nt ris k ” t h at N ort h C ar oli n a v ot ers
will b e dis e nfr a n c his e d b y t h e St at e’s r el e v a nt d e a dli n es g o v er ni n g a bs e nt e e b all ots ;
W H E R E AS

i n cr e as es i n a bs e nt e e v oti n g, c o u pl e d wit h m ail d el a ys, t hr e at e n t o sl o w

d o w n t h e pr o c ess of m aili n g a n d r et ur ni n g a bs e nt e e b all ots , a n d a p p e ar li k el y t o i m p a ct t h e 2 0 2 0
el e cti o ns ;
W H E R E AS

p urs u a nt t o N. C.

Ge n . St at. § 1 6 3-2 3 1( b)( 2)( c) , N ort h C ar oli n a alr e a d y

a c c e pts milit ar y a n d o v ers e as a bs e nt e e b all ots u ntil t h e e n d of b usi n ess o n t h e b usi n ess d a y
b ef or e t h e c a n v a ss w hi c h o c c urs n o e arli er t h a n t h e t e nt h d a y aft er t h e el e cti o n, s e e i d. § 1 6 31 8 2. 5( b);
W H E R E AS

f or t h e A pril 7, 2 0 2 0 pri m ar y el e cti o n i n

Wis c o nsi n, t h e U. S. S u pr e m e

C o urt affir m e d t h e i m pl e m e nt ati o n of a p ost m ar k r ul e, w h er e b y b all ots p ost m ar k e d b y El e cti o n
D a y c o ul d b e c o u nt e d as l o n g as t h e y w er e r e c ei v e d wit hi n si x d a ys of El e cti o n D a y , R e p u bli c a n
N at’l C o m m. v. D e m o cr ati c N at’l C o m m. , 1 4 0 S. Ct. 1 2 0 5, 1 2 0 7 ( 2 0 2 0), a n d ot h er c o urts h a v e
als o e xt e n d e d El e cti o n D a y R e c ei pt D e a dli n es i n li g ht of t h e c urr e nt p u bli c h e alt h crisis . S e e
Mi c h . All . f or R etir e d A m eri c a ns v. B e ns o n, N o. 2 0- 0 0 0 1 0 8-M M ( Mi c h. Ct. Cl. S e pt. 1 8, 2 0 2 0)
(e xt e n di n g b all ot r e c ei pt d e a dli n e f or N o v e m b er 2 0 2 0 el e cti o n); P a. D e m o cr ati c P art y v.
B o o c k v ar, K. , 1 3 3 M M 2 0 2 0, 2 0 2 0 W L 5 5 5 4 6 4 4 ( P a. S e pt. 1 7, 2 0 2 0) (e xt e n di n g b all ot r e c ei pt
d e a dli n e f or t h e N o v e m b er 2 0 2 0 el e cti o n ); N e w G a. Pr oj e ct v.

R aff e ns p er g er, N o. 1: 2 0-c v -

0 1 9 8 6- E L R ( N. D. G a, A u g. 3 1, 2 0 2 0) ( gr a nti n g m oti o n f or pr eli mi n ar y i nj u n cti o n i n p art a n d
e xt e n di n g r e c ei pt d e a dli n e); Dris c oll v. St a pl et o n , N o. D V 2 0-4 0 8 ( M o nt. Dist. Ct.
2 0 2 0 ), st a y e d p e n di n g a p p e al N o. D A 2 0 -0 2 9 5 ( pr eli mi n aril y e nj oi ni n g

C a s e 4: 2 0- c v- 0 0 1 8 2- D

8
D o c u Am ep ntp. 1-2 29 5 Fil e d 0 9/ 2 6/ 2 0

M a y 2 2,

M o nt a n a’s r e c ei pt

P a g e 1 4 of 4 3

d e a dli n e a n d r e c o g ni zi n g t h at e nf or ci n g t h e d e a dli n e w a s li k el y t o dis e nfr a n c his e t h o us a n ds of
v ot ers); L a R os e v. Si m o n , N o. 6 2-C V - 2 0-3 1 4 9 at * 2 5 ( Mi n n. Dist. Ct. A u g. 3, 2 0 2 0) ( e nt eri n g
c o ns e nt j u d g m e nt e xt e n di n g Mi n n es ot a’s r e c ei pt d e a dli n e);
W H E R E AS

m ulti pl e c o urts h a v e f o u n d t h at

t h e e nf or c e m e nt of v ari o us ot h er st at e

el e cti o n l a ws d uri n g t h e p a n d e mi c vi ol at e c o nstit uti o n al ri g hts. S e e, e. g., Ess h a ki v. W hit m er , 8 1 3
F. A p p’ x 1 7 0, 1 7 3 ( 6t h Cir. 2 0 2 0) (fi n di n g b all ot -a c c ess pr o visi o ns u n c o nstit uti o n al as a p pli e d
d uri n g C O VI D -1 9 p a n d e mi c a n d u p h ol di n g p art of i nj u n cti o n e nj oi ni n g st at e fr o m e nf or ci n g t h e
pr o visi o ns u n d er t h e pr es e nt cir c u mst a n c es a g ai nst pl ai ntiffs a n d all ot h er c a n di d at es); G ar b ett v.
H er b ert , N o. 2: 2 0-C V - 2 4 5-RJ S, 2 0 2 0 W L 2 0 6 4 1 0 1, at * 1 8 ( D. Ut a h A pr. 2 9, 2 0 2 0) ; Li b ert ari a n
P art y of Ill. v. Pritz k er , N o. 2 0-c v -2 1 1 2, 2 0 2 0 W L 1 9 5 1 6 8 7 ( N. D. Ill. A pr. 2 3, 2 0 2 0) ( a p pl yi n g
A n d ers o n- B ur di c k i n li g ht of p a n d e mi c, a n d all e vi ati n g si g n at ur e a n d wit n ess r e q uir e m e nts f or
mi n or p art y c a n di d at es), aff’ d s u b n o m. Li b ert ari a n P art y of Ill. v. C a di g a n , N o. 2 0-1 9 6 1, 2 0 2 0
W L 5 1 0 4 2 5 1 ( 7t h Cir. A u g. 2 0, 2 0 2 0);
2020

P e o pl e N ot P oliti ci a ns Or e g o n v. Cl ar n o , 2 0-c v - 1 0 5 3,

W L 3 9 6 0 4 4 0 ( D. Or. J ul y 1 3, 2 0 2 0); C o o p er v. R aff e ns p er g er , -- F. S u p p. 3 d --, 2 0-c v -

1 3 1 2, 2 0 2 0 W L 3 8 9 2 4 5 4 ( N. D. G a. J ul y 9, 2 0 2 0); R e cl ai m I d a h o v. Littl e , 2 0-c v -2 6 8, 2 0 2 0 W L
3 4 9 0 2 1 6 ( D. I d a h o J u ne 2 6 , 2 0 2 0); P a h er v. C e g a vs k e , -- F. S u p p. 3 d --, 2 0-c v -2 4 3, 2 0 2 0 W L
2 0 8 9 8 1 3 ( D. N e v. A pr. 3 0, 2 0 2 0 ); G ol dst ei n v. S e c’ y of C o m m o n w e alt h , 4 8 4 M ass. 5 1 6, 1 4 2
N. E. 3 d 5 6 0 ( 2 0 2 0);
W H E R E AS

t h e St at e B o ar d of El e cti o ns h as br o a d , g e n er al s u p er vis or y a ut h orit y o v er

el e cti o ns as s et f ort h i n N. C. G e n . St at. § 1 6 3- 2 2( a). As p art of its s u p er vis or y a ut h orit y, t h e St at e
B o ar d is e m p o w er e d t o “ c o m p el o bs er v a n c e ” b y c o u nt y b o ar ds of el e cti o n l a ws a n d pr o c e d ur es
as s et f ort h i n N. C. G e n. St at. § 1 6 3- 2 2( c).

C a s e 4: 2 0- c v- 0 0 1 8 2- D

9
D o c u Am ep ntp. 1-2 29 6 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 5 of 4 3

W H E R E AS

t h e E x e c uti v e Dir e ct or of t h e St at e B o ar d, as t h e c hi ef St at e el e cti o ns

offi ci al, h as t h e a ut h orit y t o iss u e E m er g e n c y Or d er s p urs u a nt t o N. C. G e n. St at. § 1 6 3 -2 7. 1 a n d
0 8 N C A C 0 1. 0 1 0 6, w hi c h a ut h ori z e h er t o e x er cis e e m er g e n c y p o w ers t o c o n d u ct a n el e cti o n
w h er e t h e n or m al s c h e d ul e is disr u pt e d . S e e, e. g. , N u m b ere d M e m o 2 0 2 0- 1 4 ; N u m b er e d M e m o
2 0 2 0- 1 9;
W H E R E AS

t h e C o ns e nt P arti es a gr e e t h at a n e x p e diti o us r es ol uti o n of t his m att er f or

t h e 2 0 2 0 el e cti o ns, i n t h e m a n n er c o nt e m pl at e d b y t h e t er ms of t his Sti p ul ati o n a n d C o ns e nt
J u d g m e nt, will li mit c o nf usi o n a n d i n cr e as e c ert ai nt y s urr o u n di n g t h e 2 0 2 0 el e cti o ns a n d is i n t h e
b est i nt er ests of t h e h e alt h, s af et y, a n d c o nstit uti o n al ri g hts of t h e citi z e ns of N ort h C ar oli n a , a n d,
t h er ef ore, i n t h e p u bli c i nt er est;
W H E R E AS

t h e E x e c uti v e

D ef e n d a nts

b eli e v e t h at c o nti n u e d liti g ati o n o v er t h e

C h all e n g e d Pr o visi o ns will r es ult i n t h e u n n e c ess ar y e x p e n dit ur e of St at e r es o ur c es, a n d is
c o ntr ar y t o t h e b est i nt er ests of t h e St at e of N ort h C ar oli n a;
W H E R E AS

t h e C o ns e nt P arti es wis h t o a v oi d u n c ert ai nt y a b o ut t h e r e q uir e m e nts a n d

o bli g ati o ns of v oti n g i n t h e 2 0 2 0 el e cti o ns f or St at e B o ar d offi ci als a n d n o n-p arti es i n cl u di n g
c o u nt y b o ar d offi ci als, st aff, a n d el e cti o n w or k ers, a n d t h e v oti n g p u bli c;
W H E R E AS

t h e C o ns e nt P arti es , i n a gr e ei n g t o t h es e t er ms, a cti n g b y a n d t hr o u g h t h eir

c o u ns el, h a v e e n g a g e d i n ar ms’ l e n gt h n e g oti ati o ns, a n d t h e C o ns e nt P arti es ar e r e pr es e nt e d b y
c o u ns el k n o wl e d g e a bl e i n t his ar e a of t h e l a w;
W H E R E A S , ot h er c o urts a cr oss t h e c o u ntr y h a v e a p pr o v e d si mil ar c o ns e nt j u d g m e nts
b et w e e n p arti es , s e e C o m m o n C a us e R.I. v. G or b e a , N o. 1 2 0 C V 0 0 3 1 8 M S M L D A, 2 0 2 0
4 4 6 0 9 1 4 ( D. R.I. J ul y 3 0, 2 0 2 0) ( a p pr o vi n g c o ns e nt j u d g m e nt t o n ot e nf or c e

WL

Wit n ess

R e q uir e m e nt i n pri m ar y a n d N o v e m b er g e n er al el e cti o ns) ; Sti p ul ati o n a n d P arti al C o ns e nt

C a s e 4: 2 0- c v- 0 0 1 8 2- D

10
D o c u Am ep ntp. 1-2 29 7 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 6 of 4 3

J u d g m e nt, L a R os e v. Si m o n , N o. 6 2 -C V - 2 0- 3 1 4 9 (2 d J u d. Dist. Mi n n. J u n e 1 7, 2 0 2 0) ( a p pr o vi n g
c o ns e nt j u d g m e nt t o n ot e nf or c e

Wit n ess R e q uir e m e nt a n d R e c ei pt d e a dli n e f or pri m ar y

el e cti o n); Sti p ul ati o n a n d P arti al C o ns e nt J u d g m e nt, L a R os e v. Si m o n , N o. 6 2-C V - 2 0-3 1 4 9 ( 2 d
J u d. Dist.

Mi n n. J ul y 1 7, 2 0 2 0) ( a p pr o vi n g si mil ar c o ns e nt j u d g m e nt f or N o v e m b er g e n er al

el e cti o n); L e a g u e of W o m e n V ot ers of V a. , 2 0 2 0 W L 2 1 5 8 2 4 9 ( a p pr o vi n g c o ns e nt j u d g m e nt t o
n ot e nf or c e Wit n ess R e q uir e m e nt i n pri m ar y el e cti o n); s e e als o C o m m o n C a us e R.I. v. G or b e a ,
9 7 0 F. 3 d 1 1, 1 4 ( 1st Cir. 2 0 2 0) ( d e n yi n g m oti o n t o st a y t h e c o ns e nt j u d g m e nt a n d j u d g m e nt
p e n di n g a p p e al) st a y d e ni e d s u b n o m. R e p u bli c a n N at’l C o m m. v. C o m m o n C a us e R .I., N o.
2 0 A 2 8, 2 0 2 0 W L 4 6 8 0 1 5 1 ( U. S. A u g. 1 3, 2 0 2 0);
W H E R E AS

t h e E x e c uti v e D ef e n d a nts d o n ot w ai v e a n y pr ot e cti o ns off er e d t o t h e m

t hr o u g h f e d er al or st at e l a w a n d d o n ot m a k e a n y r e pr es e nt ati o ns r e g ar di n g t h e m erits of
Pl ai ntiffs’ cl ai ms or p ot e nti al d ef e ns es w hi c h c o ul d b e r ais e d i n liti g ati o n;
W H E R E AS

t h e C o ns e nt P arti es a gr e e t h at t h e C o ns e nt J u d g m e nt pr o m ot es j u di ci al

e c o n o m y, pr ot e cts t h e li mit e d r es o ur c es of t h e C o ns e nt P arti es, a n d r es ol v es Pl ai ntiffs’ cl ai ms
r e g ar di n g t h e 2 0 2 0 el e cti o ns a g ai nst t h e E x e c uti v e Br a n c h D ef e n d a nts;
W H E R E AS

Pl ai ntiffs a gr e e t o a w ai v er t o a n y e ntitl e m e nt t o d a m a g es a n d f e es,

i n cl u di n g att or n e ys’ f e es, e x p e ns es, a n d c osts a g ai nst t h e E x e c uti v e D ef e n d a nts wit h r es p e ct t o
a n y a n d all cl ai ms r ais e d b y Pl ai ntiffs i n t his a cti o n r el ati n g t o t h e 2 0 2 0 el e cti o ns ;
W H E R E A S it is t h e fi n di n g of t his C o urt, m a d e o n t h e pl e a di n gs a n d u p o n a gr e e m e nt of
t h e C o ns e nt P arti es , t h at: (i) t h e t er ms of t his C o ns e nt J u d g m e nt c o nstit ut e a f air a n d e q uit a bl e
s ettl e m e nt of t h e iss u es r ais e d wit h r es p e ct t o t h e 2 0 2 0 el e cti o ns , a n d (ii) t h e C o ns e nt J u d g m e nt
is i nt e n d e d t o a n d d o es r es ol v e Pl ai ntiffs’ cl ai ms;

C a s e 4: 2 0- c v- 0 0 1 8 2- D

11
D o c u Am ep ntp. 1-2 29 8 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 7 of 4 3

N O W, T H E R E F O R E , u p o n c o ns e nt of t h e C o ns e nt P arti es , i n c o nsi d er ati o n of t h e
m ut u al pr o mis es a n d r e cit als c o nt ai n e d i n t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, i n cl u di n g
r eli n q uis h me nt of c ert ai n l e g al ri g hts, t h e C o ns e nt P arti es a gr e e as f oll o ws:
II.
J U RI S DI C TI O N A N D V E N U E
T his C o urt h as j uris di cti o n o v er t h e s u bj e ct m att er of t his a cti o n p urs u a nt t o Arti cl e 2 6 of
C h a pt er 1 of t h e G e n er al St at ut es, N. C. G e n. St at. § 7 A - 2 4 5( a)( 2), a n d N. C. G e n. St at. § 1 - 4 9 3,
a n d h as j uris di cti o n o v er t h e C o ns e nt P arti es h er ei n. Ve n u e f or t his a cti o n is pr o p er i n W a k e
C o u nt y S u p eri or C o urt b e c a us e t h e E x e c uti v e D ef e n d a nts r esi d e i n W a k e C o u nt y . I d. § 1- 8 2.
T h e C o urt s h all r et ai n j uris di cti o n of t hi s Sti p ul ati o n a n d C o ns e nt J u d g m e nt f or t h e d ur ati o n of
t h e t er m of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt f or p ur p os es of e nt eri n g all or d ers a n d
j u d g m e nts t h at m a y b e n e c ess ar y t o i m pl e m e nt a n d e nf or c e c o m pli a n c e wit h t h e t er ms pr o vi d e d
h er ei n.
III.
P A R TI E S
T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt a p pli es t o a n d is bi n di n g u p o n t h e f oll o wi n g
p arti es:
A.

D a m o n Cir c ost a, i n his c a p a cit y as C h air of t h e N ort h C ar oli n a St at e B o ar d of

El e cti o ns ;
B.

T h e N ort h C ar oli n a St at e B o ar d of El e cti o ns; a n d

C.

Al l Pl ai ntiffs.
I V.
S C OP E OF C O NS E N T J U D G M E N T

C a s e 4: 2 0- c v- 0 0 1 8 2- D

12
D o c u Am ep ntp. 1-2 29 9 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 8 of 4 3

A.

T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt c o nstit ut es a s ettl e m e nt a n d r es ol uti o n of

Pl ai ntiffs’ cl ai ms a g ai nst E x e c uti v e D ef e n d a nt s p e n di n g i n t his L a ws uit. Pl ai ntiffs r e c o g ni z e t h at
b y si g ni n g t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, t h e y ar e r el e asi n g a n y cl ai ms u n d er t h e N ort h
C ar oli n a C o nstit u ti o n t h at t h e y mi g ht h a v e

a g ai nst E x e c uti v e D ef e n d a nt s wit h r es p e ct t o t h e

C h all e n g e d Pr o visi o ns i n t h e 2 0 2 0 el e cti o ns . Pl ai ntif fs’ r el e as e of cl ai ms will b e c o m e fi n al u p o n
t h e eff e cti v e d at e of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt.
B.

T h e C o ns e nt P arti es t o t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt a c k n o wl e d g e t h at

t his d o es n ot r es ol v e or p ur p ort t o r es ol v e a n y cl ai ms p ert ai ni n g t o t h e c o nstit uti o n alit y or
e nf or c e m e nt of t h e C h all e n g e d Pr o visi o ns f or el e cti o ns h el d aft er t h e 2 0 2 0 el e cti o ns .
C.

T he

C o ns e nt

P arti es

t o t his

Sti p ul ati o n a n d

C o ns e nt J u d g m e nt f urt h er

a c k n o wl e d g e t h at b y si g ni n g t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, t h e C o ns e nt P arti es d o n ot
r el e as e or w ai v e t h e f oll o wi n g: (i) a n y ri g hts, cl ai ms , or d ef e ns es t h at ar e b as e d o n a n y e v e nts
t h at o c c ur aft er t h e y si g n t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, (ii) a n y cl ai ms or d ef e ns es t h at
ar e u nr el at e d t o t h e all e g ati o ns fil e d b y Pl ai ntiffs i n t his L a ws uit , a n d ( iii) a n y ri g ht t o i nstit ut e
l e g al a cti o n f or t h e p ur p os e of e nf or ci n g t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt or d ef e ns es
t h er et o.
D.

B y e nt eri n g t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, Pl ai ntiffs ar e f ull y s ettli n g a

dis p ut e d m att er b et w e e n t h e ms el v es a n d E x e c uti v e D ef e n d a nt s. T h e C o ns e nt P arti es ar e e nt eri n g
t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt f or t h e p ur p os e of r es ol vi n g dis p ut e d cl ai ms, a v oi di n g t h e
b ur d e ns a n d c osts ass o ci at e d wit h t h e c osts of liti g ati n g t his m att er t hr o u g h fi n al j u d g m e nt, a n d
e ns uri n g b ot h s af et y a n d c ert ai nt y i n a d v a n c e of t h e 2 0 2 0 el e cti o ns. N ot hi n g i n t his Sti p ul ati o n
a n d C o ns e nt J u d g m e nt c o nstit ut es a n a d missi o n b y a n y p art y of li a bilit y or wr o n g d oi n g. T h e
C o ns e nt P arti es ac k n o wl e d g e t h at a c o urt m a y s e e k t o c o nsi d er t his Sti p ul ati o n a n d C o ns e nt

C a s e 4: 2 0- c v- 0 0 1 8 2- D

13
D o c u Am ep ntp. 1-3 20 0 Fil e d 0 9/ 2 6/ 2 0

P a g e 1 9 of 4 3

J u d g m e nt, i n cl u di n g t h e vi ol ati o ns all e g e d i n Pl ai ntiffs’ A m e n d e d C o m pl ai nt, i n a f ut ur e
pr o c e e di n g disti n ct fr o m t his L a ws uit.
V.
C O N S E N T J U D G M E N T O B J E C TI V E S
I n a d diti o n t o s ettli n g t h e cl ai ms of t h e C o ns e nt P arti es, t h e o bj e cti v e of t his Sti p ul ati o n
a n d C o ns e nt J u d g m e nt is t o a v oi d a n y c o nti n u e d u n c ert ai nt y a n d distr a cti o n fr o m t h e u nif or m
a d mi nistr ati o n of t h e 2 0 2 0 el e cti o ns, pr ot e ct t h e li mit e d r es o ur c es of t h e C o ns e nt P arti es, e ns ur e
t h at N ort h C ar oli n a

v ot ers c a n s af el y a n d c o nstit uti o n all y e x er cis e t h e fr a n c his e i n t h e 2 0 2 0

el e cti o ns , a n d e ns ur e t h at el e cti o n offi ci als h a v e s uffi ci e nt ti m e t o i m pl e m e nt a n y c h a n g es f or t h e
2 0 2 0 el e cti o ns a n d e d u c at e v ot ers a b o ut t h es e c h a n g es.
VI.
I N J U N C TI V E R E LI E F
A C C O R DI N G L Y, I T I S H E R E B Y O R D E R E D, A D J U D G E D, A N D J U D G E D F O R
T H E R E A S O N S S T A T E D A B O V E T H A T:
A.

F or t h e 2 0 2 0 el e cti o ns E x e c uti v e D ef e n d a nts s h all e xt e n d t h e R e c ei pt D e a dli n e

f or m ail e d a bs e nt e e b all ots, as s et f ort h i n N. C. G e n. St at. § 1 6 3 - 2 3 1( b)( 2), t o t h e d e a dli n e s et
f ort h i n p ar a gr a p h VI . B b el o w a n d i n N u m b er e d M e m o 2 0 2 0- 2 2 ( att a c h e d as E x hi bit A) .
B.

P urs u a nt t o N u m b er e d

M e m o 2 0 2 0- 2 2, a n a bs e nt e e b all ot s h all b e c o u nt e d as

ti m el y i n t h e 2 0 2 0 el e cti o ns if it is eit h er ( 1) r e c ei v e d b y t h e c o u nt y b o ar d b y 5: 0 0 p. m. o n
El e cti o n D a y; or ( 2) t h e b all ot is p ost m ar k e d o n or b ef or e El e cti o n D a y a n d r e c ei v e d b y ni n e
d a ys aft er t h e el e cti o n, w hi c h is T h urs d a y, N o v e m b er 1 2, 2 0 2 0 at 5: 0 0 p. m. F or p ur p os es of t his
St i p ul ati o n a n d C o ns e nt J u d g m e nt a n d as t h e N u m b er e d

M e m o r e q uir es , a b all ot s h all b e

c o nsi d er e d p ost m ar k e d o n or b ef or e El e cti o n D a y if it h as a p ost m ar k affi x e d t o it or if t h er e is
i nf or m ati o n i n t h e P ost al S er vi c e tr a c ki n g s yst e m ( B all ot Tr a x), or an ot h er tr a c ki n g s er vi c e

C a s e 4: 2 0- c v- 0 0 1 8 2- D

14
D o c u Am ep ntp. 1-3 20 1 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 0 of 4 3

off er e d b y t h e P ost al S er vi c e or t h e c o m m er ci al c arri er, i n di c ati n g t h at t h e b all ot w as i n t h e
c ust o d y of t h e P ost al S er vi c e or a c o m m er ci al c arri er o n or b ef or e El e cti o n D a y.
C.

F or t h e 2 0 2 0 el e cti o ns , E x e c uti v e D ef e n d a nts s h all i nstit ut e a pr o c ess t o c ur e

d efi ci e n ci es t h at m a y b e c ur e d wit h a c ertifi c ati o n fr o m t h e v ot er i n a c c or d a n c e wit h t h e
pr o c e d ur es s et f ort h i n N u m b er e d M e m o 2 0 2 0- 1 9 ( att a c h e d as E x hi bit B). C ur a bl e d efi ci e n ci es
i n cl u d e: n o v ot er si g n at ur e, mis pl a c e d v ot er si g n at ur e, n o wit n ess or assist a nt n a m e, n o wit n ess
or assist a nt a d dr ess, n o wit n ess or assist a nt si g n at ur e, a n d mis pl a c e d

wit n ess or assist a nt

si g n at ur e. If a c o u nt y b o ar d offi c e r e c ei v es a c o nt ai n er-r et ur n e n v el o p e with s u c h a c ur a bl e
d efi ci e n c y, it s h all c o nt a ct t h e v ot er i n writi n g b y m ail a n d, if a v ail a bl e, e m ail, wit hi n o n e
b usi n ess d a y of i d e ntif yi n g t h e d efi ci e n c y , i nf or mi n g t h e v ot er t h at t h er e is a n iss u e wit h t h eir
a bs e nt e e b all ot a n d e n cl osi n g a c ur e c ertifi c ati o n . T h e writt e n n oti c e s h all b e s e nt t o t h e a d dr ess
t o w hi c h t h e v ot er r e q u est e d t h eir b all ot b e s e nt. T h e c ur e c ertifi c ati o n m ust b e r e c ei v e d b y t h e
c o u nt y b o ar d of el e cti o ns b y n o l at er t h a n 5 p. m. o n T h urs d a y, N o v e m b er 1 2, 2 0 2 0, t h e d a y
b ef or e c o u nt y c a n v ass. T h e c ur e c ertifi c ati o n m a y b e s u b mitt e d t o t h e c o u nt y b o ar d offi c e b y f a x,
e m ail, i n p ers o n, or b y m ail or c o m m er ci al c arri er.
D.

P urs u a nt t o N u m b er e d

Me m o

2 0 2 0- 2 3, ( att a c h e d as E x hi bit

C) E x e c uti v e

D ef e n d a nts s h all i nstit ut e a pr o c ess f or est a blis hi n g a s e p ar at e abs e nt e e b all ot dr o p -off st ati o n at
e a c h o n e- st o p e arl y v oti n g l o c ati o n a n d at c o u nt y b o ar d offi c es. S u c h dr o p- off st ati o ns m a y b e
l o c at e d o ut d o ors s u bj e ct t o t h e c o n diti o ns s et f ort h i n N u m b er e d M e m o 2 0 2 0- 2 3. I n a d diti o n,
w h e n a p ers o n r et ur ns a b all ot i n p ers o n, t h e c o u nt y b o ar d i nt a k e st aff er s h all as k t h e p ers o n f or
t h eir n a m e a n d w h et h er t h e y ar e t h e v ot er or t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n. T h e
st aff er will i n di c at e t his i nf or m ati o n o n a l o g al o n g wit h t h e CI V n u m b er of t h e b all ot a n d t h e
d at e t h at it w as r e c ei v e d. If t h e p ers o n r et ur ni n g t h e b all ot i n p ers o n i n di c at es t h at t h e y ar e n ot

C a s e 4: 2 0- c v- 0 0 1 8 2- D

15
D o c u Am ep ntp. 1-3 20 2 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 1 of 4 3

t h e v ot er or t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n, t h e c o u nt y b o ar d i nt a k e st aff er will als o
r e q uir e t h e p ers o n t o pr o vi d e t h eir a d dr ess a n d p h o n e n u m b er.
E.

E x e c uti v e D ef e n d a nt s s h all t a k e a d diti o n al r e as o n a bl e st e ps t o i nf or m t h e p u bli c

of t h e c o nt e nts of N u m b er e d M e m os 2 0 2 0 - 1 9, -2 2 , - 2 3 a n d s h all e n c o ur a g e all c o u nt y b o ar ds of
el e cti o ns t o d o t h e s a m e.
F.

Pl ai ntiffs will wit h dr a w t h eir M oti o n f or Pr eli mi n ar y I nj u n cti o n, fil e d o n A u g ust

1 8 , 2 0 2 0, a n d will n ot fil e a n y f urt h er m oti o ns f or r eli ef f or t h e 2 0 2 0 el e cti o ns b as e d o n t h e
cl ai ms r ais e d i n t h eir A m e n d e d C o m pl ai nt of A u g ust 1 8, 2 0 2 0.
G.

I n a c c or d a n c e wit h t h e t er ms of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, t h e

C o ns e nt P arti es s h all e a c h b e ar t h eir o w n f e es, e x p e ns es, a n d c osts i n c urr e d as of t h e d at e of t his
Or d er wit h r es p e ct t o t his l a ws uit.
H.

All r e m ai ni n g cl ai ms fil e d b y Pl ai ntiffs a g ai nst t h e E x e c uti v e D ef e n d a nts r el at e d

t o t h e c o n d u ct of t h e 2 0 2 0 el e cti o ns i n t his a cti o n ar e h er e b y dis miss e d wit h pr ej u di c e. T h e C o urt
will r et ai n j uris di cti o n of t h es e cl ai ms o nl y as t o e nf or c e m e nt of t h e Sti p ul ati o n a n d C o ns e nt
J u d g m e nt.
VII.
E N F O R C E M E N T A N D R E S E R V A TI O N O F R E M E DI E S
T h e p arti es t o t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt m a y r e q u est r eli ef fr o m t his C o urt if
iss u es aris e c o n c er ni n g t h e i nt er pr et ati o n of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt t h at c a n n ot b e
r es ol v e d t hr o u g h t h e pr o c ess d es cri b e d b el o w. T his C o urt s p e cifi c all y r et ai ns c o nti n ui n g
j uris di cti o n o v er t h e s u bj e ct m att er h er e of a n d t h e C o ns e nt P arti es h er et o f or t h e p ur p os es of
i nt er pr eti n g, e nf or ci n g, or m o dif yi n g t h e t er ms of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, or f or
gr a nti n g a n y ot h er r eli ef n ot i n c o nsist e nt wit h t h e t er ms of t his C o ns e nt J u d g m e nt, until t his
C o ns e nt J u d g m e nt is t er mi n at e d. T h e C o ns e nt P arti es m a y a p pl y t o t his C o urt f or a n y or d ers or

C a s e 4: 2 0- c v- 0 0 1 8 2- D

16
D o c u Am ep ntp. 1-3 20 3 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 2 of 4 3

ot h er r eli ef n e c ess ar y t o c o nstr u e or eff e ct u at e t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt or s e e k
i nf or m al c o nf er e n c es f or dir e cti o n as m a y b e a p pr o pri at e. T h e C o ns e nt P arti es s h all att e m pt t o
m e et a n d c o nf er r e g ar di n g a n y dis p ut e pri or t o s e e ki n g r eli ef fr o m t h e C o urt.
If a n y P art y b eli e v es t h at a n ot h er h as n ot c o m pli e d wit h t h e r e q uir e m e nts of t his
Sti p ul ati o n a n d C o ns e nt J u d g m e nt, it s h all n otif y t h e ot h er P art y of its n o n c o m pli a n c e b y
e m ail i n g t h e P art y’s c o u ns el. N oti c e s h all b e gi v e n at l e ast o n e b usi n ess d a y pri or t o i niti ati n g
a n y a cti o n or fili n g a n y m oti o n wit h t h e C o urt.
T h e C o ns e nt P arti es s p e cifi c all y r es er v e t h eir ri g ht t o s e e k r e c o v er y of t h eir liti g ati o n
c osts a n d e x p e ns es arisi n g fr o m a n y vi ol ati o n of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt t h at
r e q uir es a n y P art y t o fil e a m oti o n wit h t his C o urt f or e nf or c e m e nt of t his Sti p ul ati o n a n d
C o ns e nt J u d g m e nt.
VIII.
G E N E R A L T E R MS
A.

V ol u nt a r y A g r e e m e nt . T h e C o ns e nt P arti es a c k n o wl e d g e t h at n o p ers o n h as

e x ert e d u n d u e pr ess ur e o n t h e m t o e nt er i nt o t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt. E v er y P art y
is v ol u nt aril y c h o osi n g t o e nt er i nt o t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt b e c a us e of t h e
b e n efits t h at ar e pr o vi d e d u n d er t h e a gr e e m e nt. T h e C o ns e nt P arti es a c k n o wl e d g e t h at t h e y h a v e
r e a d a n d u n d erst a n d t h e t er ms of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt; t h e y h a v e b e e n
r e pr es e nt e d b y l e g al c o u ns el or h a d t h e o p p ort u nit y t o o bt ai n l e g al c o u ns el ; a n d t h e y ar e
v ol u nt aril y e nt eri n g i nt o t hi s Sti p ul ati o n a n d C o ns e nt J u d g m e nt t o r es ol v e t h e dis p ut e a m o n g
t h e m.
B.

S e v e r a bilit y . T h e pr o visi o ns of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt s h all b e

s e v er a bl e, a n d , s h o ul d a n y pr o visi o ns b e d e cl ar e d b y a c o urt of c o m p et e nt j uris di cti o n t o b e

C a s e 4: 2 0- c v- 0 0 1 8 2- D

17
D o c u Am ep ntp. 1-3 20 4 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 3 of 4 3

u n e nf or c e a bl e, t h e r e m ai ni n g pr o visi o ns of t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt s h all r e m ai n
i n f ull f or c e a n d eff e ct.
C.

A g r e e m e nt . T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt is bi n di n g. T h e C o ns e nt

P arti es a c k n o wl e d g e t h at t h e y h a v e b e e n a d vis e d t h at ( i) n o ot h er P art y h a s a d ut y t o pr ot e ct t h eir
i nt er est or pr o vi d e t h e m wit h i nf or m ati o n a b o ut t h eir l e g al ri g hts, (ii) si g ni n g t his Sti p ul ati o n a n d
C o ns e nt J u d g m e nt m a y a d v ers el y aff e ct t h eir l e g al ri g hts , a n d (iii) t h e y s h o ul d c o ns ult a n
att or n e y b ef or e si g ni n g t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt if t h e y ar e u n c ert ai n of t h eir
ri g hts.
D.

E nti r e A g r e e m e nt . T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt c o nstit ut es t h e e ntir e

a gr e e m e nt b et w e e n t h e C o ns e nt P arti es r el ati n g t o t h e c o nstit uti o n alit y a n d e nf or c e m e nt of t h e
C h all e n g e d Pr o visi o ns as t h e y p ert ai n t o t h e 2 0 2 0 el e cti o ns . N o P art y h as r eli e d u p o n a n y
st at e m e nts, pr o mis es, or r e pr es e nt ati o ns t h at ar e n ot st at e d i n t his d o c u m e nt. N o c h a n g es t o t his
Sti p ul ati o n a n d C o ns e nt J u d g m e nt ar e v ali d u nl ess t h e y ar e i n

writi n g, i d e ntifi e d as a n

a m e n d m e nt t o t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt, a n d si g n e d b y all P arti es. T h er e ar e n o
i n d u c e m e nts or r e pr es e nt ati o ns l e a di n g t o t h e e x e c uti o n of t his Sti p ul ati o n a n d C o ns e nt
J u d g m e nt e x c e pt as h er ei n e x pli citl y c o nt ai n e d.
E.

W a r r a nt y . T h e p ers o ns si g ni n g t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt w arr a nt

t h at t h e y h a v e f ull a ut h orit y t o e nt er t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt o n b e h alf of t h e Part y
e a c h r e pr es e nts, a n d t h at t his Sti p ul ati o n a n d C o ns e nt J u d g m e nt is v ali d a n d e nf or c e a bl e as t o
t h at Part y.
F.

C o u nt e r p a rts . T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt m a y b e e x e c ut e d i n

m ulti pl e c o u nt er p arts, w hi c h s h all b e c o nstr u e d t o g et h er as if o n e i nstr u m e nt. A n y P art y s h all b e
e ntitl e d t o r el y o n a n el e ctr o ni c or f a csi mil e c o p y of a si g n at ur e as if it w er e a n ori gi n al.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

18
D o c u Am ep ntp. 1-3 20 5 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 4 of 4 3

G.

Eff e cti v e D at e . T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt is eff e cti v e u p o n t h e d at e

it is e nt er e d b y t h e C o urt.
I X.
T E R MI N A TI O N
T his Sti p ul ati o n a n d C o ns e nt J u d g m e nt s h all r e m ai n i n eff e ct t hr o u g h t h e c ertifi c ati o n of
b all ots f or t h e 2 0 2 0 el e cti o ns. T h e C o urt s h all r et ai n j uris di cti o n t o e nf or c e t h e t er ms of t h e
C o ns e nt J u d g m e nt f or t h e d ur ati o n of t his C o ns e nt J u d g m e nt. T his C o urt’s j uris di cti o n o v er t his
St i p ul ati o n a n d C o ns e nt J u d g m e nt s h all a ut o m ati c all y t er mi n at e aft er t h e c ertifi c ati o n of all
b all ots f or t h e 2 0 2 0 el e cti o ns.
T H E P A R TI E S E N T E R I N T O
J U D G M E N T A N D S U B MI T I T
A N D E N T E R E D. T H E P A R
C O NS E N T J U D G M E N T T O
SI G N A T U R E S.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

A N D APP R O VE
T O T HE C O U R
TI E S H A V E C
B E SI G N E D O

T HI S S TI P U L A TI O N A N D C O N S E N
T S O T H AT IT M A Y BE APP R O VE
A U S E D T HI S S TI P U L A TI O N A N
N T H E D A T E S O P P O SI T E T H EI

19
D o c u Am ep ntp. 1-3 20 6 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 5 of 4 3

T
D
D
R

N
E
C
E
D at e d: S e pt e m b er 2 2, 2 0 2 0

C a s e 4: 2 0- c v- 0 0 1 8 2- D

C
O
N
O

A R O LI N A S T A T E B O A R D O F
N S ; a n d D A M O N CI R C O S T A
O R T H C A R O LI N A S T A T E B O A R D O F
NS

B y: /s/ Al e x a n d er M c C. P et ers
Al e x a n d er M c C. P et ers, N. C. B ar N o. 1 3 6 5 4
T err a n c e St e e d
N ort h C ar oli n a D e pt. of J usti c e
P ost Offi c e B o x 6 2 9
R al ei g h, N. C. 2 7 6 0 2
a p et ers @ n c d oj. g o v
tst e e d @ n c d oj. g o v
N
A
J
K
M

D at e d: S e pt e m b er 2 2, 2 0 2 0

O RT H
L E C TI
H AI R,
L E C TI

O R T H C A R O LI N A A L LI A N C E F O R R E T I R E D
M E RI C A N S; B A R K E R F O W L E R; B E C K Y
O H N S O N; J A D E J U R E K; R O S A L Y N
O CI E M B A; T O M K O CI E M B A; S A N D R A
A L O N E; a n d C A R E N R A BI N O WI T Z

By :
B urt o n Cr ai g e, N C B ar N o. 9 1 8 0
N ar e n dr a K. G h os h, N C B ar N o. 3 7 6 4 9
P a ul E. S mit h, N C B ar N o. 4 5 0 1 4
P A T T E RS O N H A R K A V Y L LP
1 0 0 E ur o p a Dri v e, S uit e 4 2 0
C h a p el Hill, N C 2 7 5 1 7
T el e p h o n e: 9 1 9. 9 4 2. 5 2 0 0
B Cr ai g e @ p at hl a w. c o m
N G h os h @ p at hl a w. c o m
P S mit h @ p at hl a w. c o m
M ar c E. Eli as
U z o m a N . N k w o nt a
L ali t h a D. M a d d uri
J y oti J asr as ari a
Ari el B. Gli c k m a n
P E R KI N S C OI E L L P
7 0 0 T hirt e e nt h Str e et, N. W., S uit e 8 0 0
W as hi n gt o n, D C 2 0 0 0 5
T el e p h o n e: 2 0 2. 6 5 4. 6 2 0 0
F a csi mil e: 2 0 2. 6 5 4. 6 2 1 1
M Eli as @ p er ki ns c oi e. c o m
U N k w o nt a @ p er ki ns c o i e. c o m
L M a d d uri @ p er ki ns c oi e. c o m
JJ asr as ari a @ p er ki ns c oi e. c o m
A Gli c k m a n @ p er ki ns c oi e. c o m
20
D o c u Am ep ntp. 1-3 20 7 Fil e d 0 9/ 2 6/ 2 0 P a g e 2 6 of 4 3
M oll y Mit c h ell
P E R KI N S C OI E L L P

I T I S S O O R D E R E D. J U D G M E N T S H A L L B E E N T E R E D I N A C C O R D A N C E WI T H
T H E F O R E G OI N G C O N S E N T J U D G M E N T .
D at e d: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _

______________________________
S u p eri or C o urt J u d g e

C a s e 4: 2 0- c v- 0 0 1 8 2- D

21
D o c u Am ep ntp. 1-3 20 8 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 7 of 4 3

E X HI BI T A

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 20 9 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 8 of 4 3

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5
R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

N u m b e r e d M e m o 2 0 2 0 -2 2
T O:

C o u nt y B o ar ds of El e cti o ns

F R O M:

K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or

R E:

R et ur n D e a dli n e f or M ail e d Ci vili a n A bs e nt e e B all ots i n 2 0 2 0

D A T E:

S e pt e m b er 2 2, 2 0 2 0

T h e p ur p os e of t his n u m b er e d m e m o is t o e xt e n d t h e r et ur n d e a dli n e f or p ost m ar k e d ci vili a n a bs e nt e e b all ots t h at ar e r et ur n e d b y m ail a n d t o d efi n e t h e t er m “ p ost m ar k. ” T his n u m b er e d m e m o
o nl y a p pli es t o r e m ai ni n g el e cti o ns i n 2 0 2 0.

E xt e nsi o n of D e a dli n e
D u e t o c urr e nt d el a ys wit h m ail s e nt wit h t h e U. S. P ost al S er vi c e ( U S P S)— d el a ys w hi c h m a y b e
e x a c er b at e d b y t h e l ar g e n u m b er of a bs e nt e e b all ots b ei n g r e q u est e d t his el e cti o n —t h e d e a dli n e
f or r e c ei pt of p ost m ar k e d ci vili a n a bs e nt e e b all ots is h er e b y e xt e n d e d t o ni n e d a ys aft er t h e el e cti o n
o nl y f or r e m ai ni n g el e cti o ns i n 2 0 2 0.
A n a bs e nt e e b all ot s h all b e c o u nt e d as ti m el y if it is eit h e r ( 1) r e c ei v e d b y t h e c o u nt y b o a r d
b y 5: 0 0 p. m. o n El e cti o n D a y; o r ( 2) t h e b all ot is p ost m a r k e d o n o r b ef o r e El e cti o n D a y a n d
r e c ei v e d b y ni n e d a ys aft e r t h e el e cti o n, w hi c h is T h u rs d a y, N o v e m b e r 1 2, 2 0 2 0 at 5: 0 0 p. m. 1

P ost m ar k R e q uir e m e nt
T h e p ost m ar k r e q uir e m e nt f or b all ots r e c ei v e d aft er El e cti o n D a y is i n pl a c e t o pr o hi bit a v ot er
fr o m l e ar ni n g t h e o ut c o m e of a n el e cti o n a n d t h e n c asti n g t h eir b all ot. H o w e v er, t h e U S P S d o es
n ot al w a ys affi x a p ost m ar k t o a b all ot r et ur n e n v el o p e. B e c a us e t h e a g e n c y n o w off ers B all ot T r a x,
a s er vi c e t h at all o ws v ot ers a n d c o u nt y b o ar ds t o tr a c k t h e st at us of a v ot er’s a bs e nt e e b all ot, it is
p ossi bl e f or c o u nt y b o ar ds t o d et er mi n e w h e n a b all ot w as m ail e d e v e n if it d o es n ot h a v e a p ostm ar k. F urt h er, c o m m er ci al c arri ers i n cl u di n g D H L, F e d E x, a n d U P S off er tr a c ki n g s er vi c es t h at
all o w v ot ers a n d t h e c o u nt y b o ar ds of el e cti o ns t o d et er mi n e w h e n a b all ot w as d e p osit e d wit h t h e
c o m m er ci al c arri er f or d eli v er y.
1

C o m p ar e G. S. § 1 6 3- 2 3 1( b) ( 2)( b) (t h at a p ost m ar k e d a bs e nt e e b all ot b e r e c ei v e d b y t hr e e d a ys
aft er t h e el e cti o n ).

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 0 Fil e d 0 9/ 2 6/ 2 0

P a g e 2 9 of 4 3

F o r r e m ai ni n g el e cti o ns i n 2 0 2 0, a b all ot s h all b e c o nsi d e r e d p ost m a r k e d b y El e cti o n D a y if
it h as a p ost m a r k affi x e d t o it o r if t h e r e is i nf o r m ati o n i n B all ot T r a x, o r a n ot h e r t r a c ki n g
s e r vi c e off e r e d b y t h e U S P S o r a c o m m e r ci al c a r ri e r , i n di c ati n g t h at t h e b all ot w as i n t h e
c ust o d y of U S P S o r t h e c o m m e r ci al c a r ri e r o n o r b ef o r e El e cti o n D a y. If a c o nt ai n er-r et ur n
e n v el o p e arri v es aft er El e cti o n D a y a n d d o es n ot h a v e a p ost m ar k, c o u nt y b o ar d st aff s h all c o n d u ct
r es e ar c h t o d et er mi n e w h et h er t h er e is i nf or m ati o n i n B all ot Tr a x t h at i n di c at es t h e d at e it w as i n
t h e c ust o d y of t h e U S P S. If t h e c o nt ai n er-r et ur n e n v el o p e arri v es i n a n o ut er m aili n g e n v el o p e
wit h a tr a c ki n g n u m b er aft er El e cti o n D a y, c o u nt y b o ar d st aff s h all c o n d u ct r es e ar c h wit h t h e
U S P S or c o m m er ci al c arri er t o d et er mi n e t h e d at e it w as i n t h e c ust o d y of U S P S or t h e c o m m er ci al
c arri er.

2
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 1 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 0 of 4 3

E X HI BI T B

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 2 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 1 of 4 3

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5
R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

N u m b e r e d M e m o 2 0 2 0 -1 9
T O:

C o u nt y B o ar ds of El e cti o ns

F R O M:

K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or

R E:
D A T E:

A bs e nt e e

C o nt ai n er-R et ur n E n v el o p e D efi ci e n ci es

A u g ust 2 1, 2 0 2 0 (r e vis e d o n S e pt e m b er 2 2, 2 0 2 0)

C o u nt y b o ar ds of el e cti o ns h a v e alr e a d y e x p eri e n c e d a n u n pr e c e d e nt e d n u m b er of v ot ers s e e ki n g
t o v ot e a bs e nt e e - b y-m ail i n t h e 2 0 2 0 G e n er al El e cti o n, m a ki n g st at e wi d e u nif or mit y a n d c o nsist e n c y i n r e vi e wi n g a n d pr o c essi n g t h es e b all ots m or e ess e nti al t h a n e v er . C o u nt y b o ar ds of
el e cti o ns m ust e ns ur e t h at t h e v ot es of all eli gi bl e v ot ers ar e c o u nt e d usi n g t h e s a m e st a n d ar ds ,
r e g ar dl ess of t h e c o u nt y i n w hi c h t h e v ot er r esi d es.
T his n u m b er e d m e m o dir e cts t h e pr o c e d ur e c o u nt y b o ar ds m ust us e t o a d dr ess d efi ci e n ci es i n a bs e nt e e b all ots. T h e p ur p os e of t his n u m b er e d m e m o is t o e ns ur e t h at a v ot er is pr o vi d e d e v er y
o p p ort u nit y t o c orr e ct c ert ai n d efi ci e n ci es, w hil e at t h e s a m e ti m e r e c o g ni zi n g t h at pr o c esses m ust
b e m a n a g e a bl e f or c o u nt y b o ar ds of el e cti o ns t o ti m el y c o m pl et e r e q uir e d t as ks. 1

1. N o Si g n at ur e Verifi c ati o n
T h e v ot er’s si g n at ur e o n t h e e n v el o p e s h all n ot b e c o m p ar e d wit h t h e v ot er’s si g n at ur e o n fil e b ec a us e t his is n ot r e q uir e d b y N ort h C ar oli n a l a w. C o u nt y b o ar ds s h all a c c e pt t h e v ot er’s si g n at ur e o n t h e c o nt ai n er-r et ur n e n v el o p e if it a p p e ars t o b e m a d e b y t h e v ot er, m e a ni n g t h e si g n at ur e
o n t h e e n v el o p e a p p e ars t o b e t h e n a m e of t h e v ot er a n d n ot s o m e ot h er p ers o n. A bs e nt cl e ar e vid e n c e t o t h e c o ntr ar y, t h e c o u nt y b o ar d s h all pr es u m e t h at t h e v ot er’s si g n at ur e is t h at of t h e
v ot er, e v e n if t h e si g n at ur e is ill e gi bl e. A v ot er m a y si g n t h eir si g n at ur e or m a k e t h eir m ar k.

1

T his n u m b er e d m e m o is iss u e d p urs u a nt t o t h e St at e B o ar d of El e cti o ns’ g e n er al s u p er vis or y
a ut h orit y o v er el e cti o ns as s et f ort h i n G. S. § 1 6 3- 2 2( a) a n d t h e a ut h orit y of t h e E x e c uti v e Dir e ct or i n G. S. § 1 6 3- 2 6. As p art of its s u p er vis or y a ut h orit y, t h e St at e B o ar d is e m p o w er e d t o “ c o mp el o bs er v a n c e ” b y c o u nt y b o ar ds of el e cti o n l a ws a n d pr o c e d ur es. I d., § 1 6 3- 2 2( c).

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 3 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 2 of 4 3

T h e l a w d o es n ot r e q uir e t h at t h e v ot er’s si g n at ur e o n t h e e n v el o p e b e c o m p ar e d wit h t h e v ot er’s
si g n at ur e i n t h eir r e gistr ati o n r e c or d. S e e als o N u m b er e d M e m o 2 0 2 0 - 1 5, w hi c h e x pl ai ns t h at
si g n at ur e c o m p aris o n is n ot p er missi bl e f or a bs e nt e e r e q u est f or ms.

2. T y p es of D efi ci e n ci es
Tr ai n e d c o u nt y b o ar d st aff s h all r e vi e w e a c h e x e c ut e d c o nt ai n er- r et ur n e n v el o p e t h e offi c e r ec ei v es t o d et er mi n e if t h er e ar e a n y d efi ci e n ci es. C o u n t y b o ar d st aff s h all, t o t h e e xt e nt p ossi bl e,
r e g ul arl y r e vi e w c o nt ai n er-r et ur n e n v el o p es o n e a c h b usi n ess d a y, t o e ns ur e t h at v ot ers h a v e e v er y
o p p ort u nit y t o c orr e ct d efi ci e n ci es. R e vi e w of t h e c o nt ai n er-r et ur n e n v el o p e f or d efi ci e n ci es o cc urs aft er i nt a k e. T h e i niti al r e vi e w is c o n d u ct e d b y st aff t o e x p e dit e pr o c essi n g of t h e e n v el o p es.
D efi ci e n ci es f all i nt o t w o m ai n c at e g ori es: t h os e t h at c a n b e c ur e d wit h a c ertifi c ati o n a n d t h os e
t h at c a n n ot b e c ur e d . If a d efi ci e n c y c a n n ot b e c ur e d, t h e b all ot m ust b e s p oil e d a n d a n e w b all ot
m ust b e iss u e d, as l o n g as t h e b all ot is iss u e d b ef or e El e cti o n D a y. Se e S e cti o n 3 of t his m e m o,
V ot er N otifi c ati o n.

2. 1. D efi ci e n ci es C ur a bl e wit h a C ertifi c ati o n ( Ci vili a n a n d U O C A V A)
T h e f oll o wi n g d efi ci e n ci es c a n b e c ur e d b y s e n di n g t h e v ot er a c ertifi c ati o n :
•
•
•
•
•
•

V ot er di d n ot si g n t h e V ot er C ertifi c ati o n
V ot er si g n e d i n t h e wr o n g pl a c e
Wit n ess or assist a nt di d n ot pri nt n a m e 2
Wit n ess or assist a nt di d n ot pri nt a d dr ess 3
Wit n ess or assist a nt di d n ot si g n
Wit n ess or assist a nt si g n e d o n t h e wr o n g li n e

2

If t h e n a m e is r e a d a bl e a n d o n t h e c orr e ct li n e, e v e n if it is writt e n i n c ursi v e s cri pt, f or e x a mpl e, it d o es n ot i n v ali d at e t h e c o nt ai n er -r et ur n e n v el o p e.
3

F ail ur e t o list a wit n ess’s ZI P c o d e d o es n ot r e q uir e a c ur e. G. S. § 1 6 3-2 3 1( a)( 5). A wit n ess or
assist a nt’s a d dr ess d o es n ot h a v e t o b e a r esi d e nti al a d dr ess; it m a y b e a p ost offi c e b o x or ot h er
m aili n g a d dr ess. A d diti o n all y, if t h e a d dr ess is missi n g a cit y or st at e, b ut t h e c o u nt y b o ar d of
el e cti o ns c a n d et er mi n e t h e c orr e ct a d dr ess, t h e f ail ur e t o list t h at i nf or m ati o n als o d o es n ot i nv ali d at e t h e c o nt ai n er -r et ur n e n v el o p e. F or e x a m pl e, if a wit n ess lists “ R al ei g h 2 7 6 0 3 ” y o u c a n
d et er mi n e t h e st at e is N C, or if a wit n ess lists “ 3 3 3 N ort h M ai n Str e et, 2 7 7 0 1 ” y o u c a n d et er mi n e
t h at t h e cit y/st at e is D ur h a m, N C. If b ot h t h e cit y a n d ZI P c o d e ar e missi n g, st aff will n e e d t o
d et er mi n e w h et h er t h e c orr e ct a d dr ess c a n b e i d e ntifi e d. If t h e c orr e ct a d dr ess c a n n ot b e i d e ntifi e d, t h e e n v el o p e s h all b e c o nsi d er e d d efi ci e nt a n d t h e c o u nt y b o ar d s h all s e n d t h e v ot er t h e c ur e
c ertifi c ati o n i n a c c or d a n c e wit h S e cti o n 3.
2
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 4 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 3 of 4 3

T h is c ur e c ertifi c ati o n pr o c ess a p pli es t o b ot h ci vili a n a n d U O C A V A v ot ers.

2. 2. D efi ci e n ci es t h at R e q uir e t h e B all ot t o B e S p oil e d ( Ci vili a n)
T h e f oll o wi n g d efi ci e n ci es c a n n ot b e c ur e d b y c ertifi c ati o n :
•
•

U p o n arri v al at t h e c o u nt y b o ar d offi c e, t h e e n v el o p e is u ns e al e d
T h e e n v el o p e i n di c at es t h e v ot er is r e q u esti n g a r e pl a c e m e nt b all ot

If a c o u nt y b o ar d r e c ei v es a c o nt ai n er-r et ur n e n v el o p e wit h o n e of t h es e d efi ci e n ci es, c o u nt y b o ar d
st aff s h all s p oil t h e b all ot a n d r eiss u e a b all ot al o n g wit h a n oti c e e x pl ai ni n g t h e c o u nt y b o ar d
offi c e’s a cti o n , i n a c c or d a n c e wit h S e cti o n 3.

2. 3. D efi ci e n ci es t h at r e q uir e b o ar d a cti o n
S o m e d efi ci e n ci es c a n n ot b e r es ol v e d b y st aff a n d r e q uir e a cti o n b y t h e c o u nt y b o ar d. T h es e i ncl u d e sit u ati o ns w h er e t h e d efi ci e n c y is first n oti c e d at a b o ar d m e etin g or if it b e c o m es a p p ar e nt
d uri n g a b o ar d m e eti n g t h at n o b all ot or m or e t h a n o n e b all ot is i n t h e c o nt ai n er-r et ur n e n v el o p e.
If t h e c o u nt y b o ar d dis a p pr o v es a c o nt ai n er -r et ur n e n v el o p e b y m aj orit y v ot e i n a b o ar d m e eti n g
d u e t o a d efi ci e n c y , it s h all pr o c e e d a c c or di n g t o t h e n otifi c ati o n pr o c ess o utli n e d i n S e cti o n 3.

3. Vot er N otifi c ati o n
3. 1. Iss u a n c e of a C ur e C ertifi c ati o n or N e w B all ot
If t h er e ar e a n y d efi ci e n ci es wit h t h e a bs e nt e e e n v el o p e, t h e c o u nt y b o ar d of el e cti o ns s h all c o nt a ct
t h e v ot er i n writi n g wit hi n o n e b usi n ess d a y of i d e ntif yi n g t h e d efi ci e n c y t o i nf or m t h e v ot er t h er e
is a n iss u e wit h t h eir a bs e nt e e b all ot a n d e n cl osi n g a c ur e c ertifi c ati o n or n e w b all ot , as dir e ct e d
b y S e cti o n 2 . T h e w ritt e n n oti c e s h all als o i n cl u d e i nf or m ati o n o n h o w t o v ot e i n -p ers o n d uri n g
t h e e arl y v oti n g p eri o d a n d o n El e cti o n D a y.
T h e writt e n n oti c e s h all b e s e nt t o t h e a d dr ess t o w hi c h t h e v ot er r e q uest e d t h eir b all ot b e s e nt .
If t h e d efi ci e n c y c a n b e c ur e d a n d t h e v ot er h as a n e m ail a d dr ess o n fil e, t h e c o u nt y b o ar d s h all
als o s e n d t h e c ur e c ertifi c ati o n t o t h e v ot er b y e m ail . If t h e c o u nt y b o ar d s e n ds a c ur e c ertifi c ati o n
b y e m ail a n d b y m ail, t h e c o u nt y b o ar d s h o ul d e n c o ur a g e t h e v ot er t o o nl y r et ur n o n e of t h e c ertifi c ati o ns. If t h e v ot er di d n ot pr o vi d e a n e m ail a d dr ess b ut di d pr o vi d e a p h o n e n u m b er, t h e c o u nt y
b o ar d s h all c o nt a ct t h e v ot er b y p h o n e t o i nf or m t h e v ot er t h at t h e c o u nt y b o ar d h as m ail e d t h e
v ot er a c ur e c ertifi c ati o n.
If t h e d efi ci e n c y c a n n ot b e c ur e d, a n d t h e v ot er h as a n e m ail a d dr ess o n fil e, t h e c o u nt y b o ar d s h all
n otif y t h e v ot er b y e m ail t h at a n e w b all ot h as b e e n iss u e d t o t h e v ot er. If t h e v ot er di d n ot pr o vi d e
a n e m ail a d dr ess b ut di d pr o vi d e a p h o n e n u m b er, t h e c o u nt y b o ar d s h all c o nt a ct t h e v ot er b y p h o n e
t o i nf or m t h e v ot er t h at t h e c o u nt y b o ar d h as iss u e d a n e w b all ot b y m ail.

3
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 5 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 4 of 4 3

If, pri or t o S e pt e m b er 2 2, 2 0 2 0 , a c o u nt y b o ar d r eiss u e d a b all ot t o a v ot er, a n d t h e u p d at e d m e m o
n o w all o ws t h e d efi ci e n c y t o b e c ur e d b y c ertifi c ati o n , t h e c o u nt y b o ar d s h all c o nt a ct t h e v ot er i n
writi n g a n d b y p h o n e or e m ail, if a v ail a bl e, t o e x pl ai n t h at t h e pr o c e d ur e h as c h a n g e d a n d t h at t h e
v ot er n o w h as t h e o pti o n t o s u b mit a c ur e c ertifi c ati o n i nst e a d of a n e w b all ot. A c o u nt y b o ar d is
n ot r e q uir e d t o s e n d a c ur e c ertifi c ati o n t o a v ot er w h o alr e a d y r et ur n e d t h eir s e c o n d b all ot if t h e
s e c o n d b all ot is n ot d efi ci e nt.
A c o u nt y b o ar d s h all n ot r eiss u e a b all ot o n or aft er El e ctio n D a y . If t h er e is a c ur a bl e d efi ci e n c y,
t h e c o u nt y b o ar d s h all c o nt a ct v ot ers u p u ntil t h e d a y b ef or e c o u nt y c a n v ass.

3. 2. R e c ei pt of a C ur e C ertifi c ati o n
T h e c ur e c ertifi c ati o n m ust b e r e c ei v e d b y t h e c o u nt y b o ar d of el e cti o ns b y n o l at er t h a n 5 p. m. o n
T h urs d a y, N o v e m b er 1 2, 2 0 2 0, t h e d a y b ef or e c o u nt y c a n v ass. T h e c ur e c ertifi c ati o n m a y b e
s u b mitt e d t o t h e c o u nt y b o ar d offi c e b y f a x, e m ail, i n p ers o n, or b y m ail or c o m m er ci al c arri er. If
a v ot er a p p e ars i n p ers o n at t h e c o u nt y b o ar d offi c e, t h e y m a y als o b e gi v e n , a n d c a n c o m pl et e , a
n e w c ur e c ertifi c ati o n .
T h e c ur e c ertifi c ati o n m a y o nl y b e r et ur n e d b y t h e v ot er, t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n,
or a m ulti p artis a n assist a n c e t e a m ( M A T). A c ur e c ertifi c ati o n r et ur n e d b y a n y ot h er p ers o n is
i n v ali d. It is n ot p er missi bl e f or a c ur e c ertifi c ati o n t o b e s u b mitt e d t hr o u g h a p ort al or f or m cr e at e d
or m ai nt ai n e d b y a t hir d p art y . A c ur e c ertifi c ati o n m a y n ot b e s u b mitt e d si m ult a n e o usl y wit h t h e
b all ot. A n y p ers o n w h o is p er mitt e d t o assist a v ot er wit h t h eir b all ot m a y assist a v ot er i n filli n g
o ut t h e c ur e c ertifi c ati o n .

3. 3 C o u nt y B o ar d R e vi e w of a C ur e C ertifi c ati o n
At e a c h a bs e nt e e b o ar d m e eti n g, t h e c o u nt y b o ar d of el e cti o ns m a y c o nsi d er d efi ci e nt b all ot r et ur n
e n v el o p es f or w hi c h t h e c ur e c ertifi c ati o n h as b e e n r et ur n e d. T h e c o u nt y b o ar d s h all c o nsi d er t og et h er t h e e x e c ut e d a bs e nt e e b all ot e n v el o p e a n d t h e c ur e c ertifi c ati o n . If t h e c ur e c ertifi c ati o n
c o nt ai ns t h e v ot er’s n a m e a n d si g n at ur e , t h e c o u nt y b o ar d of el e cti o ns s h all a p pr o v e t h e a bs e nt e e
b all ot. A w et i n k si g n at ur e is n ot r e q uir e d, b ut t h e si g n at ur e us e d m ust b e u ni q u e t o t h e i n di vi d u al.
A t y p e d si g n at ur e is n ot a c c e pt a bl e, e v e n if it is c ursi v e or it ali cs s u c h as is c o m m o nl y s e e n wit h a
pr o gr a m s u c h as D o c u Si g n.

4. L at e A bs e n t e e B all ots
V ot ers w h os e b all ots ar e n ot c o u nt e d d u e t o b ei n g l at e s h all b e m ail e d a n oti c e st ati n g t h e r e as o n
f or t h e d efi ci e n c y. A l at e ci vili a n b all ot is o n e t h at r e c ei v e d aft er t h e a bs e nt e e-b all ot r e c ei pt d e a dli n e, d efi n e d i n N u m b er e d M e m o 2 0 2 0- 2 2 as ( 1) 5 p. m. o n El e cti o n D a y or ( 2) if p ost m ar k e d o n
or b ef or e El e cti o n D a y, 5 p. m. o n T h urs d a y, N o v e m b er 1 2, 2 0 2 0. L at e a bs e nt e e b all ots ar e n ot
c ur a bl e.
If a b all ot is r e c ei v e d aft er c o u nt y c a n v ass t h e c o u nt y b o ar d is n ot r e q uir e d t o n otif y t h e v ot er.
4
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 6 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 5 of 4 3

C O U NTY LETTE R HE A D

D ATE

N A ME
ST REET A D D RESS
CI T Y, S T A T E, ZI P C O D E
R E:

N oti c e of a Pr o bl e m wit h Y o ur A bs e nt e e B all ot

T h e [ C o u nt y] B o ar d of El e cti o ns r e c ei v e d y o ur r et ur n e d a bs e nt e e b all ot . W e w er e u n a bl e t o a p pr o v e t h e c o u nti n g of y o ur
a bs e nt e e b all ot f or t h e f oll o wi n g r e as o n or r e as o ns:
☐

T h e a bs e nt e e r et ur n e n v el o p e arri v e d at t h e c o u nt y b o ar d of el e cti o ns offi c e u ns e al e d .

☐

T h e a bs e nt e e r et ur n e n v el o p e di d n ot c o nt ai n a b all ot or c o nt ai n e d t h e b all ots of m or e
t h a n o n e v ot er.

☐

Ot h er :
________________________________________________________________________

W e h a v e r eiss u e d a n e w a bs e nt e e b all ot. Pl e as e p a y c ar ef ul att e nti o n t o A L L of t h e i nstr u cti o ns o n t h e b a c k of t h e
c o nt ai n er -r et ur n e n v el o p e a n d c o m pl et e a n d r et ur n y o ur b all ot s o t h at y o ur v ot e m a y b e c o u nt e d.
If ti m e p er mits a n d y o u d e ci d e n ot t o v ot e t his r eiss u e d a bs e nt e e b all ot, y o u m a y v ot e i n p ers o n at a n e arl y v oti n g sit e i n
t h e c o u nt y d uri n g t h e o n e-st o p e ar l y v oti n g p eri o d ( O ct o b er 1 5-3 1), o r at t h e p olli n g pl a c e of y o ur pr o p er pr e ci n ct o n
E l e cti o n D a y , N o v e m b er 3 . T h e h o urs f or v oti n g o n E l e cti o n D a y ar e fr o m 6: 3 0 a . m. t o 7: 3 0 p . m. T o fi n d t h e h o urs a n d
l o c ati o ns f or i n-p ers o n v oti n g i n y o ur c o u nt y, visit htt p:// w w w. n cs b e. g o v .
U

U

Si n c er el y,
[ N A M E]
_ _ _ _ _ _ _ _ _ _ C o u nt y B o ar d of El e cti o n s

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 7 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 6 of 4 3

C O U NT Y LETTER HE A D
D ATE
V O T E R’ S N A M E
ST REET A D D RESS
CI T Y, S T A T E, ZI P C O D E
CI V N u m b er

U

A bs e nt e e C u r e C e rtifi c ati o n

T h er e is a pr o bl e m wit h y o ur a bs e nt e e b all ot – pl e as e si g n a n d r et ur n t his f or m.

I nst r u cti o ns
Y o u ar e r e c ei vi n g t his affi d a vit b e c a us e y o ur a bs e nt e e b all ot e n v el o p e is missi n g i nf or m ati o n . F or y o ur a bs e nt e e
b all ot t o b e c o u nt e d, c o m pl et e a n d r et ur n t his affi d a vit as s o o n as p ossi bl e. T h e affi d a vit m ust b e r e c ei v e d b y
y o u r c o u nt y b o a r d of el e cti o ns b y n o l at e r t h a n 5 p. m. o n T h u rs d a y, N o v e m b e r 1 2, 2 0 2 0. Y o u, y o ur n e ar
r el ati v e or l e g al g u ar di a n, or a m ulti p artis a n assist a n c e t e a m ( M A T), c a n r et ur n t h e affi d a vit b y:
•
•
•
•

E m ail ( a d d c o u nt y e m ail a d dr ess if n ot i n l ett er h e a d) ( y o u c a n e m ail a pi ct ur e of t h e f or m)
F a x ( a d d c o u nt y f a x n u m b er if n ot i n l ett er h e a d)
D eli v eri n g it i n p ers o n t o t h e c o u nt y b o ar d of el e cti o ns offi c e
M ail or c o m m er ci al c arri er ( a d d c o u nt y m aili n g a d dr ess)

If t his affi d a vit is n ot r et u r n e d t o t h e c o u nt y b o a r d of el e cti o ns b y t h e d e a dli n e, y o u r a bs e nt e e b all ot will
n ot c o u nt. If y o u d e ci d e n ot t o r et u r n t his affi d a vit, y o u m a y still v ot e i n p e rs o n d u ri n g t h e e a rl y v oti n g
p e ri o d ( O ct o b e r 1 5 -O ct o b e r 3 1) o r o n El e cti o n D a y, N o v e m b e r 3, 2 0 2 0. T o fi n d t h e h o u rs a n d l o c ati o ns f o r
i n- p e rs o n v oti n g i n y o u r c o u nt y, visit htt p:// w w w. n cs b e. g o v .
U

U

U

U

R E A D A N D C O M P L E T E T H E F O L L O WI N G:
I a m s u b mitti n g t his affi d a vit t o c orr e ct a pr o bl e m wit h missi n g i nf or m ati o n o n t h e b all ot e n v el o p e. I a m a n
eli gi bl e v ot er i n t his el e cti o n a n d r e gist er e d t o v ot e i n [ n a m e] C o u nt y, N ort h C ar oli n a. I s ol e m nl y s w e ar or affir m
t h at I v ot e d a n d r et ur n e d m y a bs e nt e e b all ot f or t h e N o v e m b er 3, 2 0 2 0 g e n er al el e cti o n a n d t h at I h a v e n ot v ot e d
a n d will n ot v ot e m or e t h a n o n e b all ot i n t his el e cti o n. I u n d erst a n d t h at fr a u d ul e ntl y or f als el y c o m pl eti n g t his
affi d a vit is a Cl ass I f el o n y u n d er C h a pt er 1 6 3 of t h e N ort h C ar oli n a G e n er al St at ut es.
( Pri nt n a m e a n d si g n b el o w)
________________________________________________
V ot er’s Pri nt e d N a m e ( R e q ui r e d)
_________________________________________________
V ot er’s Si g n at ur e * ( R e q ui r e d)

* A w et i n k si g n at ur e is n ot r e q uir e d, b ut t h e si g n at ur e us e d m ust b e u ni q u e t o t h e i n di vi d u al. A t y p e d si g n at ur e is n ot
a c c e pt a bl e, e v e n if it is i n c ursi v e or it ali cs s u c h as is c o m m o nl y s e e n wit h a pr o gr a m s u c h as D o c u Si g n.

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 8 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 7 of 4 3

E X HI BI T C

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 21 9 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 8 of 4 3

M aili n g A d d r e s s:

P. O. B o x 2 7 2 5 5
R al ei g h, N C 2 7 6 1 1
( 9 1 9) 8 1 4-0 7 0 0 o r
( 8 6 6) 5 2 2-4 7 2 3

F a x : ( 9 1 9) 7 1 5-0 1 3 5

N u m b e r e d M e m o 2 0 2 0 -2 3
T O:

C o u nt y B o ar ds of El e cti o ns

F R O M:

K ar e n Bri ns o n B ell, E x e c uti v e Dir e ct or

R E:

I n- P ers o n R et ur n of A bs e nt e e B all ots

D A T E:

S e pt e m b er 2 2, 2 0 2 0

A bs e nt e e b y m ail v ot ers m a y c h o os e t o r et ur n t h eir b all ot b y m ail or i n p ers o n. V ot ers w h o r et ur n
t h eir b all ot i n p ers o n m a y r et ur n it t o t h e c o u nt y b o ar d of el e cti o ns offi c e b y 5 p. m. o n El e cti o n
D a y or t o a n y o n e -st o p e arl y v oti n g sit e i n t h e c o u nt y d uri n g t h e o n e-st o p e arl y v oti n g p eri o d. T his
n u m b er e d m e m o pr o vi d es g ui d a n c e a n d r e c o m m e n d ati o ns f or t h e saf e, s e c ur e, a n d c o ntr oll e d i np ers o n r et ur n of a bs e nt e e b all ots.

G e n e r al I nf o r m ati o n
W h o M a y R et ur n a B all ot
A si g nifi c a nt p orti o n of v ot ers ar e c h o osi n g t o r et ur n t h eir a bs e nt e e b all ots i n p ers o n f or t his el e cti o n. O nl y t h e v ot er, or t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n, is p er mitt e d t o p oss ess a n a bs e nt e e b all ot. 1 A m ulti p artis a n assist a n c e t e a m ( M A T) or a t hir d p art y m a y n ot t a k e p oss essi o n of
a n a bs e nt e e b all ot. B e c a us e of t his p r o visi o n i n t h e l a w , a n a bs e nt e e b all ot m a y n ot b e l eft i n
a n u n m a n n e d d r o p b o x.
T h e c o u nt y b o ar d s h all e ns ur e t h at, if t h e y h a v e a dr o p b o x, sl ot, or si mil ar c o nt ai n er at t h eir offi c e,
t h e c o nt ai n er h as a si g n i n di c ati n g t h at a bs e nt e e b all ots m a y n ot b e d e p osit e d i n it.

I nt a k e of C o nt ai n er- R et ur n E n v el o p e
As o utli n e d i n N u m b er e d M e m o 2 0 2 0- 1 9 , tr ai n e d c o u nt y b o ar d st aff r e vi e w e a c h c o nt ai n er-r et ur n e n v el o p e t o d et er mi n e if t h er e ar e a n y d efi ci e n ci es. R e vi e w of t h e c o nt ai n er-r et ur n e n v el o p e

1

It is a cl ass I f el o n y f or a n y p ers o n ot h er t h a n t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n t o t a k e
p oss essi o n of a n a bs e nt e e b all ot of a n ot h er v ot er f or d eli v er y or f or r et ur n t o a c o u nt y b o ar d of
el e cti o ns . G. S. § 1 6 3-2 2 3. 6( a)( 5).

C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 22 0 Fil e d 0 9/ 2 6/ 2 0

P a g e 3 9 of 4 3

d o es n ot o c c ur at i nt a k e. T h er ef or e, t h e st aff m e m b er c o n d u cti n g i nt a k e s h o ul d n ot c o n d u ct a r evi e w of t h e c o nt ai n er e n v el o p e a n d s h o ul d a c c e pt t h e b all ot. If i nt a k e st aff r e c ei v e q u esti o ns
a b o ut w h et h er t h e b all ot is a c c e pt a bl e, t h e y s h all i nf or m t h e v ot er t h at it will b e r e vi e w e d at a
l at er ti m e a n d t h e v ot er will b e c o nt a ct e d if t h er e ar e a n y iss u es. I nt a k e st aff s h all a c c e pt r e c ei pt
of all b all ots pr o vi d e d t o t h e m, e v e n if i nf or m ati o n is missi n g or s o m e o n e ot h er t h a n t h e v ot er or
t h eir n e ar r el ati v e or l e g al g u ar di a n r et ur ns t h e b all ot.
It is n ot r e c o m m e n d e d t h at c o u nt y b o ar d st aff s er v e as a wit n ess f or a v ot er w hil e o n d ut y. If a
c o u nt y b o ar d d et er mi n es t h at it will all o w st aff t o s er v e as a wit n ess , t h e st aff m e m b er w h o is a
wit n ess s h all b e o n e w h o is n ot i n v ol v e d i n t h e r e vi e w o f a bs e nt e e b all ot e n v el o p es .

L o g R e q uir e m e nt
A n a d mi nistr ati v e r ul e r e q uir es c o u nt y b o ar ds t o k e e p a writt e n l o g w h e n a n y p ers o n r et ur ns a n
a bs e nt e e b all ot i n p ers o n. 2 H o w e v e r, t o li mit t h e s p r e a d of C O VI D - 1 9, t h e w ritt e n l o g r e q ui r em e nt h as b e e n a dj ust e d f o r r e m ai ni n g el e cti o ns i n 2 0 2 0.
W h e n a p ers o n r et ur ns t h e b all ot i n p ers o n, t h e i nt a k e st aff will as k t h e p ers o n f or t h eir n a m e a n d
w h et h er t h e y ar e t h e v ot er or t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n. T h e st aff er will i n di c at e
t his i nf or m ati o n o n a l o g al o n g wit h t h e CI V n u m b er of t h e b all ot a n d t h e d at e t h at it w as r e c ei v e d.
If t he p ers o n i n di c at es t h e y ar e n ot t h e v ot er or t h e v ot er’s n e ar r el ati v e or l e g al g u ar di a n, t h e st aff er
will als o r e q uir e t h e p ers o n t o pr o vi d e t h eir a d dr ess a n d p h o n e n u m b er.

B o ar d C o nsi d er ati o n of D eli v er y a n d L o g R e q uir e m e nts
F ail ur e t o c o m pl y wit h t h e l o g gi n g r e q uir e m e nt, or d eli v er y of a n a bs e nt e e b all ot b y a p ers o n ot h er
t h a n t h e v ot er, t h e v ot er’s n e ar r el ati v e, or t h e v ot er’s l e g al g u ar di a n, is n ot s uffi ci e nt e vi d e n c e i n
a n d of its elf t o est a blis h t h at t h e v ot er di d n ot l a wf ull y v ot e t h eir b all ot. 3 A c o u nt y b o ar d s h all n ot
dis a p pr o v e a n a bs e nt e e b all ot s ol el y b e c a us e it w as d eli v er e d b y s o m e o n e w h o w as n ot a ut h ori z e d

2

0 8 N C A C 1 8 . 0 1 0 2 r e q uir es t h at, u p o n d eli v er y, t h e p ers o n d eli v eri n g t h e b all ot s h all pr o vi d e
t h e f oll o wi n g i nf or m ati o n i n writi n g: ( 1) N a m e of v ot er; ( 2) N a m e of p ers o n d eli v eri n g b all ot;
( 3) Rel ati o ns hi p t o v ot er; ( 4) P h o n e n u m b er (if a v ail a bl e) a n d c urr e nt a d dr ess of p ers o n d eli v eri n g b all ot; ( 5) D at e a n d ti m e of d eli v er y of b all ot; a n d ( 6) Si g n at ur e or m ar k of p ers o n d eli v eri n g
b all ot c ertif yi n g t h at t h e i nf or m ati o n pr o vi d e d is tr u e a n d c orr e ct a n d t h at t h e p ers o n is t h e v ot er
or t h e v ot er's n e ar r el ati v e.
3

I d. C o m p ar e G. S. § 1 6 3- 2 3 0. 2( 3), as a m e n d e d b y S e cti o n 1. 3.( a) of S essi o n L a w 2 0 1 9- 2 3 9,
w hi c h st at es t h at a n a bs e nt e e r e q u est f or m r et ur n e d t o t h e c o u nt y b o ar d b y s o m e o n e ot h er t h a n a n
u n a ut h ori z e d p ers o n is i n v ali d.
2
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 22 1 Fil e d 0 9/ 2 6/ 2 0

P a g e 4 0 of 4 3

t o p oss ess t h e b all ot. T h e c o u nt y b o ar d m a y, h o w e v er, c o nsi d er t h e d eli v er y of a b all ot i n a c c or da n c e wit h t h e r ul e , 08 N C A C 1 8 . 0 1 0 2, i n c o nj u n cti o n wit h ot h er e vi d e n c e i n d et er mi ni n g w h et h er
t h e b all ot is v ali d a n d s h o ul d b e c o u nt e d.

R et u r n at a C o u nt y B o a r d Offi c e
A v ot er m a y r et ur n t h eir a bs e nt e e b all ot t o t h e c o u nt y b o ar d of el e cti o ns offi c e a n y ti m e t h e offi c e
is o p e n. A c o u nt y b o ar d m ust e ns ur e its offi c e is st aff e d d uri n g r e g ul ar b usi n ess h o urs t o all o w
f or r et ur n of a bs e nt e e b all ots. E v e n if y o ur offi c e is cl os e d t o t h e p u bli c, y o u m ust pr o vi d e st aff
w h o ar e i n t h e offi c e d uri n g r e g ul ar b usi n ess h o urs t o a c c e pt a bs e nt e e b all ots u ntil t h e e n d of
E l e cti o n D a y. Y o u ar e n ot r e q uir e d t o a c c e pt a bs e nt e e b all ots o utsi d e of r e g ul ar b usi n ess h o urs.
S i mil ar t o pr o c e d ur es at t h e cl os e of p olls o n El e cti o n D a y , if a n i n di vi d u al is i n li n e at t h e ti m e
y o ur offi c e cl os es or at t h e a bs e nt e e b all ot r et ur n d e a dli n e (5 p . m. o n El e cti o n D a y ), a c o u nt y b o ar d
s h all a c c e pt r e c ei pt of t h e b all ot.
If y o ur sit e h as a m ail dr o p or dr o p b o x us e d f or ot h er p ur p os es, y o u m ust affi x a si g n st ati n g t h at
v ot ers m a y n ot pl a c e t h eir b all ots i n t h e dr o p b o x. H o w e v er, a c o u nt y b o ar d m a y n ot dis a p pr o v e
a b all ot s ol el y b e c a us e it is pl a c e d i n a dr o p b o x. 4
I n d et er mi ni n g t h e s et u p of y o ur offi c e f or i n -p ers o n r et ur n of a bs e nt e e b all ots, y o u s h o ul d c o nsi d er
a n d pl a n f or t h e f oll o wi n g:
•
•
•
•
•

4

E ns ur e a d e q u at e p ar ki n g, es p e ci all y if y o ur c o u nt y b o ar d offi c e will b e us e d as a o n e-st o p
sit e
Arr a n g e suffi ci e nt s p a c e f or l o n g li n es a n d m ar ki n gs f or s o ci al dist a n ci n g
Pr o vi d e si g n a g e dir e cti n g v ot ers t o t h e l o c ati o n t o r et ur n t h eir a bs e nt e e b all ot
E ns ur e t h e s e c urit y of a bs e nt e e b all ots. Us e a l o c k e d or s e c ur a bl e c o nt ai n er f or r et ur n e d
a bs e nt e e b all ots t h at c a n n ot b e r e a dil y r e m o v e d b y a n u n a ut h ori z e d p ers o n.
If y o ur s et- u p all o ws t h e r et ur n of b all ots o utsi d e, pl a n f or t h e p ossi bilit y of s e v er e w e at h er .
Y o u m a y n e e d a t e nt or ot h er c o v eri n g. H a v e a pl a n f or h o w cr o w d c o ntr ol will o c c ur
wit h o ut t h e p h ysi c al b arri ers of a n offi c e a n d t h e s e c urit y of y o ur st aff a n d t h e b all ot i n g
m at eri als . F or s af et y r e as o ns, it is n ot r e c o m m e n d e d y o u k e e p a n o utsi d e r et ur n l o c ati o n
o p e n aft er d ar k or d uri n g i n cl e m e nt w e at h er.

I d.
3
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 22 2 Fil e d 0 9/ 2 6/ 2 0

P a g e 4 1 of 4 3

R et u r n at a n E a rl y V oti n g Sit e
L o c ati o n t o R et ur n A bs e nt e e B all ots
E a c h e arl y v oti n g sit e s h all h a v e a t l e ast o n e d esi g n at e d, st aff e d st ati o n f or t h e r et ur n of a bs e nt ee
b all ots . R et ur n of a bs e nt e e b all ots s h all o c c ur at t h at st ati o n. T h e st ati o n m a y b e s et u p e x cl usi v el y f or a bs e nt e e b all ot r et ur ns or m a y pr o vi d e ot h er s er vi c es, s u c h as a h el p d es k, pr o vi d e d t h e
a bs e nt e e b all ots c a n b e a c c o u nt e d f or a n d s e c ur e d s e p ar at el y fr o m ot h er b all ots or pr o c ess es.
Si mil ar t o a c c e pti n g a bs e nt e e b all ots at t h e c o u nt y b o ar d of el e cti o ns offi c e, y o u s h o ul d c o nsi d er
a n d pl a n f or t h e f oll o wi n g wit h t h e s et u p of a n e arl y v oti n g l o c ati o n f or i n- p ers o n r et ur n of a bs e nt e e b all ots:
•
•
•
•

H a v e a pl a n f or h o w cr o w d c o ntr ol will o c c ur a n d h o w v ot ers will b e dir e ct e d t o t h e a ppr o pri at e l o c ati o n f or i n- p ers o n r et ur n of a bs e nt e e b all ots
Pr o vi d e si g n a g e dir e cti n g v ot ers a n d m ar ki n gs f or s o ci al dist a n ci n g
E ns ur e a d e q u at e p ar ki n g a n d s uffi ci e nt s p a c e f or l o n g li n es
If y o ur s et- u p all o ws t h e r et ur n of b all ots o utsi d e, pl a n f or t h e p ossi bilit y of s e v er e w e at h er.
Y o u m a y n e e d a t e nt or ot h er c o v eri n g. H a v e a pl a n f or h o w cr o w d c o ntr ol will o c c ur
wit h o ut t h e p h ysi c al b arri ers of a n offi c e a n d t h e s e c urit y of y o ur st aff a n d t h e b all o ti n g
m at eri als . F or s af et y r e as o ns, e ns ur e t h at t h er e is a d e q u at e li g hti n g as v oti n g h o urs will
c o nti n u e p ast d ar k.

B e c a us e a bs e nt e e b all ots m ust b e r et ur n e d t o a d esi g n at e d st ati o n, a bs e nt e e b all ots s h o ul d n ot b e
r et ur n e d i n t h e c ur bsi d e ar e a.

Pr o c e d ur es
A bs e nt e e b all ots t h at ar e h a n d- d eli v er e d m ust b e pl a c e d i n a s e c ur e d c o nt ai n er u p o n r e c ei pt, si mil ar t o h o w pr o visi o n al b all ots ar e s e c ur el y st or e d at v oti n g sit es. A bs e nt e e b y m ail b all ots d eli ver e d t o a n e arl y v oti n g sit e m ust b e st or e d s e p ar at el y fr o m all ot h er b all ots i n a c o nt ai n er d esi gn at e d o nl y f or a bs e nt e e b y m ail b all ots. C o u nt y b o ar ds m ust als o c o n d u ct r e g ul ar r e c o n cili ati o n
pr a cti c es b et w e e n t h e l o g a n d t h e a bs e nt e e b all ots. C o u nt y b o ar ds ar e n ot r e q uire d b y t h e St at e
t o l o g r et ur n e d b all ots i nt o S O S A; h o w e v er, a c o u nt y b o ar d m a y r e q uir e t h eir o n e-st o p st aff t o
c o m pl et e S O S A l o g gi n g.
If a v ot er bri n gs i n a n a bs e nt e e b all ot a n d d o es n ot w a nt t o v ot e it, t h e b all ot s h o ul d b e pl a c e d i n
t h e s p oil e d- b all ot b a g. It is r e c o m m e n d e d t h at vot ers w h o c all t h e c o u nt y b o ar d offi c e a n d d o n ot
w a nt t o v ot e t h eir a bs e nt e e b all ot b e e n c o ur a g e d t o dis c ar d t h e b all ot at h o m e.

R et u r n at a n El e cti o n Sit e
A n a bs e nt e e b all ot m a y n ot b e r et ur n e d at a n El e cti o n D a y p olli n g pl a c e. If a v ot er a p p e ars i n
p ers o n wit h t h eir b all ot at a p olli n g pl a c e o n El e cti o n D a y, t h e y s h all b e i nstr u ct e d t h at t h e y m a y
4
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 22 3 Fil e d 0 9/ 2 6/ 2 0

P a g e 4 2 of 4 3

( 1) t a k e t h eir b all ot t o t h e c o u nt y b o ar d offi c e or m ail it s o it is post m ar k e d t h at d a y a n d r e c ei v e d
b y t h e d e a dli n e; or ( 2) h a v e t h e a bs e nt e e b all ot s p oil e d a n d v ot e i n- p ers o n at t h eir p olli n g pl a c e.
If s o m e o n e ot h er t h a n t h e v ot er a p p e ars wit h t h e b all ot, t h e y s h all b e i nstr u ct e d t o t a k e it t o t h e
c o u nt y b o ar d offi c e or m ail t h e b all ot s o it is p ost m ar k e d t he s a m e d a y . If t h e p ers o n r et ur ni n g
t h e b all ot c h o os es t o m ail t h e b all ot, t h e y s h o ul d b e e n c o ur a g e d t o t a k e it t o a p ost o ffi c e t o e ns ur e t h e e n v el o p e is p ost m ar k e d . D e p ositi n g t h e b all ot i n a U S P S dr o p b o x o n El e cti o n D a y m a y
r es ult i n b all ot n ot b ei n g p ost m ar k e d b y El e cti o n D a y a n d t h er ef or e n ot b ei n g c o u nt e d.

5
C a s e 4: 2 0- c v- 0 0 1 8 2- D

D o c u Am ep ntp. 1-3 22 4 Fil e d 0 9/ 2 6/ 2 0

P a g e 4 3 of 4 3

